<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND
                 HOUSING  AND  URBAN  DEVELOPMENT,  AND
                  INDEPENDENT AGENCIES APPROPRIATIONS
                                FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES

                    JERRY LEWIS, California, Chairman

TOM DeLAY, Texas                     LOUIS STOKES, Ohio
JAMES T. WALSH, New York             ALAN B. MOLLOHAN, West Virginia
DAVID L. HOBSON, Ohio                MARCY KAPTUR, Ohio
JOE KNOLLENBERG, Michigan            CARRIE P. MEEK, Florida
RODNEY P. FRELINGHUYSEN, New Jersey  DAVID E. PRICE, North Carolina
MARK W. NEUMANN, Wisconsin           
ROGER F. WICKER, Mississippi         

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

  Frank M. Cushing, Paul E. Thomson, Timothy L. Peterson, and  Valerie 
                      L. Baldwin, Staff Assistants
                                ________

                                 PART 8

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-547 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          












                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director
















DEPARTMENTS OF VETERANS' AFFAIRS AND HOUSING AND URBAN DEVELOPMENT AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                           Tuesday, April 21, 1998.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              


                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

PETER FREEMAN, DEAN, GEORGIA INSTITUTE OF TECHNOLOGY, COMPUTING 
    RESEARCH ASSOCIATION

    Mr. Lewis [presiding]. Good morning, ladies and gentlemen.
    Hi, Frank. Good to see you.
    Is there anybody from the American Federation of Government 
Employees present? I guess not.
    Then, second on my list is the National Science Foundation, 
Peter Freeman. All right. From the Computing Research 
Association, right?
    Mr. Freeman. That's correct.
    Mr. Lewis. Okay. Well, welcome.
    Mr. Freeman. Thank you, sir. Pleased to be here.
    Mr. Lewis. Your entire statement will be included in the 
record and if you'd like to summarize it for us, we'd 
appreciate it.
    Mr. Freeman. Thank you.
    Mr. Lewis. You may have a seat. Thank you.
    Mr. Freeman. I would like to do that.
    Mr. Chairman and members of the subcommittee, it's a 
pleasure to be here this morning. I thank you for the 
opportunity to testify about NSF.
    My name is Peter Freeman. I'm dean of the College of 
Computing at Georgia Tech in Atlanta. I also serve on the board 
of directors of the Computing Research Association and serve as 
the chair of its government affairs committee. And, I am 
testifying on behalf of the CRA, not Georgia Tech, this 
morning.
    Mr. Lewis. Okay.
    Mr. Freeman. We have submitted, as you noted, our written 
testimony to the record and I'd like to just make some very 
brief oral comments.
    I'd like to start by again indicating my pleasure at being 
here and thanking you, this subcommittee, for supporting 
through some fairly tough times over the last few years basic 
research as carried out by those of us that work with the 
National Science Foundation. We really appreciate that. It's 
been very important to our community.
    Our testimony makes three points--and let me just summarize 
those--about computing research. First, as I think everyone 
understands, information technology is essential to the 
security, to the welfare, to the economic health of this 
country, and underlying this technology--which is approaching, 
perhaps, 10 percent of our national economy or even greater--
lies many years of basic research.
    Secondly, we make the point that, even though computing 
research has led to a number of developments, that that is 
going to expand by amounts that we cannot even really estimate 
in the coming years; we've only begun to see the information 
technology revolution.
    Our third point, as I've already noted, is that NSF has 
already been essential to that revolution and all of us in the 
computing research field believe that it will continue to be a 
real leader in creating the security, the economic well-being, 
and the welfare for all of our citizens.
    What I thought I would do in the few moments I have is to 
put a bit of a personal face on computing research and, 
although I'm testifying on behalf of the Computing Research 
Association, let me use a couple of examples of how NSF-funded 
research plays out in a unit such as my own.
    I have approximately 45 tenure-track faculty that do a wide 
variety of computer science and computing-related research. One 
of those is a young woman by the name of Ann Chervanack. Like 
any young professor, she is encouraged--indeed, has been 
trained--in her graduate work at Berkeley to ask fundamental 
questions. When she arrived in Atlanta to join my faculty 
almost three years ago, like most young faculty it took her a 
little while to get her feet on the ground, figure out what she 
wanted to do. Very quickly, however, her graduate training--
which had been funded by NSF, among others--led her to start 
asking some very basic questions.
    What she has innovated is a project that she is calling the 
``personal terrabyte'' project. A terrabyte is a measure of the 
amount of storage on a computer. Strictly speaking, it's a 
trillion bytes. To give you a sense of magnitude, all of the 
Library of Congress has maybe 10 terrabytes ofinformation in 
it. So, her point is that the technology is----
    Mr. Lewis. A trillion bytes?
    Mr. Freeman. A trillion bytes----
    Mr. Lewis. Terrabyte----
    Mr. Freeman [continuing]. Is a terrabyte.
    And, her point is that the technology is racing ahead so 
that within a very few years' four or five perhaps, you're 
going to have the ability to have a terrabyte sitting on your 
desktop for a few hundred dollars.
    Ten percent of the Library of Congress. Now, that leads to 
some rather interesting questions. What are you going to do 
with it? How are you going to organize it? How are you going to 
find anything in it? How are you going to back that information 
up?
    Some of that seems like something that industry would be 
asking and, in some respects, they may be. But, what she and 
her students are trying to do is to look at those kinds of 
questions in a very basic sense. It's not product development 
and she isn't going to develop a new product. But, what she is 
developing are some undergraduates that are involved in her 
research, some graduate students that will go out and become 
professors or become advanced development people in industry, 
and, in general, is helping push forward that area of 
technology.
    Our other case that I would share with you is a very 
interesting young man, also an assistant professor, but who's 
only been with us a bit longer, about five years. He's a young 
man that we see more and more of today in the computing 
research area. He's driven by dual interests. On the one hand, 
he's very interested in how do children learn, what's the 
cognition behind them. That led him to get a Ph.D. in Education 
at the University of Michigan, one of the top educational 
schools in the country. But, he also has a very strong interest 
in technology--computing technology in particular--so he also 
has a Ph.D. in Computer Science.
    And, what he's now doing is bringing those two disciplines 
together in some very innovative and interesting research that 
very simply could be looked at, a Lotus Notes for students, but 
much, much beyond that, and asking some very basic questions--
both in terms of how do children learn and how do they best 
learn, given a new technology, as well as pushing forward those 
technological foundations.
    Both of these young people are supported at present by 
National Science Foundation career awards. Dr. Gusdow being a 
bit further along, is also a part of several other research 
projects, collaborating with people in other disciplines also 
supported by NSF.
    So, I hope that these kinds of little vignettes give you, 
perhaps, a personal sense of the kinds of research that the 
National Science Foundation supports. I would be more than 
happy to answer any additional questions that you might have.
    Mr. Lewis. Mr. Freeman, I very much appreciate your 
testimony. Let me just say, for the audience in general, that 
while we haven't received our budget allocations yet, the 
Committee has been directed to, in no uncertain terms by way of 
the Speaker's office, that we should, as we go about reducing 
the rate of gross for the government, nonetheless, within these 
budgets do everything that we possibly can to find dollars for 
research purposes. And the Speaker--I very strongly applaud the 
Speaker's statement that he wants to double these budgets for 
research dollars in the short years ahead. We're going to do 
everything that we can on this subcommittee to try to 
accommodate. I won't repeat that line with every witness that 
we--[laughter]--have, but in the meantime----
    Mr. Freeman. I will say thank you on behalf of all of them.
    Mr. Lewis. Yes. I might mention to you that I'm sorry to be 
delayed this morning but there were four chancellors to the 
University of California in my office and it was hard to cut 
off the conversation because these same subjects were a part of 
that discussion, too.
    Mr. Freeman. I understand.
    Mr. Lewis. Thank you for being with us.
    Mr. Freeman. Thank you.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. No, I have no questions.
    Mr. Lewis. Thank you.
    Mr. Freeman. Thank you.
    Mr. Lewis. Thank you for your answers.
    [The information follows:]


[Pages 5 - 32--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

JAMES SIEDOW, PROFESSOR, DUKE UNIVERSITY AND COMMITTEE ON PUBLIC 
    AFFAIRS, AMERICAN SOCIETY OF PLANT PHYSIOLOGISTS
    Mr. Lewis. Dr. James Siedow? Is that right? The American 
Society of Plant Physiologists?
    Mr. Siedow. Correct.
    Mr. Lewis. Welcome.
    Mr. Siedow. Thank you; glad to be here. Thank you, Mr. 
Chairman and members of the subcommittee and I'd like to also 
thank you for giving me the opportunity to speak here today.
    My name is Jim Siedow and I'm Dean of Faculty Development 
of Arts and Sciences and Professor of Botany at Duke 
University. My testimony is on behalf of the American Society 
of Plant Physiologists, which I have served as President and 
currently serve on their public affairs committee. This society 
is a professional science society of some 5,000 members. We 
recruit plant scientists from industry, university, and 
government laboratories.
    Support by the National Science Foundation for plant 
research provides basic knowledge of the structure and function 
of plants. This basic knowledge can lead to important 
agricultural, pharmaceutical and environmental applications--as 
I hope to make clear by the end of this talk. As explained in 
the National Science Foundation Director Neil Lane's statement 
to the Subcommittee earlier this month, the $40 million 
requested by the NSF in the Fiscal Year 1999 budget for plant 
genome research will advance our understanding of the 
structure, organization, and function of plant genomes, with 
particular attention being paid to economically significant 
plants. This research will accelerate application of new 
biological knowledge and innovative technologies toward a more 
complete understanding of basic biological processes in plants.
    In January of this year, the White House-appointed 
Interagency Working Group on Plant Genomes completed its report 
at the request of Senator Bond. The report notes that major 
challenges facing mankind in the 21st century are: the need to 
increase fuel and fiber production; a cleaner environment; and 
renewable chemical and energy resources. And, the report points 
out that plant-based technologies can play a major role in 
meeting these challenges.
    The IWG report recommended investment of an additional $320 
million over five years to make significant progress on the 
scientific objectives it outlined for plant genome research. A 
copy of the cover page and executive summary of the IWG report 
is concluded with my testimony and I request to submit the 
final IWG report to the Committee.
    Mr. Lewis. Okay. Thank you.
    Mr. Siedow. On the recommendation on the House and Senate 
Appropriations Subcommittees of VA, HUD, and Independent 
Agencies and with the support of--with a supportive interim IWG 
report, Congress last year launched the plant genome initiative 
in Fiscal Year 1998 with an appropriation of $40 million.
    Plant genome research supported by this subcommittee will 
help to open the world of functional genomics to plant research 
and will speed up the application of genomic information to 
develop improved plants and plant products. This was referred 
to recently in a Science editorial by Phil Abelson as part of a 
genomic revolution. This revolution will lead to the 
development of enhanced plants that will meet the food and 
nutritional needs of the Nation and our trading partners.
    The simple fact of the matter is--and I dont have to tell 
someone from California--we don't have more land to grow crops 
on. In fact, we have less. We need to genetically engineer 
plants which will grow more efficiently, which will have 
greater resistant to pests and other diseases, and a better 
tolerance to adverse weather conditions, such as drought.
    As we learn more about the structure and function of plant 
genomes, plant scientists will be able to better engineer 
superior varieties of plants, enhancing the nutritional quality 
of the food Americans eat, which, in turn, will promote the 
Nations health. Plants are already a major source of 
pharmaceutical products. Research that will lead to genetic 
engineering of plants to treat or prevent human diseases is 
already underway and this is an area with tremendous potential 
for reducing human suffering, both in this country and across 
the world--and, I might add, lowering health care costs in the 
long run.
    The availability in the United States of plant-produced 
fuel with prices at near the cost of petroleum help keep the 
cost of imported oil down. Further knowledge of plant genomes 
and related plant research will help make domestically-produced 
biofuels directly competitive in price with petroleum, allowing 
them to meet a larger portion of U.S. energy needs in the 
future. This, in turn, I might add, will cut down on emission 
of greenhouse gasses in the atmosphere.
    In summary, the support of this subcommittee--the past 
support and, we hope, future support--for both genomic and non-
genomic plant research supported by the National Science 
Foundation helps plant scientists make the basic research 
breakthroughs needed to address nutrition, health, and energy 
needs of this Nation and the world. We deeply appreciate the 
strong commitment of this subcommittee that enables the U.S. 
science community to lead the world in plant research in this 
new age of biology. Thank you, Mr. Chairman and Committee 
members.
    I'd be very happy to address any questions.
    Mr. Lewis. Thank you very much Dr. Siedow. I don't have any 
questions but I appreciate your testimony. It will be included 
in the record.
    Mr. Siedow. Great.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. No questions, thank you.
    Mr. Lewis. Okay, thank you.
    Mr. Siedow. Thank you.
    [The information follows:]


[Pages 35 - 43--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

ALAN KRAUT, EXECUTIVE DIRECTOR, AMERICAN PSYCHOLOGICAL SOCIETY
    Mr. Lewis. Alan Kraut? Dr. Kraut with the American 
Psychological Society? It's good to see you again.
    Mr. Kraut. It's nice to be here again.
    I want to thank you for allowing me again here to discuss 
National Science Foundation funding on behalf of the American 
Psychological Society. Our members are scientists and academics 
who conduct research on such basic behavioral processes as 
visual and auditory perception and attention, on memory, on 
cognitive science and information processing, decisionmaking, 
human development, emotions, and group behavior, just to name a 
few.
    Attached to my written statement is a recent report, 
``Basic Research in Psychological Science,'' which I hope will 
be of use to you as you consider NSF's mission and priorities.
    Mr. Lewis. Thank you.
    Mr. Kraut. As a member of the Coalition for National 
Science Funding, the American Psychological Society asks you to 
support the Coalition's recommendation of a 10 percent increase 
for NSF.
    But, my remarks today are going to focus mainly on the 
Social, Behavioral, and Economic Sciences Directorate, known as 
SBE. This subcommittee has encouraged the establishment of SBE 
and has played a role in strengthening it over the last several 
years and we're very grateful for that support. SBE is 
scheduled for a 15 percent increase, which would bring us to 
about $150 million this year, and the research division within 
the Directorate is up for more than a 16 percent increase, 
which would bring the division to a total of nearly $114 
million.
    These increases signal NSF's enthusiasm for behavioral and 
social science research. Why? Because of both the progress and 
the potential of basic research in these disciplines. For 
example, NSF is giving priority to research in the area known 
as Knowledge and Distributed Intelligence, KDI. Behavioral 
science is a cornerstone of the KDI effort.
    In my written testimony, I've described some of the 
specific research projects conducted under KDI. One is an 
automated, computerized tutor that combines user-friendly 
dialog with effective, educational practices. This project is 
drawing on basic research of psychologists in the area of 
communications and comprehension as well as work from computer 
scientists and educators. In another KDI project, researchers 
are increasing our understanding of how sound takes meaning, of 
how the brain takes in the audio signal of the spoken word and 
processes it. This projects uses concepts from psychology, 
neuroscience, linguistics, statistics, computer science, and 
electrical engineering and puts them all into a framework for 
understanding spoken language.
    Today, I also want to touch briefly on something called the 
Human Capital Initiative, which is funded under SBE. This is a 
National Behavioral Science Research agenda that was first 
developed by scientists across the range of psychological 
science; from those studying the brain to those studying 
organizations. As the name applies, the unifying concept 
involves the development of human capital. Human capital 
research was embraced and expanded by NSF following several 
years of encouragement by this committee. In fact, the report I 
referred to earlier is one of its products.
    Today, human capital research includes many disciplines and 
partnerships with many other NSF Directorates. It's reached 
about $16 million. With your support, that will increase in 
1999 with most of the increase going to research on children 
and learning.
    This program, by the way, owes a particular debt to Mr. 
Stokes who worked to provide essential funding for the program 
in its early stages. Human capital research is just one of the 
legacies Mr. Stokes--I wish he were here because for this and 
for many others, I'd like to thank him and tell him that we 
would miss him greatly and that we wish him all the best in his 
retirement.
    Mr. Lewis. Thank you for that thought.
    I'll make sure he knows.
    Mr. Kraut. So, you see, this subcommittee's support of 
behavioral science is being rewarded with unprecedented 
scientific productivity. Behavioral research represents some of 
the country's best science and has the potential to increase 
our understanding of some of the Nation's greatest concerns: 
literacy, productivity, international relations, technological 
achievement, cultural diversity, and the development of human 
capital, just to name a few. The critical role of this research 
and the fact that the field is poised for rapid expansion are 
reflected in the proposed NSF budget and we encourage your 
support of it. Thank you.
    Mr. Lewis. Thank you very much, Dr. Kraut. I appreciate 
your being with us. As I indicated, your entire statement will 
be included in the record----
    Mr. Kraut. Thank you.
    Mr. Lewis [continuing]. And this, as well.
    Mr. Kraut. Okay.
    Mr. Lewis. Yes, thank you.
    [The information follows:]


[Pages 46 - 66--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

PAUL WALTER, PRESIDENT, AMERICAN CHEMICAL SOCIETY
ANDREW SESSLER, PRESIDENT, AMERICAN PHYSICAL SOCIETY
RALPH YOUNT, PRESIDENT, FEDERATION OF AMERICAN SOCIETIES FOR 
    EXPERIMENTAL BIOLOGY
    Mr. Lewis. Next on our list are Dr. Paul Walter, Dr. Andrew 
Sessler, Dr. Ralph Yount from the American Chemical Society.
    I appreciate all three of you gentlemen coming with us and 
your patience with our schedule. [Laughter.]
    Please tell me how you want to proceed.
    Mr. Sessler. Mr. Chairman and members of the Subcommittee, 
thank you for this opportunity to testify at this hearing. I'm 
Andrew Sessler, President of the American Physical Society, 
which is the largest physics membership organization in the 
world.
    I am here today with my colleagues, Dr. Paul Walter, 
President of the American Chemical Society, and Dr. Ralph 
Yount, President of the Federation of American Societies for 
Experimental Biology.
    This is truly a unique occasion. For the first time, 
leaders of organizations representing a quarter of a million 
scientists have joined to present common testimony before this 
subcommittee in support of the National Science Foundation. We 
have done so because we share a common belief that the future 
of our Nation depends critically upon our scientific excellence 
and because today the scientific disciplines have become 
thoroughly intertwined and totally interdependent.
    I am pleased to yield to my colleague, Dr. Paul Walter who 
has agreed to speak on behalf of all three of us.
    Mr. Lewis. Dr. Walter.
    Mr. Walter. Mr. Chairman, I am Paul Walter, President of 
the American Chemical Society, representing over 150,000 
chemists and chemical engineers in academia, industry and 
government.
    We commend you for taking the lead last year in recognizing 
the critical importance of the National Science Foundation and 
funding it accordingly. The substantial increase Congress 
provided for NSF for Fiscal Year 1998 resulted from the 6.6 
percent increase initially provided by this subcommittee.
    Last year, as you know, more than 100 leaders of science, 
engineering and mathematic organizations joined together in a 
call to double Federal investment in research within a decade. 
We continue to urge this course of action because we 
passionately believe that the economic well-being, health, 
quality of life, and security of our citizenry depend 
critically upon robust and sustained investments in research.
    In keeping with those goals, we come before you today to 
ask that you continue to make investments in our Nation's 
future by supporting the 10 percent increase for the National 
Science Foundation proposed in the President's budget for 
Fiscal Year 1999 and endorsed by the Coalition for National 
Science Funding.
    The National Science Foundation is unique among Federal 
agencies. It has the responsibility for supporting long-term 
research in practically all scientific and engineering 
disciplines. In addition, as the only agency supporting 
research that is not mission-oriented, the NSF is the prime 
steward of the enabling sciences upon which virtually all 
Federal science and technology programs depend. Finally, it is 
the only Federal agency in which scientific research and 
education are fully integrated. Let me briefly address each of 
these unique features.
    Today, as my colleague Andy Sessler has indicated, the 
sciences have become almost totally interdependent. For 
example, AIDS research dramatizes this point. Our progress in 
treating this terrible disease and our understanding of its 
pathology would never have occurred without critical advances 
in chemistry, biology, and physics and, yes, mathematics, 
engineering and computer science as well. The National Science 
Foundation is the only Federal agency that has the program 
breadth needed to see that all the disciplines remain vibrant 
and healthy.
    Last year, the Federal R&D budget amounted to a little more 
than $75 billion. Of that, more than 90 percent was devoted to 
mission-oriented or strategic work. Since scientific research 
always has the potential for revolutionary discovery, we 
believe that our Nation must sustain investments in non-
mission-oriented science. The proposed increase for the 
National Science Foundation is consistent with that strategy.
    In conclusion, let me underscore the key role that 
chemistry, physics and biology play in the American economy. 
Today, the chemical industry accounts for 1.9 percent of the 
Nation's GDP and is the number one contributor to U.S. exports. 
Physics, I am sure you all know, was the enabling science that 
resulted in the a $1-trillion-a-year computer industry. 
Recently, it gave us the World Wide Web that has revolutionized 
the way we communicate and conduct business. And biology, of 
course, is the underpinning of the entire biotechnology 
industry, one of the fastest growing sectors of our economy. 
These advances are attributable in large part to the Federal 
Government's investment in research through which scientists 
are trained and new fundamental discoveries are made.
    I now yield to my colleague Dr. Ralph Yount for a closing 
remark.
    Mr. Lewis. Thank you. Dr. Yount.
    Mr. Yount. Mr. Chairman, I'm Ralph Yount, President of the 
Federation of American Societies for Experimental Biology, 
representing 14 scientific societies with approximately 52,000 
members.
    I'm a former president of the Biophysical Society and a 
long-time member of the American Chemical Society and I'm 
delighted to be a participant in this historic occasion which 
brings together three of the major scientific disciplines in 
support----
    Mr. Lewis. It's a very unusual occasion?
    Mr. Yount [continuing]. Yes--in support of--it should have 
happened long ago.
    These disciplines, as my colleagues have noted, are 
fundamentally intertwined and we must develop a comprehensive 
investment strategy to allow each of those to develop their 
full potential. Not only is this approach key to the future 
health and economic prosperity of our citizens, it's also 
essential for maintaining the excellence of our universities, 
which are really the envy of the world. And, I join Dr. 
Sessler, Dr. Walter in urging your committee to appropriate 
$3.8 billion for NSF, a 10 percent increase over last year's 
fiscal budget. Thank you.
    Mr. Lewis. Well, we very much appreciate your all coming 
together. Mrs. Meek, do you have any questions of these 
gentlemen?
    Mrs. Meek. No, I do not.
    Mr. Lewis. I just might mention to you that it's been 
suggested that ``Jerry Lewis,'' which is an unusual name but I 
had the name first, has led for the development of a group 
known as ``Jerry's Kids'' and regardless of what he might have 
said, Clint Lewis--who's with you today--may or may not have 
played a role in some of that.
    Mr. Yount. Yes; yes, he did.
    Mr. Lewis. Good to be with you. Take care.
    Mr. Yount. Thank you.
    Mr. Lewis. Smart kid.
    [The information follows:]


[Pages 70 - 94--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

JEAN FUTRELL, CHAIR-ELECT, COUNCIL FOR CHEMICAL RESEARCH, INC.
    Mr. Lewis. Let's see. Jean Futrell with the Council for 
Chemical Research, Incorporated? Mr. Futrell? Your statement 
will all be included in the record. If you'll summarize that 
for us, we'll move right along. Appreciate your being with us.
    Mr. Futrell. Thank you very much. Mr. Chairman, 
Congresswoman Meek, my name is Jean Futrell. I'm the Chair-
elect of the Council for Chemical Research and the Willis F. 
Harrington Professor of Chemistry and Biochemistry at the 
University of Delaware. We join other professional societies 
who are testifying today, notably the American Chemical Society 
and the Coalition for National Science Funding, in strongly 
recommending Congress to fund the National Science Foundation 
at a level of no less than $3.77 billion, an increase of 10 
percent over the current appropriation.
    In meeting with you today, I am substituting for Dr. Gary 
McGraw who is Vice President for Technological Innovation at 
Eastman Chemical Corporation. Gary is the Chair this year of 
the Council for Chemical Research, the professional society 
whose members are the leaders of the Nation's chemical research 
enterprise.
    We represent in CCR the major companies, universities and 
government laboratories which conduct research in the chemical 
sciences and engineering. The Council feels strongly that the 
erosion of funding of the NSF needs to be reversed. A 10 
percent increase, although substantial, would restore the 
ground lost since Fiscal Year 1995 in purchasing power of the 
appropriated dollars and provides for modest growth of 2 
percent. This increase would enable new discovery and educate 
some of the world's brightest scientists and engineers. It is 
clearly in the best interests of the Nation and crucial to our 
continued economic growth.
    The NSF is the only agency, as you very well know, with 
overall responsibility for research and education in all 
scientific and engineering fields. Its role as a steward of the 
Nation's science enterprise faces new challenges, such as 
promoting new approaches to research, to education, to training 
the technological workforce that is required for our Nation as 
we enter the next century.
    Despite these challenges, the purchasing power has been 
eroded by about 8 percent since 1995. This erosion--partly 
because of the very high efficiency, that the NSF 
administrative costs are only a small fraction of the 
appropriations--this cut is felt directly by those who conduct 
research and participate in education at our universities. 
Research and education are the keys to our Nation's future and 
the ultimate impact of the restricted growth or cuts is 
detrimental to all of us.
    The Council understands very well the importance of NSF 
funding for both scientific research and in education from 
Kindergarten through post-graduate studies. Increasingly, the 
chemical industry, for whom I'm a spokesperson today, relies 
upon universities for discovery research which is the basis for 
new products and processes.
    For example, about half of the research cited and the 
patents applied for in the last decade cite as the basis of 
their discovery research that was supported by public sources, 
primarily the National Science Foundation. In chemistry alone, 
for example, this research contributes directly to necessities 
of modern life including plastics, synthetic fabrics, cleaner 
burning fuels, pharmaceuticals, advanced materials for 
electronics, and a cleaner environment.
    The Council for Chemical Research appreciates that the 
budget decisions confronting this committee are not easy. The 
case for investing in the future by funding the NSF at the 
level requested stands on its own merits and has to be 
considered against concerns about spending for individual help 
and security. As you proceed with your deliberations, we ask 
you to consider that the NSF funding represents only 0.2 
percent of the Federal budget but represents 25 percent of all 
Federal support for academic institutions to conduct basic 
research.
    Although the Foundation is formally classified as part of 
the discretionary budget, it is our view that NSF funding is 
properly viewed as investment which yields very high returns to 
our society at large. We note the last 50 years, the 
technological innovation, the sciences supporting it was 
accounted for by about 50 percent of all economic growth.
    We very much appreciate, Mr. Chairman, Congresswoman Meek, 
the support of this subcommittee in this enterprise and we ask 
the Congress to take the long view in these difficult choices 
which affect the future capability of the Nation's innovation 
engine. I thank you for your attention and the opportunity to 
testify.
    Mr. Lewis. Mr. Futrell, thank you very much for being with 
us. I don't have any questions.
    Mrs. Meek or Mr. Walsh.
    Mrs. Meek. No.
    Mr. Walsh. No questions.
    Mr. Lewis. Thank you. Thank you very much for being with 
us.
    [The information follows:]


[Pages 97 - 101--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

NATHAN ROBFOGEL, VICE PRESIDENT, UNIVERSITY RELATIONS, ROCHESTER 
    INSTITUTE OF TECHNOLOGY
NABIL NASR, DIRECTOR, NATIONAL CENTER OF REMANUFACTURING AND RESOURCE 
    RECOVERY, ROCHESTER INSTITUTE OF TECHNOLOGY
    Mr. Lewis. Ms. Slaughter, by chance are all your guests 
here?
    Ms. Slaughter. They are. We----
    Mr. Lewis. I'm going to----
    Ms. Slaughter. We're happy to wait our turn.
    Mr. Lewis. I'm going to exercise the discretion of the 
Chair and have you come up. I know your schedule is every bit 
as difficult as Ms. Meek's and mine, so, would you come up?
    Ms. Slaughter. Well, then, you're very kind. I hope----
    Mr. Lewis. Sure. Please do.
    Ms. Slaughter [continuing]. Other speakers won't object. I 
appreciate it very much.
    Mr. Lewis. Frankly, they'd be disappointed if I didn't 
allow them to hear you. [Laughter.]
    Ms. Slaughter. Oh, my goodness. That's probably the nicest 
anybody ever said to me. Isn't that wonderful?
    Mr. Walsh. He's not always this charming. [Laughter.]
    Ms. Slaughter. I believe he is. It's wonderful to see you 
this morning, Mr. Chairman, my neighbor here, Jim Walsh, and 
I'll be very brief and not try your patience since you've been 
so gracious to me----
    Mr. Lewis. We appreciate that.
    Ms. Slaughter. But I----
    Mr. Lewis. If you'd leave that tin on the way out, I'd 
appreciate that----
    Ms. Slaughter. Isn't that a wonderful one?
    Mr. Lewis. Yes, I like it.
    Ms. Slaughter. It was given to me by some school kids----
    Mr. Lewis. It's great; it's wonderful.
    Ms. Slaughter. I'm happy to be here today to introduce the 
Vice President of the University Relations for the Rochester 
Institute of Technology, Mr. Nathan Robfogel----
    Mr. Lewis. Rochester, is that in New York?
    Ms. Slaughter. It sure is. [Laughter.]
    Actually, everything in New York sort of revolves out from 
Rochester. [Laughter.]
    And Dr. Nabil Nasr----
    Mr. Walsh. And what is at the center of----
    [Laughter.]
    Ms. Slaughter. If he picks it----
    Mr. Walsh. Syracuse----
    Ms. Slaughter [continuing]. Syracuse is, yes. [Laughter.]
    And Dr. Nasr, who heads the RIT National Center for 
Remanufacturing and Resource Recovery. Mr. Robfogel will 
describe the commitment that the University is making to the 
emerging field of remanufacturing and the benefits that it will 
provide to EPA. Now, Dr. Nasr, who is the leading scientist in 
the field of remanufacturing in the Nation, will answer any 
technical questions that you may have.
    The mission of EPA's Science and Technology Program is to 
promote long-term basic and short-term applied research on a 
wide range of environmental and health concerns and to provide 
the scientific knowledge and technologies to prevent pollution. 
As such, RIT's Center for Remanufacturing and Resource Recovery 
will enhance the effectiveness of the EPA Science and 
Technology Program by allowing the EPA to work with United 
States manufacturers to design products in ways that 
dramatically reduce pollution, energy consumption, and waste.
    To put it simply, the new product manufacturing creates 87 
percent of the waste produced in the United States. But, with 
remanufactured products which consist of 80 to 90 percent used 
components, we can dramatically reduce that waste and the 
pollution that it creates.
    RIT is requesting $2.2 million to work with the EPA to 
address the Agency's research mission and I am hopeful that you 
will look kindly upon this request and I thank you very much 
and I'd now like to introduce Mr. Robfogel.
    Mr. Robfogel. Thank you, Mr. Chairman.
    Mr. Lewis. Your testimony as well will be included in the 
record in its entirety so if you would summarize it, we 
appreciate that.
    Mr. Robfogel. Yes, we clearly intend to do that by 
submitting our formal testimony. My thanks to you and your 
colleagues and my thanks also to Congresswoman Slaughter for 
introducing us.
    You have long been a great champion for what we do at RIT 
in manufacturing, research, imaging, microelectronics, and many 
other areas and we're very grateful for that.
    Mr. Chairman, my name is Nick Robfogel and I'm Vice 
President for University Relations at RIT. Dr. Nasr is, as the 
Congresswoman has indicated, a leading scientist in the Nation 
in the emerging area of remanufacturing which can have a 
profound effect on our Nation's industrial sector.
    Mr. Chairman, RIT is over 100 years old. It's a 
comprehensive technological university which has had a long and 
distinguished history of supporting the Nation's manufacturing 
sector through applied research, education and training. The 
University's most recent and notable effort is the 
establishment of the National Center of Excellence in 
Remanufacturing Research.
    Just a few examples of remanufactured products are Kodak's 
single-use camera, Xerox and other photocopier cartridges, 
automobile carburetors, brakes and starters, military vehicle 
engines, the B-52 Bomber, and the Bradley fighting vehicle.
    Today, Mr. Chairman, we want to bring to your attention and 
that of the Subcommittee the extremely positive environmental 
impact of remanufacturing which should be used on a more 
widespread basis. Remanufacturing is truly the ultimate form of 
recycling and the way that the United States' manufacturing 
sector can prevent further costly regulatory action against 
them by EPA and other regulators.
    While recycling reclaims the original materials used to 
create a product, remanufacturing also reclaims the body of the 
product itself and all of the design and engineering aspects of 
that product. Plus, the economic materials and environmental 
costs associated with making that product new are avoided. Just 
as importantly, the pollution caused by raw materials 
extraction and with manufacturing them into a final production 
are also avoided.
    Mr. Chairman, remanufacturing is a powerful example of how 
the goals of environmental protection and economic growth can 
go hand-in-hand. As the Congresswoman has indicated, new 
product manufacturing creates 87 percent of all the waste 
produced in the United States. Our remanufactured product can 
consist of up to 80 to 90 percent of used parts. These parts 
would have resulted in more waste or pollution associated with 
making new ones.
    What we offer the Subcommittee are a couple of very brief, 
specific examples. Remanufactured automobile starters annually 
save about 8 million gallons of crude oil, 52,000 tons of iron 
ore, and 6,000 tons of copper. Kodak's single-use camera 
remanufacturing initiative salvaged parts and materials from 
over 100 million single-use cameras resulting in the diversion 
of 14 million pounds of waste from the entry of the waste 
stream.
    Mr. Chairman, while pollution prevention has become the 
guiding principle of EPA's efforts to protect the environment, 
Federal environmental policy still overemphasizes the treatment 
of waste products rather than improving the environmental 
friendliness of the manufacturing process which created them. 
Our National Center for Remanufacturing and Resource Recovery 
is seeking a partnership with EPA under which RIT 
remanufacturing engineers will work with the agency and the 
Nation's manufacturers to establish techniques and processes 
whereby industry will adopt manufacturing practices on a more 
widespread basis.
    The focus of this program will be to conduct applied 
research in conjunction with manufacturers to address 
environmental pollution at the source; during the product 
design and manufacturing process. If we can get manufacturers 
to design their products at the outset with remanufacturing in 
mind, we can achieve significant savings in environmental costs 
in both the short-and long-terms.
    The National Center is requesting $2.2 million in the 
Fiscal Year 1999 EPA budget to begin this applied research 
program which will focus on six specific areas which are 
outlined in our formal written testimony. The research program 
will be conducted at RIT's new 157,000 square foot 
manufacturing research laboratory, the Center for Integrated 
Manufacturing Studies. That is the only such facility of its 
kind in the United States.
    Mr. Chairman, thank you again for this opportunity to 
testify. We hope you will support this important initiative 
which we believe is an alternative to further costly 
environmental compliance action and new regulations. Dr. Nasr 
and I are available to answer any questions you might have and 
Dr. Nasr has a very up-to-the-minute item that we'd like to 
submit as a part of our testimony.
    Mr. Lewis. Thank you, Mr. Robfogel. Dr. Nasr.
    Mr. Nasr. If I may, I would like to insert this document--
the EPA document--that remanufacturers have referenced.
    [The information follows:]


[Pages 105 - 116--The official Committee record contains additional material here.]



    Mr. Lewis. Okay, thank you very much.
    Ms. Slaughter, I don't have any questions but we certainly 
appreciate your guests being with us.
    Ms. Slaughter. Thank you very much, and we appreciate your 
kindness.
    Mr. Lewis. A pleasure.
    Ms. Slaughter. We're pleased to be here.
    Mr. Lewis. Questions.
    Mrs. Meek. No.
    Mr. Walsh. Just a comment. Certainly, I'd like to welcome 
my colleague to our subcommittee today and the officials and 
professors at RIT. It's a wonderful institution, it's a 
wonderful community, it certainly--if there was to be a focus 
on remanufacturing, it should come from a community that is 
worldwide renown for quality of manufacturing with home to 
Xerox, Kodak, Bausch & Lomb, to name a few.
    I've always marvelled at the program that Kodak has about 
taking all those cameras back and recycling them.
    It's a marvelous program. I wonder, did RIT provide any 
consultancy on that or is that a Kodak-spawned idea of their 
own?
    Mr. Nasr. We trained a lot of their engineers, educated a 
lot of them.
    Mr. Walsh. I see. [Laughter.]
    So, the thought process--the critical thinking process came 
from RIT.
    Mr. Nasr. It actually came from----
    Mr. Walsh. I'm going to make that assumption. [Laughter.]
    Mr. Nasr [continuing]. The engineers that we trained.
    Mr. Walsh. Yes.
    Ms. Slaughter. Jim, the Center for Integrated Manufacturing 
Studies is really the bridge to the 21st Century and we would 
like to invite you to come over and all the rest of you, if you 
can----
    Mr. Lewis. Right.
    Ms. Slaughter [continuing]. But we can sort of capture Jim 
from next door but we'd welcome having you come to see it.
    Mr. Walsh. I'm not that far away----
    Ms. Slaughter. It is quite remarkable.
    Mr. Walsh. RIT--I'd like to talk about our education 
component in New York State, at RIT, that is so critical to the 
future----
    Ms. Slaughter. Yes.
    Mr. Walsh [continuing]. Of New York State and its 
technology. We have Cornell and RIT and the University of 
Rochester-Syracuse--and all within 80 to 90 miles of each 
other----
    Ms. Slaughter. All working together----
    Mr. Walsh [continuing]. So, I will be very supportive----
    Ms. Slaughter. Thank you, we appreciate that very, very 
much----
    Mr. Walsh. I'll do my best to get the chairman to do the 
same.
    Ms. Slaughter. Thank you all.
    Mr. Lewis. I want you to know that items like that which 
Dr. Nasr will provide will be included in the committee file to 
make sure that that information is available. If we have 
additional questions, we'll extend them.
    Ms. Slaughter. We would love to hear from you.
    Mr. Lewis. Thank you again.
    Mr. Walsh. Thank you very much.
    Ms. Slaughter. Thank you very much.
    Mr. Robfogel. Thank you.
    Mr. Nasr. Thank you.
    [The information follows:]



[Pages 119 - 128--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

DAVID JOHNSON, EXECUTIVE DIRECTOR, FEDERATION OF BEHAVIORAL, 
    PSYCHOLOGICAL AND COGNITIVE SCIENCES
    Mr. Lewis. Dr. David Johnson, who's the Executive Director 
of the Federation of Behavioral, Psychological and Cognitive 
Sciences? Dr. Johnson, I appreciate your patience. Just a 
little interruption there in our schedule. Thank you. You've 
been with us before so just----
    Mr. Johnson. Yes.
    Mr. Chairman, members of the Subcommittee, we find 
ourselves in the odd situation as we look at the upgrowing 1999 
budget of sending that money everywhere but none to use. The 
tobacco settlement seems to be slipping away, the current 
sentiment seems----
    Mr. Lewis. Money everywhere but none to use.
    Mr. Johnson. Well said.
    The current sentiment seems to be set all of the budget 
surplus aside for some security and if the transportation 
authorization is reflected in appropriations without a change 
in spending caps, many programs may have to be cut to pay for 
the new transportation initiatives.
    It isn't quite what we thought the second year of the 
budget surplus would look like and we hope, in the end, that it 
won't look that way.
    This subcommittee has long understood the importance of 
basic research supported by the National Science Foundation. In 
the leanest times, you kept the NSF budget stable and whenever 
there was an opportunity to do so, you'd see that the budget 
could grow a little faster than inflation.
    The overall effect through the 1980's and 1990's has been a 
budget for NSF that has almost kept pace with inflation. Given 
the circumstances of those decades that isn't a bad record. But 
it has been demonstrated that economic growth has spurred a 
significant degree of research. In a time of prosperity it is 
clear that an extra effort should be made to do research simply 
because it is one of the best ways to ensure that prosperity 
will continue.
    We join with all the other groups that have been parading 
before you and urging that in the Fiscal Year 1999 budget there 
be a 10 percent increase for NSF. The initiatives that NSF 
would undertake with its budget would show the substantial 
growth relative to the research needs of our time. We're living 
in the information age. Through its knowledge and distributed 
intelligence initiative, NSF proposes to help drive the 
information age to new heights. Many with the most powerful 
tools in the information age are not used to full capacity in 
the education of our children. Through NSF's proposed joint 
research program with the Department of Education, the gap 
would be narrowed between what is possible technically and what 
is used to advantage in the teaching of children.
    For the first time, NSF also proposes to launch a research 
program focused on children. The Federal government for all 
practical purposes is the ``funder'' of research on children. 
What we know scientifically about child development and about 
how to help children develop well is the direct result of 
Federal support. But the expenditure for research on their 
behalf amounts to about 2 percent of the Federal R&D budget. 
That isn't enough of an investment to ensure that we learn 
enough to help children have a future we want for them.
    NSF's recognition of the need for focus on research for 
children is something that needs to have your strong support. 
The constraints that at the moment make it seem difficult to 
reach a 10 percent increase for NSF, or even to hold it at its 
fiscal year 1998 level, are not insurmountable. They were 
arrived at through the political process and can be modified by 
the same process. We appreciate that you have a difficult job 
in trying to find the right balance among many worthy 
undertakings that are, and could be, supported with Federal 
funds, but I think it's safe to say that scientists, educators, 
and parents are supportive of the direction in which NSF wants 
to move, and would be equally supportive of your efforts to 
help NSF succeed.
    Thank you.
    Mr. Lewis. Thank you very much Dr. Johnson. Mrs. Meek.
    Mrs. Meek. No, sir.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. No questions.
    Mr. Lewis. Thank you for being with us. Thank you, Mr. 
Johnson, appreciate it.
    [The information follows:]


[Pages 131 - 163--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

BOB BOEDING, MEMBER, NATIONAL CORN GROWERS ASSOCIATION
    Mr. Lewis. Bob Boeding, who is with the National Corn 
Growers' Association. Mr. Boeding?
    Mr. Boeding. Good day, sir.
    Mr. Lewis. You've heard about summarizing statements and 
otherwise?
    Mr. Boeding. I certainly have. Yes, sir.
    Mr. Lewis. Appreciate it.
    Mr. Boeding. I take that to heart and the full statement 
has gone on the record.
    My name is Bob Boeding, corn farmer from the town of 
Lawler, Iowa, northeast Iowa. I appreciate the opportunity to 
appear before you today to discuss the importance of this 
National Science Foundation's Plant Genome Initiative. I 
testify in behalf of the Nation's 30,000 corn growers, or 80 
percent of the Nation's corn producers. The NCGA believes that 
the most important appropriations issue for fiscal year 1999 is 
funding for plant genomics research. We also concur with Philip 
Abelson's article in the Science Journal, I've forgotten the 
date that was quoted here, but his statement essentially says, 
``the early phases of this third technological revolution, 
genomics revolution, will be the most important we've seen so 
far.''
    With that, I'll diverge to a slightly personalization and 
expansion of the points that were made in this. The first item 
is the intellectual property rights we wish to protect for 
those genomic work that's done here in the United States. There 
is some concern that the Japanese have proceeded the pace with 
the rice genome and inasmuch as EST's are relatively congruent, 
it would seem that they could proceed very rapidly in this. So, 
the concern would be that an external body, such as this, could 
license this, and we would be faced with relatively high seed 
costs. Our able researchers within the States would be provided 
the intellectual property rights that are justly their's.
    While shifting from our commodity bulk grain sales to a 
crop with a specific high intrinsic value will enable our 
consumers locally, domestically, nationally, and 
internationally to obtain a greater net value from what they 
are buying, and hopefully, I and my fellow farmers could 
realize a slightly higher price from the better quality higher 
intrinsic value corn.
    The fourth item I've combined here have been mentioned 
earlier, the higher ethanol yield per pound or per bushel, or 
per pound biomass, more rapid timber growth, these all fit the 
higher holistic balance that's demanded for a population that 
is expected to double in my lifetime. I really, I look at that 
with this rapid rise and it staggers me.
    I've blended six other points here. The need for plants 
that are capable of surviving in what I'll call a challenged 
environment, one that is faced with a little more air 
pollution, drought, pestilence, all the diseases that we 
currently face and new ones that maybe we haven't seen or 
realized before. Traditional breeding has helped dramatically 
in this area over my lifetime. The Plant Genome Initiative will 
be a key to giving me the yields necessary to support that 
population that I've referred to in the prior statement.
    On to the environmental aspects of what you're going to do, 
or what your funding efforts may do for us. Brown water, 
contamination with phosphate fertilizers, with nitrogen 
fertilizers, and so on. On my farm, there are 4,600 large 
births, mammal births per year, of a pound or slightly over 
that. We have a high concern with high quality water here, 
roughly equivalent to what should be in a maternity ward in a 
large major city hospital. I cannot afford to have contaminated 
water, as could anyone else in this Nation, or the world. So 
this effort would also help in those areas.
    The nutritional quality that I spoke of earlier, the 
protein, the intrinsic values, the starch qualities, we have 
funded--Dr. Jay Langene is characterizing starch for us at Iowa 
State University, specific genes blending, when the genome map 
is completed. So that as we complete the map, we'll have 
materials to insert.
    I have seen the value of coming up with intrinsic values of 
corns firsthand. In Mexico, they are using protein 
supplementation, for pediatric corn moss to use in tortillas. 
This would be something that wouldn't decrease, excuse me, 
faced with doing, had we provided or been able to provide them 
with a higher quality protein corn.
    With that, I say that I'll terminate here. This program is 
worthy of a Manhattan-style project. It requires the resources 
and the power of government to coordinate and to help fund 
those things that we individually have not been able to do in 
pass years. It's a huge program. I don't wish to bring in the 
old Manhattan project but Paul Ehrlich had the population bomb 
and this would be one of those things to help us diffuse that 
bomb. It's also a near cinch for success. The Plant Genome is 
one of those projects that, if it failed, I'd be shocked. I 
don't know. I can't conceive of how it could possibly fail. At 
the Iowa Corn Promotion Board we funded over 200 research 
projects and only had four of them that met any relative 
success. I don't know how to personally guarantee that this 
would be that successful, or 100 percent success, but it's as 
close to a success as I can see us getting.
    In conclusion, I found a Henri Fabre's quote about in 1912, 
I believe, ``no man qualifies as a statesman who is ignorant of 
the problems of wheat.'' And I took the liberty of fiddling 
around with it a little bit and I said, ``No person is a States 
person who cannot see the potentials of the plant genome.''
    And I, also, in wrapping a second or third time, recognize 
the potential you did in last year's funding programs recognize 
the potential of this Plant Genome and with that I applaud you 
and we encourage you to continue this program and expand it 
where possible. Thank you.
    Mr. Lewis. All right, do you have a question Mrs. Meek?
    Mrs. Meek. No.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. Just a comment, the business is of interest to 
me, coming from the Agriculture Subcommittee and yet looking at 
it from. When I was a Peace Corps volunteer I went out for U.S. 
AID and collected corn maze in the fall. Corn was provided to 
them and they then submitted it for collection. It was kind of 
fun. It was interesting. It is fascinating science and it's 
farmers like you that have made Elvis Huxley and Paul Erhlich 
and Thomas Malthus look a little silly over the years. I hope 
you keep it going.
    Mr. Boeding. We do too.
    Mr. Walsh. We need you to do it.
    Mr. Boeding. We'll have to do it as a team this time 
because, as I said, the population explosion, or the population 
increases are very rapid every year, and 30 years is not that 
far off.
    Mr. Lewis. Mr. Boeding, I might mention, just so that it's 
a part of the record. Normally this funding, the Genome 
Project, and something like this would go through the 
Agriculture Subcommittee. It's fundamentally an agriculture 
research effort. It should be noted, if you haven't noted 
already, that beyond Mr. Walsh, Senator Bond has played a very, 
very significant role in all this. And, indeed, in our last go 
around this was his baby and certainly a lot of credit is 
deserved there.
    Mr. Boeding. We do heartily thank them for that, and we do 
recognize that.
    Mr. Lewis. Thanks for being with us.
    Mr. Boeding. Thank you, sir.
    [The information follows:]



[Pages 167 - 173--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

HOWARD J. SILVER, EXECUTIVE DIRECTOR, CONSORTIUM OF SOCIAL SCIENCE 
    ASSOCIATIONS
    Mr. Lewis. Dr. Howard Silver, who is the Executive Director 
of the Consortium of Social Science Associations. Dr. Silver?
    Mr. Silver. Good to see you again.
    Mr. Lewis. Nice to see you again.
    Mr. Silver. Thank you for the opportunity to be here, Mr. 
Chairman, members of the Subcommittee. I'm Howard Silver. I'm 
the executive director of COSSA, Consortium of Social Science 
Associations, which represents over 100 professional 
associations, scientific societies, universities, and research 
institutes concerned with the promotion of, and funding for, 
research and the social behavioral and economic sciences. I'm 
also proud to serve, Mr. Chairman, as the chairman of the 
Coalition for National Science, whose name has been invoked 
already this morning. CNSF is an ad hoc, umbrella organization 
of over 70 groups in the social, behavioral, physical and 
natural sciences, engineering, higher education, and the 
industrial world dedicated to ensuring enhanced support to 
maintain the National Science Foundation has a premier basic 
science agency in the world.
    On May 20th, the NSF will sponsor an exhibition at which 30 
scientific societies and universities will display the results 
of NSF supported research, to provide an opportunity to engage 
scientists, educators, and students in discussions of their 
important studies, and we hope you and your colleagues will be 
able to join us in the Rayburn basement from 4:30 to 7:30.
    Mr. Lewis. Thank you.
    Mr. Silver. I want to express COSSA and CNSF's appreciation 
for the Subcommittee's past strong support for NSF. As always, 
you face difficult choices among competing programs and 
interests in a constrained budget situation. Yet it appears the 
national consensus is formed on the critical need for enhanced 
Federal support for basic research. President Clinton has 
called for the largest increase ever for NSF. As you noted 
earlier, Mr. Chairman, the Speaker has argued an investment in 
science should be a priority. Republicans and Democrats in 
Congress, and 106 national organizations have called for 
doubling the national investment in science.
    And thus COSSA believes, and CNSF, that investing in NSF 
research and education efforts will help shape this country's 
future economic well-being and national security, and strongly 
recommends the 10 percent increase for NSF's Fiscal 1999 
appropriation requested by NSF and endorsed by CNSF. I have 
attached the CNSF budget document to my testimony, and I 
believe it provides the justifications for this increase.
    Let me talk a little bit now about basic research in the 
SBE sciences. Dr. Kraut earlier mentioned the numbers in the 
proposed budget, and like him, we are excited about the 
proposed increases. The research in these sciences continues to 
examine the evermore complex and human dimensions of issues, 
and generates new knowledge and insight to help us understand 
human commonalities and human differences. The research 
portfolio is diverse and supports sciences of enormous 
intellectual excitement and substantial societal importance.
    In many ways, the social sciences are becoming laboratory 
sciences. Experimental economists are studying the dynamic 
behavior of markets. In his laboratory at California Institute 
of Technology, Charles Plott has examined the behavior of 
individuals and markets and how they lead to speculative 
bubbles followed by crashes. In other laboratory settings, 
different economists are conducting experiments testing 
theories of inflation and international trade. Political 
scientists use laboratory settings to test theories of agenda 
setting and committee decision making, while sociologists study 
how status hierarchies emerge in newly formed groups. There 
have been direct societal benefits to these experiments. In 
Plott's lab, the Federal Communications Commission tested the 
highly lucrative broadband communication spectrum auction 
design. And from those experiments other applications include 
different methods of allocating space and time on the space 
shuttle, and allocating slots at airports.
    We heard earlier about NSF's new thrust in knowledge of 
distributive intelligence. Let me point out one other area that 
we're happy they are including in the KDI initiative. In 
echoing NIH's efforts on the Human Genome Project, NSF has 
included a legal, ethical, and societal implications effort as 
part of KDI, such issues as intellectual property rights, 
scientific publications, data security and integrity, balancing 
the need for universal access against protection from 
disclosure of private information to unauthorized individuals 
are all part of the picture as we increase the capabilities to 
gather and access information.
    I'd also like to say a word about the Education and Human 
Resources Director, COSSA asked the Subcommittee to support the 
proposed increase for research, evaluation and communication 
division as part of the overall increase. As we know from the 
Subcommittee, there's a strong need to find out why Americans 
students perform well at the fourth grade level and not so well 
as they move up to the eighth and twelfth grades.
    In conclusion, we urge the Subcommittee to continue its 
support for a U.S. science policy that focuses on the physical 
and natural behavioral and social aspects of what it will mean 
to function in a technologically oriented society still 
dominated by interactions among human beings. In his new book, 
social biologist E.O. Wilson posits the notion of consilience, 
which he defines as ``the interlocking of causal explanations 
among disciplines.'' He suggests that we need ``an explanatory 
integration not just of the natural sciences but also of the 
social sciences and humanities.'' Many years ago at a COSSA 
Annual Meeting, Thomas F. Malone, now Distinguished University 
Scholar at North Carolina State University, and a meteorologist 
by training, talked about what he calls a ``grand convergence'' 
of the social and behavioral sciences and the natural and 
physical sciences. And you see that happening all over the 
place.
    Thus, any fundamental science policy must include 
significant investments to explain the behaviors of human 
beings as they interact with each other and with their social, 
political, economic, and technological environment. To maintain 
the United States as a world leader in science, economic 
prosperity, and as the beacon of democracy, enhanced resources 
devoted to gaining increased knowledge about humans and their 
communities must be a priority.
    The NSF remains a central actor to support the conduct of 
this research and, therefore, must receive adequate funds to 
carry out these important activities for the Nation, and the 
proposed increase of 10 percent will satisfy that requirement, 
and we hope the Subcommittee will grant it.
    Thank you for your time.
    Mr. Lewis. Thank you very much, Dr. Silver. Mrs. Meek, by 
chance, questions?
    Mrs. Meek. No.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. No questions, thank you.
    Mr. Lewis. Thank you, sir, we thank you for being with us.
    [The information follows:]


[Pages 177 - 185--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                 WITNESS

MARY MARGARET OVERBEY, DIRECTOR, GOVERNMENT RELATIONS AMERICAN 
    ANTHROPOLOGICAL ASSOCIATION
    Mr. Lewis. Let's see, let me go back to the top of the list 
and see if by chance if a representative is going to be present 
from the American Federation of Government Employees, is that 
person here? Okay, calling once, calling twice, we'll get to 
third here in a while. Let's see, Dr. Mary Margaret Overbey, 
the Director of Government Relations for the American 
Anthropological Association, who has been waiting patiently. 
Welcome back.
    Ms. Overbey. Thank you. I'm presenting my testimony on 
behalf of the American Association of Physical Anthropological 
Association, the Society for American Archaeology, and American 
Association of Physical Anthropologists. Basically we're 
supporting a 10 percent increase for NSF with the $2.8 billion 
for research and $150 million allotted for social behavioral 
and economic sciences research.
    I want to use my time basically to let the research speak 
for itself. I'd like to give you some examples of cultural 
anthropology research, biological and anthropology research, 
and archaeology research that have been funded by NSF and that 
are currently ongoing. And the point is that these, each of 
these studies that's advancing our knowledge that also have 
evoked a lot of interest among people, the American people. So 
there's been a lot of media attention to all of these projects.
    The first one I'd like to talk about is a study of 
secondary students down in Miami, in Dade County, who are in 
poor disadvantaged neighborhoods looking at risk factors. What 
causes students in their situation to succeed at school? And 
how do they overcome at risk factors to succeed in life? And 
basically what they have found to date is that strong social 
relations in the family, and also among peers and in the 
churches, do have a strong effect, and a positive effect on the 
students so that students are able to overcome at risk factors. 
This is still an ongoing project. It's going to be long-term so 
he'll follow these students beyond school, jobs, and college. 
But it has already attracted private funding from Carnegie 
Corporation and Andrew Mellon Foundation.
    There's an archeological project that is taking place down, 
150 miles southwest of El Paso, Texas, by Robert Hard and his 
colleagues at the University of Texas, San Antonio. And in this 
site, what they have found is really the first existence of 
settled agricultural village 3,000 years ago. Previous 
scientists have felt that the only time we could find this 
level of agriculture and settled villages was 1,500 years ago. 
He has pushed this back several. This is during the Archaic 
period that most people in the northeastern United States were 
hunting, gathering bands just roving about, but he affirmed a 
settled village that supported between 100 and 1,000 people, 
cultivating maize and squash.
    Mark Stoneking at Pennsylvania State University has 
extracted the first authentic DNA from fossil hominid, and also 
obtained the first sequence of mitochondrial DNA from this 
fossil. And this is the first Neanderthal fossil that was found 
in Germany in 1856. What Mark Stoneking's work is looking at is 
the ancestral relations, are there ancestral relations with 
modern humans. Scientists had guessed that the Neanderthal was 
related and so he tested that by looking at the number of 
mutations in the mitochondrial sequence. And in humans there 
are only 7 to 8 mutations, or differences in that sequence. 
What he found in comparing the Neanderthal DNA sequence with 
the humans was that there were 27 to 28 differences so he 
concluded that the Neanderthal are not ancestral to modern 
humans.
    NSF funding also enabled Kristin Hawkes and her colleagues 
at the University of Utah to look at the role of post-
menopausal women in society and in the development of culture. 
Hawkes has been working among the Hadza in Tanzania, they're a 
modern hunting gathering group that, you know, roam in Africa. 
And what she found is that the older women were producing the 
most food. They were forging for the vegetables that produced 
the most food in the village. And what the older woman would do 
would be distribute this food strategically to their daughters 
and their grandchildren. And if they didn't have a direct 
relation, to their nieces and their children. So, in essence, 
Hawkes is concluding that these women are perpetuating the band 
and their families along the line. And she thinks, in 
evolutionary terms, that if these older women really 
contributed to the development of culture. And one thing I did 
want to mention is that menopause itself is unique to humans, 
and they're trying to look at the ``why'' of menopause, why do 
they have menopause? So here, it's more of an explanation that 
menopause actually serves a purpose to release these women to 
take the time to forage and distribute.
    The final project I'd like to mention is one by Patrick 
Gannon, Arthur Fishberg and Ralph Holloway, looking at the 
areas of the brain associated with human language. This is the 
planum temporale, here's a picture. It's located in the left 
hemisphere of the brain. It's where language is located, and 
also musical ability. And neuroscientists have recently found, 
it's the planum temporale where the perfect pitch is located. 
So the ability, which is a rare ability, to be able to discern 
notes separate from any context of music is located in the 
planum temporale. Scientists always had also felt that this 
area was unique to humans. And what Gannon and his associates 
found is that it's found in chimps. So Chimpanzees actually do 
have this left hemisphere, planum temporale developed, which 
leads us to believe that language ability in chimps is greater 
than scientists have previously thought.
    And one thing I did want to mention is Gannon's research 
itself, this is extensive, these are citations of the media 
coverage that he received on this. There are three pages of 
citations, everything from The New York Times and The Post, to 
Jay Leno, and just a lot of radio and TV. BBC has done 
something on this too. So there's been a lot of attention to 
this.
    So my purpose in letting the research speak for itself is 
that to let you know that NSF is funding good research, that it 
is advancing our knowledge, and that it really does intrigue 
the American people and does advance their understanding of how 
we got to where we are today, and their understanding of how we 
could improve the world in which we live.
    Mr. Lewis. Dr. Overbey, thank you very much for being with 
us. I got your pitch. [Laughter.]
    Ms. Overbey. Okay, thank you.
    Mrs. Meek. I'm pleased to see that Mr. Neanderthal is not 
ancestral to humans because I thought just the opposite.
    Ms. Overbey. Well, that's right. And I think there's been a 
history of saying there is, but there's been questions as to 
what the relationship is. So this is really furthering that 
knowledge that yes, probably it is not----
    Mrs. Meek. Pleased to see your proud of your research.
    Ms. Overbey. Thank you.
    Mr. Lewis. Thank you for being with us.
    [The information follows:]


[Pages 189 - 206--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

ARTHUR JAFFE, JOINT POLICY BOARD FOR MATHEMATICS
    Mr. Lewis. Arthur Jaffe with the Joint Policy Board for 
Mathematics. Mr. Jaffe, it's good to see you again.
    Mr. Jaffe. Thank you. I'm pleased to be here again after 
two years.
    Good morning, Mr. Chairman. I'm Arthur Jaffe, I'm President 
of the American Mathematical Society, the Landon T. Clay 
Professor of Mathematics at Harvard University, and Chair of 
the Joint Policy Board for Mathematics. That Board is a 
collaboration of three societies with combined membership of 
over 57,000 mathematicians, and I welcome the opportunity to be 
here.
    Let me start by thanking the Committee for your support for 
the NSF over the years. I hope for your continued support this 
year. JPBM wholeheartedly endorses full funding for the 1999 
budget request for NSF which will provide a significant 10 
percent increase. We believe mathematics science and 
engineering represents a top priority, along with our children, 
for the future of our country. The NSF has seen no real budget 
increase since 1995, and was part of the overall one-third 
decline in the percent of R&D funding is the percent of GDP 
over 30 years. We feel this short changes our most promising 
investment in the future.
    Given the extraordinary importance of the NSF's mission, 
the need for full appropriation transcends any particular 
budget mechanisms. The importance has been expressed by a 
bipartisan group of members in the House and the Senate. The 
request is consistent with authorizations in the House, with 
the authorization moving through the Senate, and with the 
Senate's budget resolution which assumes full funding for 1999. 
The CNSF concurred, endorses the proposed budget. Furthermore, 
a coalition of over 100 presidents of scientific societies, 
including the three JPBM presidents, issued a unified statement 
calling for a renewal of science funding over the next decade. 
These societies have over 3 million members signed it, and you 
probably have seen the unified statement which was issued last 
October.
    I believe it's widely understood that today's prosperity is 
a consequence of our past 30 year investment in science. Our 
economy relies, and our economic security relies on tomorrow's 
technology. These technologies will evolve from today's 
research. Our strength as a world power relies on our ability 
to educate our population in mathematics and in science. In the 
NSF there is a prominent share of the responsibility to fund 
it.
    We're especially supportive of the NSF's proposed budget of 
$114 million in the division of mathematical sciences. The 
Foundation has identified and documented a special need for 
growth in mathematics. A panel appointed by the NSF presents 
this material in a March 1998 study illustrating the inadequate 
support of mathematics, along with the increasing role of 
mathematics as the enabling discipline for all fields of 
science.
    I'd like to give some specific examples. In my written 
testimony, I talked about a number of examples. They range from 
the basic research leading to 1997 Nobel Prize in Economics, 
that was research in probability theory, and it's had a 
profound impact on today's financial markets and on risk 
analysis to new mathematics behind modern medical imaging. New 
mathematical methods of semi-conductor designs that have the 
potential to impact that business while computer simulations 
changed aircraft designs. New symmetries in the laws of 
physics, the discovery of these led to dependent numerical 
calculations in specialized field of mathematics. But there are 
new ways to break and make codes.
    As explained in a recent congressional briefing, 
mathematicians devised new encryption schemes, and they also 
devised new tools to break them. The symmetries in physics are 
not unrelated to the tools that I'm talking about here. This 
past week, we learned that digital cellular phone encryption, 
which was believed to be secure, has been broken.
    The NSF also provides the Federal funding that enables 
professional mathematicians to improve education. One 
successful program, the research experiences for 
undergraduates, links students in summer programs to 
mathematicians doing frontier research. In a complementary 
fashion, the graduate fellowships provide incentives and 
recognition for young scientists to continue to do research in 
their field. The postdoctoral fellowship programs extends the 
training at a crucial time when the recipients make the 
delicate transition from initial discovery to world leadership. 
It's through this package of support from undergraduate to 
leading researcher that we shepherd our country's next 
generation of Fields medal winners and Nobel prize laureates.
    But while U.S. graduate education shines, our schools do 
not. You've heard the results of the TIMSS, or the Third 
International Mathematics and Science Study which show U.S. 
students from approximately average in the fourth grade to the 
very bottom in 12th grade. This is not only a case in averages 
but even when measuring the top 10 percent of student 
performance, this is totally unacceptable.
    We urge the Subcommittee to support the request for the 
Joint Mathematic initiatives proposed in cooperation with the 
Department of Education. With less than 5 percent of the total 
R&D budget, the NSF assumes major responsibility for many 
critical components of science. I urge you again to provide the 
10 percent requested in 1999 to the NSF.
    And, Mr. Chairman, I'd like to second the invitation to you 
and members of the Subcommittee to attend the Fourth Annual 
CNSF Exhibition and reception on May 20th. There you can see 
first-hand the sample of research and you can talk with some of 
the researchers whose ideas produce these advances.
    Thank you.
    Mr. Lewis. Well, thank you very much, Mr. Jaffe.
    Questions, questions?
    Mr. Walsh. Mr. Jaffe, it doesn't relate to appropriations 
but you raised the issue of the fall-off in math scores and 
abilities of our kids from fourth grade through twelfth. What 
do you surmise? We have the best post-secondary educational 
system on earth, but secondary education is not on par with the 
rest of the world. What's going on, do you think?
    Mr. Jaffe. I understand it's a very complicated problem.
    Mr. Walsh. Well, you're a mathematician it should be easy 
for you. [Laughter.]
    Mr. Jaffe. First, we have a problem with the social status, 
a social problem, social status of teachers, their pay. We 
don't necessarily attract, of course there are exceptions, the 
best people by and large into the profession and therefore it's 
perhaps not a surprise that they are not fully acquainted with 
the content materials that they keep. I think there are a 
number of programs to work with teachers to train them more in 
the content, and I feel that content in mathematics and the 
sciences is very important to give to the students. Those 
programs have been a very great success.
    Mr. Walsh. Can the NSF support that activity?
    Mr. Jaffe. The NSF does partially support that activity. 
They have training programs, they're joint programs with the 
Department of Education as well.
    Mr. Walsh. When NSF was in I suggested an idea that, 
similar to the Peace Corps approach to things where the 
AmeriCorp, you take some of your best graduate students and you 
send them into school districts to teach, not only the kids, 
but to teach the teachers, and to try to develop a level of 
expertise at the high schools that wasn't previously there.
    Mr. Jaffe. Right. We have programs, there's a program at 
Harvard to bring in teachers from neighboring area schools to 
help them with the material. There are summer programs at major 
university sites, other places, that especially train teachers 
in mathematics. This is extremely important, we'd like to send 
students, some of our students go out to the area schools but 
it just can't be a volunteer process, we have to have a program 
in place. And it's not a problem that's going to be solved 
overnight.
    Mr. Lewis. Mr. Jaffe, a very complex subject but 
nonetheless, lest we mislead anybody who might be listening, 
the Subcommittee has in the past expressed very strong support 
for the work of NSF, and I anticipate that we will be doing the 
same as you go forward. But nonetheless we should all make note 
of the fact that never but never has more than 10 cents on the 
dollar for educational purposes come from the Federal 
Government. It is produced by way of local resources, State 
resources, the private sector, tuitions, et cetera. We do love 
to give 10 cents and tell you everything you got to be doing 
through NSF--[laughter]--hopefully, we're not going to do that.
    Mr. Jaffe. I totally agree. [Laughter]
    Mr. Lewis. Thank you for being with us. Please wander by 
the Kennedy School and say, ``hello,'' to our colleague, Mickey 
Edwards, one of these days, would you?
    Mr. Jaffe. Surely will, thank you very much.
    [The information follows:]


[Pages 210 - 216--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

JOHN NEYLAN, PRESIDENT-ELECT, AMERICAN SOCIETY OF TRANSPLANT PHYSICIANS
    Mr. Lewis. Let's see, is John Neylan here? John? The 
American Society of Transplant Physicians. Really much of that 
work is carried on by way of the VA, but, welcome.
    Mr. Neylan. Thank you, Mr. Chairman, and members of the 
Subcommittee.
    Mr. Lewis. Your testimony will be included in the record 
and we appreciate your being with us.
    Mr. Neylan. I am John Neylan, medical director of Kidney 
Transplant Patients at Emery University, and I'm president-
elect of the American Society of Transplant Physicians. The 
ASTP, which has no Government support, is comprised of over 
1,100 physicians, surgeons, and scientists who are actively 
engaged in research and the practice of transplantation 
medicine and immunobiology. The ASTP represents the majority of 
professionals involved in the field of transplantation in the 
United States.
    Today, my testimony will focus on Fiscal Year 1999 
appropriations for the Department of Veterans Affairs Health 
Administration and its transplant program. Since 1961, this 
program has provided more than 7,000 solid organ transplants 
(over 100 a year) to U.S. veterans in need. In addition, VA 
funded research has made important contributions, both to our 
understanding of diseases which may lead to organ failure, as 
well as to those basic mechanisms regulating the immune system 
which may be critical to the success of organ transplantation. 
Although VA initiatives and transplantation have provided many 
U.S. veterans with the critical gift of life, the program could 
be broadened in the area of research to more effectively serve 
our veterans and the overall health of the Nation.
    Over the last 30 years, transplantation of solid organs has 
moved from experimental to accepted therapy, with over 20,000 
performed in 1997 alone. The success of this procedure has 
improved greatly and now almost all solid organ recipients 
enjoy anywhere from 83 to 97 percent survivals in one year. 
Much of the success can be attributed to basic research 
initiatives in immunobiology funded by previous Federal 
appropriations. Our better understanding of the body's response 
to foreign proteins has led to countless other breakthroughs in 
all areas in medical science. However, this success has brought 
with it new challenges.
    Mr. Chairman, during the next hour four new names will join 
those over 56,000 individuals in this country waiting for a 
solid organ transplant. And by the time I get to Atlanta this 
evening, 10 individuals will have died because the wait for the 
transplant was too long. It's unfortunate and absolutely 
unnecessary, but the sad fact is that we as a Nation are not 
living up to our potential. Too many families are turning down 
the option of organ donation.
    In December 1997, the Administration launched a national 
organ and tissue donation initiative to encourage more families 
to discuss and understand their loved ones wishes in regard to 
donation. This may help in reducing family refusal which is the 
number one cause of the loss of potential donors today. 
Therefore, the ASTP urges this subcommittee to provide 
additional resources from Fiscal Year 1999 to ensure the 
success of the administration's initiative and other federally-
initiated programs that enhance donor awareness and improve the 
public trust in the process.
    Research is also critical to all that occurs in the 
transplantation process. The ASTP believes that we are on the 
threshold of many important scientific breakthroughs in areas 
of transplantation research, including the better understanding 
of the mechanisms of organ rejection, improvements in 
immunosuppression, the achievement of a drug-free immunologic 
tolerance, and the potential use of animal organs and tissues, 
xenotransplantation. Because of this, the ASTP agrees with the 
Friends of the VA that the Subcommittee should provide a Fiscal 
Year 1999 VA research appropriation of at least $325 million, 
the amount necessary to sustain new initiatives VA is 
implementing in Fiscal Year 1998 and to fully implement new 
initiatives in Fiscal Year 1999, such as research in the area 
of solid organ transplantation.
    The VA currently supports research centers in a variety of 
areas, such as HIV, alcohol and kidney disease. These centers 
have successfully allowed for the advancement of knowledge in 
targeted areas as a result of the talented investigators that 
are assembled under one roof. By providing funds to operate 
additional research centers, focusing on areas such as solid 
organ transplantation, the VA could contribute even more 
effectively to advances in the diagnosis and treatment of 
disease and disability. By increasing Fiscal Year 1999 VA 
research appropriations to at least $325 million, the 
Department would also have the resources necessary to address a 
backlog of medical research, career development applications 
and increase awards to first time principal investigator 
applicants. Such an effort would work to ensure that the VA 
will be able to meet its need for highly trained investigators 
in all research disciplines and in all fields important to our 
U.S. veterans.
    For more than six decades, the VA system has made unique 
contributions to the health of the Nation's veterans, and to 
the entire country's medical, scientific, and health care 
efforts. The scientific community is on the verge of many new 
breakthroughs in the area of solid organ transplantation, and 
the ASTP believes that increased funding for VA research will 
greatly improve the lives of U.S. veterans while increasing the 
capacity for critical transplantation research for the entire 
Nation. Thank you.
    Mr. Lewis. Thank you very much. We very much appreciate 
your making the effort to come here. It's very, very important 
that we recognize the value of the veterans' hospital locations 
associated with major research universities, the potential is 
endless in terms of improving the human condition, and we 
appreciate your work. Thank you.
    Mr. Neylan. Thank you, Chairman Lewis.
    [The information follows:]


[Pages 219 - 255--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

PAUL GROGAN, PRESIDENT, LOCAL INITIATIVES SUPPORT CORPORATION
    Mr. Lewis. Let's see, Paul Grogan, President of the Local 
Initiatives Support Corporation. Mr. Grogan, welcome one more 
time.
    Mr. Grogan. Mr. Chairman, one more time.
    Mr. Lewis. Hi, there.
    Mr. Grogan. Well, I'm going to offer you an interruption in 
the steady stream of scientists and physicians and 
mathematicians.
    Mr. Lewis. Always happy to hear from HUD. [Laughter.]
    Mr. Grogan. Talk about houses. I have to say I'm not sure 
following the Society of Transplant Physicians is a message 
about HUD or not, but thank you for having me, Mr. Chairman.
    I want to preface my brief remarks by bringing you what I 
think is very good news from the innercities of the country. As 
you know, Local Initiatives Support Corporation is a private 
organization supported by more than 2,000 corporations, 
foundations, and private individuals providing capital and 
expertise to innercity and rural development efforts 
nationwide. And we are seeing unmistakable signs of more and 
more turn around, particularly in innercity communities that 
have been depressed for a very, very long time. And I think 
that's significant because I think for the last 30 years or so, 
we've thought this cause was pretty hopeless. We've been very 
pessimistic about conditions in these communities which have 
bred an enormous amount of poverty and social pathology, and we 
really think things are starting to turn around very much as a 
consequences of the grassroots revitalization movement, not of 
actions of the Federal government but of the ordinary citizens 
taking matters into their own hands, organizing out of churches 
and block clubs, to take on problems and issues in their own 
communities. And there are now more than 2,000 of these groups 
renovating and building housing, bringing jobs back into the 
communities, working on health clinics, day care centers, anti-
crime efforts.
    It's really a spreading phenomenon that is based on the 
bedrock American attributes of self-help and partnership and 
tangible results. And private capital is fueling much of this. 
The Federal government has done a couple of important things. 
It's a short list of things but that magnifies their 
importance. One of them is not under the jurisdiction of this 
committee but I very much appreciate your decision, Mr. 
Chairman, to join as a sponsor of the two bills in the House 
that proposes to expand the low-income housing tax credit, 
which is, as you know, steers a lot of private capital to 
affordable housing.
    Two programs at HUD though have been very, very helpful: 
the HOME Program and the Community Development Block Grant. And 
I particularly want to focus on HOME, which has been of 
particularly utility to grassroots groups. Unlike a lot of 
programs that are so rule bound and prescriptive that they 
don't take account of this type of local initiative or the need 
to leverage private capital, home has really done a great job 
in being the kind of flexible, locally-driven resource that can 
be combined with private capital and can be molded to do a wide 
variety of housing programs that local communities want to do. 
The program is very well utilized. As you know, it is 
leveraging, for every dollar, $1.08 in private and other 
financing. We are just seeing this as really being part of the 
fuel that's driving this movement.
    Community Development Block Grant is also very, very 
important. In general, we would like to see HUD evolve into a 
flexible investor in local partnerships as opposed to the kind 
of institution that it has been. I applaud Secretary Cuomo's 
efforts to do that, but right now the programs that really make 
the strongest statement, and are of the most impact in this 
realm, are those two.
    We very much appreciate your support last year in 
increasing somewhat the administration's proposal, and we would 
certainly urge you to do the same this year. I don't think we 
can underestimate what it might mean to our country if we came 
to believe that the innercities could really be revived. The 
tremendous burden that they have been on us, the source of 
really national embarrassment, and I think there is a 
tremendous opportunity where you see housing, where you see 
markets following housing, and the kind of citizen engagement 
that's rebuilding institutions--everything from PTAs to little 
leagues.
    We had the great pleasure of hosting a visit of the 
President to the South Bronx late last year. South Bronx has 
perhaps been emblematic in a very powerful way of the 
devastation of the innercities, and I think he was stunned, as 
was the media, to see the acres and acres of revitalization--
really all wrought by the initiative of community organizations 
to provide the capital, but very much helped and catalyzed by 
this short list of Federal programs.
    So we've got something going here that's working. The HOME 
and CDBG are relatively small programs. Everyone says we 
appreciate the tough choices you have to make. I don't think we 
really do. We want you to do what we're proposing, but I think 
we can show that the leverage on these Federal efforts is 
fantastic, and we've really drawn private capital in, which is 
what's finally led to restoring these markets.
    Thank you very much for having me here this morning.
    Mr. Lewis. Thank you, Mr. Grogan, very much.
    I must say that programs like the House that Congress 
Built--and half the House now is going to be involved in that 
symbolic effort; lots of private capital flowing, volunteer 
efforts--very, very important, working together in this urban 
centers. And I, frankly, think the goal is to revitalize those 
urban centers, and we appreciate not only your testimony, but 
your help.
    Mr. Grogan. Thank you. We're working very closely with 
Habitat across the country. It's one of the great stories 
that's part of this.
    Mr. Lewis. Yes, it is.
    Thank you very much for being with us.
    Mrs. Meek. Mr. Chairman, I just want to say to Mr. Grogan, 
I've been working with this many, many years. It worked in its 
revival. There has been some change to these communities. We 
just need more of that.
    Mr. Lewis. Thank you for being with us.
    [The information follows:]


[Pages 258 - 297--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

WADI SUKI, PRESIDENT, THE AMERICAN SOCIETY OF NEPHROLOGY
    Mr. Lewis. Let's see, back to the National Science 
Foundation, Dr. Wadi Suki, president of the American Society 
for Nephrology.
    Dr. Suki. In addition, our Nation has renewed commitment to 
allocating increased resources for medical research, and the VA 
should not be forgotten, and at the minimum the research 
program that serves our Nation's veterans deserves a level of 
increase similar to that of other federally-funded medical 
research programs. Therefore, our Society supports the 
appropriation of at least $325 million for VA medical research.
    When you think in terms of how much this represents, if you 
would consider how much the VA has spent for health care 
services, $272 million spent last year on research in the VA 
comes out to only 1.5 percent of total expenditures on health 
care, which is really a very small amount. It is my view and 
the view of members of our Society that investment in research 
is the only real opportunity we have to reduce enormous costs 
to the VA, not to mention human suffering composed by chronic 
health conditions.
    The VA R&D is poised to realize its vision of the future 
with additional funding for medical research to be well-
positioned to help the VA system meet the challenge of a 
changing health care environment while contributing to advances 
in the Nation's knowledge of disease.
    The recruitment and retention of the best and the brightest 
to pursue careers in academic investigative methodology has 
been and will continue to be our Society's foremost goal. The 
VA Research Realignment Advisory Committee found that the VA is 
not satisfactorily recruiting and sustaining the next 
generation of outstanding clinical investigators. Our Society 
believes that the major obstacle to achieving the goals of the 
cure for and the prevention of kidney disease is the difficulty 
in the current environment of attracting the most talented 
young individuals to pursue careers in research.
    By your subcommittee appropriating $325 million for VA 
medical research in Fiscal Year 1999, implementation of new 
research training and career development programs can occur in 
the VA, and the VA will be able to address the backlog of 
medical research career development complications, and increase 
awards to first time physician investigator applications.
    Increasing career development awards enhances the VA's 
ability to attract and retain high quality physician 
investigators for a career in the VA. Considering that 75 
percent of VA researchers are the physicians who provide 
medical care for our veterans, the quality of the health care 
received by our veterans is directly correlated to the VA's 
ability to provide funds for a career in biomedical research.
    The Veterans' Administration has made profound 
contributions in areas related to nephrology, research on 
diabetes, which is the foremost cause of kidney failure in this 
country. Research in this area conducted in the VA has advanced 
our knowledge in how to retard the progression of kidney 
disease in diabetics and how to prevent it. Research in the 
area of hypertension, which is the second commonest cause of 
kidney failure, has also advanced knowledge and this research 
has been carried out in the VA.
    Most research breakthroughs in this country come from 
investigator initiated projects. If the VA research budget is 
funded at $325 million for Fiscal Year 1999, investigator 
initiated projects could increase by at least 10 percent. In 
addition, years of funding shortfalls have prevented the VA 
from conducting much needed renovation of VA research 
facilities. Many VA research facilities are housed in buildings 
erected in the post-World War II era. Renovations need to occur 
to accommodate the equipment and electrical venting safety and 
plumbing systems required for today's cutting edge research.
    While our Society recognizes the difficult task that 
Congress has in choosing between Federal programs, these 
choices should not come at the expense of those who have fought 
for our freedoms and for the freedom of peoples around the 
world. Therefore, to ensure that research opportunities are not 
lost and that veterans continue to receive high quality medical 
care, the American Society of Nephrology again urges this 
subcommittee to support a Fiscal Year 1999 appropriation of 
$325 million for VA medical research.
    This concludes my presentation, Mr. Chairman. Thank you for 
the opportunity.
    Mr. Lewis. Thank you, Dr. Suki.
    Mrs. Meek. I just want to say, Mr. Chairman, and to Dr. 
Suki, I've been a strong proponent of medical research at the 
VA since I've been on this subcommittee and I do hope that we 
can improve this as I've perceived it, the medical research 
part of the VA's budget, and I do hope that we can 
substantially improve it.
    Dr. Suki. We thank you for your support.
    Mr. Lewis. Dr. Suki, we all, especially on a day like today 
where you have a variety of mix of witnesses coming forward, 
find, probably conclude that the term ``lobbyist,'' is not 
necessarily a bad term. They come in many shape and forms. I 
was struck when I was home over these last couple of weeks that 
there's a fellow whose building a new home down the street from 
me, and I haven't had a chance to meet him but I've noted that 
when going by a relatively new Jeep, it's a young family. And 
I've learned that this fellow is a nephrologist and I have no 
idea whether he's a part of your Society or not but one of 
these days I'll probably find out. [Laughter.]
    I urge you to find out who he is. [Laughter.]
    Dr. Suki. He probably works at the Research Institute, 
something like that; he looked like it. Thank you.
    Dr. Suki. Thank you.
    Mr. Lewis. We appreciate your being here.
    [The information follows:]


[Pages 300 - 304--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

SVEN-ERIK BURSELL, JOSLIN DIABETES CENTER
    Mr. Lewis. Let's see, we're going to stay on that same 
track for just a moment. Is Dr. Bursell with Joslin Diabetes 
Center present?
    Dr. Bursell. Yes.
    Mr. Lewis. The seat next to you.
    Dr. Bursell. It's great to be here again at the Committee. 
I'm going to talk to you about a diabetes project. It's a 
collaborative project that we had proposed last Spring with the 
Veterans' Administration. The demonstration project will be the 
Institute's pilot programs for detection, prevention, and care 
in two regions: Hawaii, through the Tripler Army Medical 
Center, in collaboration with both the DOD and the VA out 
there; and in New England, through the VA's VISN-1 region. The 
objectives involve training and technology transfer of Joslin's 
expertise using telemedicine infrastructures, personnel, and 
employment patient bases of the Department of Defense and 
Veterans' Affairs.
    The idea is to basically facilitate patient's access to a 
program of diabetes care and prevention and education, 
hopefully to reduce some of the complications from diabetes, 
such as blindness or kidney disease.
    We'd like to thank you, the members of the Committee here, 
and especially Congressman Nethercutt for the support we 
received in Fiscal Year 1998 through the VA/HUD appropriations. 
But I'm going to focus on today is two aspects of the project, 
primarily the status report and a request for our second year 
funding.
    The two objectives of the project are screening for 
diabetes among DOD and VA patient populations in New England 
and Hawaii using innovative technology which requires nothing 
more than shining a light into the eye and determine whether or 
not you have diabetes, and implementing a program of improved 
diabetes management and education using the telemedicine 
platform for the DOD and VA patient populations in New England 
and Hawaii.
    We have reached an understanding, with the support of the 
DOD and VA policy program personnel on implementation on the 
work plan to report to the Committee last year. And by 
September 30th of 1998, we will have accomplished the 
following: one, a completion of phase one studies and 
implementation of phase two studies in the New England region, 
and implementation of phase one studies at the Tripler Medical 
Center in Hawaii. And basically this is an evaluation to 
determine how cost effective, both for the patient, and cost 
effective in terms of getting care to the patients the 
telemedicine intervention is and how it impacts on the standard 
practice of diabetes. And again deployment of three remote 
examination sites in the New England area.
    In year 2002, we will have accomplished the following 
objectives: providing DOD and VA diabetes patients cost 
effective access to the benefits of annual eye exams, 
diagnosis, treatments that are necessary to reduce risk to 
vision, and other significant complications of diabetes, such 
as nephrology and heart disease; to develop the utilization of 
a quick, efficient and easily acceptable method of screening 
for diabetes in remote sites; to demonstrate efficient and 
effective methods to improve the metabolic control of patients 
with diabetes.
    Today Joslin has expended approximately $2 million, without 
any reimbursement from Federal funds. This has been a 
particular challenge for us as a nonprofit institution and the 
reason was we weren't aware that at each stage of Department of 
Defense review, and decision-making, that essentially the funds 
would be allocated for administrative purposes. So the total 
DOD and VA assessment over the two year project period has 
exceeded $2 million. And the bare bones budget we submitted 
last year did not include resource allocations for partners in 
DOD/VA so that in this stage of the project we have very little 
money. [Laughter.]
    There's a fair amount of angst associated with it. The DOD 
officials have recognized Joslin's plight and have indicated 
they will support a second year budget of $6.4 million to 
assure that we can proceed efficiently.
    Mr. Chairman, in order to implement this project properly, 
and conduct the project in the manner and under the terms 
established by the DOD and VA, we will require an appropriation 
of $6.4 million in Fiscal Year 1999 for the diabetes research 
project, the National Security Subcommittee initially funded in 
Fiscal Year 1998.
    And this concludes my statement and if you have any 
questions.
    Mr. Lewis. Dr. Bursell, if you would, as we go forward 
through the conference process try and help us focus on this to 
make sure that we do get the interaction that we want from the 
Department.
    Mr. Bursell. That would be my pleasure.
    Mr. Lewis. I appreciate your testimony. Thank you very 
much.
    Dr. Bursell. Thank you very much.
    [The information follows:]


[Pages 307 - 329--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

DALE L. KEAIRNS, PH.D., AMERICAN INSTITUTE OF CHEMICAL ENGINEERS
    Mr. Lewis. Dr. Dale Keairns, the American Institute of 
Chemical Engineers. Hello, welcome back.
    Mr. Keairns. Thank you. Thank you, Mr. Chairman for 
welcoming me. I'm Dale Keairns. I'm a manager of the chemical 
and environmental area at Westinghouse, and I'm pleased to be 
with you this morning on behalf of the American Institute of 
Chemical Engineers, AIChE. AIChE is a nonprofit professional 
association of more than 58,000 chemical engineers that 
provides leadership in advancing the chemical engineering 
profession. And our message today is really one of supporting 
the Administration's request for the NSF budget and 
particularly the $400 million request for the Engineering 
Directorate.
    The research conducted by chemical engineers in academia 
and industry plays an important role in bringing new 
technologies to fruition in industries as varied as energy, 
paper, food, pharmaceuticals, plastics, and many others. NSF 
support is essential to developing new technologies for these 
industries as it provides over 55 percent of all Federal 
support for academic research in chemical engineering. AIChE 
supports the Administration's budget request of $3.8 billion 
for NSF, and we particularly support the $2.8 billion request 
for NSF research activities, 12 percent more than last year.
    Within NSF's research activities, AIChE believes that 
engineering research deserves increased emphasis. Accordingly, 
we believe Congress should provide no less than the $400 
million budget request for the NSF Engineering Directorate. 
While Congress in 1986 granted engineering equal status with 
science in furthering NSF's testimony mission, the Engineering 
Directorate continues to represent only about 10 percent of the 
NSF budget. Considering the Engineering Directorate's integral 
role in advancing NSF's mission, we believe the relative size 
of the Engineering Directorate, as well as engineering research 
in other directorates should be increased.
    The term ``engineering'' is normally associated with 
application oriented activities. NSF's Engineering Directorate, 
however, supports fundamental engineering research, as 
certainly you are well aware. In a critical, but often 
overlooked function of NSF, technologies such as environmental 
benign manufacturing, parallel computing, robotics, can trace 
their origins to NSF's support of fundamental engineering 
research.
    NSF's Engineering Directorate supports a wide range of 
value added activities. The program supports individual 
investigator research in focused disciplines, and multi-
disciplinary research conducted in small groups in research 
centers, including the engineering research centers and 
university cooperative research centers. It also supports 
engineering education activities, the SBIR program, the cross-
directorate initiatives, such as the Next Generation Internet. 
Additionally, the Engineering Directorate spearheads efforts to 
strengthen ties between university and industry researchers 
through programs like Grant Opportunities for Academic Liaison 
with Industry, or GOALI program.
    While the breadth of these programs is one of the 
Directorate's programs main assets, sufficient funding is 
needed to maintain the varied missions.
    Mr. Chairman, let me quickly highlight two of these 
programs which we believe should receive high priority. The 
Engineering Research Center program brings together cross-
disciplinary teams of science and engineering researchers and 
students in university-based centers to address fundamental 
issues in technological areas relevant to industry and of high 
importance to the Nation. This collaborative systems-oriented 
approach leverages limited resources and fosters a two-way flow 
of ideas between universities and industry on mutually 
beneficial research. Industrial and other partners match NSF's 
investment by about 3 to 1. A recent NSF assessment of these 
centers found that firms employing former ERC graduate students 
graded the students higher than their peers in several areas.
    With regard to the GOALI program, this has been getting 
high marks for placing faculty and students in industrial 
settings to work on the conceptual phase of the research 
endeavor. Such interactions strengthen intellectual connections 
that can open up new areas for university research and foster a 
mutual understanding of the cultural differences between 
academia and industry.
    While we recognize the budget gaps under which this 
committee must work, we believe that investing in NSF, 
including fundamental engineering research, strengthens the 
U.S. pool of technical talent and long-term economic growth at 
the same time.
    The chemical engineering profession, the chemical engineers 
of AIChE look forward to continuing to provide our expertise on 
research programs that impact our profession and the Nation's 
technological strength.
    I really appreciate this opportunity to be with you today.
    Mr. Lewis. Thank you, Dr. Keairns.
    Mr. Keairns. Thank you.
    Mr. Lewis. Appreciate it very much.
    [The information follows:]


[Pages 332 - 341--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

MARTHA SLOAN, CHAIR, AMERICAN ASSOCIATION OF ENGINEERING SOCIETIES
    Mr. Lewis. Our next witness is Dr. Martha Sloan, the 
American Association of Engineering Societies, the 1998 AAES 
Chair. Welcome, welcome back.
    Dr. Sloan. Mr. Chairman, thank you for the opportunity to 
address the Subcommittee. My name is Martha Sloan. I am Chair 
of the American Association of Engineering Societies, a 
federation of more than one million engineers and 25 
engineering societies. I'm also a professor of electrical 
engineering at Michigan Technological University.
    As you know, for nearly 50 years, NSF has been a leader in 
supporting the highest quality research for our country. NSF 
has a long history of success in accomplishing that mission. It 
assisted in developing lasers, superconducting materials, the 
Internet, GPS, and many others. NSF is unique because it does 
not support a specific mission-oriented type of research, such 
as space research at NASA, or medical research at NIH. Instead, 
NSF supports a broad spectrum of basic and applied science and 
engineering research, primarily at universities.
    AAES strongly supports the Administration's request to 
increase the National Science Foundation's funding by 10 
percent to $3.8 billion for Fiscal Year 1999. This will allow 
NSF to better support world-class science and engineering 
research.
    NSF provides support for pre-competitive engineering. The 
need for this type of support becomes obvious when one thinks 
of the research continuum. A scientist explores a question and 
may discover a new scientific law. An engineer takes that 
knowledge and applies it to a process or application. NSF 
supports engineering research before a process or application 
is ready to be used by the private sector. This, of course, is 
what pre-competitive engineering means.
    An example from NSF's Engineering Directorate is a novel 
optical method of document verification. This application could 
eventually help to prevent credit card fraud. The research is 
on optical data and coding, and a newly discovered polymeric 
film for optical data storage. Photos or fingerprints could be 
placed upon film on the credit card to verify the use of 
identity.
    NSF provides about one-quarter of all Federal support for 
basic research at U.S. universities, but NSF is also heavily 
involved with education supporting math and science education 
at all levels. These efforts are helping train our Nation's 
future scientists and engineers who will supply power for the 
Nation's economic interests.
    This year NSF is launching a new program called the Action 
Agenda for Systemic Engineering Education Reform. This program 
seeks to develop significant advances in teaching and learning 
methods, curriculum, and networking. This helps faculty to 
adopt new approaches to implement improvements in engineering 
education.
    One factor vital to the success of NSF is stringent peer 
review. Subjecting research proposals to peer review is the 
optimal way for NSF to ensure that only the best proposals are 
funded.
    Many economic experts, such as Paul Romer of Stanford, have 
said that up to 50 percent of the growth in our Nation's GDP 
can be attributed to technological innovation. Much of this 
growth resulted from Government supported research, 
particularly from NSF. The economic competitiveness of the U.S. 
is directly tied to our ability to innovate and improve 
technology. Our country's ability to compete in the 21st 
century depends on the investments we make today. The proposed 
10 percent increase in science and engineering research funding 
will let us help to maintain the U.S.'s technological and 
economic dominance.
    Again, thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much, Ms. Sloan, appreciate your 
being with us.
    [The information follows:]


[Pages 344 - 350--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

 NATIONAL SCIENCE FOUNDATION, ENVIRONMENTAL PROTECTION AGENCY, AND NASA

                                WITNESS

MELVIN RAY, CHAIR, MISSISSIPPI EPSCoR COMMITTEE
    Mr. Lewis. We're going to very briefly shift gears one more 
time. Mr. Wicker has a difficult and conflicting schedule and 
he has a guest he'd like to introduce. So I call upon Dr. 
Melvin Ray of Mississippi State University, representing the 
Coalition of EPSCoR. Mr. Wicker?
    Mr. Wicker. Well, thank you very much, Mr. Chairman. I know 
we are pressed for time, and I very much appreciate the 
indulgence of the Chair today. It's my pleasure to introduce to 
the Committee, to the Subcommittee, Dr. Melvin C. Ray, of 
Mississippi State University. He is the Chair of the 
Mississippi EPSCoR Committee. He is not a constituent of mine. 
He resides in one of the counties which I share with 
Representative Pickering, and I can say that he's a wonderful 
participant in the faculty at Mississippi State University and 
a good citizen of the community. I think you will find his 
testimony on behalf of the EPSCoR program to be very 
enlightening.
    Mr. Lewis. Dr. Ray, your entire testimony will be included 
in the record, and you may summarize it as you wish. Appreciate 
your being with us.
    Mr. Ray. Thank you. Mr. Chairman and members of the 
Subcommittee, I am Dr. Melvin Ray and Chairman of the 
Mississippi EPSCoR Committee. Thank you for the opportunity to 
testify today on behalf of the Coalition of EPSCoR States 
regarding the Experimental Program to Stimulate Competitive 
Research.
    First, I'd like to thank Representative Wicker for his 
strong support of EPSCoR. From the very beginning of his 
service in the House, Congressman Wicker has understood the 
importance of building science and technology infrastructure in 
the State of Mississippi, as well as the Nation. And I thank 
you.
    Mr. Lewis. I hope you'd tell him to slow down on twisting 
my arm as much as he does. [Laughter.]
    Mr. Ray. EPSCoR, again, Experimental Program to Stimulate 
Competitive Research was established in the National Science 
Foundation due to a concern that our national research and 
development dollars was highly concentrated, and that it would 
benefit the Nation if more States could participate in 
conducting research that our Nation needs. EPSCoR has helped 
Mississippi and the other EPSCoR States improve their research 
capabilities. As a result, EPSCoR has expanded to other Federal 
agencies.
    The Mississippi EPSCoR program began in 1988. It has had an 
enormously positive impact within the State and the four 
research institutions: Jackson State University, The University 
of Southern Mississippi, The University of Mississippi, and, of 
course, Mississippi State. EPSCoR has had a positive tangible 
impact in Mississippi in four specific categories: it supports 
junior faculty, it provides training for students, it helps 
develop new programs, and it provides solid scientific results. 
Specific examples are included in my written testimony.
    Mr. Chairman, the EPSCoR Coalition asks the Subcommittee to 
support EPSCoR funding in the NSF, NASA, and EPA. NSF EPSCoR 
helps eligible States improve R&D competitiveness through three 
types of awards: the EPSCoR cooperative agreements which 
support infrastructure development; EPSCoR grants, which are 
essentially seed grants for new and improving technology for 
the States; and EPSCoR co-funding to accelerate movement of 
investigators into the regular NSF research programs.
    The Administration has requested $38.41 million for EPSCoR 
for Fiscal Year 1999. The Coalition for EPSCoR States 
respectfully requests the Subcommittee to appropriate $43.41 
million. This figure will allow us to continue existing 
programs by increasing co-funding to the budget level of $15 
million. We also ask the Committee to keep forth this effort to 
ensure that our States are included in the NSF high performance 
computing and networking efforts.
    As it relates to NASA EPSCoR--NASA EPSCoR provides seed 
funding to develop academic research programs, activities 
directed toward long-term self-sustaining naturally competitive 
capabilities in science and technology. The Administration 
requested level funding of $4.7 million in Fiscal Year 1998. 
However, more funds are needed if all EPSCoR States are to 
participate. For each additional $500,000 added above $4.7 
million, another EPSCoR State will be able to participate in 
the NASA EPSCoR program. If NASA EPSCoR is to be effective, it 
is imperative that it remain a coherent headquartered effort, 
and not distributed to regional centers.
    As it relates to EPA EPSCoR--EPA EPSCoR remains the 
smallest of the EPSCoR programs. Congress provided $2.5 million 
for EPA EPSCoR in Fiscal Year 1998, and the administration has 
requested zero funded. EPA EPSCoR promotes nationally 
competitive environmental science research programs, and 
provides the EPA with needed high quality environmental 
research. More funds are needed if the EPA is to have a truly 
effective EPSCoR program. The Coalition of EPSCoR States 
requests $5 million for EPA EPSCoR in Fiscal Year 1999.
    I thank the Committee for the time today, and will be glad 
to answer any questions you may have.
    Mr. Lewis. Thank you, Dr. Ray. Mrs. Meek.
    Mrs. Meek. No questions, but I'm encouraged.
    Mr. Lewis. Mr. Wicker, do you have questions?
    Mr. Wicker. Well, I realize that we're under a time 
constraint. I guess if you could just briefly tell us, perhaps, 
what your biggest frustration has been with the way the program 
is funded?
    Mr. Lewis. EPA zero funding. [Laughter.]
    Mr. Ray. Exactly. In terms of the EPSCoR Coalition, the 
EPSCoR States, what we would like to see is, Congressman, that 
we could benefit our State and our citizens and be able to 
attract new business to the industry if the NASA EPSCoR program 
is funded at the $10 million level requested, and if the EPA 
was funded at $5 million level requested. That will allow the 
States, specifically, Mississippi, to have opportunity to 
participate in those programs. Because the funding levels are 
so low, the 18 States plus Puerto Rico are unable to 
participate. There's just not enough funding to go around.
    Mrs. Meek. Doctor, what is the meaning, explain what this 
acronym means?
    Mr. Ray. EPSCoR, EPSCoR is the Experimental Program to 
Stimulate Competitive Research.
    Mrs. Meek. Oh, thank you.
    Mr. Lewis. Thanks a lot, Dr. Ray, appreciate your being 
with us.
    [The information follows:]


[Pages 354 - 360--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                   NATIONAL SCIENCE FOUNDATION, NASA

                                WITNESS

MICHAEL REISCHMAN, CHAIRMAN, AMERICAN SOCIETY OF MECHANICAL ENGINEERS
    Mr. Lewis. Let's see, Michael Reischman, The American 
Society of Mechanical Engineers. Mr. Reischman? Thank you for 
your patience.
    Mr. Reischman. Good morning.
    Mr. Lewis. Good morning.
    Mr. Reischman. My being from South Carolina, EPSCoR means a 
lot to us as well.
    Mr. Lewis. I'm sure it does.
    Mr. Reischman. It has its own unique problems but it's 
very, very beneficial to everyone.
    Mr. Lewis. Great. I noticed that you already have 
summarized your testimony. We appreciate your presenting that 
as you would for the record.
    Mr. Reischman. Thank you. I'm, as I said, Michael 
Reischman. I'm from the American Society of Mechanical 
Engineers. I'm Chair of the Inter Council Committee on Federal 
R&D. I'm also a member of the Council on Education's NSF Task 
Force, and I'm accompanied by Dr. Wade from Rutgers University 
who is a similar member of that committee.
    Mr. Lewis. Okay.
    Mr. Reischman. In introduction, I'd like to say that 
mechanical engineering profession is well-served by NSF, and by 
their support of developing basic knowledge, applying that 
knowledge in specific engineering processes, and also the 
educational activities that they pursue. The task force is, in 
general, and I'll keep my numbers to a minimum, very, very 
pleased with the almost 12 percent increase in engineering at 
NSF.
    For engineering, in general, the development of efficient 
design manufacturing methodologies or products of all types is 
really the essence of our being globally competitive.
    With that in my mind, let me comment a little bit on all 
three of the areas. Basic knowledge--very pleased to see the 
continued focus on inter-disciplinary activities. For example, 
nanotechnologies and long-term deterioration of materials, both 
initiatives within engineering. Research there leads to 
understanding the aging effects on engineer structures and 
systems or, ultimately, how to develop smart structures and 
systems have an enormous impact downstream in the power 
generation industry, in the civil infrastructure we all enjoy 
day by day, in aircraft safety, in automotive efficiency, and 
in automotive safety.
    Biology based technology is another initiative we'd like to 
support. The research there is sort of at the intersection 
between biology and engineering. The potential for that 
research in the health care industry alone is enormous. 
Applications would include non-invasive drug delivery, the idea 
of highly efficient micro-miniaturized but robotically-
controlled medical devices, an ominous thought but ultimately 
what's going to happen. The increased priority in funding NSF 
shows for these basic research areas is highly commended by the 
American Society of Mechanical Engineers.
    Next, integrating this knowledge into complex engineering 
prophecies. As I said before, design and manufacturing are sort 
of the heart of our profession. Projected increases there are 
quite in track with the rest of NSF, they're close. But because 
they are not quite in track we have to then leverage on other 
areas of NSF to make sure that design and manufacturing moves 
ahead at the same expediency as the rest.
    I'd like to suggest two areas, actually three areas of 
initiatives where such leverage can be obtained. First, two in 
NSF, one is a macro-scale engineering initiative in 
engineering. The other one is the KDI, which is the Knowledge 
and Distributed Intelligence initiative, which is a NSF-wide 
well-known program area.
    The third is a NASA initiative in intelligence synthesis 
environment. These initiatives are all focused in on the areas 
of computing system research, and the human role in that 
computing system, the convergence of computing and 
communications, the simulation, the large-scale simulation and 
control. That research can have enormous impact in design and 
manufacturing. For example, simulation and control, large-scale 
simulation and control leads ultimately to developing advanced 
tools for us to be able to evaluate and simulate manufacturing 
alternatives, thereby cutting down time to market.
    Secondly, commuting system research is really the 
forerunner of very large virtual geographically distributed 
adaptive and flexible manufacturing enterprises, something that 
NASA and NSF are both seeing as the future downstream.
    The Task Force endorses and strongly recommends the full 
deployment of these inter-discipline projects.
    Let me wrap up with a word about NSF's support of 
engineering education. As you know, engineering is a problem 
defining and solving discipline. It requires a lot of team work 
and it requires a lot of cross-disciplinary thinking and those 
traits are highly valued. Engineering at NSF is the absolute 
leader in engineering education reform and renovation in this 
country. No where is the idea of inter-disciplinary more 
attractive and more evident than in that directive. ASME is 
very supportive of this, and all the other NSF education 
initiatives.
    And one specific observation in engineering education--we 
have for a long time supported the increase in support to 
graduate fellowships thinking having our best and brightest 
achieve is a good sign for the country. I'm glad to say, 
finally, that NSF is coming along in increasing that support.
    Anyway, thank you very much for the opportunity for 
presenting our views on the 1999 appropriations for NSF. I'll 
be happy to respond to any questions.
    Mr. Lewis. Dr. Reischman, thank you for being here. We 
appreciate Dr. Wade being here as well. If you want to 
supplement any of the record, we certainly will leave the 
record open for that purpose for our file at least, so welcome 
and appreciate your being with us.
    Mr. Reischman. Thank you.
    [The information follows:]


[Pages 363 - 369--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                   NATIONAL SCIENCE FOUNDATION, NASA

                                WITNESS

FRANCIS LAWRENCE, PRESIDENT, RUTGERS UNIVERSITY
    Mr. Lewis. Let's see, is Francis Lawrence with us?
    Mr. Lawrence. I am.
    Mr. Lewis. Yes. The president of Rutgers University, 
speaking for the Association of American Universities, welcome.
    Mr. Lawrence. Thank you. The last two must stand between 
you and the Committee's lunch so we have to be at our best 
here.
    I am Francis L. Lawrence, president of Rutgers, the State 
University of New Jersey, the State's largest public research 
university. We enrolled 48,000 students and we graduate 10,000 
yearly. And we are a major source of the highly trained 
workforce. I'm pleased to testify on behalf of basic scientific 
research and science education in a positive environment 
created by the leaders of both parties.
    President Clinton's budget proposal including a 10 percent 
increase for the National Science Foundation are sound. Speaker 
Gingrich also views scientific research as a priority item. I 
submit for the record the testimony of the Higher Education 
Community representing AAU, NASULGC and the American Council on 
Education.
    I would like to address basic scientific research and 
science education in the United States. Research in education 
rely on partnerships involving Federal and State Governments, 
industry, and universities. The NSF fosters such partnerships. 
It is the only Federal agency supporting the full range of 
science and engineering fields. With the proposed increased for 
the NSF, the Federal Government emerges as the leader and a 
challenger of other partners. Rutgers is a leader in 
partnership development. It has planned for, and is prepared to 
match, your leadership. For context, Rutgers' external research 
and training grants for the current year are at an all time 
high of $154.6 million, over half from Federal sources. More 
than 100 major corporations, including many of the Nation's 
largest, are sponsors of Rutgers' research. In fact, support 
from them in Fiscal 1997 exceeded $14 million.
    Our State funding is also significant. More support for the 
NSF is particularly important in the light of the New Jersey 
Commission on Higher Education draft legislation for cost-
sharing which calls for State matching of Federal and private 
funding for research done at State research universities.
    Partnerships are a cornerstone of Rutgers' strategic plan 
to bring us into the first rank of public research universities 
by the year 2010. We have identified 13 academic growth areas 
for emphasis to achieve excellence. Four in particular, life 
science, engineering, information sciences, and the environment 
are highly appropriate for additional NSF support.
    I said earlier that Rutgers is a leader in creating 
partnerships. Even with recent budget constraints we have 
committed our own limited resources to growth areas. We are 
using $4 million annually reallocated from administrative 
resources to fund the initiatives to win matching funds and 
leverage external support. We are funding 60 projects with 
significant results. Some are generating external support three 
to four times the size of our initial investment. State, 
Federal, corporate, and private partners are making these 
developments possible.
    For example, we are poised to become a national leader in 
bioinformatics, blending research in applied math and computer 
science with molecular biology and biophysics. Among other 
benefits, it permits rational drug discovery through 
mathematical modeling of formulation, the potential benefits 
are enormous, especially in New Jersey which is a 
pharmaceutical haven of the United States. NSF funding for the 
project exceeds $500,000. With corporate funds and our 
allocations, we can see rapid large scale growth and 
development of this project and many others.
    Increased NSF support is important for research 
partnerships, especially for economic competitiveness and 
quality of life issues. So we're eager to follow your lead. And 
if I might, in concluding, earlier, I think six speakers ago, 
there was a question about where we stood in math and science. 
I want to give you one example that has NSF behind us. Rutgers 
faculty can play the leadership role in transforming the 
State's K-12 curriculum in mathematics and science through the 
NSF funded state-wide systemic initiative, Rutgers Center for 
Math, Science and Computer Education leads a broad effort to 
reform mathematics and science education. It has had a direct 
impact on hundreds of schools, thousands of teachers, and 
hundreds of thousands of children. This has been a five year 
grant and it is highly successfully. And certainly we're going 
to try to leverage it into the future.
    Thank you.
    Mr. Lewis. Thank you very much for that testimony. 
Leveraging public and private dollars with nonprofit efforts 
are very helpful. We love that, leveraging. [Laughter.]We 
appreciate your testimony and I appreciate your being with us.
    Mr. Lawrence. Thank you.
    Mr. Lewis. Mrs. Meek, do you have questions?
    Mrs. Meek. No.
    Mr. Lewis. Thanks a lot, appreciated that.
    [The information follows:]


[Pages 372 - 434--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                FEDERAL EMERGENCY MANAGEMENT ASSOCIATION

                                WITNESS

RAYMOND KRIZEK, PRESIDENT, AMERICAN SOCIETY OF CIVIL ENGINEERS
    Mr. Lewis. And the last witness for the morning session, 
Raymond Krizek, who is with the American Society of Civil 
Engineers. You've been hearing my repeated comments about for 
the record so I appreciate your patience and your being with 
us.
    Mr. Krizek. Thank you.
    Mr. Lewis. Thank you.
    Mr. Krizek. Mr. Chairman and members of the subcommittee, 
thank you very much for the opportunity to appear before you 
today to discuss the Administration's fiscal year 1999 budget 
for FEMA's dam safety program.
    My name is Raymond J. Krizek and I currently serve as the 
President of the Geo-Institute of the American Society of Civil 
Engineers. This is our Nation's premier organization, 
professional organization for go-technical engineers, engineers 
whose expertise lies with designing and constructing facilities 
involving the earth. I am also the Stanley F. Pepper Chair 
Professor of Civil Engineering and the Director of the Project 
Management Program at Northwestern University.
    On behalf of the people who are served, I thank this 
committee for providing the full funding of $2.9 million last 
year to support the National Dam Safety Program. It's the first 
national program of this type aimed toward preventing dam 
failure. The $2.9 million provided a solid starting point for 
the States to begin improving their dam safety programs but dam 
safety is not a one year problem. Just as the maintenance of 
each of your homes, the inspection and maintenance of our 
Nation's 100,000 dams is a continuing program and it needs 
continued approaching to avoid potentially catastrophic 
consequences.
    Notwithstanding the immense benefits to be gained, the 
Administration's fiscal year budget request of $1.5 million 
falls woefully short of the $3.9 million authorized in the Act. 
And more importantly, it is inadequate to implement the 
National Dam Safety Program in even a minimally accepted 
manner. This is an alarming step backward for public safety at 
a time when the States, which are struggling with minimal 
budgets and staff are just beginning to make their first real 
progress toward the establishment of a truly meaningful dam 
safety program.
    Annual budgets in some states average less than $10 per 
dam. And sometimes one employee has the responsibility to 
inspect and evaluate more than 2,500 dams. Aging dams are 
especially susceptible to deterioration if not maintained. In 
this vein, one-fourth of our dams are more than 50 years old 
and by 2020 this figure will be some 85 percent. Approximately 
2,000 dams are currently considered unsafe and therefore must 
be watched with special care. In Fiscal Year 1997 alone, 32 
States reported 47 dam failures. You probably haven't heard of 
these because no lives were lost, although there was 
significant property damage encountered. Over 9,000 dams are in 
the high-hazard category which means that a failure would 
likely cause the loss of life. Of particular concern, is the 
fact that many of the 2,000 dams considered unsafe are in that 
high-hazard category and, due to restricted budgets, about one-
third of all the high-hazard dams were last inspected more than 
a decade ago.
    Based on these data, dam safety officials are concerned 
that the many dams across our Nation are at risk. Disasters 
really waiting to happen. And they are even more concerned that 
what they don't know, because of inadequate inspection and 
evaluation, might be cause for greater fear.
    For these reason, the ASCE respectfully requests this 
subcommittee to support the addition of $2.4 million to the 
fiscal year 1999 budget to enable FEMA to implement the 
National Dam Safety Program in accordance with the intent of 
the Act. This very modest, yet vital funding, will enable the 
States to improve their fledgling dam safety programs, which in 
turn will translate into reduced risk to life and property.
    Dam failures are extremely expensive from all points of 
view and we should give special heed to the old adage that ``an 
ounce of prevention is worth a pound of cure.''
    ASCE looks forward to working with this subcommittee and 
its staff on this crucial public safety issue.
    Thank you very much for this opportunity, and I would be 
happy to respond to any questions you may have.
    Mr. Lewis. Thank you, Mr. Krizek.
    Mrs. Meek. I just want to make a note of the fact that some 
states don't even report their dams.
    Mr. Krizek. That is correct.
    Mrs. Meek. It's amazing that with the proclivity for danger 
that they don't have reporting standards.
    Mr. Krizek. That is correct and in fact there are many, 
many dams, we don't even know how many, that are 50 to 100 
years old that have been abandoned and we don't even know who 
the owners are.
    Mr. Lewis. Mr. Krizek, I appreciate your testimony very 
much. All of us know that dam safety is a very important item. 
I might just mention, have it brought to your attention, the 
Seven Oaks Dam is east of the San Bernandino Valley and is a 
major feature of this Santa Ana River Project, which is an 
approximately $1.5 billion project in the West. That dam is 
kind of, it could be compared to one of the great pyramids, 
only inverted. That project is ahead of schedule significantly. 
There's a lot of cost savings taking place. I would think 
somewhere within our mix here some of these might very well be 
able to at least focus upon those dollars and see if some could 
be shifted in this direction. The thought occurred to me as you 
gave your testimony.
    We appreciate your being with us.
    Mr. Krizek. Thank you very much.
    [The information follows:]


[Pages 437 - 445--The official Committee record contains additional material here.]



    Mr. Lewis. The Committee is adjourned until 1:00 p.m. 
today, when we'll continue with the outside witnesses.
                                           Tuesday, April 21, 1998.

     HOUSING AND URBAN DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DORR DEARBORN, ASSOCIATE PROFESSOR OF PEDIATRICS
    Mr. Lewis. Mrs. Meek will be on in a just a moment. She 
suggested that it was appropriate that we proceed, and so, Dr. 
Dearborn, Pediatric Pulmonary School of Medicine, welcome.
    Dr. Dearborn. Yes, thank you.
    Mr. Lewis. You've been through this process before----
    Dr. Dearborn. Once before, yes.
    Mr. Lewis [continuing]. So, if you would just summarize 
your statement for the record, we will include it in its 
entirety in the record and be happy to receive it.
    Dr. Dearborn. Okay, thanks, yes. Chairman Lewis, and other 
congressmen, I am a pediatric pulmonologist, a lung specialist, 
at the Case Western Reserve University School of Medicine. I am 
here to talk about a outbreak a pulmonary hemorrhage in young 
infants that's been occurring in our community and actually 
nationwide.
    A previously rare disorder, acute pulmonary hemorrhage has 
been diagnosed in 41 infants in the Greater Cleveland area in 
the past 5 years. This serious disorder causes infants to cough 
blood and usually requires intensive care measures to save 
them. Fifteen of these infants have died including nine 
originally thought to have had Sudden Infant Death Syndrome. 
Thirty-one infants were African-Americans, all of whom lived in 
a limited geographic area of eastern metropolitan Cleveland, an 
area of older housing stock. This area corresponds directly 
with Congressman Stokes' district, and Congressman Stokes has 
been providing key leadership in addressing this important 
disease in Cleveland infants.
    An investigation of this outbreak was led by the CDC and 
has linked the disease to the exposure of a toxic mold called 
Stachybotrys, which was found in the infants homes. This mold 
requires water-saturated wood products to grow and appears to 
have occurred secondary to chronic basement flooding or from 
chronic plumbing and maintenance problems. Once the source of 
water damage is corrected, the mold can sometimes be removed 
with bleach. However, residents often need assistance from 
local housing agencies to address more extensive problems.
    Stachybotrys, while not a common mold, is known to have a 
wide distribution. We are aware of a total of 124 cases of 
acute pulmonary hemorrhage in infants nationwide over the past 
5 years. The rapidly growing lungs of young infants appear to 
be especially vulnerable to the toxins made by this mold. The 
CDC investigation also found that tobacco smoke was frequently 
a trigger of the bleeding.
    One year ago, today, the President issued an Executive 
Order addressing the Protection of Children from Environmental 
Health Risks and Safety Risks which calls for the development 
of Federal programs focusing specifically on the protection of 
the health of children. Based on the tenants of this executive 
order, HUD recognized the need to provide healthy housing for 
children and families and designed the Healthy Homes Initiative 
proposed in their 1999 budget. Similarly, the EPA established 
their new Office of Child Health Protection. We urge Congress 
to support these programs.
    Pulmonary hemorrhage in infants is an emerging disease. We 
need to act now in Ohio to learn how to effectively prevent and 
treat it. The strategies that we develop will have implications 
for the entire country. We urge you to provide new, 
supplemental funding both to HUD and EPA to address this 
problem. We request an additional $6 million to HUD primarily 
to assist the homeowners in the affected areas of Greater 
Cleveland correct the water and mold problems in the homes with 
infants through the HUD's new Healthy Homes Initiative.
    HUD also needs to take leadership in research on moisture 
and mold problems in housing construction and remodeling and in 
the development of standards for housing regarding allowable 
levels of mold growth in private and public residents.
    We request an additional $3 million for the EPA primarily 
to develop rapid methods to detect and quantify airborne toxic 
fungi in order to make more objective public health decisions 
regarding the safety of infants. EPA also needs to develop 
toxic mold clean-up guidelines applicable to residential 
buildings and promote public education and research on the 
health effects of mold growth in homes as part of their Office 
of Child Health Protection.
    We urge you to help us attack this newly recognized 
environmental hazard that is killing young infants in our 
community. These fiscal requests are a crucial initial 
empowerment. Thank you.
    Mr. Lewis. Thank you very much, Dr. Dearborn. I must say 
that this is a very interesting area. Mr. Stokes can't be here; 
he's got a conflict--has suggested to me that I need to come 
visit his local housing authority sometime. There's a woman 
there who does fabulous work. Do you have some interplay with 
that local housing authority in Cleveland?
    Dr. Dearborn. The Metropolitan Housing Authority, yes. 
Through the headquarters office of HUD and local offices, they 
have set aside 12 housing units to use for transient housing 
while we correct the moldy, water damaged homes where infants 
were living.
    Mr. Lewis. There's not any reason why you would be aware of 
this, but there is a children's hospital located at Loma Linda 
University in California where I have spent some time. I have 
no idea if they know about this problem, but between now and 
then if there's a way that you could help me communicate in its 
summary form the rudiments of the problem,I'd like to have some 
of our people focus on it.
    Dr. Dearborn. I just did a television interview for your 
HDTV, FOX, two weeks ago for your area.
    Mr. Lewis. Well, thanks for being with us. We appreciate 
your testimony.
    Dr. Dearborn. Thank you.
    [The information follows:]


[Pages 450 - 454--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

    ENVIRONMENTAL PROTECTION AGENCY, NATIONAL AERONAUTICS AND SPACE 
           ADMINISTRATION, AND DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

MICHAEL MAVES, EXECUTIVE VICE PRESIDENT
    Mr. Lewis. Let's see, Michael Maves, Executive Vice 
President, the American Academy of Otolaryngology. Michael?
    Dr. Maves. I'm here.
    Mr. Lewis. There you are, okay. Otolaryngology. Good to see 
you.
    Dr. Maves. It's good to be here this afternoon, and on 
behalf of the American Academy of Otolaryngology-Head and Neck 
Surgery and its roughly 11,000 members, I want to thank you for 
the opportunity to present this testimony before the Committee 
today. I'm Dr. Michael Maves, the executive vice president of 
the American Academy of Otolaryngology-Head and Neck Surgery, 
and I would like to speak to you today about four separate 
programs that we have an interest in and would like to have you 
consider.
    The first is the National Aeronautics and Space 
Administration. For a long time, NASA has helped us here on 
Earth discover some of the causes of dizziness, of 
disequilibrium because of the some of the difficulties that 
they have in space flight and in microgravities or zero 
gravity. When you go up into space the little otoconia, the 
parts of your inner ear that keep your balance in check, floats 
just as other objects float, and so, as you may be aware, it's 
not uncommon for the astronauts to experience dizziness both 
when they're in space, during space travel and then after they 
return to the Earth. This has been an area that's been very, 
very hopeful for us here on Earth to understand why some of our 
patients have problems with their dizziness, with 
disequilibrium, and so it's been a very big transfer of 
knowledge, really, directly from the space program to taking 
care of actual patients here on Earth.
    It was such a big item that two years ago--and I've got a 
copy for you--in 1996, we put on a symposium with the National 
Aeronautics and Space Administration. Now, on the topic of 
using space flight, using some of the lessons that we've 
learned from the different space missions to highlight the 
progress that we've made here on Earth, as I say taking care of 
these patients, we certainly look forward to new developments 
which can occur from the space program. Microgravity offers us 
the opportunities to grow tissues; to grow substances in 
special ways, so we appreciate the Subcommittee's interest in 
this area and its continued support, and we would certainly, 
vigorously support continued investment in NASA. We feel that 
this is a national investment; an investment that helps not 
only individuals in space, but we can see very surely the real 
results that we've realized here on Earth.
    The second area that I'd like to talk to you a little bit 
about is the Environmental Protection Agency. As physicians 
that take care of a number of the body's senses, of hearing, of 
smell, of taste, and voice, we've been very, very concerned 
about pollution of the environment. Not only does this relate 
to specific pollutants such as tobacco smoke, second-hand 
smoke, carcinogens that we've been very aware of in medicine, 
but also to just general air quality in the environment, and we 
find that these are areas that affect not only the traditional 
people who worry about lung cancer and the affects on the 
lungs, but also there's a similar affect on the respiratory 
passages in the nose, in the mouth, in the oral cavity. We 
know, for instance, that children that are exposed to second-
hand smoke, have a higher instance of having middle ear 
disease, and we feel that this is due to the irritation of 
these substances on those patients.
    And so one of the things that we would like is, obviously, 
to have the EPA continue to work to protect the quality of the 
air in the workplace, in the environment. We feel much like 
NASA, it's an investment now that will pay off long in the 
future.
    We testified before about the EPA's Stratospheric Ozone 
Protection Program, particularly the development of a national 
UV index. Very important as we become more and more aware of 
the harmful effects of ultraviolet radiation on the skin; 
development of skin cancers. We think that this is a program, 
again, that represents an investment in our young individuals 
now so that they're counseled appropriately about the hazards 
of being out in the sun and exposed to ultraviolet radiation, 
so that later on they don't developthe problems of skin cancer 
that we see and we have to treat as physicians now.
    Finally, what I'd like to just discuss is the problem that 
we have of deafness. Although many causes of deafness are 
acquired, the one that we worry about the most is the deafness 
just from being in our modern environment. Noise from 
machinery, noise in industry, noise associated with various 
kinds of occupations is a reversible kind of injury that can 
occur to the ear. We know that, again, the EPA has done a great 
deal to advise individuals about protection from noisy 
environment, but, again, we've seen many, many times when we've 
gone into areas such as night clubs and so on where there 
really isn't sufficient warning about the hazards of noise, and 
we think that these things, again, need to be pointed out to 
young individuals to prevent the devastating effects of 
exposure to noise. It's a different kind of pollution, if you 
will, than that of air pollution or water pollution; the things 
we tend to think of more closely associated with the EPA, but 
it can be just as devastating and for us, at least, in 
otolaryngology, the specialty that deals primarily with 
individuals that have a hearing loss, it can be a very 
devastating condition.
    Shifting gears a little bit, I'd like to talk to you a 
little bit about energy efficiency. When I came to the academy 
from my home in St. Louis I thought that there must be a better 
way of maintaining some energy efficiency in our offices, and 
after going around late at night turning off lights, as I think 
all of us do, we installed a series of computer programs that 
did that for us; that monitored the energy efficiency of our 
office, and as we were going about doing this we actually found 
that the EPA had a specific program targeted towards this. We 
were very happy to be recognized both by the EPA and by the AMA 
for our efforts in reducing the energy usage in our office, and 
we've actually been able to reduce this by about $7,500 a year. 
I tell people this isn't just good for the environment, it's 
also good for your pocketbook, because it really does result in 
savings to the association but also savings, if you will, to 
society in terms of energy usage that's more wisely used and 
expended. They're trying to be able to have more small medical 
businesses become involved in this, and we encourage the EPA to 
make this program more widely known.
    Finally, we have one specific program, the Veterans' 
Administration has conducted a program with the National 
Institute on Deafness and Other Communication Disorders 
regarding hearing aids for veterans. Again, we know that 
there's a large proportion of our veteran population due to the 
effective noise in World War II, Korea, Vietnam, and so on that 
have required hearing aids. This has been a program that has 
resulted in a considerable amount of new knowledge about 
individuals being able to wear hearing aids. It's something 
that we're seeing more and more particularly as those of us in 
the baby boom generation get older. As the President just 
demonstrated about a year ago, we all may well be needing to 
think about hearing aids in some point in the future. This is a 
specific program that we would like to see the Veterans' 
Administration continue. It really represents one of the very 
few areas where we have an isolated program looking at a 
targeted use of hearing aids in the United States, and so we 
would like to see the--obviously, the Veterans' Administration 
continue to work on that program.
    I'd like to thank you for the opportunity to testify today. 
If you have any questions, I'd be happy to answer them or we'd 
be happy to direct those to staff.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. No, sir.
    Mr. Lewis. I just want to mention that yesterday flying 
across the country with a physician fellow sitting a row ahead 
of me, I happen to know the gentleman. My ears seem to be 
functioning better than most. My wife complains about that from 
time to time. [Laughter.]
    But I noted I was hearing some music somewhere, and the 
music that I was hearing was coming from the earphones he had 
over his ears. The EPA can only do so much, and I'm not sure 
where it begins or ends, but this guy needed a little help. 
[Laughter.]
    Dr. Maves. It is interesting--you know there's was a study 
that was actually done at the University of Iowa a number of 
years ago when the little Walkman-type earphones just came out, 
and that's exactly what they did. They recruited a group of 
student volunteers to wear their Walkmans at certain predefined 
levels, and, indeed, you can get what's called a temporary 
threshold shift where your hearing goes away for a short period 
of time and recovers, but you're right, we need to educate 
people more about that, but there's only so much we can do.
    Mr. Lewis. Thank you very much, sir.
    Dr. Maves. Thank you.
    [The information follows:]


[Pages 458 - 464--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

    ENVIRONMENTAL PROTECTION AGENCY, NATIONAL AERONAUTICS AND SPACE 
                             ADMINISTRATION

                                WITNESS

ELLEN FUTTER, PRESIDENT AMERICAN MUSEUM OF NATURAL HISTORY
    Mr. Lewis. Let's see, Ellen Futter, come right up here. The 
American Museum of Natural History. Welcome.
    Ms. Futter. Good afternoon. Thank you very much, it's a 
pleasure to be here. Mr. Chairman, members of the Subcommittee, 
I'm delighted to join you this afternoon. I very much 
appreciate the opportunity to appear before you today on behalf 
of the American Museum of Natural History to present the 
summary of our recent activities and our Fiscal Year 1999 plans 
and objectives. Most of all, I want to thank this subcommittee 
for the contributions it has made to science education in this 
Nation and to science at the American Museum. There is no 
subcommittee in Government to which research institution such 
as ours owe more.
    This subcommittee's broad purview, ranging from urban 
economic development in HUD to science in NSF, NASA, EPA, 
mirrors that of the American Museum. Consistent with the 
interests of this subcommittee, the Museum has long had as its 
mission advancing scientific research and science education. 
Our scientific and educational resources are among the finest 
in the world and include more than 32 million artifacts and 
specimens forming an irreplaceable record of life on Earth; 
more than 200 active research scientists who possess top-ranked 
international expertise and who work with each of the research 
agencies under your jurisdiction, NASA and NSF prime among 
them; an audience of more than 3.5 million visitors annually of 
whom almost half of children; a long-standing tradition of 
enhancing science education for one of the largest urban school 
systems in the Nation.
    This past year with the benefit of this subcommittee's 
important leadership and in partnership with NASA's 
administrator, Daniel Goldin, the education division of NASA, 
and many of the NASA centers, the Museum established the 
National Center for Science Literacy, Education, and 
Technology. The National Center yields an unprecedented 
expansion of the Museum's educational mission by creating 
materials and programs that reach beyond the Museum's walls 
into schools, homes, museums, libraries, and other community-
based centers around the Nation to link citizens of all ages, 
backgrounds, and levels of education with the vast resources of 
the Museum.
    Looking ahead, I would like to focus on the Museum's 
current concentration on the vital topic of biodiversity, and I 
can't help but point out that today's Washington Post includes 
a report of a survey conducted by our Museum in which it is 
reported that a majority of the Nation's biologists believe 
that the loss of biodiversity is the greatest environmental 
threat confronting our planet at this time. As we embark on our 
new biodiversity initiative, we are harnessing the educational 
resources of the Museum's National Center and the research 
capacity of our Center for Biodiversity and Conservation. 
Together, these two new leadership institutes are extensively 
involved in global environmental research, education and 
training in a broad range of biodiversity efforts including the 
development of a entirely new, innovative, world-class 
exhibition facility, the Hall of Biodiversity, where cutting-
edge technology will be used to translate and interpret science 
to the public.
    In the upcoming year, the Museum seeks to play an 
increasingly prominent role in the search for solutions to 
today's most pressing scientific issues. Consistent with the 
Federal government's own stated commitment to an interagency 
and multi-disciplinary direction in these areas, we are seeking 
Federal partnerships to ensure that the programs of the Museum 
are developed with a similar approach. Given the EPA's 
longstanding leadership in environmental science, technology, 
education, and training, EPA would be an invaluable partner for 
the American Museum. Such a partnership would advance the 
objectives of joining scientific and environmental research, 
expanding educational outreach, and increasing scientific 
literacy across the Nation.
    The American Museum of Natural History--I hope it's clear--
is deeply appreciative of the support this subcommittee has 
given in the past and looks forward to continuing and 
strengthening this fruitful collaboration, and I thank you 
again, Mr. Chairman, and members of this subcommittee for the 
opportunity to appear before you.
    Mr. Lewis. Ms. Futter, thank you very much for your 
testimony. Mrs. Meek.
    Mrs. Meek. Thank you.
    Mr. Lewis. Thank you very much, we appreciate it.
    [The information follows:]


[Pages 467 - 471--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

CYRUS M. JOLLIVETTE, VICE PRESIDENT, GOVERNMENT RELATIONS, UNIVERSITY 
    OF MIAMI
    Mr. Lewis. Cyrus Jollivette.
    Mrs. Meek. I'm going to introduce him.
    Mr. Lewis. The gentleman from the University of Miami, I 
believe that the gentlelady, Mrs. Meek, would like to say a 
word before you get a chance.
    Mr. Jollivette. Thank you, Mr. Chairman.
    Mrs. Meek. Thank you for appearing today. We're happy that 
you're here. This subcommittee has assisted the University of 
Miami in really proving its capability in terms of demonstrated 
leadership in developing the world's first licensed medical 
waste treatment utilizing electron beam technology. The 
University has proven itself in terms of being able to develop 
these kinds of initiatives which have a community purpose in 
mind but yet has significant impact on research. Today, Mr. 
Jollivette--I've known Mr. Jollivette since he was a child, Mr. 
Chairman. I was a very young woman, but I've known him since he 
was a child. I was very precocious so I was able to know these 
younger people. [Laughter.]
    He's here today representing the University of Miami. I may 
sometimes sound like a cheerleader for the University of Miami, 
but they showed me many years ago that they have interest in 
the community; not only the university community but 
communities surrounding the university particularly inner city 
communities. They did a lot to develop those areas. Today, Mr. 
Jollivette is going to explain to the Committee what they think 
their needs are now in terms of coral reef research. As you 
know, in the Miami area there's the largest coral reef in this 
country. I hope you don't claim it, Mr. Chairman. There's a 
real strong need for this kind of research, and they're coming 
today to talk to us about that as well as a need for extended 
medical research. Mr. Jollivette is an accomplished young man. 
I'm a little biased, but I must say that.
    Mr. Lewis. Mr. Jollivette, I'm not sure where you go from 
here. [Laughter.]
    Mr. Jollivette. I'm humbled, Mr. Chairman. I want to thank 
Ms. Meek for her very, very kind words about my institution, 
the University of Miami, where she had the privilege to be 
affiliated for the last 20 years and also for her kind words 
about me. I deeply appreciate it.
    Before I begin, I'd like to say to you, Mr. Chairman and 
Ms. Meek, and to those members of the Subcommittee who are not 
here how much my colleagues and I at the University of Miami 
appreciate the support that you provide for the National 
Science Foundation and for the Environmental Protection Agency. 
These are agencies that are very, very critical to research in 
the country and research in which my colleagues at the 
University of Miami participate in. Today, as Ms. Meek 
indicated, I'm here to focus on two problems of national 
significance. There are two initiatives at the University of 
Miami: We hope to establish a National Center for Coral Reef 
Research, and we hope to move forward on a demonstration 
project of a full scale medical waste treatment facility. Ms. 
Meek indicated that the at the University of Miami, Jackson 
Memorial Medical Complex in Miami, we have the world's only 
licensed medical waste treatment facility for the use of using 
electron beam technology. What we are attempting to do is to 
build upon what has been a long history of research and 
leadership on coral reefs and also what has been some good 
measure of success in developing this licensed medical waste 
treatment facility.
    First, let me talk about coral reefs. They are the only 
ecosystems on Earth that are constructed entirely by the 
secretions of a complex assembly of marine animals and plants, 
as you know. I'm not a scientist; I'm here representing our 
scientists, particularly Dr. Leena Thiesmet at our Rosenfield 
School of Marine and Atmospheric Sciences. Coral reefs are 
economically important to us because of food, medicinals, and 
coastal protection. Unfortunately, what our scientists are 
finding, not just Miami but other places too, is that due to 
coastal development, environmental changes tends to be related 
to global climate change and overexploitation of coral reef 
fisheries, resources are contributing to what is a worldwide 
decline of coral reefs at an alarming particularly in the 
Caribbean region. Our coral reefs in Florida are downstream of 
the entire Caribbean coral reef system and thus dependent upon 
that system for larval recruits and maintenance and fisheries 
stocks. Also, our reefs could be affected by pollutants 
released by other nations in the region and also from our own 
rivers via discharge into the Gulf of Mexico.
    Historically, coral reef research has been piecemeal with 
few attempts at what we see as interdisciplinary process-
oriented research. We hope that we are able, through the 
establishment of a National Coral Reef Center, coordinate the 
Nation's coral reef policy research and assemble major national 
and international initiatives pertaining to coral reefs. We 
envision that our center will foster organization and 
collaboration within the Nation's scientific community and lead 
to the development of a new level of understanding of the 
environmental conditions necessary for the establishment, 
survival, and sustainable use of these coral reef ecosystems. 
We hope that it might be possible for you to allocate through 
the Environmental Protection Agency $2 million to establish a 
National Center for Coral Reef Studies.
    Next, I'd like to turn my discussion to support of the 
electron beam technology which we've already referred to. We 
have unique facilities at the Jackson Memorial University of 
Miami Medical School Complex, and this complex comprises 
approximately 5 hospitals with a total bed capacity of 2,700, 
and as I have indicated, this site is the world's only licensed 
facility for the treatment of medical waste using electron beam 
technology.
    Why is this important? Recent EPA regulations limiting 
emissions from medical waste incinerators have basically forced 
all hospitals to reconsider their medical waste treatment 
approaches. Considering that most hospitals utilize 
incineration in the past, it's clear that there is a national 
issue here, and, in fact, many hospitals are turning to other 
means of doing it. For example, they're using autoclaves. If 
you can imagine the size of an autoclave and what it must--the 
odors emanating and the residue resulting from autoclaving 
infectious waste. It's also a very, very expensive technology. 
We believe that what we have been able to demonstrate at the 
University of Miami Jackson Memorial Complex is that electron 
beam technology could become commercially feasible to treat 
medical waste, and we have, in fact, a working prototype that 
can treat 500 pounds of medical waste per hour that we are able 
to obtain from the 2,700 beds in those 5 institutions in the 
medical center, and we have demonstrated and have been able to 
prove that in factthe infectious medical waste is disinfected 
by using what is a low-cost technology. This is promising, and we hope, 
in fact, that we are able to move forward with it.
    What we've been able to do thus far has been through a 
public-private partnership. There's been funding from the 
Federal Government, from private industry in Florida, Florida 
Power and Light, and from other entities to bring us to this 
point, to develop the prototype facility which was inaugurated 
in 1997 which was licensed by the State of Florida in 1998. We 
now are poised to demonstrate that electron beam treatment is 
cost effective and that we could use it and could be used very 
broadly in the country. We are seeking $1.5 million for this 
project. I know, Mr. Chairman, that you and your colleagues 
from the subcommittee face very many difficult funding issues, 
however, because of the nature of these initiatives that I have 
described today and the long range implications that can 
benefit the Nation, my colleagues and I hope that it will be 
possible to provide support for these two projects.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. Thank you. Enough said, Mr. Chairman.
    Mr. Lewis. I'm curious about the electronic beam procedure, 
because there's been for some time a law on the books that 
requires disposal sites to be located in the various States; 
some by region; some by State of medical and other kinds of 
low-level wastes. To say the least, that's been very 
controversial in those States where you try to locate such 
facilities. In the meantime, this process is one that 
technically would disinfect such medical facility----
    Mr. Jollivette. Totally. Disinfect it totally and would 
allow for mingling with other wastes. It would also allow----
    Mr. Lewis. So, after such treatment then the standard waste 
disposal facility could receive that waste and not have a 
special----
    Mr. Jollivette. Precisely. In some instances, some 
communities would elect to have the waste shredded; it could be 
shredded. In others where it's not necessary to be shredded, it 
could be disposed of with other waste that is currently being 
disposed of in those communities.
    Mr. Lewis. I'll look at it further with interest.
    Mrs. Meek. And I visited the center, Mr. Chairman, and it's 
working very well.
    Mr. Jollivette. Thank you.
    [The information follows:]


[Pages 475 - 482--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

      NATIONAL SCIENCE FOUNDATION, ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

RONALD ATLAS, CHAIR, AMERICAN SOCIETY FOR MICROBIOLOGY
    Mr. Lewis. Thank you. Dr. Ronald Atlas, American Society 
for Microbiology, welcome.
    Mr. Atlas. Thank you, Mr. Chairman, members of the 
subcommittee.
    Mr. Lewis. Your testimony will be received in total, and 
you can summarize it as you wish.
    Mr. Atlas. Thank you. I'm here today to testify on behalf 
of the American Society for Microbiology which is the world's 
single largest life sciences organization. We represent 43,000 
members in our society, and today I want to address some of our 
recommendations concerning the appropriation for both the EPA 
and the National Science Foundation.
    The EPA budget, as you well know, is a complex and very 
fragmented budget request. One of the things we always have 
difficulty doing is tying the various intramural and extramural 
elements of the program together. We focus part of our 
attention on the extramural programs with the hope that these 
will be at the highest scientific quality. In particular, we 
note within the EPA's appropriation request the Science To 
Achieve or Results, or STAR Program, as an important initiative 
which, in fact, has instituted a peer review program that 
should facilitate it becoming a very high quality program. This 
year's request for that program is $99 million, and the ASM is 
fully supportive of funding of that full request; that's a $12 
million increase over last year's appropriation for that 
program. It's particularly important to include it in there or 
specific areas for targeting bioremediations, drinking, water 
quality, ecology of harmful algal blooms, and other programs 
many of which have microbiological components to them.
    Beyond that, we are supportive of a funding level of $15 
million for the EPA's Fellowship Program. That would be $5 
million more than the President's request for that program. We 
think the training of the next generation of scientists across 
all science, particularly, in this case, the environmental 
arena, is very critical. We note that last year the 
Administration had requested $15 million; the Congress gave $10 
million in that program. This year, the Administration has 
elected to request only what the Congress had given it last 
year. We think that it's important to move that program ahead 
and we are recommending the full $15 million that previously 
had been requested.
    Let me turn from the specific funding areas to the issue of 
drinking water quality. We've been concerned over a number of 
years that there has been more emphasis on the chemicals in our 
water supplies than on microorganisms, although many 
microorganisms are emerging as real problems. We note years ago 
the outbreak of Cryptosporidium in Milwaukee and the more 
recent algal bloom, Pfiesteria, that probably cost this area 
about $43 million in lost economics. We think the EPA needs to 
pay more attention to the microset causing these acute 
outbreaks to work with other organizations like the Centers for 
Disease Control in really identifying and protecting the 
Nation's drinking water supply and the recreational waters. We 
also note with some concern possible transfer of pathogens to 
foods and in particularly shellfish a real problem in this 
area.
    The American Society for Microbiology is in the process of 
preparing a briefing booklet for Congress on these concerns 
which we hope within the next month to be able to bring to the 
Hill highlighting those areas. As far as the appropriation, 
though, we really think that attention needs to be paid to the 
basic research programs, the basic development advance of the 
information we need for sound rulemaking; rulemaking based on 
risk analyses. In this regard, we have some specific language 
which is highlighted in our testimony that we are asking for 
inclusion. This language would direct the EPA to pay 
attention--or more attention to the microbes in the water 
supplies and support basic research programs within that 
purview. EPA would then be allowed to undertake the sound 
rulemaking that we think is absolutely critical. We can then 
understand the risks that microbes pose to our water supplies 
and control those risks.
    Let me turn from the EPA to the National Science Foundation 
which is an extraordinarily important organization in terms of 
overall scientific research which we're sure will be 
highlighted to your subcommittee by many organizations 
testifying today. The ASM is a member of the Coalition for 
National Science Funding which has proposed an increase of $344 
million in the NSF appropriation which would be a 10 percent 
increase over the 1998 funding level. We are absolutely 
supportive of that. We think it would entitle NSF or enable 
them to support additional excellent research into many 
important discoveries and innovations.
    Within that appropriation bill are a number of specific 
programs highlighted in our written text with specific links to 
microbiology. We think these programs are pivotal in furthering 
this critical science. Among those we are endorsing are the 
President's Committee of Advisors on Science and Technology 
request that a minimum of $40 million per year be invested in 
the next 5 years in the next generation natural biological 
information infrastructure. We think that databases, including 
those of microorganisms, are absolutely critical for everything 
from new drug discoveries to enzyme production to control of 
pests and so forth, and that, in fact, the NSF program increase 
proposed for $130 million over a 3-year period on discovery of 
new species will help further those goals.
    Finally, we are encouraging the NSF to expand its support 
for molecular sequencing of microbial genomes. We note that 
today many of the microbial genome projects have been supported 
by the Department of Energy, and we think it important for the 
NSF to move into areas that are not specifically within the 
purview of Energy and areas such as biodiversity and other 
areas. This has been a very exciting area of discovery in 
microbiology that is continuously highlighted whenever a new 
genome is sequenced in the popular press leading to as many 
questions, I would say, as answers today. It really needs 
attention at the basic level from the NSF.
    Mr. Chairman, members of the Subcommittee, I thank you for 
the opportunity.
    Mr. Lewis. Dr. Atlas, we appreciate your being here. Mrs. 
Meek.
    Mrs. Meek. Thank you.
    Mr. Lewis. Thank you very much, Dr. Atlas.
    [The information follows:]


[Pages 486 - 496--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

      NATIONAL SCIENCE FOUNDATION, ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

PETER SAUNDRY, EXECUTIVE DIRECTOR, NATIONAL INSTITUTE FOR THE 
    ENVIRONMENT
    Mr. Lewis. Peter Saundry, the Executive Director of the 
National Institute for the Environment. Peter?
    Mr. Saundry. Well, thank you very much for this 
opportunity. My name is Peter Saundry. I am the Executive 
Director of the Committee for the National Institute for the 
Environment.
    Mr. Lewis. We will include your entire statement for the 
record as you know.
    Mr. Saundry. Wonderful, I'll cut to the chase and get done. 
The basic thrust that we are here for is the mission of 
improving the scientific basis of environmental decision 
making. That's a goal that I think you and full committee 
members share, and I think it was so last year when we put into 
the report line of accompanying appropriations bill the 
statement that the United States needs a trusted source of 
scientific information on environmental issues that's separate 
from the regulatory agencies; quite an important distinction, 
and it needs to address the key questions of decision makers 
both inside that Federal government and outside the Federal 
government. That was an important statement, and we thank the 
Committee for doing so, and I think a lot of people support 
this effort. We appreciate your work on this.
    The testimony you just heard from the gentleman from the 
University of Miami and on microbiology really touch upon the 
central issue of how do we get more sides onto environmental 
decision making? It's a very, very fundamental issue, and it's 
one that we've been grappling with a long time. Now, we have 
developed with the help of a lot people around the country an 
idea for this thing for the National Institute for the 
Environment, something that might do for environmental science 
what the National Institutes of Health does so well for 
biomedical science. We have had a mission of improving the 
scientific basis for environmental decision making, and we've 
integrated knowledge assessments, research support, information 
dissemination, and education, and we've involved stakeholders 
inside the Federal government as well as outside the Federal 
government, in the communities that are affected by so many of 
our land issues.
    Now, last year, this committee directed the National 
Science Foundation to study how it would establish and operate 
a nonregulatory environmental science institute that would 
implement these basic functions of knowledge assessments, 
research, information dissemination, education and training. It 
was a very, very constructive statement to make, and this 
committee deserves a very constructive response from the 
National Science Foundation, one that allows you to make 
significant progress on these issues.
    In response to your statement in this committee, 214 
university chancellors and presidents around the country wrote 
to the National Science Foundation and urged them to come up 
with a bold and creative vision for a partnership of 
environmental science and the Earth. The U.S. Chamber of 
Commerce had the same statement as a lot of other 
organizations. This thing had the support of State and local 
government, the National Association of Counties and so forth, 
the environmental organizations, business groups, California 
Chamber of Commerce, the Greater Miami Chamber of Commerce, the 
Ohio Chamber of Commerce, and so on and so on, three fellow EPA 
administrators, six or seven former EPA research grants.
    However, four weeks ago, a resolution was passed by the 
National Science Board which indicated that the reports that 
they're going to present to you may not be responsive to the 
question that you asked them. How would they do this? Mr. 
Frelinghuysen asked some very pointed questions at NSF's 
hearing three weeks ago raising a concern that the Committee's 
direction is not being considered. Now, we don't expect NSF to 
come up with the same proposal. We don't expect all the details 
and the t's to cross in the same way, but we do expect NSF to 
be responsive to this committee and to your desire to improve 
environmental science and the decision making. So, we put 
forward a statement that if NSF does not clearly answer your 
direction, your question put forth to them in the report line 
of last year, that the Committee directs NSF to redo the report 
so that it is responsive to your request.
    Finally, NSF is able to look forward on this issue provided 
they've had some time to do so. Finally, I'd like to put 
forward a challenge to the Committee that it fund the National 
Science Foundation $20 million to $50 million above the 
President's request for fiscal year 1999 to allow the 
Foundation to move forward on this issue. It's a tough 
challenge, I know, because there's a lot more demand out there 
than supply for Federal funding, however, it is a political 
issue, and it is an issue that costs this country billions and 
billions of dollars every year in decision making that is not 
best targeted to coming up with the right solution. We ask that 
that money not come out of NSF's existing requested budget. 
Again, recognizing that's an incredible challenge to put upon 
you and you have had a lot of diverse demands today, however, 
the issue is one that you--is fundamentally important to this 
Nation. This committee has supported it in the past, and, 
therefore, we've this wonderful opportunity to move forward and 
to make progress on this issue, particularly if NSF's report is 
a helpful one. Thank you very much, Mr. Chairman.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. No.
    Mr. Lewis. Thank you very much, Mr. Saundry, we appreciate 
your testimony.
    Mr. Saundry. Thank you.
    [The information follows:]


[Pages 499 - 505--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

RALPH BEEDLE, SENIOR VICE PRESIDENT, NUCLEAR GENERATION, NUCLEAR ENERGY 
    INSTITUTE
    Mr. Lewis. Mr. Ralph Beedle, senior vice president for 
Nuclear Generation at the Nuclear Energy Institute. Mr. Beedle.
    Mr. Beedle. Chairman Lewis and Representative Meek, my name 
is Ralph Beedle. I'm the Senior Vice President with the Nuclear 
Energy Institute. The Institute is a policy organization 
representing over 275 U.S. and international companies in the 
nuclear energy field.
    I'd like to begin by expressing my appreciation to this 
subcommittee for its commitment to careful oversight of the 
Environmental Protection Agency and its National Priorities 
List. I also appreciate the invitation to testify today and I 
ask that my full remarks be included in the record.
    Mr. Lewis. They will be.
    Mr. Beedle. Thank you. Last year, this committee and the 
Congress instructed the Environmental Protection Agency to 
refrain from devoting time and resources to establishing 
radiation protection standards for the public. These EPA 
standards which represent a direct conflict with those 
established by the Nuclear Regulatory Commission, the 
independent agency responsible for setting radiation standards 
for commercial nuclear facilities. The NRC rule for license 
termination assures full protection of public health and safety 
during comprehensive radiation protection programs based on 
total exposure to the public. The Commission's rule is a result 
of four years of extensive scientific study, public input, 
including more than 7,000 comments from the scientific and 
professional community, State, tribal, and local governments, 
the environmental groups, and the NRC licensees. The EPA was an 
active participant throughout the rulemaking process, and the 
NRC officials continuously sought that agency's input. The NRC 
has provided oversight for successful decommissioning to over 
70 sights using this rule.
    Last August, EPA released guidance on radiation clean-up 
standards that challenge the NRC's rule on residuals radiation 
standards, and these standards had been issued just one month 
earlier. The EPA guidance raises serious concerns that the EPA 
will target decommissioned sites that already have achieved NRC 
clean-up standards. This could result in additional analysis of 
clean decommissioned nuclear facilities. The process would be 
protracted and licensees including the Federal Government, 
universities, and medical institutions would face unnecessary 
financial burden to these alternate regulations with little 
benefit to the public and the health and safety of the public 
or the environment. This duplicative and confusing and 
regulatory effort by the EPA was specifically prohibited by 
this committee in report language last year. In addition, the 
Clinton administration in 1993 issued an Executive Order that 
restricts Federal agencies from creating inconsistent or 
duplicative regulations that result in unacceptable and 
unreasonable expense to the American public. The EPA's guidance 
is not consistent with the NRC's deliberative approach to 
nuclear power plant decommissioning standards. The 
Environmental Agency is promoting burdensome and costly 
regulations for the nuclear industry and its site cleanup 
effort.
    The agency also advocates a separate residual radiation 
standard for groundwater, although the Office of Management and 
Budget has determined that the proposal is cost prohibitive. 
EPA does not have any scientific basis for the proposal and the 
proposal would not enhance public health and safety, as I 
stated before.
    Last July, Congress adopted language in its appropriations 
report that prohibits the EPA from spending funds to place 
Nuclear Regulatory Commission license fees on the National 
Priority List, that is commonly referred to as the Superfund 
List.
    Notwithstanding this prohibition, the Agency appears to be 
devoting time and resources to challenging the NRC's authority 
to regulate the NRC licensing, specifically in establishing 
limits on public radiation exposure on decommissioned nuclear 
sites.
    NRC Chairman Jackson, in an April 9 letter to EPA 
Administrator Carol Browner said, and I quote, ``dual 
regulation is wasteful of both the government resources and the 
resources of the American citizens to whom the regulations 
apply.''
    The approach used in NRC's clean-up rules provides for the 
regulation necessary for adequate protection of public health 
and safety and the environment. The Nuclear Energy Institute 
recommends that this committee forcefully direct the EPA to 
apply its finite resources to areas where it has jurisdiction 
and where those resources can benefit the public. Further, the 
Committee should restrict the Agency from establishing 
duplicative radiation protection guidelines for NRC licensed 
facilities.
    Mr. Chairman, Congress can't afford to let the Federal 
government waste public and private funds on overlapping 
regulation initiatives that do not provide measurable 
improvement for public health and safety.
    Thank you very much for the opportunity to testify.
    Mrs. Meek. Thank you.
    Mr. Lewis. Mr. Beedle, your comments are very well taken, 
we appreciate you testimony. Sometimes, it is like speaking in 
a wind tunnel, but on the other hand I think we need to repeat 
that point. We have only so much money to go around and that is 
the point I need to make. Thank you very much.
    Mr. Beedle. Yes, sir.
    [The information follows:]


[Pages 508 - 516--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

STEPHEN GORDEN, DIRECTOR OF WATER AND SEWERAGE, CITY OF DETROIT, 
    MICHIGAN, AMERICAN WATER WORKS ASSOCIATION
    Mr. Lewis. Mr. Stephen Gorden, The American Water Works 
Association. Mr. Gorden? How are you?
    Mr. Gorden. Good afternoon.
    Mr. Lewis. You can summarize your statement if you like. It 
will be included in its entirety in the record.
    Mr. Gorden. My name is Steve Gorden and I am Director of 
the Detroit Water and Sewer from the State of Michigan and I am 
here on the part of the American Water Works Association. I am 
also here on behalf of the Association of Metropolitan Water 
Agencies and the National Association of Water Companies. And 
the combined membership serves approximately 80 percent of the 
population of the United States.
    I would like to thank the Committee for what it has done 
for systems in the past, we're talking about public health here 
and the Safe Drinking Water Act and the water community, and 
the water industry. It's been much appreciated.
    And I would also like to acknowledge Congressman 
Knollenberg from our area.
    The issues of public health and drinking water are very, 
very appropriate here. In fact, since the past four people have 
just testified, I started taking stuff out of my testimony 
because they are covering my issues.
    I think what it shows is the issues of the environment are 
really coming together and the common theme that I'm hearing, 
and I would say stuff about it also, is the research.
    We have certain things in our research for public drinking 
water, we have grants for public water systems supervision 
programs, the EPA programs, and the clean water action program, 
which the administration is putting forth. That will assist us 
in our watershed areas, very important to us, and the Drinking 
Water State Revolving Fund which we all know. Both programs 
will assist the industry where there are areas of problems with 
the financial disadvantage of standards.
    The two areas that I would like to talk about though are 
the Drinking Water SRF and the budget request for drinking 
water research. Those are really important to us. When the Safe 
Drinking Water Act came forth, the Administration recommended 
$1 billion for the original SRF amount. What has occurred, is 
EPA only requesting $775 million. We believe that we need to 
have that amount back up because SRF and what it tries to do is 
only seed money, very, very much seed money.
    For example, in a back of the envelope analysis, EPA 
indicated there was about $12.1 billion worth of safe drinking 
water needs out there reported by the industry. I will tell you 
that, Detroit alone has a capital program of $12 billion over 
the next ten years. And that's just these kinds of programs. 
The infrastructure is coming into play because what it is is 
public money.
    What we would also look at is drinking water research and, 
again, the three agencies that I mentioned that I'm 
representing recommend that at least $20 million of the 
drinking water research get added to the set-asides because of 
the things in the EPA. There are times that we can cooperate 
with our own research and thereby leverage up the funds from 
our research foundations. Those are very, very important to us.
    The Safe Drinking Water Act reforms require that good 
science and risk-based factors be used to make decisions on 
what our standards should be. By not having the good research, 
what happens or generally occurs is the addition of safety 
factors that really impact our infrastructure requirements and 
needs and are very costly to the public.
    As we talk here, public resources are very scarce. We have 
to be really careful with them and that is part of the drive 
for the Association.
    As I mentioned there is also the $5 million in the drinking 
water research including $1 million for arsenic and that went 
into our research foundations. Again, we encouraged that to 
come forth because the industry will match that. The government 
leverages up their ability to have the research done by 50 
cents on the dollar.
    In closing, I would say this to you again. I remind this 
committee that they have done some great work for us and I 
would encourage you to continue on, because this public health 
issue represents a basic trust between the government, the 
citizen, and their belief that we are here to protect their 
drinking water health. We never want to be in a position where 
a grandparent is fearful of giving a grandchild a drink of 
water out of the tap.
    That is something that we believe in. We live in our own 
communities and we support. So, I guess the request is, please 
help us maintain this trust in public health.
    If there are any questions, I'll be glad to answer them.
    Mr. Lewis. Mr. Gorden, Mr. Knollenberg was sorry he had a 
conflict and couldn't be here, but I appreciate in his absence 
your giving us a heads-up relative to the $4 billion item that 
may be caught in the assembly line.
    Mr. Gorden. Okay.
    Mr. Lewis. Thank you. Nice to see you.
    [The information follows:]


[Pages 519 - 526--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

ROBERT MARTIN, AMERICAN WATER WORKS ASSOCIATION RESEARCH FOUNDATION
    Mr. Lewis. Representing the American Water Works 
Association Research Foundation, from beautiful downtown 
Redlands, California, Robert Martin.
    Mr. Martin. Thank you, Mr. Chairman.
    Mr. Lewis. I realize a constituent. [Laughter.]
    As you know all day, we ask you to summarize your statement 
and that which you present will be included in the record.
    Mr. Martin. Very good.
    My name is Robert Martin, I'm the general manager of the 
East Valley Water District in San Bernardino, California. With 
me two are two of my directors, Mr. Don Goodin and Mr. Kip 
Sturgeon. Also with me is my colleague Whit Van Cott from the 
city of Hollywood in Florida, my wife, Elaine.
    I am here today representing the American Water Works 
Association Research Foundation, the Association of California 
Water Agencies, and my own district.
    Our request to you today is being supported by a number of 
other organizations, the American Water Works Association, the 
Association of Metropolitan Water Agencies, the National 
Association of Water Companies, and the Association of State 
Drinking Water Administrators.
    With regards to AWWARF, AWWARF is an organization that is 
supported by approximately 1,000 water utilities in the country 
and across the world. Utilities send their own money to help 
fund drinking water research. The support that your committee 
has provided to AWWARF has led to, I think, a string of 
successful Federal-local partnerships for drinking water 
research purposes.
    AWWARF has always pledged to bring its own money to the 
table before we ask your committee for funds. This is true this 
year, also.
    Last year, in fiscal year 1998, the Committee provided $4 
million to AWWARF which put in $1 million for arsenic health 
effect research. These funds will be matched by both AWWARF and 
AWCA, anywhere from a one-to-one basis up to over four-to-one 
by the water utilities.
    Again, I think this provides for a very effective 
partnership in drinking water research.
    This match will also provide funds to us in the coming 
fiscal year.
    Last year your committee also provided $2 million to fund 
East Valley Water District for perchlorate treatment technology 
research. Perchlorate is a rocket fuel additive that was found 
last year in drinking water supplies in California and Nevada. 
It is a chemical that is also used in the manufacture of 
ammunitions and fireworks. So far it has shown up in California 
and Nevada and I'm convinced if we're looking for it, we'll 
find it across the country and it will become a national 
drinking water problem.
    It's a bit disconcerting in that any of the contaminants we 
face, if we throw enough money at it, we can usually solve the 
problem by building enough treatment. With perchlorate, 
however, there is no treatment technology available to us, we 
cannot remove it from drinking water supplies, and that is what 
the money you have provided us with has been used for.
    Last year an expert panel was funded, both from across the 
country, to come together and develop a multiyear research 
program. That was done. And the $2 million you provided us has 
gone to funding the first set of high priority projects that 
were identified by that group of experts.
    With any luck, we are looking at contracts, we should have 
those awards done this summer and we'll get started.
    For fiscal year 1999, we are asking your committee to again 
provide a $5 million earmarked add-on to the American Water 
Works Association Research of which $1 million will be included 
for arsenic research.
    These funds will be matched on at least a one-for-one basis 
by the water supply community. We are also asking for $2.65 
million for East Valley Water District to continue our 
perchlorate research program. This will allow us to begin the 
phase two work and transfer the results we get in the 
laboratory to field applications.
    I want to thank you for the past support you've given us 
from this committee and I thank you for considering this 
current fiscal year 1999 request for funds.
    Mr. Lewis. Mr. Martin, we very much appreciate your 
testimony. I know you will keep this committee informed 
relative to your project as it moves forward and any additional 
material that you develop will be part of our buy-out as we 
develop our record. We very much appreciate it. We look forward 
to the 1999 year.
    Appreciate you and your colleagues being with us.
    Mr. Martin. Thank you very much.
    [The information follows:]



[Pages 529 - 535--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

RUDY RICE, PRESIDENT, NATIONAL ASSOCIATION OF CONSERVATION DISTRICTS
    Mr. Lewis. Our next witness is Rudy Rice, President, 
National Association of Conservation Districts.
    Mr. Rice.
    Mr. Rice. Thank you. Mr. Chairman, distinguished committee 
members, we thank you for this opportunity to come and present 
testimony to you.
    We've already submitted detailed testimony and these are 
the highlights quickly.
    Mr. Lewis. We appreciate that.
    Mr. Rice. My name is Rudy Rice and I'm here today on behalf 
of the Nation's 3,000 conservation districts and the 54 State-
level conservation agencies that provide administrative, 
technical, and financial support for their programs.
    Conservation district are units of local State government 
charged with carrying out natural resource management programs 
at the local levels.
    Our allied partners in Natural Resource Conservation 
Service, part of the United States Department of Agriculture, 
provide conservation assistance to more than 2.5 million 
landowners and operators who manage nearly 70 percent of the 
private land in the United States.
    I'm a dairy farmer from Illinois and I can particularly 
appreciate the recent attention that has been focused on animal 
waste management and water quality concerns.
    Conservation districts have been working with local farmers 
and ranchers for more than sixty years to help address natural 
resource problems. We have been strong supporters of the Clean 
Water Act section 319, the State's program because it fits 
closely with our cooperative, voluntary approach to solving 
resource problems.
    With State and local matching efforts, the 319 program has 
helped States make considerable progress in controlling 
nonpoint source pollution but a lot remains to be done.
    President Clinton's clean water action plan released in 
February cites 25 years in success in wastewater treatment and 
advances in reducing industrial waste discharges, largely as a 
result of more than $100 billion in Federal funding for program 
efforts during that time. We believe that the lack of funding 
has been, and still is, the main reason that States haven't 
made more progress in solving nonpoint source pollution 
problems.
    The President's plan shifts the Federal initiatives heavily 
toward nonpoint pollution. We believe it is a step in the right 
direction because it calls for substantial increases in 
funding, not just the EPA program, but other Federal agencies 
with water quality responsibilities as well. The President's 
Fiscal 1999 clean water and watershed restoration initiative 
calls for an additional $145 million over 1998 for EPA water 
quality programs. Most of the increase is targeted for nonpoint 
source pollution. While we do not support every initiative 
outlined in the President's plan, we do support increased 
funding for EPA's voluntary, incentives-based water quality 
programs.
    Specifically the budget initiative proposes to increase 
section 319 grants to $200 million. Conservation district 
currently receive about 34 percent of those funds from those 
grants and are well positioned to effectively utilize 
additional funding through this initiative.
    Since EPA is moving forward with plans to increase its 
regulatory oversight of animal feeding operations, we urge the 
Subcommittee to include in its report direction that increases 
is expected to provide for substantial expansion in technical 
and financial assistance to farmers and ranchers.
    On a personal note, I'm right in the process. I'm a fifth-
generation dairy farmer from southern Illinois and we're faced 
with a decision: Do we have the economic ability to update our 
waste-handling system or do we get out of the dairy business 
and it is going to be quite a tough decision for us, but we're 
going to have to face up to it.
    We need more assistance for development and implementation 
of integrated pest and crop management systems, nutrient and 
animal waste management plans, and installation of additional 
conservation measures to reduce runoff and erosion.
    Additional and specific recommendations for funding EPA's 
nonpoint source pollution programs are outlined in my written 
testimony. We urge you to keep in mind our collective ability 
to address the Nation's nonpoint source pollution problems 
depend on a strong Federal commitment to the partnership with 
State and local governments.
    I thank you for this opportunity to submit written 
testimony and a few moments of personal testimony.
    Mr. Lewis. Thank you, very much, Mr. Rice, for being with 
us. We appreciate very much your willingness to participate.
    Mrs. Meek.
    Mrs. Meek. Thank you. I have no questions.
    Mr. Rice. Thank you, sir.
    [The information follows:]


[Pages 538 - 544--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DAVE BOLIN, ALABAMA OIL AND GAS BOARD, GROUND WATER PROTECTION COUNCIL
    Mr. Lewis. Our next witness is Dave Bolin of the Ground 
Water Protection Council.
    Mr. Bolin.
    Mr. Bolin. Thank you, sir. Mr. Chairman, thank you for the 
opportunity to testify here today. My name is Dave Bolin. I am 
the Assistant Oil and Gas Supervisor for the State Oil and Gas 
Board of Alabama and I currently serve as the President of the 
Groundwater Protection Council.
    I am here today to provide testimony in support of certain 
EPA programs that address our Nation's groundwater supplies.
    I'll present my verbal testimony at this time.
    Mr. Lewis. Thank you very much.
    Mr. Bolin. My agency is a typical member agency of the 
Ground Water Protection Council. We are responsible for the 
environmental safeguards related to oil and gas exploration and 
production. Many of us are also responsible for State ground 
water and surface water protection programs. Through the GWPC, 
my agency and our counterparts in other States work together to 
protect ground water resources while reducing the cost of 
compliance to industry.
    We feel that GWPC's mission reflects the future of 
environmental protection; that is we, the regulations, must 
form partnerships with industry and local governments to 
protect the environment. This is the alterative to a command 
and control regulatory model which often results in unintended 
consequences, such as unnecessary cost to industry and local 
government.
    These consequences are not just to protect our environment 
or effectively utilize our limited resources.
    In addition to expressing the State governmental agencies' 
appreciation for your assistance this past year, Mr. Chairman, 
I would also like to emphasize one main point today, that is 
that the success in implementing the Safe Drinking Water Act's 
source water protection program, and the Act's underground 
injection control program for oil and gas exploration depends 
primarily on State government agencies such as the one I'm 
associated with.
    Because we are the keys to success and workability of these 
two EPA-delegated programs, we urge the Subcommittee to look at 
increasing funding to innovative State programs as an 
alternative to expanding the Federal bureaucracy. In both 
programs EPA had requested additional funding.
    An example of this environmental innovation is GWPC's 
proposal to provide States with data and information to allow 
them to comply with the 1996 Safe Drinking Water Act's 
requirements that States submit a source water plan to EPA next 
year for all their public water projects.
    We are currently developing a data system that many States 
will use as the core of their source water program. There is no 
other data system being developed by EPA or anyone else to 
assist the States.
    We feel that additional source water resources should be 
utilized to get this information system to States so that they 
can, in fact, comply with EPA requirements.
    I have with my testimony five letters from State 
governments supporting database systems.
    Our other priority is the EPA underground injection control 
program. It is our hope that you will consider increasing the 
program's funding in this EPA budget. Increasing the UIC grant 
to $17 million in this coming year will not only protect the 
environment but will also reduce the environmental regulatory 
cost burden on the oil and gas industries and the State 
agencies.
    Currently, as a result of overburdened State agencies, 
industry may face slower process of permits which ultimately 
decreases production and makes foreign production more 
competitive.
    In closing, Mr. Chairman, we would like to thank the 
Committee for the previous support and ask for your support 
again on these two priorities.
    Mr. Lewis. Thank you very much, Mr. Bolin. Questions from 
the members of Mr. Bolin?
    We appreciate your being here and GWPC has been represented 
very well by you.
    Mr. Bolin. Thank you, sir.
    [The information follows:]


[Pages 547 - 557--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

PATRICK WILLIAMS, MANAGER, VALLEY OF ENCHANTMENT MUTUAL WATER COMPANY, 
    CALIFORNIA RURAL WATER ASSOCIATION
    Mr. Lewis. The National Rural Water Association is 
represented by Mr. Patrick Williams, who comes to us directly 
from heaven. [Laughter.]
    Beautiful downtown Crestline in this case. I think you've 
heard me today, your entire testimony will be included in the 
record and if you'd summarize that for us, we'll see what 
members have questions.
    Mr. Williams. Good afternoon, Chairman Lewis, and members 
of the Committee. My name is Patrick Williams and I am the 
manager of the Valley of Enchantment Mutual Water Company in 
Crestline, California. I am honored to be here today, this is 
my first time to visit Washington.
    The Valley of Enchantment Mutual Water Company is a 
nonprofit small water system serving 850 homes in the San 
Bernardino Mountains. We are run by a seven-member elected 
board of directors comprised of local citizens. Our average 
monthly water bill for a family of four is approximately $50 a 
month. We have some of the highest rates in California due to a 
lack of groundwater and the high cost of supplemental water 
from the State water project.
    Due to our local geology and the fact that we are 
surrounded by the San Bernardino National Forest, any 
groundwater is precious.
    I have over 22 wells and we are constantly studying new 
sources. The National Forest Service will not permit any new 
wells on their land and the local geology makes finding new 
sources a real challenge. Last year we spent over $50,000 to 
drill a new well 500 feet into the granite bedrock. Due to 
these challenges, I am a perfect candidate for the rural water 
groundwater program. I must protect each of my wells. Any 
contamination in any of my 22 wells would be disastrous.
    My message today is that the funding for rural water 
technical assistance and small community groundwater protection 
are the most important EPA funds that you appropriate.
    It is smaller communities that have struggled to comply 
with the Safe Drinking Water Act and it is the on-site 
technical assistance and training provided by the California 
Rural Water Association and the other State rural water 
associations that have allowed smaller systems to comply with 
Federal mandates and protect their drinking water.
    Rural water works, because it works from the bottom up by 
educating small tows on the need to protect our own environment 
and then showing them how on a peer-to-per level. This 
grassroots approach is the only way to get improvement in the 
over 150,000 little water systems across the country.
    When our community takes responsibility for our own 
environmental protection, it works better and cheaper than 
heavy-handed enforcement. All small communities want to provide 
safe water, and rural water teaches them how, right in their 
own community.
    This report, which I will leave with you today, describes 
and lists the over 2,000 rural communities that have adopted 
groundwater protection ordinances through the EPA rural water 
groundwater protection program. My town will be on this list 
next year.
    The core of the program relies on the active participation 
of the local water operators like me. When we recommend the 
groundwater protection programs to local elected board of 
directors, it moves forward with their official support. Once 
the local ordinance is in place, we can take action.
    There is a need to identify potential pollution problems 
like illegal dumping, gas stations, and industries and make 
sure that they obtain permission before they are allowed to 
enter into any risky activity.
    This is the most progressive groundwater program in 
existence and it has been accomplished without Federal 
regulation.
    Mr. Chairman, I will close with our request that the 
committee include $8.8 million in the EPA's budget for all 
State rural water technical assistance and our groundwater 
protection initiatives.
    Thank you for your past support and the opportunity to be 
here today.
    Mr. Lewis. Mr. Williams, I very much appreciate your being 
here. As you know, the Committee has been very positive about 
these programs in the past as we will do what we can to be 
responsive to your quest. You have indicated this is the first 
time you've been to the Nation's capital. Have you gone by my 
office in Rayburn yet?
    Mr. Williams. I'm on my way there, shortly.
    Mr. Lewis. I don't see him around here, so if you ask for 
Jeff Shockley, make sure you tell him that you and I just 
chatted.
    Mr. Williams. Okay.
    Mr. Lewis. I appreciate your being here.
    [The information follows:]


[Pages 560 - 565--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

JOE L. MAUDERLY, SENIOR SCIENTIST, DIRECTOR OF EXTERNAL AFFAIRS, 
    LOVELACE RESPIRATORY RESERCH INSTITUTE
    Mr. Lewis. Mr. Redmond.
    Mr. Redmond. I came to hear Mr. Mauderly from my home 
district.
    Mr. Lewis. Okay. We are exercising the discretion of the 
Chair again because my colleagues have ridiculous schedules and 
Mr. Redmond, I appreciate you coming.
    Mr. Redmond. Thank you, Mr. Chairman. I believe the person 
who testified right before me was from, you mentioned coming 
straight from heaven. He must have gotten off the plane from 
Albuquerque because Albuquerque is [speaks briefly in Spanish], 
the kingdom of heaven of the Southwest.
    Mr. Lewis. I've heard that from you and others. I've been 
convinced that I might visit sometimes.
    Mr. Redmond. Oh, New Mexico is beautiful. Acoma Pueblo is 
the oldest inhabited village in North America. It's south of 
where Dr. Mauderly lives.
    Mr. Chairman, I'm here to introduce Dr. Joe Mauderly. He's 
the Director of External Affairs at Lovelace Respiratory 
Research Institute, a private, nonprofit biomedical research 
organization in Albuquerque, New Mexico.
    He has devoted his entire career to researching and 
understanding and preventing human health risks from inhaled 
toxic agents.
    Earlier in his career, Dr. Mauderly pioneered the field of 
adapting the full range of clinical tests of human lung 
infections, human lung function to the application of animals 
and laboratory studies. His recent research has focused on 
health risks from inhaled particles and improving our 
understanding of the usefulness of animal models for predicting 
particulate inducted human lung disease.
    He is especially recognized for his extensive research on 
lung health risks from inhaled diesel exhaust, he is a member 
of several professional organizations primarily dealing with 
toxicology, physiology, and thoracic medicine. He has published 
over 242 articles, chapters, books, as well as 100 abstracts.
    Today he's here seeking your subcommittee's continued 
support for the newly created congressionally-approved National 
Environment Respiratory Center, the NERC. The center will 
provide information, conduct research, provide research 
resources, and facilitate communication concerningrespiratory 
health risks of combined exposures to multiple air pollutants and 
pollutant mixtures.
    I believe this is vital research and if at all possible 
that his program be funded at the requested level of $2 
million.
    Mr. Lewis. Thank you very much, Mr. Redmond. Dr. Mauderly.
    Dr. Mauderly. Thank you, Congressman Redmond. And thank 
you, Mr. Chairman, Members. I'm here to ask for your continued 
support for the National Environmental Respiratory Center. The 
center was begun this year to understand the health risks of 
air pollutant mixtures in combined exposures to multiple 
pollutants.
    Our air quality regulations address air pollution one at a 
time. The center was founded on the premise that this strategy 
is reaching a point of diminishing returns. Air contaminants 
always occur as mixtures. No one in this room ever drew a 
breath that had only one air contaminant in it. We all know 
that.
    Air quality in this country has improved markedly over the 
last 20 years and there still seem to be residual effects on 
air quality on health. And we don't understand them very well. 
It is becoming more difficult to understand them. It is 
certainly becoming less plausible that these residual effects 
can be ascribed to any one pollutant or pollutant class, yet 
that is what we continue to attempt to do, with our research 
and our regulatory strategy.
    It's becoming nearly impossible to isolate the effects of a 
single pollutant and in a way that's good news because it's 
becoming more true as pollutant levels fall.
    That is, the aggregate effects of the residual pollutants 
interact with each other more than when we had high 
concentrations of single pollutants that were easier to 
identify.
    However, there is increasing danger that the effects of 
dirty air also will be wrongly ascribed to a single pollutant. 
If we continue to chase these health effects on a single 
pollutant basis, when in fact they result from a mixture.
    Atmosphere reaction products that are not even measured as 
part of our air quality criteria are likely to be important in 
these effects.
    The default assumption that the risks of combinations of 
air pollutants are additive, or can be gained just by adding 
the risk of the individual pollutants may either overestimate 
or underestimate the true risks.
    Now I assure you that Lovelace is not the only organization 
that has raised these issues. There is broad agreement with the 
statements that I just made in industry, in the agency, and 
among scientists.
    However, the problem is very complex and before now no 
organization has taken it on in a serious, integrating way. EPA 
has a budding one-atmosphere program in this field, but it does 
not yet include health research.
    NIHS solicited grant proposals on chemical mixtures, but 
this program doesn't focus on air.
    NIOSH's strategic plan acknowledges the importance of 
mixtures in the workplace, and yet NIOSH has no significant 
research initiative in this field.
    There are a set of common needs that must be met but these 
and other efforts to meld into the kind of initiatives that 
will truly move us forward. There needs to be a champion 
organization or activity to raise the issue to a critical level 
and catalyze the efforts of other organizations.
    Some organization has to ensure that the right people get 
together to benchmark what we know, to prioritize information 
needs and develop research approaches. There needs to be a 
resource for information on what is presently known on ongoing 
research and research resources in this specialized field.
    There needs to be user facilities which agency, university, 
and industry researchers can access to avoid the need to 
duplicate some of the specialized research facilities that are 
needed in this area.
    Now meeting these needs and conducting research is exactly 
what the new center is intended. The project is off to a 
running start. The information resource is already developing, 
EPA and other organizations are already proposing how this 
resource can meet their unmet needs.
    A superb scientific advisory committee of eight individuals 
from academia, EPA, and industry have been established and 
their credentials, could I recite them, testify to the 
creditability and importance of the effort.
    The facilities of the center are already being accessed by 
other researchers. Significantly to me, several managers within 
EPA have already acknowledged, albeit verbally, that this is 
one earmark that will actually do the Agency some good.
    We fully expect the time will come when a yearly 
appropriation by Congress will not be necessary. But this year, 
however, congressional support is necessary to ensure the 
continuation of the developing of the center. So, we seek $2 
million for fiscal year 1999, identical to the 1998 
appropriation.
    We're also seeking support from industry and other 
resources with the intent of eventually matching, or even 
exceeding, the amount provided through EPA.
    Thank you for the opportunity to give you this update and 
make this request.
    Mr. Lewis. Thank you very much, Dr. Mauderly. There isno 
reason why you would have any idea that many years ago I had the 
privilege of chairing a subcommittee that dealt with air quality in 
California, coming from a district that is probably the most impacted 
district in the country, and I remember 25 years ago we were talking 
about the need to find the health impact of ozone upon people's who 
lives were going to change by regulation or otherwise.
    Hope springs eternal. So, please, do feel to come back one 
more time, if necessary, next year.
    Dr. Mauderly. We'll do that.
    Mr. Lewis. And we'll try to do what we can to help. 
Questions?
    Mr. Price. No questions, Mr. Chairman. I thank the 
gentleman for being here.
    Dr. Mauderly. Thank you very much.
    [The information follows:]


[Pages 569 - 580--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

OTTO G. RAABE, PRESIDENT, HEALTH PHYSICS SOCIETY
    Mr. Lewis. Let's see. We'll move on here. Is Otto Raabe, 
Dr. Raabe here? Did I pronounce that correctly?
    Welcome.
    Mr. Raabe. My name is Otto Raabe. Thank you, Mr. Chairman. 
I appreciate the opportunity to talk to you this afternoon 
about issues related to radiation safety.
    Some of the earlier witnesses talking about the problem of 
radiation safety between the two agencies; my testimony relates 
to this.
    I am a professor at the University of California-Davis, I'm 
from northern California and I am a specialist in radiation 
biology and biophysics.
    I am also the current president of the Health Physics 
Society. The Health Physics Society is the association of 
professionals who specialize in radiation safety, sometimes 
people get confused by the name, but what we're interested in, 
what we do is radiation safety and safeguarding the health of 
people and the environment from potential hazardous exposure to 
radiation.
    The society has a number of position statements and I've 
included three of them today with my testimony. They are on 
Radiation Risk in Perspective, one on Radiation Dose Limits for 
the General Public, and one on Radiation Standards for Cleanup 
and Restoration and I ask that those be included in the record 
with the rest of my testimony.
    Mr. Lewis. We'll include your entire testimony in the 
record and additional material will be included in our file.
    Mr. Raabe. Okay, thank you very much. I think the main 
point of my written testimony is that excessively stringent 
radiation safety standards will cause the cost to the U.S. 
Government for radiation to skyrocket without any real 
measurable improvement in human health.
    And this is, I think, a very, it's a serious matter to our 
society and I think it should be to your committee too, because 
I think we can save money by adopting reasonable standards for 
protecting health and also give us an opportunity to 
economically do the cleanups.
    Now I'm aware the Subcommittee has already considered the 
interaction of various Federal agencies, and particularly the 
role of the Environmental Protection Agency, in these 
standards. The EPA, of course, absorbed the functions of the 
old Federation Radiation Council in 1970. So they've been given 
guidelines and they've been publishing various guidance reports 
and most of those reports have been tabulations of dosimetry 
models, and so forth, very useful.
    But the society is very concerned right now about this 
draft report called Federal Guidance Report No. 13, unlucky 13. 
We think it is a very unfortunate document because it sort of 
continues this process of trying to reduce spending for lower 
and lower values.
    Now the methodology in this report is complex, but 
basically they have combined some very sophisticated dosimetry 
models which we believe to be excellent with some very 
speculative linear dose-response models that are not proven, 
they are strictly speculation and after actually conflict with 
existing data.
    The report also speaks to risk-coefficients for cancer 
based upon this combination. This is done for radionuclides 
which are inhaled, injected, or present on the environment 
based on external radiation of the human body. The problem here 
is that the models used are imaginary, they are unreliable, and 
they grossly underestimate the risk.
    The tabulated values are wrong, and the reestimated risks 
are unverifiable, but people are going to rely on these values 
and so this is the risk of these radionuclides
    Now the way they do this is by what is called a linear 
best-response model. In the commission statement on Radiation 
Risk in Perspective, our society has specifically said that we 
can assign risk using this model for doses below 10 rem, which 
is a pretty large dose of radiation, and this document presumes 
to be able to actually assign these risks.
    You may ask me, what is this linear model? I can give you 
an example I use with my students. Suppose you have a hurricane 
in Miami. And the winds blow for 24 hours at 100 miles per hour 
and 10 people are killed during that hurricane.
     Now if you want to compile a linear risk model for this, 
as the EPA does in this document, what you do just say, well, 
if the winds blow at 10 miles per hour for 24 hours, then 1 
person would be killed.
    It's a proportion. Or if the winds blow at 1 mile per hour, 
at 10 continual days, 1 person would be killed. I find that 
nonsense, but that is exactly the methodology used here which 
our society recommends against.
    Now I think there is a problem between agencies that was 
brought up earlier because of the Commission's 25 millirem 
standard and the EPA cutting back funds. This is not protective 
enough.
    I can say from our society's point of view, from my own 
point of view as a professional in this field for 30 years, 
there is no known or expected risk with either of these doses. 
This is a truly artificial problem that has developed. This 
controversy is totally artificial.
    The NRC's 25 millirem standard is more than satisfactory 
for those patients. It is well established, but the EPA does 
have its Federal guidance prerogatives, so there is a problem 
here that I think the Congress needs to consider. It is going 
to be costly if we continually have this problem, where we have 
lower and lower dose estimates and an interaction between the 
agencies where problems exist. So I would suggest that perhaps 
the Committee can look into the whole standard-setting process 
because, as I say, it does involve money.
    I think this thing with FGR-13 should be withdrawn. Either 
they are going to use the numbers in these tables or they are 
going to actually go here and read these numbers off to three 
significant figures. I have data that I've discussed with EPA 
that show that they are wrong.
    Your subcommittee should consider alternate mechanisms for 
guidance on radiation safety because right now there obviously 
is a problem. Perhaps America needs a new interagency council 
that will provide Federal guidance based on some consensus, 
using all available scientific and all the expertise that we 
have in several Federal agencies. The Department of Energy has 
considerable expertise in the radiation safety area, as does 
the Nuclear Regulatory Commission, perhaps more than the EPA.
    I do think that such congressional action will markedly 
reduce the costs of safety and clean-up operations.
    Thank you.
    Mr. Lewis. Do the members have questions of Dr. Raabe?
    Dr. Raabe, as I indicated, it is important for you to know 
that we don't hold these hearings for outside witnesses lightly 
and I very much appreciate your testimony and your effort to be 
here.
    Mr. Raabe. Thank you.
    Mr. Lewis. It is significant for us to have people of 
professional standing with scientific background who will come 
and help us communicate to EPA that we need to make sure that 
that scientific advice and counsel that is available to our 
agencies ought to be used both in terms of their practical 
experience in the world out there where people have to live and 
work, and we want these programs, if they are going to be 
credible, to reflect a world that is both cost-effective, but 
also addresses the question of people's health. So your 
testimony is welcome and we appreciate your being here.
    Mr. Raabe. Thank you very much. I have talked to EPA about 
this.
    Mr. Lewis. I gathered that.
    Mr. Raabe. And I must say the people involved are sincere 
but they are members of a healthy society and so it's a sincere 
effort but it's a modeling approach that they use that is a 
very simplistic one that, unfortunately, just overestimates.
    Mr. Lewis. One of our difficulties is that, whether we are 
talking about these standards of radiation, or standards that 
relate to air quality questions, any number of other regulatory 
activities, sometimes it seems that a panel of scientists ends 
up being selected to help establish conclusions rather than to 
work on not only an effective analysis but solutions that lead 
to real public policy change.
    So we appreciate your being here very much.
    Mr. Raabe. Thank you very much.
    [The information follows:]


[Pages 584 - 605--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

JARED O. BLUM, PRESIDENT, POLYISOCYANURATE INSULATION MANUFACTURERS 
    ASSOCIATION
    Mr. Lewis. Let's see, next we have Jared Blum, the 
president of the--let's see, I'll have to get my glasses on for 
that one. [Laughter.]
    Jared Blum. Where'd you get the name Jared?
    Mr. Blum. Biblical. It's been in the family for quite a 
long time.
    Mr. Lewis. One of our colleagues, a senior member of the 
Appropriations Committee, has a young boy that's now about 5 
years old, 4 years old? Joe McDade, his boy's name is Jared, 
first time I've heard it since reading the Bible.
    Mr. Blum. Thank you sir, and I appreciate your patience and 
your attention on a long day. I am Jared Blum and I do 
represent the Polyisocyanurate Insulation Manufacturers, they 
are the leading commercial insulation manufacturers in the 
United States, manufacturing high-performance foam insulation. 
I am here today in support of, or to paraphrase Shakespeare, I 
am here to praise the EPA, not to bury them.
    We all have our concerns and disagreements with that 
agency, but on this particular day, I think I'm here to praise 
a voluntary program that they have implemented over the several 
years called the Energy Star Program. It is not climatic 
control; it is dealing with a voluntary approach to a very 
important issue and that is the quality of the housing stock 
that we now are putting together for future generations to live 
in.
    Energy Star programs, in our view, are well-run, and are 
relatively inexpensive. The President's program I think does 
ask for approximately $19 million. We're asking for the 
Committee's favorable consideration for that.
    We believe EPA should be applauded for its creative and 
economically-sound thinking in finding voluntary solutions to 
environmental problems.
    The Energy Star homes program basically is an information 
program and labeling program which encourages builders to 
participate who construct homes that exceed what is known as 
the model energy code by 30 percent. The model energy code is a 
voluntary standard adopted by individual States which has the 
input of industry entities such as local homebuilders, et 
cetera. So it is a voluntary standard. In many States it has 
been adopted by States as a mandatory standard, States like 
California.
    Energy Star homes are new homes, and by our reckoning the 
last two years, we've had over 500 homes that have been built 
to those standards. These homes have return on investment for 
the homebuilder significantly outweighing the initial 
investment in energy performance.
    The goal of the Energy Star Homes program is to increase 
the market share of Energy Star Homes to 10 percent of new home 
construction by 2002, which would be about 100,000 homes. They 
will have both economic and environmental benefits. The homes 
sold by the year 2000 will represent an energy savings over 
their lifetime or their mortgage lifetime of 30 years of about 
$1.8 billion.
    The environmental benefits set out small but grow 
impressively over the next 13 years. The construction of Energy 
Star Homes will result in annual CO2 emission reductions of 
about .3 million metric tons, which is equivalent to removing 
more than 55,000 cars from the road. One of the things that we 
don't keep in mind as we focus so much on cafe standards and 
the role of automobiles is that actually the average home uses 
more energy per day than the average car.
    One of the programs that we're very familiar with in 
addition to Energy Star Homes is Energy Star Insulation. As you 
might imagine, we've had some expertise in that area. The 
program with EPA is promoting the use of insulation in homes as 
well as buildings that are going to be retrofitted. It's an 
educational program for the consumer to understand the pay back 
of utilizing insulation in their homes. Companies that partner 
with EPA get to use an EPA logo on their product.
    I will get to the end, so you guys can move forward. The 
bottom line is we believe that the use of the EPA's program in 
the short term--we don't believe it's one of the programs where 
we come back every year, year in and year out, for funding--we 
think what you want to do is change the dynamics in the 
construction industry to appreciate how you get an Energy Star 
Home and energy efficient home built in a cost effective 
manner. We think once you plant the seeds of a new and more 
sustainable market, that the EPA program, unlike so many 
others, can fade away and not be funded any more.
    I thank you for your time and I'll be willing to take any 
questions you might have.
    Mr. Lewis. Thank you, Mr. Blum. Questions?
    Mr. Price. Thank you for being here. I have no questions.
    Mr. Frelinghuysen. No questions.
    Mr. Lewis. Thank you very much. We appreciate your being 
here.
    [The information follows:]


[Pages 608 - 615--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

THOMAS YUILL, NASULGC
    Mr. Lewis. Dr. Thomas Yuill? Did I pronounce that 
correctly?
    Mr. Yuill. Pretty close, Mr. Chairman. It's Yuill.
    Mr. Lewis. Okay, Dr. Yuill? I won't even try to pronounce 
NASULGC. [Laughter.]
    Mr. Yuill. Mr. Chairman, I want to thank you and the 
Committee for this opportunity to present testimony on the 
fiscal year 1999 budget request for EPA. I also want to commend 
you on your leadership of the Committee and the focus on the 
environment, and for the continuing efforts of the whole 
Committee for improving the environmental science capabilities 
of our country.
    I am Dr. Tom Yuill, Director of the Institute for 
Environmental Studies of the University of Wisconsin, Madison. 
I am providing this statement for NASULGC, the National 
Association of State Universities and Land-Grant Colleges. I 
currently chair it's EPA partnership task force between EPA and 
NASULGC.
    For those of you who may not be familiar with NASULGC, it's 
the Nation's oldest higher education association with over 190 
member institutions. Among them, the 17 historically black 
institutions with representation from all 50 States. The 
association supports high quality public education by enhancing 
the capacity of member institutions to perform their 
traditional teaching, research, and outreach missions.
    I'll focus my comments this afternoon on EPA's Office of 
Research and Development, specifically it's Science to Achieve 
Results, or STAR program.
    I'm very grateful to the committee for having invited the 
previous testimony, which has provided a wonderful segue for 
underscoring the need for solid science to undergo public 
policy and regulation. We in NASULGC strongly support the 
Agency's $100 million request for fiscal year 1999 for 
competitively awarded extramural research grants under the STAR 
program. We also recommend $15 million for 300 graduate 
fellowships, which is $5 million above the EPA request.
    The relatively small amount the Agency invests in STAR 
within it's $7.8 billion contributes significantly to sound 
science. Without which the Agency will not be able to correctly 
identify and develop sound management and mitigation strategies 
for emerging or existing environmental problems, and some of 
the testimony I think we just heard does certainly point that 
out.
    Before the inception of STAR, the quality of EPA science 
was questioned by many authorities, including this committee. 
The highly successful four-year-old STAR program was a good 
example of a productive, cost effective, university/Agency 
partnership, that assures the highest quality of science 
through a rigorous peer review process.
    Although EPA has been widely criticized for insufficient 
use of peer review, the Agency is making important progress. We 
strongly support EPA's effort to thoroughly integrate peer 
review into all of it's scientific and technical products. EPA 
has worked with NASULGC to greatly expand it's base of 
qualified peer reviewers. The Association has utilized it's 
extensive database of expertise within the member institutions 
to help EPA locate the highest caliber candidates.
    NASULGC also supports graduate fellowships which are an 
investment to produce the next generation of scientists and 
engineers, not just for regulatory agencies or for academia, 
but for industry as well. The need for knowledge of 
environmental science is necessary to remain competitive in the 
global marketplace.
    Since 1994, NASULGC has worked closely with EPA's ORD in 
partnership to help the Agency develop and implement science 
and research reform. We will continue to work with ORD on a 
variety of joint initiatives to enhance the quality of 
environmental science in priority areas and to facilitate 
environmental information dissemination to decision makers and 
to the public.
    Again, I thank you for this opportunity to provide 
testimony and will welcome any questions that you might have.
    Mr. Lewis. Thank you very much, Dr. Yuill. Questions, Mr. 
Price?
    Mr. Price. I wonder if you could elaborate a bit on the 
relationship between the Office of Research and Development 
budget and the total research budget. You refer to this in a 
critical way in your testimony and what catches my attention is 
the reminder you offer of the ORD research agenda--particulate 
matter, microbials and disinfectants in water, algal blooms, 
endocrine disruptors, and so forth. You're suggesting that the 
agenda may not be pursued as extensively as possible because of 
this budget shift.
    Mr. Yuill. That's our concern. The curious thing that seems 
to us is that the ORD budget, which is ostensibly the core 
research effort within the Agency, is actually going to undergo 
a 9.5 percent reduction. The overall research budget within the 
Agency is increasing. So that research money is going somewhere 
else. And one of the concerns--it's uneasiness that we have--is 
that those resources are not going to go into the high priority 
items that have been developed with the strategic plan that's 
been done very thoughtfully within EPA with a lot of outside 
input. And it's going to go into other things and will not be 
as effective as a well integrated focused program would be 
within ORD.
    It's something that we will be watching with considerable 
concern. Of course, we're delighted that they are going to 
propose to continue the STAR budget at $100 million, bringing 
the best science and the best scientists outside the Agency to 
bear on the significant problems that they've identified. But 
we don't know why the ORD overall budget has been reduced and 
that money is going other places, or if it will be as 
effectively directed as it would have been, in our opinion, 
within ORD.
    Mr. Price. Something that we will want to look at. Thank 
you.
    Mr. Lewis. Your testimony is very worthwhile in that 
connection for following these dollars to make sure they are 
not, for example, not being diverted for regulatory activities 
when they were meant for science in the first place. Your input 
is appreciated. Thank you for being here.
    Mr. Yuill. Thank you very much, Mr. Chairman, Committee 
Members.
    [The information follows:]


[Pages 619 - 626--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

     ENVIRONMENTAL PROTECTION AGENCY, HOUSING AND URBAN DEVELOPMENT

                                WITNESS

SCOTT SKLAR, EXECUTIVE DIRECTOR, SOLAR UNITY NETWORK
    Mr. Lewis. Our next witness from the Solar Unity Network, 
Scott Sklar.
    Mr. Sklar. Thank you, Mr. Chairman.
    Mr. Lewis. Please come up. It's good to see you.
    Mr. Sklar. It's good to see you.
    Mr. Lewis. Thank you, sir.
    Mr. Sklar. First of all, I commend you for getting a 
bearded director and getting diversity in the political 
workplace. I think that's PC. [Laughter.]
    Mr. Lewis. It's very important. Some guys are more 
conservative with some things and some with others.
    Mr. Sklar. I understand that. [Laughter.]
    I run the trade association for the solar industry. We have 
165 companies that manufacture solar products in the U.S. and 
500 companies in State chapters, 40 companies in the State of 
New Jersey, 120 in California, and so on. We're growing. We cut 
ribbon on 4 new automated manufacturing plants in the U.S. with 
200 to 400 each in 1996, another 4 in 1997, and 6 to 8 in 1998. 
So we're in a big growth curve. 70 percent of our products are 
going to Third World where 2 billion people don't have access 
to electricity and another 1 billion have access to electricity 
of less than 10 hours a day. We lead the world technologically.
    So why do I come here? There are three programs that this 
subcommittee has jurisdiction over--and I'm not asking you for 
more money, but I am asking you for help and access.
    With EPA, this subcommittee added report language last year 
that, for the first time, told EPA that instead of looking at 
dealing with the end of the smokestack, end of the tailpipe, 
let's promote pollution prevention technologies that are cost 
effective so that we can solve the problem at the beginning, 
not at the end. That, in fact, had a chain reaction and now 
we're having a dialogue for the first time.
    What we're asking you frankly is to now go one step further 
with them in terms of directive language to include us, like my 
colleague from PIMA, in the energy STAR programs and in some of 
the verification and validation programs. What most people 
don't realize is we are in the marketplace now manufacturing 
and what EPA can do using it's already existing resources at 
ORD and their air quality shop, is to show what we can do.
    And I brought commercial, off-the-shelf technology solar 
roofing shingles. This is produced in Michigan at a plant. This 
part produces electricity; it replaces your existing roofing 
shingles. It is very expensive. It's the most expensive tile 
shingle in California. But it does produce electricity at the 
same time, 25 year life. I'd like you to touch it. A few energy 
sources that, Mr. Price, that you can touch without something 
happening.
    But, at any rate, the fact of the matter is that this 
technology as we scale up with these new plants, will come down 
in cost. Twenty-one States have already signed into law net 
metering legislation which allows homeowners to have an 
interconnection and to be paid a rate in excess of what they 
used--21 States, by partisan, and growing, in a year and a 
half. So you see there's a lot of popular support for this.
    VA--the same kind of issue in their lending programs. They 
are authorized, just like EPA, to promote energy efficiency and 
solar. But when you call up, they don't know anything about it. 
All we ask is that they're authorized to do it and they 
determine under their own rules we're cost effective, we should 
be an allowable commercial like they do insulation or energy 
efficient light bulbs.
    Lastly, with HUD, the Administration has proposed a program 
called the Partnership for Advancing Technology in Housing, 
PATH. And actually it's a good transfer program. It's a way to 
sort of reinvigorate how builders and others, architects, can 
incorporate U.S. technology, a blend of them in housing. We are 
theoretically one of the things they're supposed to do, and 
without some by partisan congressional prodding. In the 
industry, we are the largest producers of this technology in 
the world--these 165 companies--we have 1/2 the world market. 
But you can not sustain the global market unless you have 
demonstrably growing domestic market.
    So that's what I'm here for. Not asking for big dollars, 
but asking for your oversight, your continued support. You've 
been really good for us, and we've been growing as a result of 
being good for us. But you can bring clean technology to the 
marketplace without command and control and just providing what 
everybody else's access in the Federal tools.
    Mr. Lewis. Very good. I appreciate very much your 
testimony. Mr. Price.
    Mr. Price. No questions. Thank you for being here.
    Mr. Lewis. I appreciate your paying such close attention to 
my staff director.
    Mr. Sklar. Somebody had to. [Laughter.]
    Mr. Lewis. Thank you, Mr. Sklar.
    [The information follows:]


[Pages 629 - 635--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

VANESSA M. LEIBY, EXECUTIVE DIRECTOR, ASSOCIATION OF STATE DRINKING 
    WATER ADMINISTRATORS
    Mr. Lewis. Vanessa Leiby? Hi, Vanessa, who is with the 
Association of State Drinking Water Administrators. She is the 
Executive Director. You've heard me talk about summarizing 
statements and your testimony will be in the record.
    Ms. Leiby. It sure will. Good afternoon. I didn't bring any 
props, but you've all had some of our drinking water, so we've 
already got the props warm. We appreciate that.
    As you indicated, I'm Vanessa Leiby. I'm the Executive 
Director of the Association of State Drinking Water 
Administrators, also known as ASDWA. In that capacity, we 
represent all of the 56 States and territories that implement 
and enforce the Safe Drinking Water Act.
    My written comments are here. I also brought copies of our 
annual report for 1997 to give you additional information about 
the activities and accomplishments of the States over the 
course of the last year.
    In the few minutes I have today, I'm really pleased to 
report on the successes from both the State's EPA and the water 
system in our efforts to move rapidly forward in implementing 
the new Safe Drinking Water Act.
    To tell you a little bit about that. To date, 49 of the 50 
states have received legislative authority for their drinking 
water state revolving loan fund. 27 of those States have 
received approval for their application packages, and that 
translates into about $530 million that's now available for 
water system infrastructure improvements and various sites that 
are authorized. EPA has and as we fully expect that all the 
States will submit their applications by the September 
deadline.
    In addition, all the 50 States have developed annual 
compliance reports that have provided information to the public 
on water system compliance and a new consumer public right to 
know provisions in the law. And these reports specifically list 
the systems that have violated maximum contaminate levels, 
treatment techniques, variances in exemptions were significant 
monitoring violations. We've also provided that information to 
EPA and it will be made available in a national report that 
will be published in July.
    Almost every State that has indicated a new for a new 
administrative penalty authority, some new enforcement 
provisions, has submitted legislation. Many States have also 
obtained legislative authority to prevent the formation of new 
non-viable water systems. States have also actively 
participated in the numerous stakeholder meetings that the 
agency has held throughout the year, covering operator 
certification, capacity development, listing of technologies 
for small systems, the SRL, consumer confidence source water 
protection, and the list goes on and on and on and on.
    I want you to be aware of the fact that this is in addition 
to implementing the many and varied responsibilities and 
programs and regulations that they've continued to have to 
implement to protect public health and ensure the provision of 
safe water. This workload's going to continue to increase and 
expand over the next few years as EPA and the States move 
forward to meet all of the new deadlines and responsibilities 
in the State drinking water act.
    So I've come here today to inform you of the enthusiasm, 
the successes of the past year, the strides that the States are 
making, but also to respectfully request that the Committee 
provide an additional $10 million for the public water supply 
supervision program. This $10 million will demonstrate to the 
States that Congress understands and appreciates their efforts, 
as well as recognize the many treatments the States have made 
in the past year in light of the fact that we have not received 
an increase in that level of funding since Fiscal Year 1996.
    This new funding will be critical as States move forward to 
develop capacity development strategies, source water 
assessment, and delineation programs, and revise and expand 
their operator certification programs. And these are only a few 
of the new program responsibilities that States face in the 
coming year.
    States cannot continue to expand these programs without new 
Federal dollars. While they are willing to meet and exceed the 
match requirements and have been historically willing to do 
that, they cannot fund all of the new components of the law by 
themselves.
    I also respectfully request that the Committee fully fund 
the Drinking Water SRF at the authorized level of the $1 
billion for fiscal year 1999. You've heard many others with 
that same request. Obviously, you're aware of the Agency's 
drinking water infrastructure needs survey, and you've 
recognized the incredible short term infrastructure needs that 
really far surpass the current funding that's available. The 
increase in the $225 million to that authorized level of $1 
billion will ensure that funding is available for more water 
systems and will allow the fund to begin to revolve at the pace 
that's been projected by EPA.
    We also support the authorized the funding $10 million for 
small systems to collect and analyze samples, water samples, so 
that EPA can develop new regulations in the future based on 
sound science and occurrence information.
    We support funding of $2 million for EPA to continue 
development of an assiduous State database to ensure that 
accurate, quality data is available at the national level for 
critical decision making and also public access to the 
information.
    In addition, we support the $5 million that you've also 
heard testimony on for the AWWA Research Foundation to continue 
it's health affects research and we support adequate funding 
for drinking water health affects research at EPA.
    We also support EPA's drinking water program and also funds 
available for technical assistance, which you've heard about 
already.
    The States and EPA water systems have taken the challenge 
of providing drinking water very seriously. We have 
collaborated in the stakeholder process and have taken the 
necessary steps to begin expanding and enhancing our programs. 
I hope that you will join me in acknowledging these efforts and 
demonstrate Congress' continued support for providing the 
necessary increases for fiscal year 1999 to ensure that these 
programs continue to meet congressional intent as well as the 
needs of the American people.
    I thank you for your time and I'd be happy to answer any 
questions that you might have.
    Mr. Lewis. Thank you, Ms. Leiby, very much for being with 
us. Mr. Price.
    Mr. Price. No questions, Mr. Chairman.
    Mr. Lewis. Okay, thank you very much.
    [The information follows:]


[Pages 639 - 653--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

LINO DE ALMEIDA, NATIONAL UTILITY CONTRACTORS ASSOCIATION
    Mr. Lewis. Lino DeAlmeida?
    Mr. DeAlmeida. Yes, sir.
    Mr. Lewis. National Utility Contractors Association.
    Mr. DeAlmeida. Yes, sir.
    Mr. Frelinghuysen. He's a New Jersey resident, Mr. 
Chairman. We're very please to have you.
    Mr. DeAlmeida. Mr. Chairman, Mr. Frelinghuysen, and Mr. 
Price, thank you very much for having us here today. I'm 
President of the National Utility Contractors. We're 
approximately a 2,000 member organization of contractors and 
associate members that supply the materials, as well as 
install, the pipelines of clean drinking water, as well as take 
care of our sewers.
    I'm a small contractor for New Jersey. I'm down in 
Middlesex County. I've been there all my life. I done work 
throughout the Northeast, as well as overseas. My company is 
called Consolidated Construction Management. We do pipe work as 
well as general construction. My family has been in business 
for about seven years. My grandfather immigrated from Portugal, 
started working in New York City, and my dad got into the 
business when he was in his 20's. I started when I was about 9 
years old as a water boy and worked my way up after about six 
years of being a mason's helper, doing supervision and 
eventually getting actively involved in the company.
    You've got our text. I don't want to read it into the 
record, but I would like to make a few comments if I may.
    Mr. Lewis. We'll include it in it's entirety in the record, 
so we appreciate that.
    Mr. DeAlmeida. Thank you, Mr. Chairman. I'd like to talk to 
you about why the State Revolving Fund program is important 
us--both the wastewater as well the drinking water.
    The drinking water, as you know, is a public health issue. 
Twenty percent of our population drinks water that is 
contaminated either by lead, fecal bacteria, radiation, or 
toxic chemicals. I've got here a cutout that one of our 
contractor members up in Rhode Island took out a few years ago. 
We've made many of these and brought these to some of your 
committee meetings and other committee meetings. That's an old 
water main and that's what we call a crud--that's the best word 
I could give you. [Laughter.]
    Not very technical, but that's what it looks like, that 
develops inside the pipes. So if you had--I guess that was 
originally a six inch pipe--so now you've got maybe an inch-
and-\1/2\ of flow through there and you can imagine all those 
rotten little particles that are in your water when you turn on 
your faucet. It's especially evident if you have broken water 
main or if you have a fire and you've got all that volume 
rushing through. This stuff breaks out and you wind up with 
brown cruddy water for a few days or even longer until it all 
flushes out of the system.
    There's something like 2 million people every year in the 
United States that become ill because of water-related 
illnesses from pipes like these. There's something like 1,200 
deaths every year as a result of that. So you could see why 
it's a very important issue, not just to utility contractors, 
but to the entire country.
    Regarding our wastewater, it's important to us, Mr. 
Chairman, because of number one, development. Obviously, if our 
country is going to continue to develop, if our children are 
going to have their own homes, they need to have sewage pipe. 
They need some place for that sewage to go. For every private 
development--every development that's built--there is a trunk 
sewer that's taking that sewage to a treatment plant.
    I'd like to just share with you, by the way, the first job 
I did as a sewer contractor as a helper on a sewage job for my 
dad. I asked one of the superintendents my first day on the job 
when I got out of high school--and I was wearing clean boots, 
everything was clean--I asked him, ``What should I know about 
working in the sewers?'' We were working on the live sewer in 
the City of Newark. We were taking a sewer line and replacing 
it. And he says, ``Well, just remember, it flows downhill and 
never suck on your fingers.'' I think you know why that was the 
case.
    Some of the other important reasons for wastewater cleanup 
are obviously our estuaries need to be maintained as clean--our 
rivers, our oceans. Plus, a good portion of our wetlands are 
destroyed as a result of sewage flowing into our streams and 
rivers.
    By way of a little bit of history, I've probably been 
responsible for I'm sure at least $200 million worth of sewage 
projects or clean water projects in the State of New Jersey, 
and that doesn't include overseas and other work we've done 
throughout the country. I've worked on CSO projects that have 
cleaned up Arthur Hill, Woodbridge and Carterette, New Jersey. 
I've worked on a major interceptor sewer down in Camden County 
that basically was responsible for cleanup of the Cooper River 
and obviously the Delaware River as well. I did, obviously, a 
very small part of it. I've also worked on the Guanque Water 
Treatment Plant up in North New Jersey that supplies the cities 
of Newark, Jersey City, Hoboken with water, so I've been 
actively involved in this business.
    In closing, we're in support of the SRF program. We thank 
you for all the help you've given us in the past. We are in the 
midst of preparing some studies--or having studies prepared by 
Apogee--which will be available in several weeksthat will give 
you the benefit of what we think are the funding levels that are 
required not just for this year, but over the next 20 years.
    Mr. Lewis. Mr. DeAlmeida, we appreciate very much your 
testimony, your being here today. Mr. Price, do you have any 
questions?
    Mr. Price. No questions.
    Mr. Frelinghuysen. Let me say that we welcome this fellow 
New Jerseyan and for his very refreshingly blunt testimony. 
This is a national situation and you've certainly given us a 
very personal and familial flavor which we appreciate. Your 
words won't be lost on the Committee in terms of our work on 
this committee. We thank you for your time and effort.
    Mr. DeAlmeida. Well, thank you, sir. And just in case I had 
problems I brought my son who's a weight lifter. He lugged this 
around for us, so I should thank him too.
    Mr. Frelinghuysen. We're pleased and I'm sure the Chair is 
pleased to have you both. What's your son's name? We'll put it 
in the record.
    Mr. DeAlmeida. Christopher DeAlmeida.
    Mr. Frelinghuysen. It's good to have you here. Where do you 
play football? We're pleased to have a father and a son 
combination here. Thank you very much.
    [The information follows:]


[Pages 657 - 661--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

BILL FRANK, JR., CHAIRMAN, NORTHWEST INDIAN FISHERIES COMMISSION
    Mr. Lewis. Let's see, Mr. Bill Frank, Jr., with Northwest 
Indian Fisheries Commission? How are you, sir?
    Mr. Frank. Just fine.
    Mr. Lewis. You've been waiting patiently. We appreciate it.
    Mr. Frank. You're waiting patiently. It's a long day. 
[Laughter.]
    My name is Billy Frank, Jr., Chairman. I've been in front 
of the Committee for the past seven years now. I appreciate the 
Committee and the Chair allowing me to testify.
    Mr. Lewis. We appreciate it.
    Mr. Frank. We have a lot of salmon management work going on 
for the State of Washington up in the State of Washington. We 
have endangered species now as well as California clear to 
Alaska. Several species are being listed and all of it goes 
back to the need for clean water and work in model programs and 
working as a partnerships with the Federal, the State, and the 
local governments and the tribes. A lot of the model programs 
initiatives are out there that we've been working on with the 
industry and making sure that we're all finding a balance and 
working together for the future.
    I'm not going to read any of my testimony. I just wanted to 
say how important the salmon is to all of us. As the Chairman 
knows, we're all involved in putting a comprehensiverecovery 
plan from California to Alaska now and all the watersheds along the 
Pacific Ocean and that's a very big job. It takes a long time. It isn't 
an overnight thing that's going to happen. It's going to be a long 
time.
    We support what the Committee is doing and we support our 
clean water act and all of our other acts. Our testimony pretty 
well spells out where we are and what we're doing. It's a 
pleasure to come here and hear the testimony here. There's some 
good people in this country, still doing some good things, and 
it's very important to all of us.
    Mr. Lewis. Right. Well, Mr. Frank, we will include your 
entire testimony in the record. We appreciate your being here. 
I particularly like that salmon around your neck. [Laughter.]
    Mr. Frank. Thank you very much.
    Mr. Lewis. We appreciate it very much. Hello Mr. Stokes.
    Mr. Stokes. Yes sir, Mr. Chairman.
    [The information follows:]


[Pages 663 - 668--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

R. MICHAEL MC CLAIN, SOCIETY OF TOXICOLOGY
    Mr. Lewis. Next on our list is Dr. R. Michael McClain. Dr. 
McClain is from the Society of Toxicology. Welcome. And if 
you've heard us say that your testimony will be summarized and 
we'll include it all in the record----
    Dr. McClain. Yes, yes, I'll try to be brief.
    Mr. Lewis. Thank you very much.
    Dr. McClain. I'm Michael McClain, President of the Society 
of Toxicology, and I really appreciate the opportunity to come 
here today to testify on the behalf of research support for the 
Environmental Protection Agency. I don't have a prop, but I am 
wearing a button and it's for doubling NIH funding over the 
next five years.
    In any event, the Society of Toxicology is a professional 
organization that brings together about 4,000 toxicologists 
from industry, academia, and the government and the government 
agencies. A major of the Society is the incorporation of sound 
science in the legislation and regulation.
    We work closely with the Environmental Protection Agency 
and also the National Institute of Environmental Health 
Sciences, and believe that the research supported by these 
agencies is important to ensure the policies affecting health 
and the environment are based on sound science. And in 
particular, we appreciate the support of this subcommittee and 
the Superfund basic research program. Each year the 
Administration has recommended the cut, but this committee has 
provided leadership to restore the funding for that and we're 
most appreciative of that. But, as you know, the funding for 
the Superfund basic research program is funding through the 
Environmental Protection Agency and goes to the National 
Institute of Environmental Health Sciences to support 
university and medical research on health affects and superfund 
issues. Currently this involves more than 1,000 scientists from 
70 universities that are supported for this and it's really the 
only scientific research program which is dedicated to these 
specific kind of sites. We hope that you'll continue funding 
this year again at the level of about $40 million.
    I'd also like to mention the Worker Training Program. 
Again, that's run by the National Institute of Environmental 
Health Sciences and this provides classroom instruction and 
field expertise for Superfund site and emergency workers. 
Today, over 450,000 workers nationwide have been trained in 
this program. And we hope that you will continue the same level 
of support for this program.
    With respect to the airborne particulate matter research, 
we are very pleased by the approach that was taken by the 
Subcommittee last year to initiate a comprehensive program for 
airborne particulates. We support the involvement of the 
National Academy of Sciences in developing a research plan. The 
report by the National Academy proposes a comprehensive 
research program with short term research efforts focuses on 
developing a better understanding of how these particulates 
affect human health. We would recommend support of at least 
$49.6 million to support this program for this coming year.
    I'd also like to mention the endocrine disruptors, which 
are compounds in our environment which may have an affect on 
thyroid, reproductive, or development. At the present time, 
however, there is diverse scientific opinion with respect to 
the extent that such environmental agents affect human health. 
The Society is supportive of the congressional initiatives to 
pursue research on the affects of environmental agents. We 
believe, however, that Congress should use scientific experts 
to assist in the development of legislation but should refrain 
from mandating specific approaches such as the development of 
testing and screening procedures for widespread use. The 
Society recommends the Congress should involve a scientific 
body, such as the National Academy, to assess the extent to 
which these environmental agents are a human health problem. In 
the case of the particulate air pollution that I mentioned 
before, Congress did involve the National Academy and required 
and the development of an integrated research strategy to 
address this issue in the absence of mandating any specific 
approach. And this example, I think, is more keeping with the 
scientific process and what we would recommend that the Congress now do 
in the case of the endocrine disruptors.
    Sound science is essential to environmental health policy 
and the Society is made up of many of the leading experts in 
the field of toxicology who would be willing to serve as 
resource to Congress on environmental health and safety issues. 
The public wants to know whether their communities are safe 
from hazardous contaminates in the air they breathe and the 
water they drink and we believe that the research supported by 
the Environmental Protection Agency and NIEHS provides policy 
makers with the data you need to make decisions on 
environmental health regulations.
    I appreciate the opportunity to be here on behalf and be 
happy to answer to any questions you might have.
    Mr. Lewis. Dr. McClain, we appreciate very much your 
testimony and you're being with us as well. Could I ask, Mr. 
Price, any questions? Mr. Stokes?
    Mr. Price. No questions, Mr. Chairman. I do appreciate Dr. 
McClain's testimony on the importance of this basic research 
program passed through EPA to the NIEHS, administered by NIEHS. 
That's helpful information.
    Mr. Stokes. Let me also join the same comment on the 
importance of this type of testimony as we undertake this 
particular area of our appropriation function and we appreciate 
very much your comments.
    Dr. McClain. There is so much many spent on the Superfund--
we would actually even like to see more money going into 
research. I think that could really help the situation. We 
appreciate your support so far.
    Mr. Lewis. You're going right to the heart of Mr. 
Frelinghuysen interest.
    Mr. Frelinghuysen. Well, thank you, Dr. McClain, for being 
here. Mr. Chairman and Members, as a constituent of mine, I 
could have used him when I was speaking on some of the 
proposals for Superfund reform before the National Council of 
Jewish Women last night in my home town. Our own State has had 
more sites than any other and that track record isn't very 
good. And I'm also for more funding for the NIH and certainly 
whatever the EPA is doing ought to be basing it's decisions, 
it's actions, on sound science. We need to get about the 
business of acting on sound science and getting things cleaned 
up. So, to the extent that your society can work towards those 
ends, whether provincially or nationally, that would be most 
beneficial. You've been here before and we appreciate your 
testimony because you know of what you speak from a very 
personal standpoint coming from our State. We really appreciate 
it.
    Dr. McClain. Well, we appreciate that. And, like I said, 
that we in the Society are willing to help out when we can, if 
you need our expertise. I don't know what we can do with the 
Jewish women in New Jersey, but----
    Mr. Frelinghuysen. You'd be surprised. [Laughter.]
    Mr. Lewis. Thank you, Dr. McClain.
    Dr. McClain. We're certainly available to help out.
    [The information follows:]


[Pages 672 - 685--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

PAUL HANLE, PRESIDENT AND CEO, THE ACADEMY OF NATURAL SCIENCES
    Mr. Lewis. Our next witness of The Academy of Natural 
Sciences is Paul Hanle. Dr. Hanle?
    Dr. Hanle. Good afternoon, Mr. Chairman. Thank you very 
much for giving me the opportunity to testify today. I wanted 
to say hello also to Mr. Frelinghuysen, who served as the 
Acting Chairman of the Committee last year, when we had a 
chance to testify. This is the second time and we hope we have 
the opportunity to convince you that this is an exciting 
program for funding and pursuing the Urban Rivers Awareness 
Program. Thank you, the rest of the Members of the Committee, 
for having me.
    I wanted to introduce The Academy of Natural Sciences, 
which is the oldest operating natural history museum in 
America. It's also one of the leading research institutions, 
research museums. We do research and provide public education 
programs that study the environment and it's diverse species.
    Our impact is not only regional, but national and 
international. Among the things that we do is a major program 
of water quality research that was started by Dr. Ruth Patrick. 
And in fact, we have the longest standing program of assessing 
the quality of U.S. waterways founded by Dr. Patrick, who was a 
National Medal of Science recipient in 1948. And although we 
have one of the finest collections of specimens, 25 million 
specimens in the natural history museum, it is that active 
program of research and public outreach which we think is very, very 
important. And in fact, I would say that the unique aspect of The 
Academy is that we combine this extraordinarily strong research program 
with public outreach and education about the research that we are 
undertaking.
    And one of our new visions is the program that I will be 
talking about today, the Urban Rivers Awareness Program, which 
is a comprehensive effort designed for students and the public 
to better understand the natural and human history of urban 
water sheds. We have partners in this in the Philadelphia Water 
Company, Historic Bartram's Garden, the Philadelphia Park 
Commission, and we have also extended this program to include 
the Patuxent River and the Tapsco River Watershed so that it 
covers both the Delaware River Watershed and the Chesapeake 
Bay.
    The Urban Rivers Awareness Program is very important in 
trying to engage youngsters and the general public about the 
significance of maintaining--understanding, maintaining, and 
improving--the water quality in these rivers, these urban 
rivers. It is astonishing, but true, that many of the 
youngsters that we take out in our educational outreach 
programs think of water quality and river conditions as 
something that is out in the country, but indeed the rivers 
that we study are also rivers that go through major urban 
centers and are part of the urban landscape. Members of the 
communities that surround these rivers need to, and we find 
want to, find more about the watershed through programs such as 
this.
    What we're proposing is to develop an 8,000 square foot 
exhibition and a public outreach program, an innovative web 
site, as well as conditions of the watershed annual conference. 
And perhaps the most exciting program is what we call the icon 
of the program, that is, a scientific and educational 
experience that is carried out on the water from research boats 
with research scientists as well, students who will have 
opportunities in Wilmington, Delaware, as well as Calvert and 
Baltimore Counties, Maryland, and of course, in Philadelphia, 
our home base, to undertake these programs. On the water visits 
which will be able to hold at least two classrooms of 
youngsters per each program that we run and we'll have a series 
of stations that will do water monitoring, biological sampling 
of the water. These programs will get youngsters and families 
involved in the water process--understanding the water process, 
as well as some of the exciting things that surround the water, 
overview of historical landmarks, and so forth.
    The Academy is excited to begin this Urban Rivers Awareness 
Program and we've designed it to study the specific watersheds 
where the Academy is present, that is in Philadelphia, near 
Wilmington, and on the Chesapeake Bay. But we think that this 
is so innovative that it will be a national model and we're 
hopeful that we can apply this to other institutions.
    We thank you all for giving us the opportunity to testify 
and we do request that the Subcommittee provide sufficient 
funding for the Environmental Protection Agency to enable the 
Agency to support the Urban Rivers Awareness Program.
    Mr. Lewis. Thank you very much, Dr. Hanle, for your 
testimony. Mr. Stokes?
    Mr. Stokes. I'd just like to commend Dr. Hanle for his 
testimony. This is very important as it relates to urban areas 
throughout the Nation and we appreciate your testimony.
    Dr. Hanle. Thank you very much, sir.
    Mr. Lewis. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you for your testimony and we 
certainly have a number of urban of rivers that need attention 
as well.
    Dr. Hanle. Thank you, sir.
    Mr. Stokes. How much are you asking for?
    Dr. Hanle. We're asking for a current year $1.25 million to 
expand this program into these 3 areas that we're talking 
about.
    Mr. Stokes. Thank you.
    [The information follows:]


[Pages 687 - 697--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

JERRY ERICKSON, PRESIDENT, METROPOLITAN FAMILY SERVICES
    Mr. Lewis. Mr. Jerry Erickson, the Metropolitan Family 
Services. Mr. Erickson? Here he comes.
    Mr. Erickson. Good afternoon. Thank you for the opportunity 
to testify. I am Jerry Erickson, President Emeritus of the 
Metropolitan Family Services. Congressman Stokes, you might be 
particularly interested in my successor who joined our staff a 
few days ago, Dr. Richard Jones, coming to us from the Center 
for Children and Families in Cleveland.
    Mr. Stokes. I know him very well. He's a fine young man, I 
can tell you that.
    Mr. Erickson. Indeed. I'm very pleased that he is going to 
succeed me in a job where I've been in for some 25 years. 
Metropolitan Family Services is an historic agency in Chicago 
formed actually by a number of colleagues of Abraham Lincoln, 
including the man who nominated Lincoln for the presidency in 
1860. And a group of Chicago business----
    Mr. Lewis. That's a very good friend of Mr. Stokes. 
[Laughter.]
    Mr. Erickson. Not quite that old. [Laughter.]
    It's very interesting that those gentlemen--and they were 
all gentlemen in those days; no women in the crowd I guess--got 
together to form basically a safety net. This was long before 
there were any government programs or anythinglike that to 
support families, but they were interested in keeping families 
productive, but also in having a ready work force when the economic 
times called for that. And that kind of mission has been our base for 
all 140 years. We were chartered by the general assembly of Illinois in 
1857.
    Currently, we have contact with about 100,000 families in 
the Chicago Metropolitan area. Along the lines of our original 
mission was to build the capacities of families and support 
their capacity so they can function as fully as they can as 
parents and as productive citizens in the communities. We 
operate through some 25 neighborhood sensors around the Chicago 
Metropolitan area.
    Today, I wanted to talk with you about the Roseland 
community which is one of those centers which is on the far 
south side of Chicago. It's a community that has been impacted 
heavily by the loss of the steel industry and all of the jobs 
that they provided. It's a community very much on the edge and 
trying to find its way back. We have been operating programs 
for families in this community for some 40 years.
    Some four years ago, we went into the community and said to 
groups of ministers, to groups of businessmen, to groups of 
school teachers is what we are--the way we are extending our 
resources in this community. Is it doing any good or is there 
something or some better way we should be using them? We've got 
strong support for what we were doing, but to my surprise, and 
to our surprise generally, they said that they thought we could 
work with a community in the same way we work with families--in 
other words, helping a community establish, what is its 
agenda--to bring, to bear some strategies to start working on 
those things.
    It's a community with a lot of strength but a lot of 
disorganization as well. So we put into effect a community 
development program that has been, I guess, successful far 
beyond our expectations. It has resulted in a very significant 
expansion of our direct service to families, but also to 
communities and increasingly is moving into the area of some 
economic development things.
    Just to give you some examples. One of the first things we 
did was help the community to get itself together to develop a 
program that we call Youth Net. The community said that their 
greatest need was for when a mother or impacted family or both 
parents are working and there's nothing to do with their kids 
when they come home from school. It's a community where there's 
a lot of violence.
    So we put together--we are the administrators of the 
program and the planners of the program, but most of its 
carried out to the YMCA, the Chicago Youth Center, to parks 
districts and other things like that so that families can stay 
where--parents can stay at work when their kids are coming home 
from school with some reassurance that they're going to be 
safe.
    More recently, we've developed some things like the Family 
Loan Program. We developed--we raised $300,000 for a loan 
program. A lot of people who are living in marginal 
circumstances are not eligible for loans. This money is used to 
loan people who will not--have not been approved, cannot get 
approved by a bank for unexpected expenses. Usually a car 
breakdown is something like that, but they can't manage, they 
can't get to work. So we're able to make those kinds of loans.
    We're also doing some work with individual development 
accounts which you may be familiar with. It's a masking fund 
program for Walker Recipients and other low-income people who 
are not necessarily in the habit of saving and trying to build 
their assets so they can become longer term and more productive 
members of the community. We're harboring on a number of those 
kinds of programs with Shorebank--which you may have heard of. 
It's headquartered in a community very nearby.
    The results of all of this activity has been a need for 
expanded facilities. We have a plan for a $2.25 million 
facility to accommodate not only the work we're doing with 
family but with these community groups, as well, we have raised 
$1.25 million with some significant help from the Kresge 
Foundation and from the Amoco Foundation and a large number of 
private donors. We're looking for an additional $1 million so 
that we can get underway with this building program which we 
think is going to make a major impact in the and affecting this 
community.
    Mr. Lewis. Well, thank you very much, Mr. Erickson. We 
appreciate your testimony. Mr. Stokes, you have a question?
    Mr. Stokes. I'd just like to say to Mr. Erickson that I 
thought your testimony was very interesting. It's fascinating 
to see what you are doing in a community such as Chicago and 
the type of good that's being done. It just points to the fact 
that there is a very real need in our urban communities, in 
particular, for these types of organizations to function and to 
have an impact upon people who otherwise have nowhere to turn 
for the kind of help and sociological approaches you take to 
their lives.
    Mr. Erickson. Well, thanks very much. I guess as we've 
gotten in to this program, we've been impressed with the 
strength and resilience that is there in the community that has 
some help in mobilizing. It's pretty exciting and we're very 
pleased with it. Thank you.
    Mr. Lewis. Well, thank you for coming in. We appreciate 
your testimony very much.
    Mr. Erickson. Thank you.
    [The information follows:]


[Pages 701 - 710--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                           VA-PROJECT 541-029

                                WITNESS

EDWIN M. ROBINS, NATIONAL SERVICE OFFICER, JEWISH WAR VETERANS, 
    REPRESENTING THE DISABLED AMERICAN VETERANS
    Mr. Lewis. Our next witness is Mr. Edwin M. Robins, 
National Service Officer, who's with the Jewish War Veterans, 
representing the Disabled American Veterans.
    Mr. Robins. All right, thank you. Good afternoon, Mr. 
Chairman, Members of the Committee. I appreciate the 
opportunity to come here today to speak to you----
    Mr. Lewis. You will summarize your statement, I'm sure, 
won't you?
    Mr. Robins. Yes I am, sir.
    Mr. Lewis. Thank you.
    Mr. Robins. As a senior citizen, but also as a veteran, 
speaking on behalf of VA-Project 541-029. This is to alert you 
of serious problems involving the ambulatory care facilities of 
Wade Park campus of the Cleveland Veterans Administration 
Medical Center. We are pleased that the VA has recognized this 
name for over 12 years, but are alarmed at the fact that it's 
not in this year's budget. On behalf of all veterans in the 
State of Ohio, I want to address this group and bring to their 
oversight. There is a great need that exists for over 570,000 
veterans in northeastern Ohio.
    Veterans are currently not being served with dignity and 
respect. The conditions in which we treat veterans at the Wade 
Park campus are overcrowded, unsafe, and they have been cited 
as deficient by the Joint Commission on Veterans--Accreditation 
of Hospital Organizations and numerous service organizations.
    The Cleveland VA Medical Center, sir, was built in 1964 as 
an inpatient facility. The Wade Park campus was never intended 
to be an outpatient facility. This facility is antiquated, 
inadequate for outpatient services, and it's over 34 years old. 
Outpatient clinics were never intended to be part of the Wade 
Park campus.
    Currently, the VA Medical Center provides over 50,000 male 
and female veterans with inpatient and outpatient health care 
services in a 25-county area in northeast Ohio. More than 
400,000 episodes of outpatients were provided and they serviced 
800 veterans who traveled to Cleveland for this service. 
Veterans are men and women who have served this country--and I 
want to stress the women, because as males we generally say 
veterans and think men. Even with this success, there are 
serious limitations at the Wade Park campus 34-year-old 
physical plant. These facility limitations have grown more and 
more troublesome and now constitute a serious impediment to the 
delivery of effective health care to the thousands of veterans 
who rely on the VA. Following are some specific examples:
    Outpatients are required to travel to multiple floors of a 
seven-story building with a vertical transportation that was 
never built or designed to carry that much traffic. Patients 
are provided outpatient care on every floor and in every 
available space.
    The outpatient admissions area of Wade Park is designed 
like a bullpen. As such, it's inadequate for ambulatory care 
services for outpatients--and believe me, I have seen it. It's 
like a nightmare.
    Diagnostic procedures are inefficient since laboratory 
tests and radiology procedures have to be performed in remote 
basement locations, far from the outpatient activities.
    Patient privacy is compromised because outpatient 
examination rooms open directly into corridors used by general 
people that traffic as they walk the halls. Many of them are 
partially disrobed and awaiting an exam. There are also other 
privacy issues involved. Customer satisfaction is guaranteed 
when veterans are treated in small, overcrowded waiting areas 
and interviewed in spaces that lack privacy and it's a lack of 
dignity many times for these veterans.
    Access to care is hampered by the distance between parking 
facility and the hospital entrance, behooves patients to walk 
outside, amongst traffic, and for a minimum distance of a 
quarter-mile. To compound the problem, the access ramp to the 
hospital entrance does not meet the American Disabilities Act.
    Emergency outpatient services are archaic and undersized 
for today's ambulatory care. Inadequate ambulatory care space 
forces outpatient clinics into locations away from the current 
outpatient setting. Of necessity, they are located throughout 
the facility in areas converted from inpatient units.
    Customer satisfaction is lost when patients are treated in 
an environment lacking proper heating and ventilation because 
the outpatient area is juxtaposed with a hospital's emergency 
entrance. During the winter, the wind blows through there like 
you think you were in Alaska.
    Quality of care is jeopardized when veterans are treated in 
substandard, antiquated treatment areas. Veterans experience 
difficulty in finding the Wade Park Division Ambulatory 
entrance because it is shared with the Emergency Room entrance. 
This entrance is cramped, crowded, and inappropriate for 
outpatient services. Once inside the building, patients have a 
tendency to walk right into the Emergency Room.
    The ambulances must compete also with trucks delivering 
materials to the hospital. To remain cost-efficient and 
competitive, the Cleveland VA Medical Center has established an 
outpatient surgery program and expanded all its outpatient 
clinics. The results has been a huge increase in outpatient 
visits. The Medical Center has been cited for space deficiency, 
violation of safety codes and a lack of patient privacy by 
external agencies. And I may say, Mr. Chairman, I don't want to 
see another Prime Time expose in Cleveland. As a result of the 
critical need for ambulatory care space, the Cleveland VA 
conducted a thorough cost-benefit analysis for the cost of new 
construction versus the cost of contracting care for veterans 
with other private sectors.
    The results have indicated none of these health care 
organizations provide the care at a better cost than could be 
provided by the Cleveland VA Medical Center. In response to the 
growing concerns cited by the JCAHO, the Department of Veterans 
Affairs has accomplished the architectural design face for $28 
million. After extensive review, the direct patient care 
implications of this project have been found to be so great 
that it was ranked as the number one health care priority in 
the VA. Unfortunately, the project remains unfunded and 
progress has been halted.
    I can just say to you that we have waited 12 years for this 
project to be funded--and so far, it still hasn't been done. 
Funding for the highest-ranked clinical construction priority 
of the Department of Veterans Affairs ought to be approved. Our 
veterans deserve nothing less. The claim for this project is 
sound. The benefits it will have on lives of many veterans 
throughout the region is real. May I add, we've waited 22 years 
to get a garage and just this year,ground was broken. It is 
clearly evident that the outpatient services being provided at the 
Cleveland VA Medical Center have been seriously hampered by outdated 
and physically limited structures built in the early 1960's--34 years 
ago.
    The Cleveland VA serves over 50,000 unique veterans and 
potentially you'll be able to provide care to over 570,000 
veterans given adequate facilities. Veterans are not being 
served with dignity in regards to such basic conditions as: 
access, privacy, efficiency, customer satisfaction and quality 
of care. The Cleveland VA Medical Center has fully embraced Dr. 
Kizer's prescription for change in the VA strategy.
    If the VA hopes to modernize property and update its 
standards of care to meet the driving forces of today's health 
care market as well as that of the future, it needs to be 
right. Funding for the project is absolutely essential. I beg 
of you that this committee reinstate the Ambulatory Care 
Addition Project. Adequate resources and facilities such as the 
Ambulatory Care Addition need to be allocated and approved in 
order for the Department of Veterans' Affairs and the Cleveland 
Medical Center to provide the care that our veterans deserve 
and have been promised. The time for action is now. The urgency 
cannot be overstated.
    With this in mind, I took a day off as a National Service 
Officer to come here today to plead to you. I have spent over 
3,000 volunteer hours at that hospital with my wife so I know 
what their problems are. I have one last thing, that I had a 
veteran who came to me. His wife died, he had a stroke, and he 
could not get into any other nursing home. I called the VA, the 
man was admitted. Now after two years, I just received his 
death notice yesterday.
    So, Mr. Chairman, on behalf of listening to me and my 
constituent, Mr. Stokes--I happen to be his constituent--may I 
just also say this man has served this Congress 30 years. On 
behalf of all the people in Ohio, we thank you, Mr. Stokes----
    Mr. Stokes. Thank you, sir.
    Mr. Robins. Members of the Committee, for your sensitivity, 
appreciation and support of veterans over the years. I thank 
you very much.
    Mr. Lewis. Thank you very much, Mr. Robins. I must say 
here, that of all of the constituents that we have on this 
committee, the Nation's veterans have the highest priority and 
that's true--not just in this committee--but in the Full House.
    Especially, I wanted to mention relevant to your last 
comment, your constituent, Mr. Stokes, has served you long and 
very effectively. I watched him fight for that garage, by the 
way, over a period of time here. With the competition in this 
committee, it is not a simple matter. So, indeed, you're going 
to miss the Louis Stokes, as we will.
    Mr. Robins. Oh, absolutely.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. Let me personally just 
say that it's always a pleasure to see Mr. Robins here. 
Veterans have a great advocate in this gentleman and his 
testimony is always very poignant and very personal to the 
veterans of this country. With this facility being located in 
my congressional district, I do very much appreciate the 
testimony that you've given here.
    I do want to acknowledge that the $22 million that was 
appropriated for our garage was done under the chairmanship of 
Mr. Lewis----
    Mr. Robins. Thank you.
    Mr. Stokes [continuing]. For which we're very appreciative. 
I didn't know--what are you requesting here at this time?
    Mr. Robins. It was $28.3 million.
    Mr. Stokes. Okay, good. Well, again we thank you for your 
testimony. It's been very helpful.
    Mr. Robins. It's our loss, but the community's gain to have 
you back. [Laughter.]
    Mr. Lewis. Thank you, Mr. Robins.
    Mr. Stokes. Thank you very much.
    Mr. Robins. I thank you.
    Mr. Lewis. Appreciate your being with us.
    [The information follows:]


[Pages 715 - 719--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

RONNY LANCASTER, MOREHOUSE SCHOOL OF MEDICINE, THE ASSOCIATION OF 
    MINORITY HEALTH PROFESSIONS SCHOOLS
    Mr. Lewis. Let me call upon Mr. Ronnie Lancaster, Morehouse 
School of Medicine, The Association of Minority Health 
Professions Schools.
    Mr. Lancaster. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. [presiding]. Mr. Lancaster, have you 
received a copy of your prior testimony? I move that a copy of 
your prior testimony will be put into your record and you may 
summarize.
    Mr. Lancaster. Thank you.
    Mr. Frelinghuysen. Welcome.
    Mr. Lancaster. Thank you and the Members of the 
Subcommittee for the opportunity to appear before you this 
afternoon. I am Ronny Lancaster, Senior Vice President for 
Management and Policy at the Morehouse School of Medicine in 
Atlanta. However, today I appear before you as President of the 
Association of Minority Health Professions Schools. This is an 
association, which collectively, has trained over half of the 
Nation's black physicians and dentists. Over 60 percent of the 
Nation's pharmacists and black PhDs in science and 75 percent 
of the black veterinarians in this country. We are an 
association comprised of 12 member schools located throughout 
the country.
    Our association has two goals. First, to improve the health 
of all Americans--including African-Americans and other 
minorities--as well as poor citizens living in other 
underserved communities all across the United States. Our 
second goal is to improve the representation of African-
Americans and other minorities and to help professions.
    I am here today to support and to request level funding for 
the Agency for Toxic Substances and Disease Registry--or ATSDR. 
As you do know, ATSDR is the agency which, among other things, 
is concerned with the relationship between human illness and 
exposure to hazardous substances.
    My supplement consists of only three points--and so, I 
believe I may not use all of my time. However, before 
mentioning these three points--very quickly--I would request 
that the record reflect our sincere appreciation to this 
subcommittee for its outstanding work and particularly that of 
Congressman Stokes for his outstanding leadership in helping 
the safeguard the help of all Americans, especially that of our 
most at-risk citizens or foreign minority citizens.
    Mr. Frelinghuysen. Consider that done. [Laughter.]
    Mr. Stokes. Thank you, Mr. Chairman.
    Mr. Lancaster. While we are saddened to learn of Mr. Stokes 
impending retirement, we are very appreciative for his 30 years 
of service to this Congress and to the Nation. In our view, it 
has been exactly that. Service which has been his hallmark, not 
only to the very fortunate residents of Cleveland, Ohio and the 
residents of the State, but to all Americans. I would only add, 
Mr. Chairman, that it has been a personal privilege to be able 
to sit across from Mr. Stokes during this hearing in this his 
last year of service to the Congress and to this committee.
    Mr. Chairman, now as promised--three very brief points. 
First, the ATSDR, in our view, is important. It is performing 
very important work in the field of environmental and 
technological studies. This work has a very important impact on 
public health. The Administration's budget proposal for fiscal 
year 1999 of $64 million--which is a reduction of $10 million 
below its current funding--would in our view severely hinder 
that agency's ability to carryout its important activities. We, 
therefore, recommend current funding at $74 million to allow 
that agency to continue its important work.
    Second, ATSDR has a cooperative agreement with our 
association. This agreement, which I will add, has served as a 
national model between Federal agencies and academic 
institutions, allows our member institutions to conduct a 
search which examines the consequences of exposure of hazardous 
materials to at-risk populations in medically underserved 
communities. We request continuation of the $4 million which 
allows us to conduct this work--which could be accommodated 
within level funding. I would add that this is the report which 
I will be delighted to leave with the Subcommittee which 
details, Mr. Chairman, the work of our member schools with this 
agency. While we're delighted--I'm sorry that Mr. Lewis had to 
leave--because I wanted to point out----
    Mr. Frelinghuysen. He'll be sure to get a copy of this 
report and if there's not objection--we'll have a copy of this 
in the record, as well.
    Mr. Lancaster. Thank you. I was looking forward to pointing 
out that one of member schools--an outstanding school--the 
Charles Drew University of Medicine and Science--in Los 
Angeles. We're not fortunate enough to have one in New Jersey 
or in Ohio--but there are 11 other institutions located across 
the country.
    Mr. Chairman, my third and final point is this. The work 
being conducted under the cooperative agreement has important 
implications for at-risk populations. For example, the National 
Health and Nutrition Examination Survey indicates that poor 
children who are affected by lead poisoning are up to eight 
times a greater risk than non-poor children; or that one in 
five African-American children living in housing which was 
constructed before 1946, is affected by lead poisoning. The 
work that we're doing at our institution helps to examine the 
way in which lead is transmitted in utero from mother to 
infant. So the work that these schools are doing collectively, 
help to identify and helps to determine how illnesses can be 
prevented and treated. Illnesses resulting from exposure to 
toxic substances.
    So in closing, Mr. Chairman, I'd only like to express my 
appreciation and the appreciation of our member schools to the 
subcommittee for your outstanding work. To Mr. Stokes, 
particularly, and finally to simply request continuation of 
funding at the current level.
    Mr. Frelinghuysen. Thank you, Mr. Lancaster for your 
recommendation and your perspective on a number of very 
important programs. To you and to your group, as well as 
certainly to our committee members, as well.
    Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. I just want the record 
to show that I've had the privilege of working for a number of 
years with this organization, AMPS, on the Labor, Health and 
Human Services and Education Subcommittee under the leadership 
of Dr. Louis Sullivan with whom Mr. Lancaster works at 
Morehouse College--Morehouse School of Medicine.
    Dr. Sullivan, of course, was the former Secretary of Health 
and Human Services. Due to this organization, we have a number 
of programs that were established at theinstitutions that he 
makes reference to--a significant number of programs that were 
introduced through that particular Subcommittee. But I'd like the 
record to show something--Mr. Lancaster in trying to come in up under 
his five minutes--was very considerate of the Subcommittee's time. I 
think it's important for us to have this in the record.
    AMPS is an organization which represents 12 historically 
black health professions schools in the country. Combined, 
these institutions have graduated 60 percent of the Nation's 
African-American pharmacists; 50 percent of the African-
American physicians and dentists; 75 percent of the African-
American veterinarians. Moreover, recently according to the 
Department of Education--of the 4,645 PhDs awarded in the 
biological life sciences in 1984-1985 school year--only 87 PhDs 
were granted to African-Americans. In the health professions, 
related scientists among the total 2,069 degrees conferred only 
90 were awarded to African-American. But the majority of these 
degrees are granted by historically black colleges and 
universities. In 1989, of the 23 percent of the doctoral 
degrees awarded to African-Americans were by Meharry Medical 
College.
    Since 1975, over 10 percent of all doctorates and 
biomedical sciences, awarded the African-Americans, have been 
awarded by Meharry School of Graduate Studies. In 1995, Meharry 
Medical College graduated six PhDs in pharmacology and one PhD 
in medicinal chemistry. These numbers may seem small, but they 
are a significant representation of the contributions made by 
these 12 organizations. To the education of African-Americans 
of the graduate level of biomedical sciences. I just thought, 
Mr. Chairman, that ought to be a part of the record here so 
that we can understand the importance of this particular 
organization that Mr. Lancaster is the president of. I thank 
you again for your testimony.
    Mr. Frelinghuysen. Absolutely. Thank you very much, Mr. 
Stokes. Returning to Mr. Lancaster.
    Mr. Lancaster. Mr. Chairman, thank you. Thanks to Mr. 
Stokes for pointing that out. Less than 2 percent of the 
Nation's PhDs are black and less than 3 percent of the Nation's 
physicians are black. So you can see, as a result, we've got a 
lot of work to do and thanks to the efforts of these 
gentlemen--we're on our way in helping our communities.
    Mr. Frelinghuysen. Thank you.
    Mr. Stokes. Thank you.
    [The information follows:]


[Pages 723 - 728--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. BRUCE DELANEY, MAYOR, CITY OF GAINESVILLE, FLORIDA
    Mr. Frelinghuysen. The Committee is pleased to welcome one 
of our colleagues, Congresswoman Thurman, who is here to 
introduce our next witness, the Mayor of the City of 
Gainesville, Florida--The Honorable Bruce Delaney. 
Congresswoman, welcome. Thank you very much for being here on 
behalf of Chairman Lewis who had to step out.
    Mrs. Thurman. I understand.
    Mr. Frelinghuysen. From all Committee members, we're 
thrilled to have you.
    Mrs. Thurman. Thanks. I'm certainly glad to be here, Mr. 
Chairman. Mr. Stokes, thank you for participating in these--
we're also glad to see you here.
    Mr. Stokes. Thank you, it's good to see you.
    Mrs. Thurman. Actually, I told the Mayor that this is the 
third time we've been able to be before you all for this 
particular project, so that the third time ought to be a charm. 
[Laughter.]
    Mr. Stokes. Absolutely.
    Mrs. Thurman. We even brought pictures this time because 
first of all, we wanted to thank the Committee for some of the 
other things that we've been able to do in Gainesville under 
the leadership of the Mayor and his commission. At the end, 
there's the Martin Luther King Center, it's a--multipurpose 
center, thank you. Cedar Grove which was actually some 
affordable housing issues that we've worked on and then--I 
can't even read it.
    Mr. Delaney. Those are the two major projects that we're 
thankful for and then the other pictures all relate to the 
project that we're here discussing.
    Mrs. Thurman. I guess there's two things that I would like 
to say. One is that this is such a huge issue, not only for 
this area but also for the State because of our aquifer. This 
is one way for us to get this cleaned up where we're not going 
to have anymore of the problems which those detect.
    The second thing is that it's also going to help us within 
this area that we've talked about that you've helped us so much 
with already. This is kind of what we think is the linchpin for 
economic development in that area. I know that we're all very 
concerned about that and what's going on in this country; and 
rebuilding and revitalizing areas that have come somewhat under 
depressed. So we've done some great things already. As I've 
said, this time is the third time is the charm, and with that 
certainly I will give over to the expert of the mayor of the 
city of Gainesville. We very pleased to have him with us today.
    Mr. Frelinghuysen. Welcome, Mayor.
    Mr. Delaney. Thank you very much. Mr. Chairman and members 
of the Committee. What we're here seeking funds for is what we 
consider to be an important initiative--the Sweetwater Branch 
Stormwater Project. The 1,700 acres drained by Sweetwater Creek 
is that thin blue line is really the industrial and commercial 
heart of old Gainesville. It was created before there was any 
kind of stormwater retention or anyone ever gave any thought to 
that. The branch which is just a thin blue line leaves--please 
follow the arrows down to where it says Payne's Prairie. It's 
actually into Payne's Prairie, which is a 20,000-acre State 
preserve. It's home to a lot of endangered and threatened 
species. It's really a place that it's like the Okeefenokee; 
it's like the everglades. It's an absolutely wonderful place 
and it's become a key for eco-tourism in north Florida. It has 
tremendous visitorship. But the nutrients that are carried out 
there by that Sweetwater Branch are actually changing the 
vegetation that's on Payne's Prairie and making it no longer 
hospitable for many of the species that rely on it. You'd have 
to know what it looked like before to appreciate it.
    But generally what the Prairie should look like is just 
grass as far as the eye can see. That lower right-hand picture 
shows all kinds of woody vegetation springing up. That's one 
problem. Kind of separate from that on Payne's Prairie is an 
Alachua Sink--it's a natural sink hole. It's about two and one-
half miles from where the creek enters Payne's Prairie just off 
this map. Our creeks in Gainesville don't go to rivers and then 
to the oceans, they go underground and become tomorrow's 
drinking water. That's what's happening--it's carrying all this 
gook off the streets, fertilizer off people's yards and it's 
only in a distance of three miles going into what amounts to 
our reservoir. So with these problems in mind, the City and 
actual county and the Water Management District in Florida and 
Department of Environmental Protection formed a partnership for 
solutions.
    The first step was to do a study, naturally, which was 
needed. That should be completed by next year. With this 
partnership is now seeking in its ecosystem management 
solutions to the problem. The project devised by these groups 
would reduce or eliminate the sediment, the nutrients and the 
other pollutants being discharged through the branch and into 
the sink hole. The project consists of three components. One is 
the purchase of needed sites--the two sites of that gaudy, sort 
of purple color that says Sweetwater Limited. The other side is 
up higher--it's yellow. One of the sites is a brown field. 
We've already received a $100,000 EPA grant for the assessment 
of that site which is an ongoing project.
    The second thing these sites would do--what the money would 
do--would be for the construction of sediment and debris 
removal systems and the construction of nutrient removal 
systems which would probably be vegetation-based. The benefits 
of this requested appropriation would be environmental which 
I've summarized and social which are just as critical to our 
healthy growth and development in the City of Gainesville. 
What's happened in Gainesville--off to the left--you can't see 
it, is Interstate 75. It was completed in the 1960's at which 
point Gainesville got up and headed West. Here's what happened. 
Leaving the eye and virtually the entire African-American 
community and lower-income whites on the Eastern side of town. 
The resultant problems--you're all familiar with them, even 
more familiar with them than I am, I'm sure. The problems of 
crime, poverty and emptiness of stores at home--what have you--
as the city has fled West.
    We've tried to attack that. In fact, I feel at times like 
I'm the Mayor of East Gainesville, rather than the Mayor of 
Gainesville. Because West Gainesville takes care of itself--
pride and investment goes there--it's not a problem. The 
problem is in East Gainesville. We believe that these basins 
will help East Gainesville in three ways. They'll help us to 
continue the redevelopment of the old downtown by permitting 
more intense use to each building site. They'll help us with 
the creation of jobs.
    I might add that we've used the section 108 loans--the HUD 
section 108 loans--to attract major developers to the downtown. 
We have one project underway and 200 considerations. They 
haven't used section 108 loans, but that's been an important 
part of the conversation that got them there, and hopefully, 
we'll be able to use one of those yet.
    The creation of jobs, redeveloped; the creation of a park 
at each stormwater site--there's been similar parks created in 
Tallahassee; there's been similar parks created in Orlando; and 
they've had the impact of bringing back the neighborhoods 
around them. So if you can visualize particularly that yellow 
site which is--the purple site doesn't have much in the way of 
people living around it, but the yellow site has severely 
impacted neighborhoods around it that would benefit from the 
creation of that park. So I'm here to respectfully request an 
appropriation of $2 million as an EPA grant to help us with the 
resurgence of East Gainesville. I appreciate your time and 
interest.
    I might say, Mr Frelinghuysen, that I grew up in your 
district----
    Mr. Frelinghuysen. My loss. [Laughter.]
    Mrs. Thurman. Obviously, yes. [Laughter.]
    Mr. Delaney. Your father was the first person I ever voted 
for, I think, in 1968. [Laughter.]
    I just want to say I heard that.
    Gainesville is about to experience the same kind of growth 
that Morris County did in the 1950's and 1960's. Right now, 
it's pretty much in urban form and rural on the outside just 
like Morristown was. The same thing is about to happen. We're 
about that pretty intensive growth and we need to--if we can't 
control the growth better--at least control the impact of it. 
We're restoring clean water--7 million gallons per day--that's 
7 billion gallons in three years. We could be storing clean 
water, instead of storing polluted water. So any help you can 
give us, we'd appreciate it.
    Mr. Lewis [presiding]. Mayor Delaney, we sure appreciate 
your being here. Thank you, Ms. Thurman.
    Mrs. Thurman. I appreciate it.
    Mr. Lewis. Mayor Delaney, if you come up to Morristown, the 
mayor of Morristown, is Jay Delaney. [Laughter.]
    Mr. Stokes. I just want to let you know, Mr. Mayor, that no 
mayor in America has a more fierce advocate than you have in 
Karen Thurman. [Laughter.]
    She is relentless on behalf of her congressional district.
    Mr. Delaney. Well, I appreciate that.
    Mr. Stokes. It's to the point where every time I see her, 
she mentions water. Keeps me conscious at all times on water 
projects in that State.
    Mr. Lewis. I'll never forget last year Mr. Stokes came up 
with an amendment on the floor and said, ``Jerry, you know 
we've got to do something here. Karen Thurman is all over me.'' 
[Laughter.]
    Mr. Delaney. I hope you take his advice.
    Mrs. Thurman. Thank you. I want you all to know that I only 
bring those projects that get support from our State, our 
counties and our cities so that we're not sharing the whole 
burden--this is really a joint effort.
    Mr. Stokes. We appreciate that.
    Mrs. Thurman. Thank you.
    [The information follows:]


[Pages 733 - 736--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HOWARD GELLER, EXECUTIVE DIRECTOR, AMERICAN COUNCIL FOR AN ENERGY-
    EFFICIENT ECONOMY
    Mr. Lewis. From the American Council for an Energy 
Efficient Economy, Howard Geller, the Executive Director. 
Welcome.
    Mr. Geller. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear. I'm the Executive Director, as you 
indicated, of the American Council for an Energy-Efficient 
Economy, a nonprofit research analysis and advocacy 
organization.
    We are here today to support the funding increase for EPA's 
global Climate Change Technology Initiative. Particularly the 
energy-efficiency and pollution prevention programs done by 
EPA's Atmospheric Pollution Prevention Division. We recommend 
that the Congress fund as much of the Administration's $205 
million request in this area in fiscal year 1999, as is 
possible. There are three or four key reasons we seek for this 
funding increase.
    First, these programs are really a success. EPA has shown 
great creativity in developing cost-effective programs that are 
having a substantial impact. The Green Lights program has 
convinced thousands of businesses to implement cost-effective 
energy-saving lighting upgrades in their facilities. Ten 
percent of the commercial building space in the country has now 
signed up for this program. Over 500 manufacturers are 
participating in the Energy Star Labeling program which is 
educating consumers about energy-saving appliances, air 
conditioning equipment, heating systems and so forth. These are 
just a few examples of the impact that this program is having 
in the marketplace. These programs are good for our Nation's 
economy. EPA estimates that as of last year, these programs 
were saving consumers more than $1 billion on their energy 
bills. For every dollar by EPA, consider a saving over $60. 
This ratio is growing year-by-year as the programs mature and 
its implementation expands.
    Thirdly, of course, these programs are good for the 
environment. Energy efficient and pollution prevention are a 
major component of our Nation's efforts to reduce the emissions 
that are contributing to global warming and climate change. EPA 
estimate programs cut emissions by 11 million metric tons of 
carbon this past year which is equivalent to taking about eight 
million cars off the road in terms of the avoided emissions.
    In addition the programs are reducing the pollutants that 
cause acid rain, urban smog and lots of other environmental 
problems. Most important, they're doing this as an economic 
benefit for the country, not an economic cost as is typically 
associated with a smoke-stack, tailpipe-type emissions 
controls. Of course, the program also has very broad support. 
The Subcommittee, I believe, has received letters from hundreds 
of companies in the past. Supporting these programs, you have 
major companies like Mobil, GM, electric utilities, like 
Southern California Edison and American Electric Power in 
Ohio--that are supporting, participating and embracing these 
programs, even though they do have some problems with the 
climate treaty negotiated as assembled in Kyoto.
    In short, these programs make good business sense. If 
they're so effective, I think it's reasonable to ask why is 
more funding needed. They are successful, but much greater 
energy, economic and environmental benefits can be achieved if 
the programs were expanded. So far only 10 percent of the 
commercial cost basis are participating in Green Light. More 
work is needed to convince other companies to participate in 
and provide the services that EPA is providing--information 
training, technical assistance for participants. There's also 
additional products that could be covered in programs like the 
Energy Star Labeling program.
    So to summarize, the climate change and pollution 
prevention programs provide many important benefits to the 
Nation. By helping to eliminate energy wastes in a highly cost-
effective manner, the programs are a sensible response to the 
threat of global climate change. They are justified even if 
climate change turns out not to be a major concern. I hope 
members of the Congress will support greater funding for these 
programs, independent of opinions concerning the Kyoto climate 
treaty. Thank you very much.
    Mr. Lewis. Thank you very much for your testimony, Mr. 
Geller. Appreciate your being here. Mr. Stokes.
    Mr. Stokes. Thank you very much. Appreciate your testimony.
    Mr. Geller. Thank you.
    [The information follows:]


[Pages 739 - 744--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

S. WILLIAM BECKER, STAPPA/ALAPCO
    Mr. Stokes. Thank you, appreciate it. Mr. William Becker is 
our next witness, of STAPPA/ALAPCO.
    Mr. Becker. Thank you, Mr. Chairman, members of the 
Committee. My name is Bill Becker. I'm the Executive Director 
of two national associations representing the 54 States and 
territories and 150 major metropolitan areas having air 
pollution control programs throughout the country. We 
appreciate this opportunity to testify on EPA's budget request 
for fiscal year 1999 and specifically on the two sections of 
the Clean Air Act that relate to the funding of air pollution 
programs in the State and local level--sections 103 and 105.
    We believe the President's budget request is grossly 
inadequate to fund State and local activities in two principal 
areas. One with regard to the PM fine or PM 2.5 monitoring 
network and the other with regard to the rest of the 
implementation activities under the Clean Air Act. Accordingly, 
we are requesting that an increase of $121 million be made 
available to fund in two parts; $23 million for the monitoring 
network; and $98 million for the implementation of the rest of 
the Clean Air program.
    I'd like to spend the next three minutes to tell you why. 
With respect to the particulate matter, EPA has estimated that 
it's going to cost about $98.3 million to deploy a national 
particulate matter PM 2.5 program--monitoring program 
throughout the entire country. This program would fund the 
purchase of equipment, as well as the analysis of the data and 
the operation and maintenance of the facilities. On numerous 
occasions, EPA has promised that they will be funding this 
fully and with new money. Unfortunately, this is not what 
happened. Instead of providing $9.3 million to fund the $2.5 
monitoring network, EPA has in fact only funded $75.3 million 
in new money to date--a shortfall of about $23 million what EPA 
promised to provide.
    We're pleased that the Senate, who invented the ISTEA, has 
recognized this problem and we're hopeful that the House during 
conference committee on ISTEA, will also recognize the problem. 
We're more hopeful that the Appropriations Committee will 
appropriate those funds. We urge you to increase the section 
103 funding for those funds that the monitoring network which 
is so sorely needed by the $23 million. While monitoring is 
very important, State and local agencies, as you know, ranging 
from New Jersey DEP to South Coast Air Quality Management 
District to the heart of EPA, have numerous other activities to 
carry out. Small control measures, air toxic implementation 
activities, enforcement of air quality rules and laws and 
assistance of small businesses as a few examples.
    Yet while the need for Federal funding is increasing, the 
funding for operating programs since the year 1995 has 
decreased by $40 million or 23 percent during this time of 
increasing responsibilities. These cuts have seriously affected 
the ability of State and local air pollution agencies around 
the country not only new emerging activities, but also to 
maintain the successes that many existing agencies, including 
today's New York Times article about the South Coast Air 
Quality Management District have acknowledged. It is not only 
State and local agencies who recognize the need for additional 
funding. EPA has as well.
    Last year, in cooperation with our associations, EPA 
published a study that estimated the additional costs that were 
needed to fund State and local air pollution programs, 
particularly the Federal portion of those costs. And the study, 
which we shared with the subcommittee, concluded that to 
operate a good, not perfect, program, we would need an increase 
in Federal funding of $98.3 million over last year's levels. 
This would not include the monitoring network.
    These estimates included savings from eliminating 
completing programs and curtailing lower priority initiatives 
that simply weren't necessary any more. So, in spite of the 
significant shortfall identified by the meat survey, we are 
chagrined that EPA has not only not proposed budget increases 
in fiscal year 1999, it has actually called for decreases in 
funding and has proposed reprogramming funds away from these 
activities.
    So, in conclusion, we're here to ask for an increase of 
$121 million--$23 million for the monitor network, $98 million 
from the rest of the Clean Air Act. And we hope that you'll do 
whatever you possibly can to make certain that happens.
    Thank you.
    Mr. Lewis. Thank you very much, Mr. Becker. Mr. Stokes?
    Mr. Stokes. No; thank you Mr. Becker, very much.
    Mr. Becker. Thank you very much.
    Mr. Lewis. Appreciate your being here very much.
    [The information follows:]


[Pages 747 - 753--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

ANDRIJ HOLIAMAN, DIRECTOR OF RESEARCH, MICKEY LELAND NATIONAL URBAN AIR 
    TOXICS RESEARCH CENTER
MARCUS M. KEY, UNIVERSITY OF TEXAS AT HOUSTON, HEALTH SCIENCE CENTER
    Mr. Lewis. Our next witness, Mr. Raymond Campion, of the 
Mickey Leland National Urban Toxics Center. I don't see him in 
the audience. Is there somebody?
    Mr. Holiaman. Yes, I'm Andrij Holiaman. I'm representing 
him----
    Mr. Lewis. All right.
    Mr. Holiaman [continuing]. And the center today. He had a 
tragic loss----
    Mr. Lewis. I understand he did, yes.
    Mr. Holiaman. I appreciate your consideration of the change 
of speakers.
    Mr. Lewis. Would you give me your name for the record?
    Mr. Holiaman. Andrij Holiaman.
    Mr. Lewis. Holiaman?
    Mr. Holiaman. Right.
    Mr. Lewis. Right. Thank you.
    Mr. Holiaman. I appreciate the opportunity to report to the 
Subcommittee on the progress of the Mickey Leland National 
Urban Air Toxics Research Center. I want to introduce one of 
our members of our board, Dr. Marcus Key, professor emeritus at 
the University of Texas, Houston, Health Science Center, who 
was the original head of NIOSH, I believe. Our board is now 
complete, with the recent nomination of Dr. Felton Lewis, from 
the Urban House Corporation, who was recently appointed by 
President Clinton. Our board represents a very good 
partnership, and what we have is a good example of the type of 
partnerships that exists at the Mickey Leland Center.
    The Subcommittee has been most helpful to the Center in the 
past. We now have a very active research program with two major 
initiatives that have been funded to address key risk 
assessment questions that we face by the EPA and by Congress in 
the next few years. These are going to be conducted at Columbia 
and at the Environmental Occupational Health Sciences 
Institute, in New Jersey. They have been very well received by 
the scientific community and by the EPA, and they will measure 
the relationship between personal exposures and ambient air 
concentrations of air toxics.
    We've also established partnerships for the conduct of 
these studies with the Health Effects Institute, the State of 
California, and are working to a partnership with the State of 
Texas at this time. This leveraging of partnerships with 
government agencies, States, industry, and public interest 
groups has greatly assisted the Leland Center's research 
program.
    In addition, we are working with the CDC National Center 
for Health Statistics in the NHANES program that begins this 
year. The Leland Center is the only non-governmental agency 
working with the NHANES program, and we are carrying out 
studies on personal exposures of human subjects to air toxics 
as part of this national survey on people's health and 
nutrition.
    New research programs will also begin this year. The first 
will develop an approved methodology for assessing personal 
exposure to fine particulates and the metals of these 
particulates. This work represents an extension of the ongoing 
effort that we currently have to make a relationship between 
personal exposures and anti-concentrations of air toxics. The 
second program will start a study on the human health effects 
and need being caused by these metals on these particulates. 
And as you recall from the recent National Research Council 
report, these are two of the primary areas that have been 
identified as gaps in knowledge that need to be filled in the 
National Research Council report. And we clearly have 
established in this area the Leland Center in conducting this 
work.
    We feel that our research is clearly on target with the 
national needs and that these data will be available for the 
next round of standard setting by the EPA. In addition, we also 
are starting a small grants program that provides funds for 
specific community-related projects focused on health effects 
of urban air in communities and sub-populations.
    Our request for fiscal year 1999 is $2.6 million, which 
will allow us to continue our ongoing studies and allow us to 
move forward with these additional research programs on 
fineparticulate exposure, metals effects, and the small grants programs 
as detailed in our prepared testimony.
    In summary, we feel strongly that this private-public 
partnership in environmental health research, as envisioned by 
Congress in the 1990 Clean Air Act Amendments, has come into 
fruition. Again, we thank the subcommittee for their support 
and their patience of our program. We'd be happy to answer any 
questions.
    Mr. Lewis. We very much appreciate your appearing today, 
and, for the record, I think it needs to be said that Raymond 
Campion, who was going to be with us, who is President of the 
Mickey Leland National Urban Air Toxics Research Center, had a 
tragic tragedy in his family last week. His wife passed away, 
and we appreciate the both of you being here. I don't have 
additional questions.
    Mr. Stokes.
    Mr. Stokes. No, I just would join with you in thanking the 
gentlemen for their appearance here this afternoon. Thank you 
very much.
    Mr. Holiaman. Thank you very much.
    Mr. Key. Thank you.
    Mr. Lewis. Thank you.
    [The information follows:]


[Pages 756 - 766--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

ALBERT GRAY, WATER ENVIRONMENT FEDERATION
    Mr. Lewis. Mr. Albert Gray, Dr. Gray, Water Environment 
Federation.
    Mr. Gray. Thank you, Mr. Chairman, and members of the 
Subcommittee. I appreciate the opportunity to testify today. 
The Federation has testified before before this subcommittee, 
and we appreciate the opportunity to do so again.
    Mr. Lewis. We'll put your entire statement in the record, 
as you know----
    Mr. Gray. I understand.
    I'm the Deputy Executive Director of the Water Environment 
Federation, which is headquartered in Alexandria, Virginia, and 
I'm here today on behalf of this Federation, which is an 
organization of some 40,000 plus engineers, scientists, and 
practicing professionals who work in the water quality 
industry. The Federation is urging you to support an adequate 
level of funding for the National Water Quality programs that 
are administered by the United States Environmental Protection 
Agency in their fiscal year 1999 budget request.
    The three areas that we're specifically highlighting today 
in this summary of the testimony that we think are very 
important from a funding standpoint are watershed management, 
the financing of infrastructure through the State Development 
Loan Fund, and the area of research.
    The Federation believes that the EPA activities that 
support watershed management and the reduction of non-point 
source pollution should be made a priority. We have seen 
substantial improvement in the quality of our Nation's water 
since the Clean Water Act passage in 1972 established 
technology-based treatment primarily for point sources, but to 
achieve the further progress that's needed to clean up what's 
been estimated to be the remaining 60 some odd percent of 
pollution loads on our streams and bodies of water, we really 
need to adopt the watershed approach. We need to address 
sources of pollution which include runoff from farm fields, 
city streets, atmospheric deposition among others. The current 
approach really provides no means to effectively set priorities 
for those types of pollution. However, the watershed approach 
will allow for a comprehensive and integrated approach to 
protecting all water resources, including uplands, drainage 
basins, wetlands, as well as surface and ground waters.
    We feel that Congress should support those activities which 
provide flexibility and encourage management of water quality 
on a watershed basis, including specifically funding for 
President Clinton's Clean Water Action Plan. We strongly 
support the additional $145 million requested in EPA fiscal 
year 1999 budget allocated to this implementation of this Clean 
Water Action Plan and water restoration initiative.
    One area where the Federation is currently working to 
implement watershed management is through biosolids recycling. 
Land application of biosolids, which is a by-product of waste 
water treatment, will effectively recycle this nutrient-rich 
organic product, and it's comparable in nutrient value to 
commercial fertilizer. To promote this practice, the 
Federation, in cooperation with the Associate of Metropolitan 
Sewerage Agencies and the EPA, recently a few months ago, 
formed the National Biosolids Partnership. And we're urging 
Congress to support this partnership as it promotes 
environmentally sound alternatives for biosolids management.
    One other key budget item that will support watershed 
management, including non-point source pollution program 
funding and funding for water quality research, and 
capitalization of the Clean Water State Revolving Fund, the 
SRF.
    We are supporting funding for addressing non-point sources 
of pollution. The fiscal year 1999 EPA budget specifically 
requests $200 million in assistance to States to address this 
problem through their non-point source pollution management 
programs. Investments in best management practices and other 
measures geared toward meeting localwater quality needs could 
result in substantial reductions in overall pollutant loadings from 
agriculture, mining, construction, street, and rooftop runoff.
    On the topic of research, WEF is supporting an increase in 
EPA's water quality research budget. We feel more research is 
needed to ensure regulatory and management decisions are 
technically credible, cost-effective, and, as was heard from 
others testifying, are based on sound science. Watershed 
management will only be successful if we have a more thorough 
understanding of the ambient water quality conditions and the 
impact on those waters of both point and non-point sources of 
pollution. We call your attention to the fact that since 1980, 
EPA's water quality research budget has steadily decreased 
while Clean Water Act requirements, including advanced waste 
water treatment, biosolids management, combined sewer overflow 
storm water control, removal of toxic constituents among 
others, have continued to require additional research to meet 
the challenges that is presented by those environmental 
stresses. Research and technology development are vital to 
improving our understanding and base of knowledge regarding 
water pollution problems and to developing solutions which will 
minimize, eliminate, or prevent adverse environmental and human 
health impacts.
    We would like to ask the Subcommittee to continue its 
support of cooperative research efforts and our foundation, the 
Water Environment Research Foundation. This represents an 
ongoing collaborative effort between the Federal Government, 
cities, and preeminent water quality specialists to further our 
understanding of water quality problems and solutions. WEF 
urges the subcommittee to support WERF and its water quality 
research goals.
    Finally, on the subject of financing infrastructure, which 
we think is becoming increasingly critical, the Water 
Environment Federation supports an appropriation of at least $2 
billion for the Clean Water Act State Revolving Fund 
capitalization program for fiscal year 1999. Our review of data 
based on an annualized basis indicates the annual needs for 
wastewater infrastructure to be on the order of $16 billion. 
Based on 1990 Bureau of Census data, we estimate the current 
level of aggregate spending at all levels of government for 
wastewater capital needs is $9.7 billion. So we're seeing a gap 
of $6.3 billion every year between what is needed to maintain 
the level of waste water treatment and waste water 
infrastructure services and the actual expenditures. This gap 
is perhaps the single most significant figure in our current 
debate about clean water needs.
    The Federation, in partnership again with the Association 
of Metropolitan Sewerage Agencies and others, has undertaken a 
study to better quantify the financial requirements of 
developing a sustainable infrastructure system related to waste 
water. As you know, the Clean Water Act needs surveys that have 
been done by EPA show the total capitalization requirement of 
about $137 billion, but our estimates would indicate that that 
number is low, and doesn't account for some of the needs such 
as combined sewer overflows, sanitary sewer overflows, storm 
water, and some of these types of water quality management 
challenges.
    In addition to capital needs, operation and maintenance 
costs are also roughly equivalent in magnitude to the capital 
costs I've just reviewed.
    Given these large funding needs, the Clinton Administration 
has requested only $1.075 billion for meeting wastewater 
treatment facility needs through the State Revolving Fund in 
Fiscal Year 1998. We believe that $2 billion is the minimum 
amount that should be appropriated. Continued Federal 
assistance for municipal waste water treatment facility 
construction is crucial if we are to fulfill this basic public 
health need.
    The Federation urges Congress to move expeditiously to 
approve funding for these important water quality programs. 
This concludes our statement, and I'd be happy to entertain any 
questions asked.
    Mr. Lewis. Thank you very much, Dr. Gray. As you know, it's 
been a long day, and we have two more witnesses; and we're 
about an hour behind. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you. No questions.
    Mr. Lewis. Thank you.
    Mr. Gray. Thank you very much for your time.
    Mr. Frelinghuysen. We have six more witnesses.
    Mr. Lewis. I can't stay for six more witnesses. I've got to 
be out of here.
    [The information follows:]


[Pages 770 - 776--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DAVID NEMTZOW, PRESIDENT, ALLIANCE TO SAVE ENERGY
    Mr. Lewis. David Nemtzow.
    David Nemtzow.
    Mr. Nemtzow. Yes, sir.
    Mr. Lewis. I hope I pronounced that somewhat close, but----
    Mr. Nemtzow. You got it right.
    Mr. Lewis. I do have to go.
    Mr. Nemtzow. I see, and I will be brief with my time and 
yours. You'll be here all day, and I thank you for allowing me 
to testify.
    Mr. Lewis. Let me mention one thing: there is a meeting 
that I really do have to go to, and Mr. Frelinghuysen has 
agreed to chair the rest of the meeting. Before I leave, I just 
want to mention for those who've been through this long day 
with us that I especially want to recognize our recorder. He is 
highly professional and hasn't bothered us at all outside of 
saying, ``Why don't you give me the right name?'' And we 
appreciate your help today.
    Please go right ahead.
    Mr. Nemtzow. Thank you.
    As you know, Mr. Chairman, the Alliance to Save Energy was 
founded by Charles Percy two years ago and honored by your 
friend, Chuck Embrecht, at our annual dinner. I just wanted to 
let you know that this year we are honoring your colleague, 
David Skaggs, at our annual dinner and we're having our newest 
board member join us. That's William Kies, Governor Wilson's--I 
think he is chairman of the CEC, so we maintain our close ties 
to your State which has always been the leader in energy 
efficiency, as you know so well.
    Mr. Lewis. I appreciate that.
    Mr. Nemtzow. We were founded in 1977 by Charles Percy. We 
are chaired today by Senator Jeff Bingaman and co-chaired by 
Senator Jeffords and your colleagues John Porter and Ed Markey. 
And we have 75 businesses who join us, and we have 21 years of 
energy efficiency expertise. We follow the EPA programs quite 
closely and are pleased to share our views. And thank you again 
for the opportunity.
    I know it's just a comment, but I think Mr. Geller did a 
very nice job of explaining the Energy Star program and the 
benefits. You know them well. You've been through this.
    Mr. Lewis. Right.
    Mr. Nemtzow. I took a few notes, and perhaps I can sort of 
deviate from the script and sort of cut to the chase if it 
pleases the Chairman.
    Mr. Lewis. We appreciate it. Thank you.
    Mr. Nemtzow. This is a very successful program. I don't 
think you can do much better in the programs that are under the 
jurisdiction of this subcommittee. I think it deserves the 
substantial and significant increase that the administration 
has requested. The numbers are very powerful, and these 
programs work, from the Green Lights program that helps 
companies like Mobil understand energy savings opportunities to 
companies like IBM or Compaq computers who produce these 
products that save energy and earn the energy start label.
    And so for companies that are very smart--Mobil employs as 
many engineers as any company in America. They're a very good 
company, but with EPA's help, they found $77 million in energy 
savings. This ad ran in The New York Times, and The Post, and 
other places where Mobil acknowledges that even a company as 
smart as they are still needs the help of agencies like EPA to 
identify these energy-saving and, therefore, pollution-avoiding 
opportunities. So if Mobil needs the help, you can imagine what 
it's like for the small companies in your district or in Morris 
County who will not be able to find these opportunities without 
EPA's help.
    And that is why, as you heard, these programs have led to 
$1 billion in savings, and that's very significant. The reason 
for the big increase is threefold, Mr. Chairman.
    Number one, the number of participants is steadily 
increasing, and that means more and more companies and other 
players--universities and hospitals--need EPA's help.
    Number two, as they grow, the opportunities to work to help 
them share energy savings grows. Only one out of five Fortune 
500 companies are even participating, and smaller companies 
have a bigger challenge.
    Number three, most importantly, is that almost each month 
EPA announces a new partnership with a private industry. 
Perhaps you heard when they announced Energy Star TV's and 
VCR's recently. When TV's and VCR's are left off, they still 
use energy to run the timer and the remote control and by going 
to the Energy Star model, they can save consumers $500 million 
a year and cut pollution.
    So, there you have it. You have a very successful program 
supported by corporate America. We participated in a new poll 
that shows 61 percent of Americans, a majority, support energy 
efficiency and renewable energy over any other energy source.
    But I think what's most important for you to consider as 
you consider the budget the challenges before this agency are 
fewfold. One is the issue of Kyoto and carbon dioxide. Mobil 
doesn't support the Kyoto treaty; yet, they acknowledge that 
this helps them create a hedge against carbon dioxide, and 
that's something you must consider. Regardless of what you 
think on Kyoto, is carbon dioxide a big enough risk that you 
want to have some insurance? Energy efficiency is great 
insurance on CO<INF>2</INF>. Never mind the other pollutants.
    Number two, this program has great support. Perhaps you 
will recall a few years ago when your counterpart in the Senate 
proposed cutting back this program dramatically. Senator 
Jeffords and Senator Bingaman went to the floor, and were very 
successful in overturning that. It resulted in getting an 
increase, and you have supported an increase in the program in 
the past; and we thank you.
    This program is very popular in corporate America, with the 
public, and I think with your colleagues. And I think with good 
reason.
    Finally, I know what you're thinking. You have a big 
budget. You've heard all day about programs that are priorities 
that produce value. I don't doubt that. But I have a challenge 
to you: this program gets $40 million a year. It produces a 
billion dollars in savings. That's a 25 to 1 ratio. Any other 
program you have, Mr. Chairman, that can deliver 25 to 1, I 
think you should give an increase. I know this program can meet 
that standard, and I hope you will agree that its a priority. 
It lowers all the pollutants that we care about--
NO<INF>X</INF>, SO<INF>2</INF>, carbon dioxide, particulates--
the range because they're all produced from energy waste.
    And number three, it's voluntary. It has the strong support 
of businesses. It's exactly the way that I know you want this 
government to operate. The Alliance to Save Energy certainly 
does--non-regulatory program.
    I think it's a winner. You're still saying, ``Where am I 
going to find the money?'' One thing you might want to think 
about is that the Federal government is the biggest energyuser 
in the country. The Feds spend $8 billion a year on energy, of which 
over $1 billion is wasted, according to our estimates. This isn't just 
aircraft carriers. This is military housing and those VA hospitals and 
the public housing that's under your subcommittee's jurisdiction. We'd 
be happy to work with you to identify opportunities to cut the utility 
bills for the VA, for HUD, for NASA and all your agencies. You get 
those savings, and you can invest them right into programs like this. 
You get double duty. You're saving the taxpayers money on energy waste. 
Then you can support priority programs to there's less than others 
you've heard today. We'd be happy to work with you and your extremely 
professional staff on that if you're interested.
    Thank you again for your time. I know how busy you are, and 
I wish you luck with this important subcommittee. And I hope 
that the Energy Star program will become one of your 
priorities.
    Mr. Lewis. I appreciate your testimony. I want to say to 
those who are remaining that we are about to swear in a new 
Member of Congress, Mary Bono, from California. I was supposed 
to be at a reception for her about an hour ago, so I'm going to 
have to go to that. Mr. Frelinghuysen has agreed to help us 
work through the balance of our list, but please don't note my 
absence for these last few moments as not an interest in the 
program to represent. Thank you for being here.
    Mr. Nemtzow. We're convinced, sir, you still have the 
biggest delegation. Don't you agree? [Laughter.]
    Mr. Frelinghuysen [presiding] Thank you again for your 
testimony.
    [The information follows:]


[Pages 780 - 789--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DAVID DERMER, CITY COMMISSIONER, CITY OF MIAMI BEACH, FLORIDA
    Mr. Frelinghuysen. The Chair is pleased to recognize David 
Dermer, City Commissioner, City of Miami, Florida.
    Commissioner, welcome. Thank you for your patience.
    Mr. Dermer. Thank you for having me.
    Mr. Frelinghuysen. A copy of your full statement will be 
put in the record. And our colleague, Ms. Meek, wanted to be 
here to endorse your good work. She's a remarkable member of 
this committee, and we're always excited to have her 
participation. In her absence, we say thank you for being here.
    Mr. Dermer. Well, thank you, Mr. Chair. I also would like 
to introduce Mr. Bruce Henderson, who is our environmental 
specialist for the City of Miami Beach.
    Congressman Clay Shaw wanted to be here as well. However, 
he had to chair a 3:00 p.m. meeting and could not attend. 
Congresswoman Illeana Ros-Lehtinen also had a prior engagement. 
But both of them would have liked to have been here in support 
of two issues that I come before you today on.
    The first is the Miami Beach Waterway Revitalization 
Project, and the second one is the Water Sewer Restoration 
Initiative.
    The city of Miami Beach exists as a cluster of barrier 
islands, with the Atlantic Ocean on one side and the Biscayne 
Bay marine estuary on the other. The 6-mile long chain of 
islands is subdivided by 39 miles of canals and waterways. Just 
after the turn of the century, these natural waterways were 
``improved'' by dredging and the construction of seawalls to 
improve navigation and to stabilize the shorelines.
    Over the years, these once pristine waterways have fallen 
into decline. The waterway improvements so altered the 
shoreline ecosystem that the mangroves and other native plants 
have died out or been overgrown by nuisance species. The steel 
and concrete seawalls have crumbled and have collapsed.
    The loss of native plant communities and the failure of 
seawalls have resulted in substantial erosion of the 
shorelines. The shoreline erosion has undercut roadways and 
public and private structures. The erosion also transported 
tens of thousands of tons of sand and topsoil into the 
waterways.
    Basically, Mr. Chairman, what we've had is because this is 
eroded away, a lot of our canals are being severely polluted 
because of that, and that's why it is an EPA issue, an 
environmental issue. Plus it is a health safety issue, because 
with the erosion of the seawalls, the public roadworks continue 
to erode as well.
    Silt and sediment from the eroding shorelines havesmothered 
benthic communities and clouded the water. In addition, the eroded 
shorelines allow rain water runoff to wash nutrients, agricultural 
chemicals and other pollutants into the waterways.
    These water quality and ecosystem impacts have driven away 
or killed off the manatees, porpoises, bait fish, and game fish 
populations which used to be in abundance. The loss of the 
native wetland plant communities from along the shorelines has 
also substantially reduced the available habitat for many key 
bird, reptile and animal species, including many migratory 
birds which utilize our area as winter nesting grounds.
    Through the Miami Beach Waterway Revitalization Project, 
the City of Miami Beach proposes to address the shoreline 
erosion problem in a truly innovative and environmentally 
beneficial manner.
    The city plans to replace the crumbling concrete and steel 
seawalls with an innovative ``living seawall.'' This would 
entail the demolition of the damaged seawalls and the 
construction of a new wall comprised of carefully intermeshed 
boulders of different sizes. The slope and elevation of the new 
boulder walls will be designed to closely mimic the natural 
tidal creek shorelines which pre-existed the seawalls. So, with 
this program what we're doing is--it's a natural seawall. It's 
going to be a lot less expensive and a lot more efficient in 
the long run, and will bring back the native plants.
    I know that the hour is late. What we're asking for $2.5 
million to be able to get this done, and this is both an 
environmental and a health safety issue--to be able to protect 
the people of Miami Beach.
    The other issue that I'm here before on is the water 
system, which we already put out a bond issue--we did not wait 
on Federal funding--basically to do two things: to improve the 
waste water pump stations and also improvements to the gravity 
collection system to reduce the amount of infiltration and 
inflow into the waste water system. $105 million has been 
spent. We're asking just for 10 percent of some sort of Federal 
reimbursement, a 90-10 split, where locally we're picking up 90 
percent. So those are the two issues that we come before humbly 
today.
    Mr. Frelinghuysen. Commissioner, thank you.
    Mr. Dermer. Before I leave, I just would be remiss if I 
didn't commend HUD and the committee, especially on their 
Community Impact Development Funding program.
    So I thank you very much on behalf of the people of Miami 
Beach.
    Mr. Frelinghuysen. Thank you very much, Commissioner. Thank 
you both.
    [The information follows:]


[Pages 792 - 796--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

JOSEPH SUFLITA, PROFESSOR, UNIVERSITY OF OKLAHOMA, INTEGRATED PUBLIC/
    PRIVATE ENERGY AND ENVIRONMENTAL CONSORTIUM (IPEC)
    Mr. Frelinghuysen. It is my pleasure to recognize Joseph 
Suflita from the University of Tulsa, a survivor of the hearing 
process here.
    Mr. Suflita Thank you for your patience.
    Mr. Frelinghuysen. Just because you're a survivor doesn't 
mean you can go on at great length.
    Mr. Suflita. No, we're not. [Laughter.]
    Mr. Frelinghuysen. For the record, we would appreciate if 
you would be good enough to summarize your statement. Your 
statement in its entirety will be put in the record. Thank you 
for being here.
    Mr. Suflita. Mr. Chairman, thank you. On behalf of the 
Integrated Public Private Energy and Environmental Consortium, 
IPEC, I'd like to take the opportunity to thank you for 
providing $1.5 million in funding for IPEC in the fiscal year 
1998 Appropriations bill for the Environmental Protection 
Agency.
    Under your leadership and that of both houses of Congress, 
the final Appropriations bill included initial funding for this 
research consortium. Specifically, the funding provided for the 
development of cost-effective environmental technology, 
improved business practices, and technology transfer for the 
domestic energy industry. It wouldn't have been possible 
without the efforts of this subcommittee.
    With initial funding under the science and technology 
account of EPA, IPEC will implement a comprehensive mechanism, 
or Center, to advance the consortium's research expertise in 
environmental technology. The operating practices and linkages 
of the independent sector will ensure that real problems in the 
domestic petroleum industry are addressed with real, workable 
solutions. The consortium includes the Universities of Tulsa, 
Oklahoma, Arkansas, and Oklahoma State University.
    We are pleased to report, as envisioned and originally 
proposed, that State-level matching funds have been pledged to 
support of IPEC, creating a true Federal-State partnership. In 
fiscal year 1998, IPEC secured a pledge of $375,000 from the 
Chancellor of Higher Education in the State.
    IPEC officers met with EPA on several occasions to ensure 
that we meet the Agency's requirements for funding a research 
center and for the successful funding of IPEC. And IPEC is 
proceeding in its solicitation and review process so that we'll 
be in a position to fund projects as soon as possible. And part 
and parcel of this, the Industrial Advisory Board of IPEC has 
been formed and met for the first time on January 20. This 20-
member board is composed of environmental professionals 
anddomestic petroleum--professionals from the domestic petroleum 
industry and is dominated by independent oil producers. We are pleased 
to report that this advisory board has recommended five projects at 
this point to go forward for funding, and we anticipate more in the 
coming months.
    And this board, this Industrial Advisory Board, is our 
measure of relevancy of research within the consortium, is 
truly unique, and ensures that the consortium is meeting the 
needs of the domestic energy industry. In fact, IPEC has 
secured significant matching funds from industry or industry 
organizations. The first five projects total $492,000, and the 
investigators have secured another $502,000 for pursuit of 
research.
    As we have previously testified, the ability of small-and 
medium-size producers to compete in a global market is 
complicated by two factors: the cost of regulatory compliance 
and the declining cost of crude oil. With your help, IPEC is 
developing cost-effective solutions for environmental problems 
that represent challenge to the industry. However, the fiscal 
year 1998 appropriations is only a beginning. For example, our 
Industrial Advisory Board has identified 26 critical research 
needs. With the current funding, we can begin to address only a 
fraction of these. There is much work to be done and we are 
again requesting support of the subcommittee in the form 
appropriations for fiscal year 1999. Specifically, IPEC is 
seeking appropriations of $4 million for fiscal year 1999 and 
the succeeding fiscal years 2000, 2001, 2002 through the 
Environmental Protection Agency.
    The Consortium will be responsible for at least a 50 
percent match of Federal appropriations with private sector and 
State support over the 4-year period. The Consortium will be 
subject to annual review to ensure the effective production of 
data, regulatory assessments, and technology development 
meeting the stated goals of the Consortium.
    With that, Mr. Chairman, I would like to thank you for your 
attention, and to also thank you for your prospective support.
    Mr. Frelinghuysen. Thank you very much, Mr. Suflita. Thank 
you for testifying.
    [The information follows:]


[Pages 799 - 850--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DAVID SLADE, ASSOCIATION OF NATIONAL ESTUARY PROGRAMS
    Mr. Frelinghuysen. David Slade, representing the 
Association of National Estuary Programs. Gentlemen.
    Mr. Slade. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Good afternoon.
    Mr. Slade. Good afternoon. This is Bill Kerr from Florida 
on my left and we're here with the Association of National 
Estuary Programs. We are here so you could get an idea of the 
programs out there. We're both citizens. We're both supporters 
of the program. We're both private businessmen, and strongly 
support the National Estuary Program. I'd also like to 
personally thank you and your staff. They've been very helpful.
    Mr. Frelinghuysen. A copy of your formal comments will be 
put in the record, and I guess your comments are going to be 
largely informal?
    Mr. Slade. Yes. There's 28 national estuary programs, and 
this is the tenth year; this is a Clean Water Act Program, so 
it's like many of the Clean Water Act programs. It remains 
unauthorized since 1992. Mr. Saxton, from your State, has 
introduced a bill to reauthorize it, and we have 20 co-sponsors 
of that and would reauthorize this program at $30 million, 
which is our appropriations request. Twenty-eight NEPs. The 
program has been in the developmental stage for a decade for 10 
years--11 since 1987. And at this moment, 17 of the 28, and 
next year 28 of the 28, are expected to be implemented. So 
that's roughly $1 million per NEP.
    We support it as citizens and as private businessmen 
because this is not an old school command and control 
regulatory program. This has really developed from the ground 
up, and I'll have Bill describe with you his experience down 
here with Indian River Lagoon.
    Mr. Kerr. I'd like to make it short. I need to tell you the 
reason that I have donated over 6 years of my life to this 
program.
    Mr. Frelinghuysen. And your name for the record?
    Mr. Kerr. William W. Kerr. I'm from Melbourne, Florida.
    When I was first involved with the Indian River Lagoon 
program, it was 6 years ago. There were 150 State and Federal 
agencies that had jurisdiction, each working in their own 
little area of activity. Five years later, we brought everybody 
to the table--all the environmental people, all the business 
owners, everybody to the same table. Everybody that was 
affected by the plan was at the table. They agreed to the plan. 
The plan is effective. The plan is in place, and it is now 
currently working effectively. Why do I know this? I spent like 
15 or20 years as an environmental consultant, getting people 
through the permitting process, both State and Federal, and it's 
usually an antagonistic position. In this particular program, everybody 
meets together, everybody comes up with the solutions, locally. And 
it's supported by Federal dollars and also supported by State and local 
agencies, and it is a very effective program.
    Mr. Slade. We're asking for $30 million, which is a slight 
increase from last year, and we have a special request within 
that, if we are fortunate enough to get an increase in this 
funding, we would like this funding to go to the programs. EPA 
has automatically been taking 25 percent out.
    Mr. Frelinghuysen. The Committee will so note that.
    Mr. Slade. They have--and we would like to keep that level 
there, and if there is an increase in appropriations out to the 
programs.
    Mr. Frelinghuysen. I think philosophically that's where a 
lot of us come from. I won't speak for the Committee, but 
certainly I'm familiar with the work of a lot of the estuary 
groups. I wasn't aware that you all worked together, but I 
think that coordination is obviously important because that's 
why you're here.
    Mr. Kerr. The younger programs had to do it in 3 years, so 
the older programs helped them. We feel the coordination is 
essential to our programs.
    Mr. Slade. The Administration has made the Clean Water 
Action Plan proposal, and we, of course, support anything 
that's going to clean up the waters. I guess in response to 
that, all we have to say is that this program is up and 
running. It's out there. It's in the implementation stage, and 
for $30 million, it would be very beneficial.
    Mr. Frelinghuysen. Well, thank you for your testimony, and 
thank you for your own personal contributions of time and 
effort.
    Mr. Kerr. Thank you.
    [The information follows:]


[Pages 853 - 858--The official Committee record contains additional material here.]



                                           Tuesday, April 21, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

JEROME SIEBERT, INSTITUTE FOR FOOD TECHNOLOGISTS
    Mr. Frelinghuysen. The Chair recognizes Dr. Jerome Siebert, 
Institute for Food Technologists.
    Dr. Siebert, welcome this afternoon. Sorry you're almost 
last on the batting order.
    Mr. Siebert. It's okay. It's still 2:00 p.m. in California.
    Mr. Frelinghuysen. Well, for some of us here, I'm not sure 
what it is.
    Mr. Siebert. Understand yes.
    Mr. Frelinghuysen. A copy of your full remarks will be in 
the record.
    Mr. Siebert. Thank you very much, Mr. Chairman. By way of 
background, I'll just summarize the statement. My name is 
Jerome Siebert. I'm an economist with the University of 
California. I also serve as a public member of the Ruling 
Marking Board and also on the Farm Services Agency as ex 
officio. I do a lot of work with the California commodity 
groups in terms of the application of farm technology.
    The purpose of me being here today is that I represent 11 
scientific societies whose recommendations are attached to the 
testimony, and this coming together of 11 scientific societies 
is rather unprecedented, and it really is over a proposed rule 
by the Environmental Protection Agency which would assert 
jurisdiction under FIFRA over all substances that plants 
produce to protect themselves against pests and diseases as 
well as the genetic materials necessary to produce these 
substances. Due time materials developed through more 
traditional plant breeding practices would be exempted from 
registration requirements, but plant materials developed 
through biotechnology generally would be subject to regulation.
    The causes of concern for these 11 societies are numerous. 
First of all, we're concerned that the development of new plant 
varieties through biotechnology would be greatly discouraged. 
Secondly, the registration requirements would create a major 
barrier to market entry for entrepreneurs, college 
laboratories, and small businesses that have been instrumental 
in the advances made in this field. And thirdly, it would 
render uneconomical the promising efforts to develop resistance 
characteristics to address a variety of modern crop disease 
problems. Furthermore, most Federal agencies and officials take 
the position that there is no difference between genetically 
modified food crops and traditional food crops, which this 
particular regulation would violate.
    In addition, APHIS has determined that genetically 
engineered plants are generally safe. They do not require the 
level of regulation that the Agency has enforced in the past. 
The end result is that farmers and ranchers would be denied the 
benefits of new developments, would see their costs increase, 
and productivity slowed significantly, if not decreased.The 
ultimate loser is the consumer, who could see higher prices, a possible 
decrease in quality, and a possible decrease in choice. Ironically, the 
proposed rule would result in the continued use and perhaps an even 
greater dependence on chemical pesticides because of the limitations on 
the development of chemical alternatives that biotechnology would bring 
to the particular equation.
    I have done a lot of work with the California commodity 
groups, and quite frankly a lot of the chemically-based 
alternatives are being lost either through re-registration 
procedures or through resistance, and the alternative would be 
biologically engineered products.
    Attached to this statement is a letter from the seven 
leading agricultural organizations in California, and just by 
summary, paraphrasing them, ``by adding substantial new costs 
to plant breeding, the proposed FIFRA regulations will 
discourage integration of effective new genetic methods into 
plant breeding program. Added costs present potent 
disincentives to companies whose products target small acreage 
crops and low acreage margins.''
    By EPA's own estimates, the proposed regulations would 
impose substantial new costs on plant breeders, ranging from 
$200,000 to $500,000 on average, and it would make difficult 
for many firms to justify the cost of developing and 
registering new plant varieties, let alone raise the necessary 
capital to finance this biotechnology.
    So, therefore, Mr. Chairman, and behalf of these combined 
societies, we commend you for giving the opportunity today to 
provide some testimony on this very important topic, and we ask 
the committee to continue in assisting us, that EPA promulgate 
rules that make sense scientifically and that comply with 
Federal policy and regulation of products developed through 
biotechnology.
    Mr. Frelinghuysen. Doctor, thank you for your testimony, 
and going through it so rapidly and giving it a particular 
California flavor. I'm sure if the Chairman was here, he'd want 
to probably make a statement to your work and dedication.
    Mr. Siebert. Thank you very much, sir.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]


[Pages 861 - 914--The official Committee record contains additional material here.]



    Mr. Frelinghuysen. The Soil Aquifer Treatment Research 
Program, anybody representing that group? Is there anybody else 
here for the good of the order?
    [No response.]
    If not, I'd like to thank the recorder for his time and 
effort. We are recessed until tomorrow morning until 10:00 a.m.
    Thank you.
                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

CHRISTOPHER COX, VICE PRESIDENT, MYSTIC SEAPORT MUSEUM, INC.
    Mr. Lewis [presiding]. Ms. Meek.
    Mrs. Meek. Yes, sir.
    Mr. Lewis. I think we're going to exercise our discretion 
one more time. We have a colleague here with a number of 
difficult conflicts in his schedule. Sam, could you introduce 
your other guests.
    Mr. Gejdenson. Yes, you want to come up here.
    Mr. Lewis. You want to come up here, Mr. Cox?
    I think Mr. Cox represents Mystic Seaport Museum.
    Mr. Cox. I do.
    Mr. Lewis. Sam.
    Mr. Gejdenson. I just want to thank you for your time. I'm 
not going to take up a lot of time, just to say that one, I 
invite you to come up and see it, because it really is a 
spectacular site. If you saw Amistad, the movie, you saw some 
of Mystic Seaport in there. And the story there, you know, I 
think the focus is the old whaling ships and what have you, but 
it's a much broader story. There's one story that I'd tell you 
about, and let Chris do the substantive work. There was a 
family who fled Cuba in a small boat, and they got out in the 
middle of nowhere. And they were picked up by one of the ocean 
liners, and so they left the boat behind. And, I don't know if 
it was days or weeks later but a family, basically going out 
there on a rubber raft on its last leg, found the boat, crawled 
into the boat, and then took it to Key West. That's in the 
museum and everything from the earliest settlers. It's an 
incredible information system that they're now on the Web. I 
think Chris will tell you that when the Amistad thing hit, it 
had a million and half contacts to his Web page in one day. So 
this information is going out.
    We all come here for our local interests. I obviously have 
a local interest in it. This is a national issue. It's a 
national resource, and the resources we're asking for will help 
us do a better job serving the Nation.
    And with that, I give you Chris Cox.
    Mr. Lewis. Thank you, Sam.
    Mr. Cox. Sam, good morning. Good morning.
    Mr. Lewis. Mr. Cox, we do have a Chris Cox in the House who 
represents none other than Newport Beach, California. No 
relative, I assume?
    Mr. Cox. I'm afraid that it's not. [Laughter.]
    Very different sides of the world.
    Mr. Lewis. All right. Your entire statement will be 
included in the record, and you can summarize as you might.
    Mr. Cox. Well, I think I will.
    We have submitted a statement, but just for interest sake, 
we're the Williamsburg of wooden boats. We're the Smithsonian 
of ships. We're the largest maritime museum in the United 
States by ten times.
    We have some success problems, in that we have a very 
successful visitor relationship, and the town of Mystic and the 
Stoneage and Groton towns hosts millions of people in this 
little New England village every year. And we've gotten pretty 
successful at it so that our parking lots are full and we have 
parking problems. Success in the museum world comes down to 
parking.
    Economic development is the key to our future. And it isn't 
just yesterday that we are talking about. But we have 2,000,000 
objects; 487 boats; and a reasonably large facility. This is a 
map of the grounds of the museum, and perhaps some of you have 
been there. That large building in the foreground there is the 
object of our interest because we are a 501(c)(3) nonprofit 
with a $22 million a year operating budget, with 26,000 
members, and it's a pretty established institution from 1929.
    But we don't have a lot of cash, and so that investment in 
the intellectual property development of our place: putting 
content and knowledge online and available to teachers and 
students and learners of all ages. And older people are 
probably one of the fastest growing--seniors, I guess I've 
learned to call them--are very interested in their own history. 
What the history that we have is about how America was built. 
It's about what we have in common as Americans, and we don't 
have a place to put it. It's all spread out all over the place. 
So this back part of this mill building here has been rebuilt 
with State and Federal and some small private number of 
dollars.
    The private dollars are interested in the public space, and 
the boat hall, and the conservation facility. So that we have 
raised $8 million so far. We're looking for another $4 million 
to finish the back of the house, consolidate all of the 
collections and the 27 staff so that we can begin to do more 
intellectual property development--CD ROMs, online--we're 
finding that online is much better because it's free and so 
that anybody can access it. And we've got technology that we're 
using from, in fact, a public-private partnership that I think 
you started, Sam, called Techcon. And we're using locals and 
schools and all this, and we're looking----
    Mr. Gejdenson. This will go into every school in the final 
analysis.
    Mr. Cox. Or be available to every school in the country.
    Mr. Gejdenson. Available to any kid doing a research 
project, whether it's on whaling or any stage of marine 
development. They also have the largest collection of the 
photographs, which you might----
    Mr. Cox. Well, we have 1.2 million photographs in the 
collection. The photographs, now with digitalization, it's 
possible to actually use them. Where previously it was just a 
preservation problem.
    What we have discovered--there are some maritime museums 
all around the country and the world, but we're beginning to be 
asked by, for instance, in Cincinnati, this new Underground 
Railroad Museum that's being built on the Ohio River--they need 
to put the river into perspective. Where do they go to do that? 
What was the river was a highway. The Columbia River, the coast 
of California, how was it developed? How was New York City 
built, with what? Well, it was ships that were tractor trailer 
trucks of the 18th and 19th century that were coasting vessels 
that took stuff there. So it's very practical stories that are 
accessible to anyone, at any level of intellectual inquiry.
    And, in fact, through the Getty Art and Architecture 
Thesaurus Project, we've developed a system where we can go 
across collections. And this building, this American Maritime 
Education Research Center, will be a place where, for the first 
time, museum collections will be online because we had to 
invent the standards by which they were catalogued and put in 
order. So that finally you'll be able to use a museum 
collection like a library or university, which never before was 
probable----
    Mr. Gejdenson. Let me say this: as articulate as Chris is, 
that what you really need to do is come up and see it.One, 
you'll have a great time, and there's some good restaurants there. But 
also, I think you get a real sense of how comprehensive an activity 
this is and important, not just in my region.
    Mr. Cox. And it's a town and local and regional economic 
development force because of the intellectual side of it. It's 
not just visitors, but there are new kinds of software, new 
kinds of products that we're interested in. It's difficult to 
project exactly how many jobs. We've had the obvious and 
standard surveys and research projects done. I think that 
they're just formulas that project into the future, depending 
on what you're saying. They all come out heroic--above what 
anybody else has been able--it's not 8 times; it's 11 and 14 
times the invested dollar return. So----
    Mr. Lewis. Mr. Cox, just so you'll have an idea, we haven't 
really received our budget allocation yet. Frankly, between Mr. 
Stokes and Members on both sides of the aisle and my committee, 
we will be talking about how we handle questions like this as 
we move forward. Sometimes we find ourselves in a circumstance 
where members decide to focus on individual projects. If Sam 
were to give special kinds of funding, some people might get an 
amendment and eliminate it. Then, you have difficulty down the 
line. Timing is everything in these things, but we will be 
looking carefully at your project. And frankly, it's this kind 
of thing that's of interest to me as well, so I appreciate----
    Mr. Cox. Well, thank you, sir----
    Mr. Lewis. Appreciate your being here----
    Mr. Cox. We appreciate the chance----
    Mr. Gejdenson. We invite the whole delegation, the whole 
Committee obviously.
    Mr. Cox. We are, in fact, building the Amistad now--an 81-
foot traditionally built vessel. And Captain Bill Pickney, who 
is the first African-American to sail around the world by 
himself, I think he's slightly mad, but he's wonderful. 
[Laughter.]
    Mr. Lewis. He had to be. [Laughter.]
    Mr. Cox. And he's going to be the captain of the boat. So 
we have a lot of things happening----
    Mr. Gejdenson [continuing]. Some relatives of the original, 
you know, the people who were captured. Yes, they had his great 
grandchildren----
    Mr. Cox. The four Pie brothers--one's a medical doctor; 
one's the administrator of the business school at the 
University of Michigan--very interesting people came----
    Mr. Gejdenson. Down doing some work on building the model.
    Mr. Cox. You know, it's a thrilling time for us.
    Mr. Lewis. Not too long ago, they got some of us to go up 
to Woods Hole and look at another aspect of a similar thing----
    Mr. Cox [continuing]. Yes, sir. Well, it's a sister 
institution. Absolutely.
    Mr. Lewis. Correct. Correct.
    Mr. Cox. They go down the sea, and we go on top of it.
    Mr. Lewis. That's right. They took me a mile down under the 
water one time, so some people go a long ways to sell their 
projects. [Laughter.]
    Mr. Gejdenson. Well, when you get over a mile down, that's 
when you cut the deal. [Laughter.]
    Mr. Cox. Thank you very much.
    Mr. Lewis. Thank you everybody. Thank you, Sam.
    Mr. Cox. Thank you so much.
    [The information follows:]



[Pages 921 - 925--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

WILLIAM POLF, COLUMBIA UNIVERSITY
    Mr. Lewis. Let's see, we have Mr. William Polf, Dr. Polf. 
Please come. From the university.
    Mr. Polf. Thank you, Congressman. Good morning. How are you 
doing?
    Mr. Lewis. I appreciate your patience with our adjustment 
of schedule there.
    Mr. Polf. That's perfectly all right. Anyone from 
Connecticut is almost a New Yorker.
    Thank you for allowing me to come. I'm Dr. William A. Polf, 
Deputy Vice President for External Relations and Strategic 
Programs at the Health Sciences Center of Columbia University. 
I appreciate the opportunity to appear before the Committee 
again. I have submitted testimony----
    Mr. Lewis. Appreciate that.
    Mr. Polf [continuing]. And so I will just summarize a few 
key points for you, Congressman. As you know in my previous 
appearances here, we have a unique project in New York City. 
Columbia University is developing the only university-related 
biomedical research park in New York City. And we have the only 
biotechnology business incubator in New York City. And what 
that allows us to do is to not only expand biomedical research 
in important disease areas, such as cancer, diabetes, do basic 
genetic research, but also to stimulate the creation of new 
business, and to literally incubate start-up companies in an 
urban environment. We are in the New York City Empowerment 
Zone. Congressman Charles Rangel, who is our good friend and 
congressman, is one of the longest supporters of the Audubon 
Project for many years, and he is thrilled to see it reaching 
the level of maturity it has.
    With the support of this committee, we have done some 
wonderful things just during the past year. I might mention a 
few highlights. We have opened the first comprehensive diabetes 
research and clinical care in New York City, doing everything 
from studying the genetic origins of diabetes to the most 
advanced level of care and integrated care with other medical 
disciplines. We now have reached the point of having started 17 
companies in the Audubon Project in two years; some of whom 
have been so successful that we've already graduated one or two 
to our regret. But that's the point of an incubator. And we 
have reached a point now I think of being a major presence in 
terms of new science, new medical science and a major force in 
economic development.
    In my previous appearances here, we have always 
respectfully asked for the support of this subcommittee, 
understanding its importance. And this year, we hope for the 
consideration of a support of $10 million, if that's possible, 
for work on our third Audubon facility, known as Audubon Three, 
which will continue to integrate and expand our biomedical 
research base with the incubation of newcompanies. So with that 
Congressman, and Congressman Meek, nice to be here today. I'm happy to 
answer any questions you might have.
    Mr. Lewis. Let me pose a question: is it your intention to 
make a similar appeal with Labor, HHS where sometimes there's 
more funding available than sometimes we're allocated?
    Mr. Polf. Yes, we do seek whatever funding is available 
through Labor, HHS in both Houses. And we continue to seek that 
as the opportunities are available to us.
    Mr. Lewis. I presume that you had some sense for that.
    Mrs. Meek.
    Mrs. Meek. Well, Mr. Chairman, I'm still looking for his 
testimony. Oh, here it is. I'm sorry.
    Mr. Lewis. That's all right. Mrs. Meek was at a meeting 
earlier today talking with senior citizens about 202 housing. 
She just about blew them away.
    Mrs. Meek. I had such good backing. The Chairman was there. 
I could go a little bit further than I normally would. Well, 
how's the park doing? I missed that.
    Mr. Polf. It's doing terrifically. We have two buildings 
constructed now. We have 17 companies in our incubator, that 
have gone through our incubator. We have expanded our research 
programs. One of our big moves last year was in diabetes. We 
have a comprehensive diabetes center doing both genetic work in 
diabetes as well as new clinical outreach and clinical care. I 
should also mention we have a new--with support of this 
committee--a new program of direct medical care to the 
neighborhood, which is a neighborhood that is medically under-
served, and so we're able to expand our medical care services 
to the Washington Heights and the Harlem neighborhoods.
    Mrs. Meek. You think you'll generate some more jobs?
    Mr. Polf. We're certain we are. We have generated probably 
about 800 now in the two facilities that we have, and when we 
ultimately have completed all five facilities, there will be 
somewhere around 2,500 new jobs. I was saying to Congressman 
Lewis that we're in Congressman Rangel's district and 
Congressman Rangel has been one of our longest supporters since 
the origin of the Park.
    Mrs. Meek. Thank you so much.
    Mr. Lewis. Thank you very much, Dr. Polf. We appreciate 
your being with us.
    [The information follows:]


[Pages 928 - 936--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

DICK STEINBERG, WEST CARE
    Mr. Lewis. Our next witness is Mr. Dick Steinberg with 
Westcare. Oh he is? Hello, George. I didn't see you come in. 
George Radanovich, my colleague from California, is going to do 
the honors.
    Mr. Radanovich. I'd like to introduce Dick, please. Carrie, 
good to see you.
    Thank you, Mr. Chairman. I want to introduce Dick Steinberg 
from Fresno to talk about--actually from a group called 
Westcare from Fresno that's seeking funds for the establishment 
of resident community health care campus center, which is 
substance abuse. Mr. Steinberg knows the subject much better 
than I do, and I want to introduce Dick and let him make his 
presentation.
    Mr. Lewis. I told you I appreciate your being with us.
    Mr. Radanovich. Good to be here. Thank you.
    Mr. Lewis. Go right ahead, Mr. Steinberg.
    Mr. Steinberg. Good morning, Mr. Chairman. Thank you for 
allowing Westcare to come before you this morning and testify. 
I've been with Westcare for the past 20 years as the President 
and CEO, I'm really fortunate to be in a non-profit 
organization such as Westcare. We're kind of made up of 
programs--serving programs in Arizona, Nevada, and California. 
You've had an opportunity, Mr. Chairman, I understand to visit 
one of our programs actually in the Mojave Valley, about 20 
miles out of Needleswood. Your namesake, Jerry Lewis, who's one 
of our board members in that part of the region.
    Mr. Lewis. Several years ago.
    Mr. Steinberg. Yes, sir. And we're doing similar types of 
programming obviously in Fresno. We've been operating a program 
over there for a little over six and one-half years. And we 
have an opportunity right now to purchase a rather large 
facility. It's a hospital that originally wanted $20 million, 
and we now have them down to a potential purchase price of $12 
million for the whole project--some 85,000 square-foot 
building. This will be a collaboration to a whole health care 
facility system with substance abuse, homeless treatment, and 
volunteer issues with the community serving our needs.
    We think we can really bring all the programs together by 
doing this in one simple little piece. I think that's the main 
thing, and we have some real vocational training issues that we 
can also provide at the Center. We served a little over 2,700 
people last year. There's a growing need in the community 
unfortunately in that community for more services of this kind, 
with a tremendous amount of homeless transitional services 
needed at the same time.
    Drug abuse, just like everywhere else, is definitelyrampant 
in the Fresno area, and we think that this project here would turn 
things around. We're calling it the Fresno Community Health Care 
campus. We think it's got a lot of possibilities to bring about under 
one roof.
    We're asking the committee for $2 million to assist with 
approximately 50 percent of the cost of putting this whole 
thing together, with the board and the community working on the 
balance in Fresno to put it together.
    Mr. Lewis. Mr. Steinberg, you may have heard my comment 
from a question earlier of Dr. Polf, in which I suggested that 
there is one more than one source around the Congress. 
Sometimes--as budget allocations take place over time, it's 
good to look around. So George will I know will be of 
assistance. I know that HHS is a prospect here as well. And so, 
I'd urge you to do that. We have not seen our budget allocation 
yet, but we appreciate your coming, and we'll do everything we 
can.
    Mr. Polf. Thank you, sir.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. Thank you. Thank you for coming.
    Mr. Lewis. Appreciate your being with us.
    Mr. Polf. Thank you very much.
    Mr. Lewis. Thanks, George.
    [The information follows:]


[Pages 939 - 949--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

NAN ROMAN, THE NATIONAL ALLIANCE TO END HOMELESSNESS
    Mr. Lewis. Our next witness is Nan Roman, representing the 
National Alliance to End Homelessness. Hello there.
    Ms. Roman. I have my disclosure form.
    Mr. Lewis. Your disclosure form, all right.
    Ms. Roman. Thank you so much for giving us the time to 
speak to you today about the homeless programs at HUD. These 
programs really overall are working well. They're 
oversubscribed, of course. But largely they're keeping people 
off the street, and HUD has done a really good job we think of 
improving the administration of the programs so that they're 
more comprehensive now, and so that the assistance is more 
comprehensive and there's more coordination locally.
    But having said this, there is something that I do want to 
bring to your attention, an emerging issue that we very much 
ask you to address. It's our belief that the homeless 
assistance that's delivered by HUD should be very much outcome 
driven and that the desired outcome of it is that people who 
are homeless aren't homeless anymore.
    Mr. Lewis. That's a reasonable idea.
    Ms. Roman. Yes. We think if the system isn't outcome-based, 
then we're just always providing band-aids and not only is that 
not good for homeless people, but it means that you all--we're 
going to be here before you every year asking for money to 
continue a system that's not outcome driven.
    The question, then, is can we make the existing system more 
outcome-driven? Well, it's our opinion that we can do that, and 
that you can do something about. And in this, we concur with 
the major thrusts of Chairman Lazio's legislation, 217, that 
reorganizes the homeless assistance system.
    Let me explain a little bit about that. The major users of 
homeless emergency assistance are people with chronic 
disabilities, chronic mental illness, and chronic substance and 
alcohol abuse illness. This is population that's relatively 
fixed in size. It doesn't keep expanding. There's not sort of 
an unending need in that population. And we're serving this 
population largely through emergency shelters now, which is not 
an end game-oriented way to serve them. We think that rather 
than serving them through the shelter system and then the jail 
and hospital system, which sort of is associated with that, we 
ought to be serving them with permanent supportive housing, 
which is better for them and cost effective for us. But the 
share of homeless assistance money that's going to permanent 
housing for homeless people has decreased to I think about 18 
percent, as near as we can tell in the last round of assistance 
at HUD, which is rather a small percentage of that money.
    On the other hand, families who are experiencing economic 
crises tend to get from this money longer-term transitional 
assistance with a lot of services that we don't have any real--
they probably need those services, but it's not really 
demonstrated that that helps them get on their feet in terms of 
housing. So the system is a little bit off kilter, despite the 
fact that it's locally controlled, which is positive, and it's 
getting people off the street. It's not really very outcome-
driven.
    So to address that, we would like to ask you for the 
following:
    First, of course, we support the Administration's request 
for $1.15 billion in homeless assistance. I know you've 
received a letter signed by Chairman Leach and Lazio supporting 
that as well as several other people. We'd like to ask you to 
increase that to $1.15 billion in order to do the following, 
which is to ensure that 30 percent of those resources are 
spent, at least 30 percent, on permanent housing. I think this 
would give us the potential really over time to end 
homelessness for people with chronic disabilities and then to 
free up resources for families and people who are experiencing 
an economic crisis. And this would make the system much more 
results-oriented.
    We also strongly support the Administration's overall 
fiscal year 1999 request for funding HUD's request for funding. 
Certainly, the current housing trends are startling. We have 
worst-case housing needs that seem to be unaffected by the 
robust economy. We have rents up, and working families 
increasingly having housing problems. The suburbs are 
increasingly having housing problems. So obviously these sorts 
of things contribute to homelessness. We think Secretary Cuomo 
is making progress on the management stuff and that money given 
to the Department is going to go to good causes, so we're very 
supportive of their overall request as well.
    Thank you very much.
    Mr. Lewis. I very much appreciate your testimony. Mrs. 
Meek, do you have a question?
    Mrs. Meek. No, I do not.
    Mr. Lewis. Do you have some questions, Joe?
    Mr. Knollenberg. You're done.
    Mr. Lewis. I might mention that one of our difficulties 
involves the reality that about 85 percent of our bill is not 
authorized.
    Ms. Roman. Right. [Laughter.]
    Mr. Lewis. And yet the authorizing committees are very 
hesitant about our putting authorizing language on those bills, 
so two points I guess. Not really a question. But outcome-
driven objectives as it relates to homelessness are pretty 
fundamental, and some of that relates to new authority. So far, 
we've had great resistance to relative toputting authorizing 
language on our bill. You might be able to help us with that.
    Ms. Roman. I'd be happy to try.
    Mr. Lewis. But secondly, even more importantly, you might 
be able to help us in making sure that all the forces recognize 
it would help us all if we got a bill through the Senate, went 
through conference, and actually got to the President's desk.
    Ms. Roman. Well, I'd be happy to work on that. I think 
there are a couple of things that you could do on the bill. 
Even asking--I mean, this could really be accomplished with the 
existing program with points incentives because now services, 
for example, service programs don't require a match, whereas 
housing programs require a match. Right there, that's an 
authorizing issue. But that's a problem. I think if you 
instructed the Department to incentivize it with points that 
would probably help.
    Mr. Lewis. If we get a broader view that took a look at the 
fact that we've made public policy decisions over many, many 
years. The promises that we were making to solve homelessness, 
never quite followed through at the local community level with 
clinics and otherwise to make sure that people take their 
medicine and so on. We do need some help from the authorizers, 
and so we just raise that point.
    Ms. Roman. Yes. Okay.
    Mr. Lewis. Well, thank you very much for being here, Ms. 
Roman.
    Ms. Roman. I brought some information. I'll just give it to 
Valerie about the amendment.
    Mr. Lewis. Yes, thank you very much. We'll include that in 
the file and we appreciate it. Thank you.
    [The information follows:]


[Pages 953 - 961--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

ALBERT C. EISENBERG, U.S. CONFERENCE OF MAYORS
    Mr. Lewis. Let's see. Mr. Albert C. Eisenberg, representing 
the U.S. Conference of Mayors.
    Mr. Eisenberg. Members of the Subcommittee, I appreciate 
the opportunity to be with you. Actually, I'm representing 
NACO, the Conference of Mayors, a number of other organizations 
today, and generally local officials. I'm Vice Chairman of the 
Arlington, Virginia County Board, and pleased to present the 
views of these groups on programs you are well familiar with. 
We are looking at CDBG and HOME programs. We are not asking you 
to authorize anything, we're just looking for some more money, 
with a couple of flips and twists to that. We do commend you 
for your past support of these programs, for the increases 
you've provided in the past.
    Let me note an issue with respect to set-asides. We've 
found that over the last several years, the set-asides have 
grown from $95 million within CDBG to almost $.5 billion, and 
as a result, the basic program has reduced 3 percent a year for 
entitlement jurisdiction. So we would urge you all to take 
another look at the way the program is being balkanized and 
turned away from its principal purposes of block grant program.
    We would like you to increase the overall CDBG program to 
$4.725 billion. This is the president's recommendation. I won't 
go into why this is a successful program. You all know that. I 
was amazed to learn that as many as 17,000,000 households 
benefit from this program, and almost 115,000 jobs have been 
created.
    Mr. Lewis. I know you're not going to read all those 
figures, are you?
    Mr. Eisenberg. No. No, that's why I'm turning quickly to my 
notes and respect your time, and hope this would be included in 
the record. We do support as a general principle the regional 
connections initiative, and we just simply indicate that a lot 
of work gets done at the regional level and the government 
should help facilitate that.
    In terms of the HOME program, you yourself have noted that 
this program has worked. You've seen this for a long time. It 
was a bipartisan creation. We would like to see that program, 
which is returning, as I understand, as much as 80 percent on 
the dollar--80 cents on the dollar to at least $1.55 billion, 
again as proposed by the administration.
    Two last issues and then a personal comment. We would also 
like to see the FHA limits increased to $227,150. It's a 
program that, as you well know, was supposed to be a broad 
program, in terms of the broad spectrum of American home 
buyers. And we think that by expanding to this level, even 
though you've got to--people have to pay that mortgage at that 
price. It's not at that price for very low income, but it would 
by spreading the program benefits help make sure that the 
program is actually viable and strong.
    We would urge, with all due respect, that in the 
supplemental appropriation bill, the emergency bill, that we 
not use section 8 reserves. We think, again with all due 
respect, it would be ironic in the extreme congressional 
compassion for people who have lost their homes to natural 
disasters. The price of that was paid by people who, because 
expiring contracts weren't renewed adequately, lost their homes 
as well. It's been rather than representing community--
represent the entire community, not just a section.
    If there's one problem we have that is probably our 
greatest problem, it's affordable housing. For people at 30 
percent median income, probably 3,500 households--I'll correct 
the record for the exact number--there are only 337 units 
technically affordable to these people in the entire Arlington 
County where we have 85,000 housing units. We have a desperate 
situation in terms of housing--affordable housing. And when 
you're poor in an affluent community, you're really poor. And 
these programs are vital to us in our community, to Northern 
Virginia. We appreciate your support in the past, and we 
appreciate your paying attentionto our views today. And again, 
to respect your schedule, that concludes my testimony.
    Mr. Lewis. We appreciate that very much. Thank you, Mr. 
Eisenberg.
    Mrs. Meek.
    Mrs. Meek. Thank you. I have no questions.
    Mr. Lewis. Mr. Knollenberg.
    Mr. Knollenberg. Just one comment. I understand that you're 
in favor of raising the FHA limit. You mentioned also in your 
testimony, written testimony that some 350,000 households were 
denied credit. Was that because of the limit? Or was it for 
some other reason?
    Mr. Eisenberg. This is in the conventional mortgage market 
because FHA, of course, provides some break, even in these low 
interest times and provides some flexibility in their programs. 
I served for a time on the Virginia Housing Development 
Authority, and we were able to partner with FHA to provide some 
very creative programs for very low-income people. Now, of 
course, we're asking for the increase here because even people 
in the median and somewhat higher incomes can find that the 
interest rates and the down payment requirements particularly 
can affect their ability to secure mortgage credit.
    Mr. Knollenberg. What was the denial based upon the limit 
being imposed?
    Mr. Eisenberg. I will have to ask for some assistance 
there. We don't know that particular item.
    Mr. Murphy. Since they were reached by the conventional 
market.
    Mr. Knollenberg. Okay.
    Mr. Eisenberg. That was my impression.
    Mr. Murphy. Well, if the limit were raised, chances are 
they'd get the proposal.
    Mr. Knollenberg. Chances are a lot. Okay. Thank you.
    Mr. Lewis. Before you leave. The reporter couldn't hear 
you. They got to get people on record, George. We give that to 
yourself, John. Respond.
    Mr. Murphy. I'm John Murphy. The Association of Labaz 
Clients Agencies, one of the organizations that's data that was 
complied by the Federal Reserve Board and released in a 
statement by Secretary Cuomo to the Senate Appropriations 
Subcommittee. The inference being that, because they were not 
served by the conventional market, FHA was available to them 
that potentially we could serve another 300,000 plus 
households.
    Mr. Knollenberg. Potentially.
    Mr. Lewis. Thank you.
    Mr. Knollenberg. Thank you.
    Mrs. Meek. I have a question. I believe in your testimony 
you mentioned that the CDBG program works most effectively when 
communities practice concentrated investment. Would you clarify 
that?
    Mr. Eisenberg. Yes, I'm glad you asked that question. It 
applies to my community and a number of others. We've found 
over the years that it makes sense to approach problems in our 
communities in a holistic, coordinated fashion. The enterprise 
zone program that this Congress was wise to approve is very 
much in that spirit, and we can apply Community Development 
Block Grant program and a variety of HUD programs with programs 
from the Department of Health and Human Services, 
Transportation. We can put these programs together in a 
workable, flexible fashion at the local level in areas where 
we've identified a particular need, a particular problem, and 
people together devise the solutions and CDBG and home are 
important--actually, they're an important part of the glue that 
makes those programs work.
    Mrs. Meek. All right. Thank you. I understand that.
    Mr. Lewis. Mr. Eisenberg, before you leave, I do have a 
couple of questions that may or may not be fair. But I know 
that you represent an area in Arlington County, so you may or 
may not be aware of the National Conference of Mayors press 
release in the last couple of days that deals with an issue 
that involves public housing. Specifically, the Conference of 
Mayors suggests by way of their press release that HUD's 
Inspector General has some way been involved in a nefarious 
sort of activity that essentially would have her conspiring in 
some special way that might involve racism in selecting certain 
cities for evaluation of the way money is flowing to public 
housing programs. Are you aware of this?
    Mr. Eisenberg. I am not, Mr. Chairman. Arlington County 
itself has no public housing per se. Our voters have not 
approved housing authority. We operate entirely through the 
private sector partnership approach, non-profits and profits 
with their arrangements, and to address our public----
    Mr. Lewis. Maybe you can take a message back. The Committee 
has been very carefully moving forward with an expression of 
its concern about sizeable volumes of housing dollars that may 
be going to urban centers in the country but may not be getting 
to the people that they were designed to support or help in the 
first place. It has been suggested by some Conference of 
Mayors, that in some way HUD's Inspector General selected 
cities with some design of racial intent--Black mayors et 
cetera. She has not announced publicly the cities she's 
selected to my knowledge, and we asked her not to at our last 
formal hearing. We are going to have an ongoing discussion 
here. But, the National Conference of Mayors, by way of press 
release, came to conclusions that would suggest otherwise is 
not helpful to any of us. I hope somebody would get that 
message.
    This is a very important issue that involves the basic 
question: If we're going to appropriate dollars that are 
designed to help the poorest of the poor, are they getting 
there? And can we independently evaluate those questions 
perhaps it's staff people with the National Conference who are 
coming to conclusions that appear to me to be totally 
erroneous.
    Mr. Eisenberg. Representatives of that organization are in 
the room today, and I'm sure they've heard you loud and clear.
    Mr. Lewis. I hope so. Thank you very much. Appreciate it.
    Sorry to throw that at you.
    Mr. Eisenberg. It's understandable.
    [The information follows:]


[Pages 966 - 971--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

ANTHONY COLE, VICE PRESIDENT, HAYMARKET HOUSE
    Mr. Lewis. Let's see. Next. We are going to go one more 
time and exercise discretion. We have Mr. Danny Davis here from 
the beautiful State of Illinois to introduce one of his 
friends, and take that testimony. Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Lewis. He wants to be able to sneak out. [Laughter.]
    Mr. Davis. You have a tremendous chairman to testify before 
who's done an outstanding job. Mr. Chairman, let me thank you 
for the opportunity to be here--you and members of the 
Committee--to introduce Anthony Cole from Haymarket House, and, 
of course, Mr. Cole will tell you about their program and the 
needs and what we're attempting to accomplish. But I would just 
mention the fact that Haymarket House is one of the outstanding 
innovative organizations when it comes to the treatment of 
substance abuse. It's founder, Father McDermott, throughout the 
Chicago-land area is fondly known as Father ``Mac'' because he 
started a street ministry and has built from that an 
outstanding social service agency that is on par with any that 
you would find anywhere in the Nation. And they just do 
outstanding work, and certainly Mr. Cole will be able to talk 
about the needs that they're trying to meet. And I just 
appreciate the opportunity that you've give me to be with him 
this morning.
    Mr. Lewis. Thank you very much, Mr. Davis.
    Mr. Cole, welcome to the Committee. If you'd summarize your 
statement, we'll include it in entirety in the record and from 
there we're anxious to hear from you.
    Mr. Cole. Thank you. Thank you, Chairman Lewis, for 
providing Haymarket House the opportunity to present testimony 
to your subcommittee this year. I am certainly honored to have 
our congressman here to share his very favorable comments about 
services and our programs and our founder.
    My name is Anthony Cole. I am Vice President of Haymarket 
Center. We are the largest drug treatment in Chicago. We 
service about 13,000 clients annually.
    Our primary service population, as you said, is the poorest 
of the poor. It's the indigent population. In addition to our 
conventional treatment programs, for both men and women, we 
offer targeted high-risk populations such as pregnant post 
partum. In that regard, we have delivered over 354 drug-free 
babies, whose drug-addicted mothers became drug-free, as a 
result of the treatment they received at Haymarket House. They 
received full treatment to deliver drug-free babies. And we had 
a study done on that, and we saved over $250 million to the 
taxpayer as a result of that.
    We also have some very innovative programs in terms of HIV. 
We received regional and State awards for our services for HIV, 
and we also had to do a diagnose program for the homeless 
mentally ill. So we try to be innovative. We've recently 
brought on board a health clinic, on site. We also have a day 
care center on site that we want to expand. We want to do a 
full continuum of care for our clients.
    Having expanded well beyond our building's capacity 
currently of 150,000 square feet, Haymarket was fortunate to 
acquire a 10-year renewable lease in a large building directly 
adjacent to our main facility. Approximately one-fourth of the 
available space is now being utilized to care for the children 
of our long-term clients. An opportunity currently exists to 
utilize the remainder of this space for a new community and 
family learning center, whose programs will address the needs 
of our clients and their dependents and will allow for 
substantial community and economic development.
    We began to recognize the need for the community and family 
learning center as we studied the effects of family unification 
and the accessibility to affordable child care on those 
suffering from substance abuse. A major barrier to the 
treatment for our women clients is the affordable child care. 
When we try to provide residential treatment, many of these 
women have young infants and newborns, even, and we have to 
have a way of providing affordable and accessible child care 
for them.
    In addition to that, as they transition from our 
residential programs to our outpatient or after-care programs, 
there is a continued need for child care services. So we've got 
that started, but we need to do more for that. There's just not 
enough of it. So this is a type of opportunity in terms of the 
community and family learning center will allow us to expand 
our child care and also provide some learning opportunities, 
vocational services for our clients.
    The lack of very accessible and affordable child care again 
is a major barrier for women seeking treatment. In addition, 
approximately 60 percent of clients lack a high school diploma. 
That's a major barrier to employment. A high percentage lack 
permanent housing and many of our clients have not developed 
social relation skills apart from the drug culture. Most of our 
clients lack the skills and job readiness necessary to 
complete--compete rather for even unskilled employment, adding 
the burden of unemployment to their substance abuse problems. 
So Haymarket proposes to address these needs of our high risk 
population with our new community and family learning center. 
The center will provide hands-on training, expose learners to 
the demands of today's information-driven workplace. Community 
resources and technology will assist in building upon the 
individual strengths of our clients and families. Reading, 
writing, information management and organizational skills will 
be emphasized.
    In addition to expansion of our newly-opened child care 
center, Haymarket will assist in augmenting services provided 
to our infants and toddlers and provide services to children on 
our waiting list. We have a waiting list on any given day. We 
have about 70-80 calls come in every day. To foster community 
interaction, flexible rooms in the new center will allow for 
meetings among program participants as well as the larger 
community. The total cost of our proposal would be $1.4 
million.
    Haymarket understands the Federal government has limited 
resources. However, we think that this is a good bang for the 
buck. We have looked at various studies and we have found that 
whenever you deal with substance abuse, you reduce crime. 
Whenever you address the issue of substance abuse, you reduce 
health care costs, and on and on and on. So we know in terms of 
taxpayers' dollars, when you fund substance abuse services and 
make those services holistic, that you significantly impact 
other areas, particularly crime and health.
    So in conclusion, in fiscal year 1999, Haymarket Center is 
seeking $1.4 million to complete the learning center through 
the Department of Housing and Urban Development's Economic 
Development Initiative. I understand it's called EDI.
    Mr. Chairman, Haymarket House appreciates the opportunity 
to present this testimony this year.
    Mr. Lewis. Mr. Cole, thank you very much for your 
testimony. We very much appreciate your being with us. I might 
mention one item. Mr. Davis, especially to you, as we struggle 
with these dollars around here, the Child Development Act of 
1972 was a piece of legislation I had a the privilege of 
carrying when I was member of the State legislature in 
California. It had some firsts, I think, in the country in 
terms of quality day care with educational components and 
health components et cetera. In the last four years, the 
Congress has discovered child care. We're a little bit behind 
the curve, so we need your input and we very much appreciate 
your being here in connection with that and we hope to be able 
to work with you further.
    Mr. Cole. Thank you, Chairman.
    Mr. Lewis. Ms. Meek.
    Mrs. Meek. Thank you so much, Mr. Cole. Good to see you 
again.
    Mr. Cole. Yes, nice to see you.
    Mr. Lewis. Mr. Knollenberg.
    Mr. Knollenberg. No questions. Thank you.
    Mr. Lewis. Thanks for being with us.
    Mr. Davis. Thank you very much.
    Mr. Lewis. My pleasure.
    [The information follows:]


[Pages 975 - 980--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

JAVIER SALAZAR, LEGISLATIVE REPRESENTATIVE, AIDS ACTION COUNCIL
    Mr. Lewis. I might mention to members that we are only 
about 20 minutes behind our normal schedule at this point in 
time, and that's usually the chairman's fault because I like to 
be flexible with people who are making presentations before, 
but we've got to move right along if we're going to get our 
work done.
    So our next guest is Javier Salazar, speaking for AIDS 
Action. Javier. Mr. Salazar.
    Mr. Salazar. Good morning. My name again is Javier Salazar 
and I'm a legislative representative with AIDS Action Council. 
AIDS Action, as you may know, is the national voice of over 
2,400 community-based AIDS service providers from across the 
country and the people living with HIV/AIDS they serve.
    Mr. Lewis, Mr. Knollenberg, and Mrs. Meek, I want to thank 
all of you. I want to thank you as a person living with HIV and 
on behalf of all people living with HIV in this country, their 
families and their care givers, for all the work that you've 
done in support of the Housing Opportunities for People with 
AIDS Program.
    Your work has made a critical contribution in achieving the 
tremendous strides that our Nation is making in the fight 
against HIV and AIDS. The CDC's statistics continue to 
demonstrate this trend--that started in 1996--towards a 
dramatic drop in the number of AIDS-related deaths. Since then, 
it's been about a 45 percent drop in AIDS-related death.
    However, while the overall numbers of people dying with 
AIDS declined significantly last year, the number of people 
living with AIDS has increased.
    This increase translates directly into a greater need for 
health care, treatment, and social services, including housing.
    When once there were few treatments for HIV disease, now we 
face the rationing of care, drugs, and vital social services.
    Now that we have new and effective treatments, we must 
ensure their availability as well as access to the care and 
services needed to ensure their success.
    Housing is a critical component of this strategy. It has 
been the commitment of this committee to this small, but 
invaluable, program that has ensured that thousands of 
individuals have a fighting chance at living longer and better 
lives.
    Today, people living with HIV have a real cause for hope. 
HOPWA, part of the Federal housing response for people living 
with AIDS, has helped thousands of needy individuals face these 
challenges. Although HOPWA funding has increased significantly 
in the past two years, thanks to your leadership and the 
leadership of this committee, the programhas been historically 
underfunded. The amount of housing provided has never, never, been 
nearly sufficient to meet the true needs.
    Today, as a result of recent advances in care and 
treatment, people that are currently being housed are living 
longer causing less turnover in existing housing programs and 
creating longer and longer waiting lists. HOPWA fulfills a need 
not met by other Federal housing programs. Many programs like 
section 8 have waiting lists that are even today longer than 
the average lifespan of a person with AIDS. Other programs like 
CDBG fund activities far more politically popular than housing 
people with AIDS. And many people with HIV still have access in 
HUD programs that serve people with disabilities because of 
HUD's historic position that such programs cannot be used for 
targeted housing that meets the needs of people with particular 
disabilities such as HIV and AIDS.
    HUD serves thousands of people living with HIV and their 
communities ranging from New Jersey and North Carolina to 
Florida and Mississippi, from Ohio and Wisconsin to Texas and 
California. In fiscal year 1998, 88 jurisdictions, 59 cities 
and 29 States, qualified for HOPWA formula grants, and HUD 
estimates that 7 to 10 new jurisdictions will qualify for 
fiscal year 1999.
    The President's request seeks to increase HOPWA funding by 
10 percent to a total of $225 million. While below what we 
estimate is needed in Fiscal Year 1999, this increase would at 
least--the $21 million increase--would at least ensure that 
cities and States, and housing projects in your community, can 
work to address the ever-increasing needs of their citizens 
with HIV and AIDS.
    This committee can help us to ensure that no American 
living with HIV disease is denied care, treatment, even life 
itself, just because they do not have a stable place to live.
    Thank you.
    Mr. Lewis. Thank you very much, Mr. Salazar, for being with 
us. Mrs. Meek.
    Mrs. Meek. I just wanted to compliment him on a very good 
presentation.
    Mr. Lewis. And brief, as well. [Laughter.]
    Mrs. Meek. And brief.
    Mr. Lewis. Let me mention to you, Mr. Salazar, that it was 
in 1981--I remember it very clearly--that the first funding for 
issues questions relative to HIV and AIDS was reported in this 
very subcommittee at a time when Members of Congress across the 
board had little idea of the problem. We've been involved for a 
number of years. I think you know that there are other 
subcommittees that address the question as well, as we're happy 
to work with you and I appreciate you being here.
    Mr. Salazar. Thank you. It's clear that when people think 
about--or when the public thinks about the work that's being 
done on AIDS, and where the advances have come, it's typically 
another receptive committee is mentioned first, but I have to 
say that the work that this committee is completely invaluable 
and the role that you play, you can't put a price on it, for 
the help that your offering people today.
    Mr. Lewis. Thank you, Mr. Salazar. We appreciate it.
    Mrs. Meek. Thank you, thank you.
    [The information follows:]


[Pages 983 - 989--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

DOUGLAS MACDONALD, EXECUTIVE DIRECTOR, MASSACHUSETTS WATER RESOURCES 
    AUTHORITY
    Mr. Lewis. Mr. Douglas MacDonald is the Executive Director 
for the Massachusetts Water Resources Authority.
    Mr. MacDonald. Thank you, Mr. Chairman.
    Mr. Lewis. Mr. MacDonald.
    Mr. MacDonald. I have had the privilege of talking to you 
before and the support of the Committee and I thought I would 
just give you the quickest of updates for the benefit of this. 
There's plenty of material on this. But I know that a question 
for you has to be with regard to the project--
    Mr. Lewis. We've heard of this project.
    Mr. MacDonald. I know you have. [Laughter.]
    I know you have, and I can't tell you how much difference 
your support has meant, but I think that showing it to you in 
the form of this graph might make it very clear. You can see in 
these sort of environmentally greens and blues, with 
contributions that come through this committee to this $3.8 
billion project, that dark red is the share that has remained 
for our ratepayers, so the local contribution, and the pink is 
the contribution--early on when we came to talk to the 
government about helping the project, they thought it was 
essential that the State of Massachusetts also made a 
contribution--in that time, the pink is what has come from the 
State of Massachusetts.
    Four pages on in the brochure, but I can show it to you 
with this, is the picture of what has happened to household 
rates, the significant increases and impacts that people have 
borne as a result of this federally-mandated project. And you 
can translate the differences that your contributions have made 
into the diminishing scale of the increases. We are continuing 
to push water and sewer rates up in Massachusetts because we 
know this is fundamentally in force--our project to pay for it.
    So it has not meant that our rates have even offered the 
crisis that people feel about rates has stopped, and because of 
the need to finish the project, which I have to tell you, is 
now 91 percent complete, so we are close to the end of this 
exercise. But the prospect for the next few years is a 
resumption, this includes some other extending for combined 
sewer overflows and so on.
    Mr. Lewis. I understand.
    Mr. MacDonald. So you can see dramatically that each year 
that you have given us the help that you've given us, it has 
made a direct difference while not diminishing our 
responsibilities in Boston to carry the major burden of the 
project. I thought it was a simple way of showing you what----
    Mr. Lewis. It is very helpful.
    Mr. MacDonald [continuing]. What you have done for us year 
after year, and what a difference it makes if you can continue 
it this year.
    Mr. Lewis. Okay, thank you.
    Mr. MacDonald. But I want to talk about, just very 
briefly----
    Mr. Lewis. Let me just mention that while your entire 
testimony will be in the record, the charts are helpful and 
they'll be included in our file as well.
    Mr. MacDonald. And we have submitted testimony for the 
record----
    Mr. Lewis. Okay. Thank you.
    Mr. MacDonald [continuing]. And not included was one thing 
I thought you would like as members of the Committee. This 
project is about the Clean Water Act, it's about public health, 
it's about people using beaches, and it's about a national 
symbol, if you will, of communities undertaking to do the 
projects that have to be done.
    But we do every now and then get some serendipitous 
evidence of what this project means in an environmental sense, 
and I thought you and members of the staff would enjoy a recent 
article from the ``Boston Globe'' that points out that 
porpoises now are all along the shoreline of the harbor, 
feeding on the herring. And so we do, in fact, have evidence in 
nature. We don't have to--we can go right to the key 
determinants of this and know that this project actually makes 
a difference.
    Mr. Lewis. Excuse me, is that the correct English? Is it 
porpoises or ``porpii?'' [Laughter.]
    Mrs. Meek. If I was a major, I would say porpoises.
    Mr. Lewis. Okay, all right. Thank you very much. 
[Laughter.]
    Mr. MacDonald. Well, as you can see, the way the writer 
here dealt with it is saying that, ``We have a growing sense of 
porpoise around our project.'' [Laughter.]
    Mr. Lewis. Well, for goodness sakes.
    Mr. MacDonald. So I thought that--we are doing this project 
for the porpoises, we're doing it for the Clean Water Act, and 
we're doing it public health, and we're doing it as a matter of 
environmental responsibility, but it is helpful to know that 
some of the broader purposes that we pursue by these 
environmental projects make a difference.
    Now I'd be glad to answer your questions. I know you know 
the project intimately, and I really come each year to thank 
you for what you've done.
    Mr. Lewis. We appreciate very much your coming and your 
testimony. We do know the project very well, and while I don't 
have any questions, I do look forward to continuing to work 
with you, sir.
    Mr. MacDonald. Thank you very much. Members of our 
delegation are going to be here tomorrow.
    Mr. Lewis. We will ask them about the project.
    Thank you.
    Mr. MacDonald. Thank you very much.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. I don't have anything.
    Mr. Lewis. Thank you very much.
    Mr. MacDonald. I appreciate you having us again this year.
    Mr. Lewis. Good.
    [The information follows:]


[Pages 992 - 997--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

TOM SMITH, EXECUTIVE DIRECTOR, RURAL ENTERPRISES INCORPORATED
    Mr. Lewis. Mr. Tom Smith who is the Executive Director of 
Rural Enterprises Incorporated. Mr. Smith, welcome.
    Mr. Smith. Thank you, Mr. Chairman. I have accompanying me 
today, off to the side with Congressman Wes Watkins' office, 
Jeff Strongberg, and Laura Beneton with Government Affairs at 
Fannie Mae.
    Mr. Lewis. Good, thank you.
    Mr. Smith. As you have stated, my testimony has been 
submitted and hopefully the oral testimony will be as well.
    Mr. Lewis. Appreciate that. It will be in the record.
    Mr. Smith. Great. I have my summary request. I'm pleased to 
have this opportunity to represent Rural Enterprises of 
Oklahoma. I appear before you today to request an appropriation 
of $450,000 from the U.S. Department of Housing and Urban 
Development Economic Development Initiative Special Projects, 
EDI.
    The appropriation request is for rural economic activities 
to meet the needs of small businesses with the ultimate result 
of creating jobs in rural Oklahoma. The need for such 
appropriation is substantiated by the increase in demand for 
rural Oklahoma entrepreneurs for financing business assistance. 
Currently, the services of Rural Enterprises of Oklahoma 
include the most recent in this year, a taxable, single-family 
mortgage bond program, 1998 Series A, of $12.5 million in 
commitments from local rural banks, financial services, 
including U.S. Small Business Administration, lending programs, 
as well as serving as an intermediary lender for the Economic 
Development Administration and the Rural Development 
Administration, business development and small business 
incubator services, technology services, international trade 
assistance. Our organization just recently received grant 
authority from the Federal Trade Zone's board here in 
Washington for the operation of a general purpose board trade 
zone in southern Oklahoma.
    The demand for such financial assistance by small 
businesses is evidenced by public financing secured by our 
organization of $24 million for 70 Oklahoma businesses in 1997. 
This financing helped create and retain over 2,400 jobs in 
rural Oklahoma. Also, the number of business incubators has 
grown to include facilities in 11 rural Oklahoma communities.
    To try to facilitate our services, the REI board of 
directors, which number 13, recently passed the resolution to 
participate as an issuer of taxable single-family mortgage 
revenue bonds with down payment assistance included. This is 
the first rural taxable bond issue initiated in Oklahoma in a 
total nationwide program. The second bond issue is already 
underway to serve the remaining 40 rural Oklahoma counties to 
provide affordable housing for our growing workforce in 
ruralOklahoma. The requested appropriation from HUD will help 
facilitate and expand this rural housing program.
    Rural Enterprises of Oklahoma is nonprofit 501(c)(3) 
economic development firm headquartered in southeastern rural 
Oklahoma. Our combination of business services and our ability 
to envision the needs for the future of small business is what 
sets Rural Enterprises apart from other economic development 
firms. The testimony of the organization's vision is the 
current construction of a 3,000 square foot foreign trade zone 
center with two business incubators inclusive. This project 
further testifies to the need for HUD appropriations since it 
would require additional resources to assist rural Oklahoma 
small businesses wishing to enter the foreign markets.
    Rural Enterprises has obtained a credible reputation for 
its economic development programs and affords accountability 
for finding resources for small businesses. HUD appropriations 
are essential to continuance of our economic development 
programs to serve these rural Oklahoma communities and their 
businesses.
    Thank you for your consideration.
    Mr. Lewis. Thank you very much, Mr. Smith. As you 
indicated, your entire statement will be included in the 
record. We appreciate you being present. We very much 
appreciate the work of your Congressman, Wes Watkins, and we'll 
try to work very closely with him as we go forward from here. 
Mrs. Meek.
    Mrs. Meek. Thank you very much.
    Mr. Lewis. Thank you very much.
    [The information follows:]


[Pages 1000 - 1006--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

JOHN HISCOX, PUBLIC HOUSING DIRECTORS ASSOCIATION
    Mr. Lewis. Mr. Hiscox, how are you sir? You know the 
routine.
    Mr. Hiscox. Thanks for the opportunity to appear before 
you. Before we address the 1999 appropriation, I'd like to 
speak just for a minute to some pending business, the current 
situation regarding section 8 reforming. We know that we're 
headed for a section 8 budget crisis. We think that----
    Mr. Lewis. Thank you for that. [Laughter.]
    Mr. Hiscox [continuing]. Reducing the section 8 
preservation account which is intended to buffer that crisis 
was probably not a good thing to do. We hope that's taken care 
of in conference committee. I come from a State that was 
ravaged by the recent floods, so we know the importance of 
disaster relief, but I don't think there's a single family that 
was rendered homeless by the flood that would want their home 
restored to the extent of making another family homeless, and 
we implore you not to let the flood strike twice.
    Concerning operating subsidy, since the Brooks Amendment in 
1968 and subsequently, the section took income completely out 
of the control of housing authorities. It's been replaced 
primarily by operating subsidies, and we believe Congress 
really only has two choices. One is to fund the operating 
subsidy at 100 percent of our eligibility which represents a 
realistic assessment of what it takes to run a housing 
authority, or to deregulate us seriously and give us back 
control of our income. There really isn't much in the way of 
middle ground. We cannot continue to treat the Brooks 
Amendment, as we want to, treat the Brooks Amendment as sacred 
and treat subsidy as profane.
    And PHADA strongly recommends that we get 100 percent 
funding of our PFS eligibility until such time as we're 
substantially deregulated. Lots of folks who fear this fear 
negative impact on low-income families, but as Congressman 
Knollenberg is certainly aware, because of your sponsorship of 
rent reform legislation a few years ago, there certainly is 
strong, friendly byproducts for our residents in real rent 
reform. By eliminating negative incentives to employment, we 
benefit low-income families without hurting the very lowest-
income families that we serve. And we thank you for that past 
support.
    Concerning modernization, modernization is the lifeblood of 
our CLPHA plan. We were first, foremost and always will be, a 
fiscal plan program. There's been over $90 billion invested in 
it since the inception of the program. We've been cut from $3.7 
billion to around $2.5 billion now.
    HOPE VI consumes far too much of the pot. Yes, I know it's 
not in the same account as conventional modernization but it 
was created about the same time that MOD was reduced and it is 
capital funding for housing authorities, at the same time small 
housing authorities are getting killed.
    In my home State, we had the 155 housing authorities that 
are less than 250 units. I'm not one of them so I'm not 
speaking for my own interest here. Ninety-nine of those in 1996 
applied for modernization funds. They applied for a total of 
$172 million and only $15 million was available to fund them. 
Of that, over $13 million was emergency needs such as replacing 
furnaces with burned out combustion chambers. At the same time, 
one Georgia housing authority received a HOPE VI grant that was 
more than three times that size, in the $50 million range, at a 
time when they had hundreds of millions of dollars worth of 
modernization backlog.
    We support the principles of HOPE VI, the flexibility, the 
use for demolition for replacement housing, for mixed-income 
housing, all of those things, but we believe that HOPE VI 
should be folded back into the pot and that formula grants 
should include small PHAs, as well, with the ability to borrow 
as in section 108 that we have a community development block 
grant against that for future needs.
    Last but not least, we support continued funding of 
thePublic Housing Drug Elimination Program. This is a survival issue 
for many of us. We use Drug Elimination to make great headway against 
crime and gangs and drugs in our neighborhoods, and it has been a 
terrifically successful program. We urge you to resist the tendency to 
block grant the money, unless you are prepared, of course, to roughly 
triple the appropriation. Generally PHADA favors block grants but in 
this case, it's the exception that proves the rule--competitive funding 
with drug elimination to make sure that the money goes to places that 
have identified real needs, that have demonstrated that they have a 
plan that addresses those needs and have demonstrated administrative 
capability to handle the funds when they receive them. And only by 
doing that can we make the limited pot of money go to the places where 
it is needed most and will be spent best.
    I stand ready to answer any questions you might have, and I 
thank you for your attention.
    Mr. Lewis. Mr. Hiscox, first, your statement is very much 
appreciated. Your pointing early on to the challenge that we 
have relative to section 8 is important for this committee. You 
are a convenient pot, but it's not a pot that we can afford to 
ignore as we go forward, and all of us knowing that is very 
important if we're going to be able to effectively carry 
forward our work. Further, let me say to you that I come from 
rural America, and Small Housing Authorities have a special 
place in my own mind. But, nonetheless, the pressures are very 
real and I know that you appreciate that.
    Mrs. Meek.
    Mrs. Meek. I don't have any questions. Thank you for your 
testimony.
    Mr. Hiscox. Thank you for your kindness.
    Mr. Lewis. Thank you very much for being with us.
    [The information follows:]


[Pages 1009 - 1016--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

LIZA BOWLES, PRESIDENT, NAHB RESEARCH CENTER
    Mr. Lewis. Liza Bowles who is the President of the NAHB 
Research Center.
    Ms. Bowles. Hi, how are you?
    Mr. Lewis. Fine, thank you very much.
    Ms. Bowles. I just wanted to make a few points this morning 
to kind of add emphasis to parts that were included in my 
written testimony and I will be brief. In trying to think about 
what we do and what to say to the Committee this morning, we 
represent the National Association of Home Builders, and we are 
the technical arm. And there are State and local associations 
throughout the country. In all districts, you have a local 
association and you have a State association. And it's our job 
to help builders and help remodelers understand technology and 
understand where things are going.
    The Committee has been pretty supportive of having that 
technology initiative and keeping HUD a little bit focused on 
technology, the need for technology in housing. And we all 
understand how important housing is to the economy and what a 
driver it is in the economy. But there are other issues too, 
and I was on the internet this morning, actually checking how 
the Orioles did last night, and they beat Anaheim. [Laughter.]
    What I looked at was the ``USA Today'' page and it had an 
article on there that says for most Americans, it's not easy 
being green, and it's not. And it says in here that housing has 
increased in average square footage from 1,400 square feet to 
2,100 square feet. So we can look at environmental issues and 
we can look at energy issues, but unless we do something to 
make it easier on the technology side, to build more 
environmentally and more consciously on the environment, were 
still not going to get more environmentally sensitive housing, 
and that goes for land development, that goes for the structure 
itself. We have to make it easier for builders; we have to make 
it easier for remodelers.
    Another issue on the need for our technology initiative has 
to do with labor. It's great that we are in an environment 
right now where there is very low unemployment but the 
construction industry is pretty much at the bottom of that 
labor chain. And that means that when you look at the numbers, 
productivity in construction is actually going down. So we need 
simpler systems. That has real implications for how we build 
and what we do. We have very high turnover. We're attracting 
people to the industry at the bottom, and it's taking more 
hours to build a house now than it did five years ago. That's a 
trend that really does need to be reversed, and technology can 
help reverse that trend.
    The second point I wanted to make is HUD's role in this 
initiative. We asked the Committee last year to ask HUD to play 
a stronger role in building technology. HUD has responded and 
has accepted some leadership from an initiative called PATH, 
which we're very pleased to see. We have some concerns about 
HUD's ability really to lead Federal agencies and get everybody 
working in one area and building technology, and the initiative 
will not achieve its ultimate impact unless they can bring 
those other Federal agencies along. It's not going to work if 
everybody goes their separate way.
    We still feel strongly that HUD needs to be in that lead 
role because HUD understands the affordability issues. They 
understand the cost issues. But we do want to keep the emphasis 
on HUD that they really do need to pull the other agencies in, 
and the other agencies need to be cooperative.
    My last point I want to make on technology and the 
initiative is that, if it's going to be successful, we can't 
just concentrate on new housing. We add about a million units 
to the housing stock every year. There's a hundred million 
existing units out there. If we're going to have impact on 
housing and what it means to the country, then we can't ignore 
the existing housing stock. To a large extent, the initiatives 
that have gone forward in the past focus on new housing and not 
on existing housing.
    So thank you.
    Mr. Lewis. Thank you, Ms. Bowles, very much.
    Ms. Meek, do you have questions?
    Mrs. Meek. I have no questions.
    Mr. Lewis. Thank you.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. On this other coordination issue, you're 
asking for language or direction or what?
    Ms. Bowles. We'd be----
    Mr. Frelinghuysen. And you're not doing it alone here; I 
assume you're doing it in other forums?
    Ms. Bowles. Yes, we are. I think language would be great, 
but there are definite areas where there is cooperation going 
on. FEMA, with Project Impact and using some things with 
bringing technology into that, I think are very strong, but 
there are areas where there is not good cooperation.
    Mr. Frelinghuysen. Thank you.
    Mr. Lewis. As I'm sure you know, Ms. Bowles, this 
subcommittee has been involved in at least attempting to take 
some steps in the direction of dealing with existing stock. 
What we can do by working together--you also know full well 
that authorization will be very helpful for us.
    Ms. Bowles. Sure.
    Mr. Lewis. I know you're always working there. So thank 
you.
    Ms. Bowles. Thank you.
    Mr. Lewis. We appreciate it.
    [The information follows:]


[Pages 1019 - 1025--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

ALFRED MUNZER, AMERICAN LUNG ASSOCIATION
    Mr. Lewis. Let's see, our next witness is Dr. Alfred 
Munzer, the American Lung Association. Dr. Munzer.
    Dr. Munzer. Good morning, Mr. Chairman.
    Mr. Lewis. Thank you. I can see that you've summarized your 
statement already. [Laughter.]
    Dr. Munzer. Mr. Chairman, members of the Subcommittee, I'm 
a physician specializing in lung disease and past president of 
the American Lung Association. I'm here today to talk about the 
funding needs for the Environmental Protection Agency's clean 
air programs.
    Lung disease remains the third leading cause of death in 
the United States, and is responsible for one in seven deaths. 
More than 30 million Americans suffer from chronic lung 
disease, and lung disease has cost the U.S. economy an 
estimated $84 billion annually.
    Nearly all lung diseases are either caused or affected in 
some way by air pollution. While we've made tremendous strides 
in improving air quality, substantial deficits in air pollution 
protection continue to exist. The EPA has estimated that, as of 
1996, 46 million Americans lived in areas that did not meet the 
current clean air standards. Tens of thousands of Americans 
still die prematurely each year from complications associated 
with exposure to air pollution, and many others have 
respiratory problems.
    I'm pleased that the Administration's budget requests an 
increase in funding for the EPA. However, in light of the 
mounting scientific evidence of the damage air pollution 
inflicts on our citizens and unfinished work of EPA for 
existing clean air standards, more resources are needed. And 
I'd like to highlight a few important clean air programs.
    As the Subcommittee no doubt is aware, the EPA has recently 
revised the standards for ozone and particulate matter. While 
much work needs to be done to implement these new standards, 
there is also a lot of unfinished business, and to attain these 
air quality standards and to appropriately plan and implement 
the new standards will require significantly more funds than 
have been requested by the Administration.
    The Administration has requested an increase in the EPA air 
toxics budget for fiscal year 1999. The American Lung 
Association agrees that there is a need for additional funds. 
We'd like to point out that this is a very significant program 
of work for the EPA, and we are concerned that, without greater 
additional funds, the establishment of new terms for the 
maximum achievable control technology rules will not proceed on 
schedule, and we recommend additional funds be provided.
    The American Lung Association is also very concerned that 
the Administration has made a recommendation to cut programs 
for other criteria pollutants. The EPA needs to provide more 
technical assistance to States for developing control programs 
for all other criteria pollutants, especially sulfur dioxide.
    The American Lung Association strongly opposed EPA's 
decision not to set a national standard for short-term SO2 
levels. While the EPA is currently advocating that these health 
threats be addressed at the State and local level, its budget 
has failed to provide any funding to States and localities to 
achieve that.
    Similarly, the Clean Air Act, much work that's done under 
the Clean Air Act is done at the local and State level. The EPA 
has provided very effective leadership, but, again, there, too, 
we feel that there is a greater need for funding, for State air 
grant funding, over the level that has been recommended by the 
administration. We support the numbers that have been 
recommended by the State and Territorial Air Pollution Program 
Administrators.
    The NIEHS Superfund basic research projects focus on the 
health effects of toxic chemical exposure at Superfund 
hazardous waste sites. The American Lung Association believes 
that the EPA has made an excellent investment in the NIEHS, and 
we recommend the transfer of $40 million from the EPA to the 
National Institute of Environmental Health Sciences for 
toxicology research.
    Finally, we'd like to comment very briefly on environmental 
justice. We applaud the efforts of the EPA in this particular 
area to make sure that all Americans are equally protected from 
the dangers of air pollution, and we urge the subcommittee's 
full support of this initiative. The American Lung Association 
is pleased with the progress made at the EPA in approving our 
Nation's air quality, and the subcommittee should take pride in 
knowing that your investment in EPA is achieving results, and I 
hope that you will continue to provide the needed leadership 
and resources to protect the environment.
    Thank you.
    Mr. Lewis. Thank you, Dr. Munzer, for your testimony. We 
very much appreciate it.
    Ms. Meek
    Mrs. Meek. No questions.
    Mr. Lewis. No questions? Thank you very much.
    [The information follows:]


[Pages 1028 - 1035--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

ANN MILLER, AMERICAN ASSOCIATION OF RETIRED PERSONS
    Mr. Lewis. Our next witness is Ann Miller, the American 
Association of Retired Persons. Ms. Miller.
    Ms. Miller. Good morning, Mr. Chairman.
    Mr. Lewis. How are you?
    Ms. Miller. I'm Ann Miller, a member of AARP board of 
directors. We want to take this opportunity to express our 
appreciation for your efforts last year regarding a section 
202, elderly housing program. The Subcommittee's recommendation 
to preserve section 202's appropriation is a critical benchmark 
as the fiscal year 1998 bill worked its way through Congress.
    The demand for this specialized housing program is strong. 
Research indicates that eight people are waiting for every one 
vacancy that occurs. Features provided, such as grab bars and 
nonskid floors, are particularly helpful to the frail elderly 
and help prevent early admission into nursing homes.
    AARP is deeply concerned about the Administration's 
proposals regarding section 202. The $109 million recommended 
for new construction next year is an 83 percent reduction from 
the existing appropriation. To make up for this shortage, an 
additional $50 million in rental assistance vouchers is also 
requested to help the elderly find affordable housing in the 
private market.
    These proposals not only jeopardize new production under 
section 202, but also they also force the frail elderly to 
compete for scarce, low-income housing. While AARP recognizes 
the usefulness of vouchers, Mr. Chairman, we do not believe 
they should be used as a replacement for the production of 
specialized housing. The Association intends to work closely 
with the authorizing committee regarding any changes that may 
be considered to section 202. Meanwhile, we urge that, as a 
minimum, funds be provided next year to maintain current 
production levels.
    We also urge at least the current funding levels for 
service coordinators. The need for such management staff is 
especially achieved in public housing projects for the elderly, 
which often includes substantial numbers of residents with 
mental and physical disabilities.
    AARP appreciates the Subcommittee's support of these 
critical personnel. In that regard, we note last year's 
directed that HUD provide a report no later than February 1998 
concerning the best means of funding service coordinators. AARP 
believes such costs should be made part of the routine 
operating expenses of elderly housing projects.
    For the Congregate Housing Services Program, AARP 
recommends no less than the current level of funding. Many of 
the 4,000 frail and disabled low-income tenants presently 
receiving these supportive services would have to relocate to 
expensive nursing homes without this program.
    Finally, we recommend that sufficient funds be provided 
next year to continue the housing counseling program. This 
program provides independent counseling for elderly homeowners 
serving reverse mortgages. These mortgages allow them to use 
the equity in their homes. Given the scam artists who prey on 
older Americans, the need for such a program is critical.
    Thank you for this opportunity to comment on some of the 
administration's budget proposals. We trust our recommendations 
and our complete statement will receive the Subcommittee's 
favorable consideration. Thank you.
    Mr. Lewis. Ms. Miller, thank you very much for your 
summarized testimony. The entirety will be included in the 
record.
    I think you already know that the two members who happened 
to be here at the time you were testifying were the very two 
members who led the battle last year relative to section 202 
housing, and I've already been assured of their ongoing 
commitment for the coming process ahead of us.
    Ms. Miller. Thank you.
    Mr. Lewis. Do you have questions, by chance?
    Mrs. Meek. No. I just want to thank you for being here.
    Mr. Lewis. Mr. Frelinghuysen.
    Mr. Frelinghuysen. It's a pleasure to be working with a 
chairman who's so enlightened and with Ms. Meek, on your 
behalf, and other Committee members.
    Ms. Miller. I appreciate that. Thank you very much.
    Mr. Lewis. Thank you very much.
    [The information follows:]


[Pages 1038 - 1046--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

JORGE SANCHEZ, CHANCELLOR, UNIVERSITY OF PUERTO RICO
    Mr. Lewis. Dr. Jorge Sanchez, who's Chancellor of the 
University of Puerto Rico. Dr. Sanchez.
    Mr. Sanchez. Good morning, Mr. Chairman, distinguished 
members of the Subcommittee. I am Jorge Sanchez, Chancellor of 
the University of Puerto Rico, Rio Piedras campus, representing 
Norman Maldonado, President of the University. Joining me today 
are Dr. Francis Schwartz, Dean of the College of Humanities and 
Chairman of the Advisory Board for the UPR Theater project, and 
Mr. Andres Gomez, a distinguished businessman in Puerto Rico 
who is in charge of raising money in the private sector.
    Mr. Lewis. Thank you for being with us. Your statement will 
be included in its entirety in the record, and if you would 
summarize it for us for the record, we would appreciate that.
    Mr. Sanchez. Thank you very much.
    I would like to discuss the University of Puerto Rico's 
request for a $5 million special Federal grant under HUD's 
Community Development Block Grant Program. This special purpose 
grant would aid efforts underway to restore one of Puerto 
Rico's most treasured community landmarks: the University of 
Puerto Rico Theater.
    Of all the historic cities in Puerto Rico, one stands out 
preeminently as a source of community pride: the University of 
Puerto Rico's grand assembly hall, El Teatro de la Universidad. 
Built in 1939, the theater, located on the UPR campus in Rio 
Piedras, was made possible by a cooperative effort between many 
important island and stateside figures, most notably President 
Franklin and Mrs. Eleanor Roosevelt. Today the 2,088-seat 
theater, which is the size of the Concert Hall at the Kennedy 
Center, is the largest auditorium on the island. This theater 
has a unique and a special significance within the context of 
the UPR community.
    The theater is the only place available within the UPR 
community that provides a viable location for both public and 
private events. Ever cognizant of its importance to the 
surrounding community, the UPR has always made the theater 
available to community organizations for activities which 
require the theater's size and stature.
    However, the nearly 60 years old structure is now closed to 
the UPR community because of its major renovation needs. 
Renovation activities are being coordinated by the university, 
in an effort to allow the theater to continue to be of service 
to the Puerto Rican community.
    The renovation of the theater will coincide with current 
economic and community development activities already underway 
in Rio Piedras. Currently, the township is having to deal with 
the effects of a large subway development project, Train 
Urbano, that has temporarily placed the community under a state 
of duress. I have to mention at this moment that the Puerto 
Rican community appreciates very deeply the past contribution 
of the Congress to this project.
    The completion of the subway will mean greater economic and 
community development opportunities. It will also provide for a 
greater number of people to come to Rio Piedras to use the UPR 
theater for community purposes. The UPR has already allocated 
$4.2 million to start the work.
    Additionally, the University is in the process of raising 
approximately $6 million to support the project. Mr. Gomez is 
in charge of that project segment, raising the funds. But 
additional funds are needed to reach the total cost of $15 
million. Mr. Chairman, to achieve our goal, the University of 
Puerto Rico requests that the committee provide $5 million 
within your committee's appropriations bill to assist in 
restoring and preserving the UPR theater.
    This completes my testimony. Again, on behalf of the 
University of Puerto Rico, I want to thank you for the 
opportunity to appear before you today, and I ask that one 
written statement be submitted for the record that also elicits 
funding for other programs that fall under the Committee's 
jurisdiction.
    Thank you very much.
    Mr. Lewis. Thank you very much, Dr. Sanchez. Gentlemen, if 
you would supplement with comments that you might make for the 
record, we would appreciate that. We very much appreciate your 
being here.
    Mr. Gomez. We're the private sector.
    Mr. Lewis. Yes.
    Mr. Gomez. I'm the Chair of the Foundation.
    Mr. Lewis. You're the Chair of the Foundation, yes.
    Mr. Gomez. To raise $6 million.
    Mr. Lewis. Good.
    Mr. Gomez. We're already making activities.
    Mr. Lewis. Very good. Thank you.
    Mr. Schwartz. I would like to say that the theater--as Dean 
of the Humanities College--is one of the great cultural 
institutions, I would say, of the Americas, and it has been 
very, very important in the promotion of democratic ideals in 
Puerto Rico and the Caribbean.
    Mr. Lewis. Thank you, Dean. We appreciate your being here.
    Any questions?
    Mrs. Meek. No.
    Mr. Lewis. All right, thank you. Thank you very much.
    Mr. Sanchez. Thank you very much.
    [The information follows:]


[Pages 1049 - 1094--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

FRED CRESSEL, COUNCILMAN, CITY OF COMPTON, CALIFORNIA
    Mr. Lewis. Our next witness is the Honorable Fred Cressel, 
councilman from the city of Compton.
    Councilman Cressel, welcome. Your entire statement will be 
included in the record. If you would summarize it for us, we 
would appreciate it.
    Mr. Cressel. Okay. Chairman and the other members of the 
Committee, I am Fred Cressel, councilperson in the city of 
Compton, California. On behalf of the mayor, Omar Bradley, and 
the rest of the council, and our 90,000 constituents, I 
appreciate the opportunity to give you testimony concerning our 
city.
    In turning to Compton's appropriations request for 1999, we 
are seeking funds for an initiative that would support the 
growth and development of our most precious asset, our 
children. Within this bill on the HUD community block grant 
account, we are requesting $2 million for the purpose of 
establishing a multipurpose youth development center. There's a 
tremendous need for such a center in the city of Compton. The 
city of Compton is a 10-square-mile city, and when I say that 
there are no multipurpose centers for youth, it's unbelievable.
    We are affected by violent crimes, particularly in the area 
of youth involvement activities. These activities attribute to 
nearly one-half of the homicides that are in the city of 
Compton, and this past year we had something like 72.
    It has been estimated that we have approximately 9,000 gang 
members or affiliates within our city. Forty percent of those 
are under 25 years of age. So we need to be able to break the 
cycle. It's one thing to tell a child that you must do the 
right thing, but it's something else to try to keep them busy 
and training them in the way that they should go.
    Given these statistics, we recognize the need to increase 
our youth programs and efforts in the city of Compton to cut 
back on the gang activity and the crime. Currently, we have 
programs in the city now--one, in particular, which is the 
YWCA. We funded them through our block grant, and they have a 
program that teaches intervention and the roleplaying that the 
children do. This program has touched this past year something 
like 1,000 children, and it's amazing the reports back that the 
teachers have on the different attitudes of the children.
    What we really believe, we have one center where we could 
bring in law enforcement and the different social programs, and 
the activities that the youth have at this particular time, 
that we could better serve them and train them, and as I stated 
before, break that cycle. That's why we are asking you at this 
particular time to see if you could possibly help us.
    Mr. Chairman, what it boils down to, you are from the area, 
and you know we have problems. We know that we need someone 
somehow to help us break this cycle. The bottom line, Mr. 
Chairman, is our children are dying, and we need help.
    Mr. Lewis. Councilman Cressel, I very much appreciate your 
taking the effort to come and give this testimony. I think you 
may know the last time I was in Compton was when we met at the 
high school, and we talked with representatives who were 
concerned about the FBI having a special impact upon the 
community.
    Mr. Cressel. Yes.
    Mr. Lewis. Without any doubt, there is a great need there, 
and your local Member of Congress, Maxine Waters, is a very 
attentive member, as you know. Maxine was the voice that day.
    Mr. Cressel. Right. [Laughter.]
    Mr. Lewis. Ms. Meek.
    Mrs. Meek. I can associate very well with what the 
councilman has said.
    Mr. Lewis. Yes.
    Mrs. Meek. I think it's a very valid reason to seek 
funding.
    Mr. Lewis. Yes. Thank you for being with us.
    Mr. Cressel. Thank you very much.
    [The information follows:]


[Pages 1097 - 1100--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

LORRAINE SHEEHAN, CHAIRPERSON, THE ARC OF THE UNITED STATES
    Mr. Lewis. Our next witness is Lorraine Sheehan, the 
Chairperson of The Arc of the United States. Ms. Sheehan.
    Ms. Sheehan. Good morning.
    Mr. Lewis. It's nice to see you.
    Ms. Sheehan. Thank you. Thank you. And I know you have my 
written testimony.
    Mr. Lewis. I appreciate your being here.
    Ms. Sheehan. My name is Lorraine Sheehan, and I'm the 
volunteer Chair of the Government Affairs Committee of the Arc 
of the United States. The Arc is the largest voluntary 
organization in the United States devoted solely to the welfare 
of more than 7 million people with mental retardation in their 
families. We have more than 1,100 State and local chapters of 
the Arc nationwide.
    For two decades, the top priority of the Arc has been to 
make community-based services and supports, including an 
appropriate variety of housing options, more available to 
people with mental retardation. The Arc also seeks the 
deinstitutionalization of people with mental retardation living 
in large, inappropriate, and extremely expensive institutions, 
places where many people with mental retardation have been 
forced to live, often because there are no community options.
    The Arc is very grateful for the support provided by the 
Subcommittee over the past few years, for the recognition ofthe 
housing needs of people with disabilities and the recognition that 
these needs have to be considered on their own merit, and not lumped in 
with the needs of the elderly.
    I'm also--more importantly to me--I'm also the mother of 
John. John is 32 years old. He has mental retardation, and he's 
always lived at home. I am representative of hundreds of 
thousands of families who are afraid to die because we don't 
know what will happen to our sons and daughters when we are no 
longer around to care for them. We are fearful that they will 
be forced to live in large congregate settings or forced to 
leave family and friends or forced to live in substandard 
housing because there is nothing else available.
    In response to that crisis, the Arc of the United States 
has undertaken a campaign called--and you see our button here--
``A Key of Our Own--Unlock the Waiting List.'' Nationwide, data 
indicates that at least 271,000 people with mental retardation 
are on waiting lists for community-based supports and services, 
including housing. We know of 50- and 60-year-old ``children'' 
living with 80- and 90-year-old parents. We know of people all 
over the country who have been waiting for 15 years or more. 
Some States such as California keep waiting list information. 
But in New Jersey, our figures show there are 4,996 people 
waiting for services; in Florida, 1,765 people. We believe that 
those numbers are an underestimation of the real need out 
there, and a need that will continue to grow.
    While HUD, in its 1994 report to the Congress on the worst-
case housing needs, recognized the housing crisis faced by 
people with disabilities, they implemented the elderly only 
provisions that apply to assisted housing without requiring 
notification of the lost of assisted units, and seemed 
unconcerned about the impact.
    The Arc believes that people with mental retardation and 
other disabilities are entitled to an equitable share of 
Federal housing resources, and we'd like to make the following 
recommendations.
    On section 8, Tenant-Based Rental Assistance. We believe 
that section 8, Tenant-Based Rental Assistance is the most 
effective tool for helping people with mental retardation with 
integrated life in their community. Access to section 8 
assistance makes community housing affordable.
    Unfortunately, even though most people with mental 
retardation work and have jobs, they simply don't make very 
much money, and they really can't afford the market rates for 
housing, and they need the subsidy.
    Medicaid is a source of service funding for the support 
services they need, but Medicaid doesn't pay for housing. So 
the rental subsidy is absolutely essential.
    We seek your report for additional $40 million for section 
8, Tenant-Based Rental Assistance specifically for people with 
disabilities, and we realize that there have been a number of 
problems that have hindered the distribution of these funds 
last year, but feel that the language that the Subcommittee 
added should help to alleviate these problems.
    The Arc gets called everyday for housing assistance. In the 
last 24 hours it just so happens we received a call from 
California, Massachusetts, and Illinois, and these are families 
that are looking for housing assistance, access to housing for 
their sons and daughters.
    On the issue of section 811, Supportive Housing for People 
with Disabilities, we have a major concern that HUD's fiscal 
year 1999 appropriations recommendation that the $330 million 
for section 811 and section 202 fold into the HOME Block grant.
    This proposal not only represents a major cut in funding 
for those programs, but is also an attack on the integrity of 
the program. And while we support the flexibility of the Home 
Program, we fear the consolidation of section 811 into home 
will represent a complete lost of funds currently targeted 
specifically for people with severe disabilities.
    We urge you to ignore the 811 recommendation. As a matter 
of fact, we'd like to recommend an increase for section 811 
program to $250 million, based on HUD's--of found money. And 
you have to note that $250 million is still less than the 
appropriations from 1994, 1995, and 1996 in each of those 
years.
    We'd also seek your support for including nonprofit 
disability organizations as eligible applicants for tenant-
based rental assistance funded with section 811. Other 
programs--and there's a lot of that with shelter plus care and 
HOPWA, so this would not be anything that's brand new. 
Nonprofits know people in mental retardation and other 
disabilities, and their housing needs, and I think we know 
their needs better than perhaps the Public Housing Authority.
    We thank you for your ongoing support, or your support in 
the past, and we appreciate your ongoing support. We've 
attempted to work in collaboration with HUD, but don't feel 
that we've been very successful. We're very concerned about the 
Department's continued lack of understanding of the depth and 
breadth of the housing crisis, faced by people with all types 
of disabilities, including mental retardation.
    I mean, all our folks want; they want to work, and live, 
and play in their communities, and housing is an essential 
element to make this happen. So thank you.
    Mr. Lewis. Ms. Sheehan, thank you very much for your very 
poignant statement. I must say, this is not a problem that is 
new to us.
    Ms. Sheehan. No, I know.
    Mr. Lewis. But, it's a very, very important problem, and 
your personalizing it is helpful to me.
    Ms. Sheehan. Thank you.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. Thank you. Just a personal aside.
    You've been Arc for some time?
    Ms. Sheehan. I've been--well, my son's 32, so I joined the 
Arc shortly thereafter.
    Mrs. Meek. So you know Dr. Forman from Florida?
    Ms. Sheehan. I've met him. I can't say that I am a personal 
friend.
    Mrs. Meek. Thank you.
    Mr. Lewis. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you very much for being here. 
We're very blessed on this committee, having a chairman who not 
only knows these issues, but he's willing to list some of our 
own personal perspectives and frustrations with the HUD 
bureaucracy. We're still waiting for a GAO report, which is 
analyzing----
    Ms. Sheehan. Yes, we mentioned that in our recent 
testimony.
    Mr. Frelinghuysen [continuing]. Resident issue. And it is 
inexcusable, even after Robert Borster's hearing, which I 
contributed to somewhat, we still don't have a notice for 
availability of funding out of HUD.
    I don't know what's going on over there, whether they're 
suddenly in paralysis, but it's totally inexcusable. But Ithink 
you all will generally find this committee on a bipartisan basis is 
indeed sympathetic and wants to be helpful.
    Ms. Sheehan. You know on the personal note, all of these 
days that it takes, and months, and years to put these things 
together, there are people's parents who are dying.
    Mr. Lewis. That's correct. And that's the poignant issue 
that I was referring to.
    Ms. Sheehan. And it's real, believe me, it's real.
    Mr. Lewis. Thank you very much.
    Ms. Sheehan. Thank you.
    [The information follows:]


[Pages 1104 - 1112--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

ANDREW SPERLING, CONSORTIUM FOR CITIZENS WITH DISABILITIES
    Mr. Lewis. Andrew Sperling, The Consortium of Citizens with 
Disabilities. I don't know how you add to that. So we can just 
be brief.
    Mr. Sperling. I want to be brief as possible. Thank you, 
Mr. Chairman.
    Mr. Frelinghuysen, Mrs. Meek, my name is Andrew Sperling. 
I'm director of Public Policy for National Alliance of the 
Mentally Ill. I'm going to briefly summarize the statement on 
behalf of the Consortium for Citizens with Disability, which is 
a broad-based coalition of national disability organizations 
concerned with the housing opportunities for people with 
disabilities.
    Our membership includes the Paralyzed Veterans of American, 
The Arc, which was the previous witness, the National Alliance 
of the Mentally Ill, the organization I work for, United 
Cerebral Palsy, and the National Easter Seal Society; a broad-
based coalition of disability organizations. And we are 
obviously concerned with the housing opportunities for people 
with disabilities.
    In virtually every part of the United States people with 
disabilities struggle to find decent, safe, and affordable 
housing. We're troubled that for now a number of years the 
Department of Housing and Urban Development has failed to come 
up with a competence of rational policy to deal with that 
housing problem by people with disabilities.
    In particular, there was some failure to come up with a 
national policy, a national strategy to deal with the impact of 
elderly only designation of public and assisted housing has 
occurred since 1992, with enactment of Title VI of the Housing 
and Community Development Act of 1992.
    Much of the loss in this housing has already occurred 
particularly on the assisted housing side, since no HUD prior 
approval was required for a private owner of assisted housing 
to designate both zero efficiency apartments and one bedroom 
units of elderly only.
    According to recent figures that we found from the Office 
of Policy Development and Research at HUD, a percentage of 
nonelderly disabled persons in federally-supportive assisted 
housing has dropped from 13 to 11 percent between 1994 and 
1997. During the same period the percentage of elderly people 
in assisted housing has grown from 42 to 47 percent.
    Now we just found these figures in a much larger 
comprehensive report that was issued by the Office of Policy 
Development and Research. In this same report made no notice of 
this decline on the nonelderly disabled side and decline on the 
elderly side.
    So we're concerned that once again HUD has failed to really 
recognize this as a national problem that deserves a policy 
response at the Federal level.
    Fortunately, we've had the leadership of this subcommittee 
to try and turn this trend around, and to try and get 
alternative resources for those nonelderly disabled who have 
lost access to assisted housing, and public housing as well.
    On the public housing side I'll just note that in 1997 HUD 
approved 43 plans, designated 9,300 units as elderly owned. CCD 
believes that this process would not have gone as smoothly as 
it did were it not for the section 8 Tenant-Based Rental 
Assistance that this subcommittee made available to HUD to cope 
with this problem. And CCD appreciates the leadership on a 
bipartisan basis, in its helping the subcommittee to deal with 
this issue.
    We'd like to respond just briefly and make a few notes on 
1999 HUD budget proposal. CCD is deeply disappointed that, once 
again, HUD has failed to come forward with a policy response 
and adequate resources to deal with it. In fact, they've gone 
somewhat in the opposite direction, especially on the 811 
program, proposing a $20 million cut and proposing to 
consolidate 811 and 202 into the HOME Program.
    Again, to reiterate what the prior witness told the 
Subcommittee, we believe this is a step in the wrong direction 
and a proposal that this subcommittee should reject.
    I want to briefly just touch on a few recommendationsthat 
CCD has for the 1999 budget. In the area of section 8, Tenant-Based 
Rental Assistance, we would urge the Subcommittee to continue the 
efforts it's made over the past years, and allocating resources, 
section 8 tenant-based resources to deal with the loss of both public 
and assisted housing to elderly-owned designations.
    On section 811 urge you to reject the Administration's 
budget and to propose an increase for section 811. As you know, 
when Secretary Cuomo spoke to the Subcommittee a few weeks ago 
he noted upwards of $690 million that was somehow founded in 
the HUD budget to make up for the proposed cut that they put 
forward in their budget.
    We would urge that these resources be directed to make up 
for the cut they propose in both 202 and 811, to ensure that 
this important program is not cut in fiscal year 1999.
    With respect to the Office of Policy Development and 
Research, I noted earlier, we would urge the Subcommittee to 
provide some direction to PD&R, to study and undertake a more 
comprehensive study of the impact of designated housing, and 
follow up on the GAO study that the subcommittee requested last 
year.
    And finally, CCD would especially like to take note of 
Congressman Frelinghuysen from New Jersey, who, you know, Mr. 
Chairman, has been the leader on this issue in bringing 
direction to HUD to pay more attention to housing for people 
with disabilities. Thank you very much.
    Mr. Lewis. We very much appreciate your testimony, and the 
remedy of your testimony as well. It's very helpful.
    I must say, between you and Ms. Sheehan the point has been 
well made, and this is not a problem that's going to disappear. 
Section 8 funding on the one hand, we've got a very big 
challenge ahead of us. But many of these issues are driven also 
by authorization or lack of authorization.
    So I hope that all those that are interested in both 
section 8 and section 11 will help us with that process.
    Mrs. Meek.
    Mrs. Meek. Thank you very much.
    Mr. Frelinghuysen. You have heard the chairman's point of 
absolutely good. You've got to go after the authorizing 
committee as well as work with us. Thank you very much.
    Mr. Sperling. Thank you, Mr. Chairman.
    [The information follows:]


[Pages 1116 - 1122--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

ANDREA STAMPS, DETROIT RESCUE MISSION MINISTRIES
    Mr. Lewis. Andrea Stamps, Detroit Rescue Mission 
Ministries. We've been telling everyone that your entire 
statement will be in the record, and you can summarize if you'd 
like.
    Ms. Kilpatrick. Thank you. Mr. Chairman, if I might 
introduce her just briefly to you.
    Mr. Lewis. Sure.
    Ms. Kirkpatrick. Thank you, Mr. Chairman, for the 
opportunity, and the members of the Subcommittee to allow us to 
come before you, and certainly for considering this request 
what we is one of the most important that we do in our part of 
the world.
    As you know, Detroit Rescue Mission is a social agency that 
has saved millions of lives, and families, and children; 
ability to continue in the world. They are connected with over 
600 churches in our area, and they really offer a service.
    It's my pleasure to present to you one of our finest, and 
she'll turn her own story, and how the mission has helped her, 
and how we move forward. I can submit a copy of my introduction 
for the record. And let me present to you Ms. Andrea Stamps.
    Ms. Stamps. Thank you, Mr. Chairman.
    Mr. Lewis. Welcome to the Committee, and I want you to know 
that beyond your statement, which will be included in the 
record, your presence here is very much appreciated.
    Ms. Stamps. I would like to thank the members of the VA HUD 
Subcommittee for providing us an opportunity to appear before 
you.
    My name is Andrea Stamps and I am 40 years of age, and for 
25 years I have used all types of drugs.
    For the past 21 months I have been substance-free. I am 
currently employed with the Detroit Rescue Mission Ministries 
as the administrative assistant to the executive vice 
president.
    I am proud to appear before this Subcommittee, and announce 
to you that my life has been transformed through the Detroit 
Rescue Mission Ministries.
    Before going to the Mission I lived on the streets of 
Detroit; I was addicted to drugs and alcohol. My drug of choice 
was crack cocaine and my closest friends were drug dealers and 
drug addicts. I used my welfare check and my food stamps to buy 
my drugs.
    I was emotionally and physically abused by my boyfriend and 
I was suicidal. I have had my stomach pumped because of cocaine 
poisoning. I'm a single mother of three boys, born out of 
wedlock by two men. These men did nothing to help raise my 
children.
    I was first exposed to drugs by my mother, who was a drug 
user, and on Martin Luther King's birthday in 1990, the police 
raided our house, and they pointed guns at my children and 
myself. It was a nightmare. They found drugs and my mother did 
serve time in prison.
    I began living in homeless shelters throughout the city of 
Detroit in an attempt to stop using drugs. Unfortunately, I was 
not successful at all. Every job I held, I held to support my 
drug habit. I would leave work on a Friday with a full 
paycheck, and I would disappear into the drug houses of Detroit 
for days at a time. I didn't care about anybody or anyone, not 
even my children, and their disrespect for me grew.
    Before my hope ran out completely I found the Detroit 
Rescue Mission Ministries. They took me in, they fed me, they 
clothed me, and they loved me. Ultimately, they helped me to 
heal my life.
    The Mission has transformed my life physically, 
emotionally, and spiritually. Today I am involved in my church, 
the Old World African Methodist Church. In fact, one of my 
fellow parishioners is Congresswoman Kilpatrick.
    I now have my own home, and with the help of the ministry I 
was able to furnish it. I plan to return to school to receive 
my bachelor's degree in business administration.
    Mr. Chairman, I appear before you, not as a lobbyist, not 
as a lawyer, and certainly not as any kind of legislative 
expert. I appear before you today as a woman and a mother of 
three, a citizen concerned about the homelessness and drug 
addicted-people of Detroit and throughout our Nation.
    The Detroit Rescue Ministries offers hope for the hopeless, 
care and love to the forgotten, and healing for the mind, body, 
and soul. We serve the last, the least, and the lost. I know 
because I was one of them. My life was transformed by the 
Mission.
    The Detroit Rescue Mission Ministries has been working 
since 1909 to help the poor, the addicted, and the homeless 
become self-sufficient. We continue to operate 80 percent of 
our budget through private donations, but even as we are 
rebuilding our lives, our physical infrastructure is crumbling.
    We lack the necessary funds to repair the leaking roofs, 
the crumbling walls, and the broken boilers. We need to build a 
wheelchair access ramp and install fire detection devices.
    Mr. Chairman, our total budget for restoring our seven 
facilities is $12.5 million. We are seeking a $1.5 million 
Federal investment towards our budget. These funds would help 
make the necessary infrastructure and improvement so that the 
Mission can offer a safe environment while transforming the 
lives of more people like my former self.
    We would really appreciate your support. Thank you and God 
bless you.
    Mr. Lewis. Thank you very much for being here.
    Congresswoman Kilpatrick, this kind of testimony is very, 
very helpful to me.
    Let me mention to Ms. Stamps. Earlier we had a brief 
discussion of early childhood education, and some history of 
that legislation. I'll never forget that a professor at USC in 
Southern California talking about children's patterns in 
school, very poignantly documented the fact that a child's 
success in school is directly related to that child's mother's 
attitude towards education. And that it's very, very apparent 
that you have a great contribution to make ahead of you, and I 
appreciate very much your coming to us today.
    Mrs. Meek.
    Mrs. Meek. I'm happy that you came and your testimony was 
very, very descriptive. And I do hope the $1 million is a small 
amount to reinforce the investment that this mission has made 
in your life.
    Mr. Lewis. Mr. Knollenberg.
    Mr. Knollenberg. I too want to praise you for your 
testimony, along with my colleague Carolyn Kilpatrick. We 
think, I believe, along the same line. I certainly believe that 
what you're doing is very worthwhile. You've been to my office. 
We've had that discussion, and we know something about the work 
that you do.
    So I commend you, what you're doing.
    Ms. Stamps. Thank you. Thank you very much.
    Mr. Knollenberg. And we'll look earnestly, as the Chairman 
I'm sure has pointed out, anything that we can possibly help 
support you.
    Mr. Lewis. I thank you for your courage, and God bless you.
    Ms. Stamps. Thank you.
    Ms. Kilpatrick. Thank you, Mr. Chairman, for the 
Committee's time.
    [The information follows:]


[Pages 1126 - 1135--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

SUNIA ZATERMAN, PRESIDENT, COUNCIL OF LARGE PUBLIC HOUSING AUTHORITIES
    Mr. Lewis. Our next witness is Sunia Zaterman, the Council 
of Large Public Housing Authorities.
    Ms. Zaterman. Good morning. Mr. Chairman and members of the 
Subcommittee, on behalf of the Council of Large Public Housing 
Authorities, I want to thank you for inviting us to testify 
today.
    As you know, CLPHA's membership is comprised of the largest 
housing authorities in the country. They collectively own and 
operate about 40 percent of the public housing in the country 
and a significant share of the section 8 program.
    Mr. Lewis we appreciated your stirring remarks at the CLPHA 
meeting in February, particularly your call in 1998 The Year of 
Public Housing. We're making a banner of that now and putting 
it in our office. It's a means for inspiration. But as you 
might imagine, recent events have caused considerable alarm and 
concern that 1998 may not be the year we expected.
    First the House action to rescind $2.2 billion of section 8 
reserves, as you might imagine, caused great consternation. Not 
only because we're concerned about the stability of the section 
8 program and the 1.4 million household that is served, but 
also the precedent it sets in robbing the already much pillaged 
housing funds for other domestic and military uses.
    And just as an aside on the section 8 program, we hope that 
you will discontinue the 3-month delay in the issuance of 
certificates. There's a high administrative cost. People are 
going without housing assistance and the savings supposedly 
required are no longer needed.
    Second, as you well know, we're without an authorizing 
bill, despite the broad consensus on the provisions of the 
bill.
    Mr. Lewis. Beg your pardon?
    Ms. Zaterman. We're without an authorizing bill, despite 
broad consensus on a number of the provisions of the 
authorizing bill.
    Mr. Lewis. Beg your pardon? [Laughter.]
    Ms. Zaterman. I am willing to admit your acceptance to 
that.
    But certainly we're grateful to you and the help of Senator 
Bond in continuing to extend those provisions in the 
appropriations bill. But just as you've stated yourself, we all 
know that it's not a substitute for permanent authorization, 
and housing authorities are reluctant to move forward on a one-
year lease for sweeping policy and operation changes.
    Third, the HUD budget request does not meet our needs and 
does not address modernization operating subsidy needs. The 
operating subsidy request according to our estimate is 
somewhere around $300 million short of what's needed. And even 
OMB acknowledges that $2.1 billion is needed just to address 
the normal wear and tear issues associated with the public 
housing stock, so we're not even close to addressing the 
capital backlog needs in public housing.
    We would urge you to consider reallocation of reserves that 
are no longer required under other programs to supplement the 
HUD budget request on modernization.
    And another point I think is worth emphasizing in this 
area, is that modernization effectively and efficiently 
addresses the secretary's aim to enhance employment in the 
inner cities. The multiplier effect in the marketplace is that 
$1 billion in construction creates at least 18,000 jobs in 
construction and the production of supplies and materials. So 
this is a job development and economic development program as 
well.
    There is a positive side, and we see HOPE VI as a harbinger 
for the bold changes that can be realized in public housing to 
meaningful direct capital grants.
    Your support of the program has been very critical. In 
cities across the country, in Newark, in Milwaukee, in 
Louisville, Atlanta, Detroit, Cleveland, Washington, D.C., as 
you know well in your field trips with the receiver, we have 
seen some very dramatic transformations taking place.
    We're renewing neighborhoods while we're improving the 
quality of the lives of residents and the communities that are 
surrounding public housing. However, HUD's emerging total 
development cost policy that regulates how the HOPE VI funds 
would be spent is a great concern to us, and we're concerned 
that it will set back our aim to make dramatic transformation 
in neighborhoods.
    We've discussed our concerns and recommendations with your 
very able staff, and we would be available to talk about that 
further.
    Other areas, such as the Drug Elimination Program and the 
Supportive Service programs, has demonstrated tangible results 
in public housing, and we look forward to continued support for 
those programs.
    In terms of our hopes for reasonable funding levels, we 
would ask for $3.156 billion for operating subsidy, $3.7 
billion for modernization and capital funding, $550 million for 
HOPE VI, $350 million for Drug Elimination, and $75 million for 
Supportive Services.
    Thank you very much for your continued support of the 
public housing program.
    Mr. Lewis. Thank you very much, Ms. Zaterman. We must say 
for the record we have ahead of us the supplemental conference. 
What that will do relative to outset requirements and so on, 
we're all looking forward to it with a good deal of interest.
    But having said that, as trying to respond partially to 
your concerns about section 8, which the Committee shares with 
you, we have received assurances at every level, conceivable 
level that counts around here, that they are too sensitive 
about this problem, and in one way or another in the budget 
process the challenge will be met.
    So from there let us hope that we have a Year of Public 
Housing in the Congress as well.
    Ms. Zaterman. The year's not over yet.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. Thank you for appearing today.
    Mr. Lewis. Gentlemen.
    Thank you very much. Appreciate your being here.
    [The information follows:]



[Pages 1137 - 1145--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

LAVERNE R. JOSEPH, AMERICAN ASSOCIATION OF HOMES AND SERVICES FOR THE 
    AGING
    Mr. Lewis. Isn't it quite amazing that we're almost on 
schedule.
    For the morning, our last witness is Laverne Joseph, who's 
with the American Association of Homes and Services for the 
Aging.
    Ms. Joseph, nice to see you one more time this morning.
    Ms. Joseph.Well, good morning, Mr. Chairman, again, and 
members of the committee; Mrs. Meek, Mr. Frelinghuysen. And of 
course Valerie Baldwin, staff member here.
    It's good to be back here again. I'm pleased to be 
representing the American Association of Homes and Services for 
the Aging, which is the largest nonprofit association that 
represents members who provide housing and services for 
seniors. The members currently manage and largely own about 
300,000 units of market rate and largely section 202 housing.
    Again, congratulations on receiving the 
DistinguishedService Award. It was a real privilege for me to present 
that to you in your home district. It was a wonderful day. And I also 
want to thank you and Congresswoman Meek for your wonderful statements, 
inspiring statement this morning out of Housing Coalition press 
conference, as well as for what you did in amending the budget last 
year from $300 million to $645 million for 1998.
    And because I know you know the issues so well, I'm like 
the preacher who found only three or four people in the 
congregation, and therefore felt he didn't have to deliver the 
whole load, because you know the issues. And you're happy to 
see me, because I'm the last speaker before lunch, and so I'll 
keep it short.
    You were not there--you had to leave for other 
appointments--when the opinion poll was discussed. Does the 
American public favor senior housing? The survey included over 
1,000 persons and found that 90 percent of them favor the 
maintenance or the expansion of affordable senior housing 
through nonprofit providers.
    To be specific, 59 percent favor expansion and 31 percent 
favor at least maintaining the status quo. And then the other 
main point out of this survey is the need and the response. And 
as I said in my remarks this morning, we have the demographics 
going one way and the production going the other way, and you 
know that.
    So the quick points that I want to make, the 202 program 
works, it is working, it will continue to work, and we know 
that you're going to help us to keep it working.
    Just as kind of a point of humor, one of my friends gave 
this to me and found it in the Dulles Airport, and said it 
pretty much reflects what seems to happen year after year, but 
hopefully this is the time that we're not going to have to keep 
going back to this every year. ``If it ain't broke, fix it 
until it is''. It's a bumper sticker. And that's what was tried 
this year with the 202 program. Again, but thanks to your 
effort it's not going to be broken.
    We're asking that the funding be restored to the 1996 
level, which is $850 million. Much of that funding can be 
readily identified by Secretary Cuomo when he appeared before 
the Committee.
    The HOME Program, we didn't want 202 fold in the HOME. HUD 
has now taken that off the table, and it doesn't appear that 
that's going to be given any serious discussion, at least this 
year.
    Vouchers don't work. We've talked about the reason why they 
don't work for seniors. They're a good program, but service 
enriched housing for seniors is a quality of life and a very 
effective efficient way to deliver these services for a frail 
person.
    And then funding of social service coordinators. Funding of 
social service coordinators needs to be set at $25 million. 
It's very valuable. And you're aware of Mr. Lazio's bill, H.R. 
3635, which is going to address the debt restructuring, and I 
hope that all members of the Committee will sign on in a total 
sponsorship position. And then providing funding for 
modernization and retrofit. You're aware of that too.
    That's the abbreviated load. I know the Committee's going 
to do the right thing, not only because of what you said this 
morning, but because you have a history of doing the right 
thing, and we're going to work and support you.
    Mr. Lewis. Ms. Joseph, we very much appreciate your 
abbreviated testimony. You've got Mrs. Meek so excited that she 
decided to have lunch early. [Laughter.]
    But I did want to mention that we happen to have a 
Committee right now who will succumb----
    Mrs. Meek. Just like men normally do their duty----
    Mr. Lewis. I have been very much looking forward to this, 
and you've been very helpful to us.
    So we appreciate your being with us and look forward to 
working with you.
    Ms. Joseph. My pleasure.
    Mr. Lewis. Thank you, ma'am.
    Ms. Joseph. Thank you.
    [The information follows:]


[Pages 1148 - 1153--The official Committee record contains additional material here.]



    Mr. Lewis. The meeting will be in recess until we come back 
at 1:00. In the meantime, we will continue our public witness 
testimony in this room at 1:00 p.m. Thank you very much.
    [Recess.]
                              ----------                              

                                         Wednesday, April 22, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

MARY PAVEL, GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION
    Mr. Lewis. Mary Pavel, welcome to the Committee. We'll be 
glad to receive your testimony.
    Ms. Pavel. Thank you, Mr. Chairman. I am sending regards of 
Mr. James Schlender, the Executive Administrator of the Great 
Lakes Indian Fish and Wildlife Commission. He's, unfortunately, 
unable to be here with us today.
    My name is, for the record, Mary Pavel, and on behalf of 
the 11 member tribal governments of the Great Lakes Indian Fish 
and Wildlife Commission, I would like to thank you for the 
opportunity to submit testimony regarding the Administration's 
fiscal year 1999 EPA budget.
    The Commission's fiscal year 1999 request centers on two 
major objectives: support for the EPA's Coastal Environmental 
Management Program and its continued funding of tribal 
participation in intergovernmental partnerships to develop, 
coordinate, and implement tribal strategies to protect the 
Lakes' ecosystem in conjunction with the Binational Program the 
Lake Superior Lakewide Management Plan, the International Joint 
Commission meetings, and the State of the Lakes Ecosystem 
Conference at a cost of $70,000. The second objective is the 
need to expand cooperative contaminant studies for fish, 
animals, plants, used by tribal members under rights reserved 
in the 1837 and 1840 treaties with the United States at a cost 
of $104,476.
    The Commission is comprised of 11 tribal governments 
located throughout Minnesota, Wisconsin, and Michigan. The 
Commission's purpose is to protect and enhance treaty 
guaranteed rights to hunt, fish, and gather on inland 
territories ceded under the Chippewa Treaty; to protect and 
enhance treaty guaranteed fishing on the Great Lakes, and to 
provide cooperative management protection of these resources. 
The tribal members rely on fish, wildlife, and plants for 
religious, ceremonial, and medicinal subsistant economic and 
cultural purposes. The importance of Lake Superior and its 
environment is documented in the history and culture of the 
Anishinabe people.
    Because Lake Superior is so important to the tribes, the 
tribes are vitally concerned about its welfare. For tribes 
participate in protection initiatives to restore and protect 
this resource they need to work with other jurisdictions on a 
government to government basis and strong governmental 
institutions to enable effective participation. These needs are 
consistent with the goals of the EPA' Indian policy which are 
to promote self-government and work with tribes on a government 
to government basis.
    To further EPA's policy and address needs, adequate long-
term funding will be necessary to enable sustained 
participation and initiatives to protect the Great Lakes 
ecosystem. The Commission is requesting that Congress earmark 
$70,000 from the Great Lakes National Program Office or the 
Coastal Environmental Management Program to provide a grant to 
enable the Commission to continue its participation in 
environmental policy making and, two, to provide funds for 
technical projects so that the Commission is able to contribute 
to the technical working groups and adequately review technical 
documents.
    EPA funding will be used by GLIFWC--GLIFWC is a short name 
for the Commission--to research environmental issues, 
facilitate discussions, and build consensus between the tribal 
leaders and develop formal positions to be forwarded to the 
appropriate agencies. These efforts would compliment the 
ongoing efforts by the Commission member tribes to develop and 
advance their governmental positions.
    Funding for the EPA is also needed to facilitate the 
Commission's long-term participation in the Binational Program 
and to restore and protect Lake Superior. The Commission 
proposes to participate in both the Binational Program's task 
force of senior governmental natural resource managers and work 
groups composed of technical and scientific professionals.
    With that, Mr. Chairman, I'd like to close. If you have any 
questions----
    Mr. Lewis. I certainly don't have any questions, but we do 
appreciate your providing testimony, and it will be included in 
its entirety in the record.
    Ms. Pavel. Thank you.
    Mr. Frelinghuysen. No questions, thank you.
    Mr. Lewis. Thank you for being here.
    [The information follows:]


[Pages 1156 - 1161--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

     HOUSING AND URBAN DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

LARRY SCHWARTZKOPF, NATIONAL RESOURCES PROGRAM MANAGER, FOND DU LAC 
    NATURAL RESOURCES PROGRAM
    Mr. Lewis. Larry Schwartzkopf, representing the Fond du Lac 
Band of Lake Superior Chippewa, welcome.
    Mr. Schwartzkopf. Thank you. I wish to thank the Chairman 
and the Committee for this opportunity to present the 
appropriation request and the testimony for the Fond du Lac 
Band of Lake Superior Chippewa. My name is Larry Schwartzkopf, 
and I am the Fond du Lac Natural Resources Program Manager. 
Chairman Peacock sends his regrets that he could not be present 
today. Along with my testimony, I'd like to provide some 
additional background materials of mercury contamination and a 
letter from Representative Willard Munger from the State 
legislature in Minnesota, and also some popular research papers 
of the neurological effect of methylmercury on children.
    Mr. Lewis. We'll include it in our file.
    Mr. Schwartzkopf. Thank you, sir.
    The Fond du Lac Band is an old band. The Fond du Lac Band 
of Lake Superior Chippewa, and the reservation is located about 
20 miles west of Duluth, Minnesota. In my testimony today, I'd 
like to stress the importance of the continued funding of the 
Indian Housing Program. This program continues to provide 
affordable housing to families on the Fond du Lac Reservation 
that could not afford to obtain adequate housing in another 
locality. This program has been run efficient and run 
effectively over the years by the organization.
    We also would like to express the importance of continued 
funding of the Indian Environmental General Assistance Program. 
This is very important to the Reservation and many of other 
Reservations across the country now. Fond du Lac and some of 
the other bands in Minnesota were some of the first 
Reservations that have organized and operate these programs on 
Reservations, and we recommend that the President's budget of 
$42.6 million be included in the EPA's budget for this program.
    Our most urgent appropriation request is to obtain $275,000 
for continued funding of a cooperative research project 
entitled, the Sediment Contaminant Mitigation and Prevention 
for Mercury. This research project between the Fond du Lac 
Reservation and the University of Minnesota Duluth and the 
University of Wisconsin-Superior in developing an effective and 
efficient mitigation technology to sequester and also 
potentially other heavy metals in PCB in highly contaminated 
sediments and also on lakes and streams that have more benign 
but actually significant levels of mercury from aerial 
deposition to prevent the bionic uptake of mercury into the 
aquatic food chain. This will result in lower levels of mercury 
in game fish in our region and other areas, and help to improve 
and protect the health of generations to come.
    We need the continued funding to continue this research. A 
few years ago, we were given $100,000 from Congress and another 
$100,000 from the Great Lakes National Program Office of the 
EPA, and this fund was not enough to establish the 
effectiveness of this technology. We need the funds to complete 
our research and to fully test and develop this technology in 
the field. What we are using is a benign form of a highly--of 
iron which has a small particle size and is very effective at 
binding mercury in some cases, also, in other heavy metals and 
even PCB.
    Mercury causes neurological disorders especially in fetuses 
and young children. Studies have shown and been shown that they 
have this effect in the current research and all of our 
research may result in even tightening of fish consumption 
advisories in the future. Many Native American communities 
continue to rely on fish as a large part of their diet. Many 
other citizens in other regions in other parts of the country 
consume fish which is contaminated with mercury and other heavy 
metals, and we are seeking support not only from the Minnesota 
delegation but also hopefully from Wisconsin, Michigan, 
Northeastern States in this request. Mercury entering our 
Nation's waters from precipitation continues to increase and 
although some improvements have been seen from acid rain 
regulations, the increased area of deposition of mercury and 
projected increases in the use of coal and electrical power 
generation into the next century will result in increased 
levels of mercury that will contaminate the fish and result, 
thereby, in fisheries basically, being unsafe for consumption 
on many water bodies.
    I guess I would like to stress that this technology is 
transferrable. It is not only effective for our region but for 
western States possibly from minor run-off; northeastern States 
that have the problem, and certainly the Great Lake States. 
Thank you very much, sir, for your time.
    Mr. Lewis. First, I appreciate very much you being here as 
well. I appreciate you bringing your son with you. Any other 
comments that you have along with these materials will be 
included in the record in our file and thank you. Any questions 
from the members? No, thank you very much.
    Mr. Schwartzkopf. Thank you, sir.
    [The information follows:]


[Pages 1164 - 1179--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

  HOUSING AND URBAN DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY, AND 
                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

GLENN A. GRANT, ESQ., BUSINESS ADMINISTRATOR, CITY OF NEWARK, NEW 
    JERSEY
STANLEY BERGEN, JR., MD, PRESIDENT, UNIVERSITY OF MEDICINE AND 
    DENTISTRY OF NEW JERSEY
    Mr. Lewis. We're going to just slightly readjust our order 
here. One of our colleagues is present to introduce a couple of 
guests, so they'll pick up the next two segments. 
Representative Donald Payne, Don, please come up.
    I believe first is Glenn Grant, is that----
    Mr. Payne. I'll just introduce them both.
    Mr. Lewis. All right, that's fine.
    Mr. Payne. Can you please all come up to the table. I 
certainly enjoyed your presentation yesterday of a new member--
--
    Mr. Lewis. Thank you.
    Mr. Payne [continuing]. From the great State of California, 
and it is good to see Mr. Walsh and, of course, my colleague, 
Congressman Frelinghuysen. He and I served in county government 
before wondering whether we would ever get here. [Laughter.]
    Mr. Frelinghuysen. You did.
    Mr. Payne. So, really, let me just thank you, and I would 
like to take this opportunity to briefly make a few comments 
about two New Jersey witnesses with whom I have worked with for 
many, many years, and I let me just say I appreciate the 
responsiveness of the Subcommittee over the years. You have 
been very generous with our city, our region. We have many 
needs, and I do appreciate what has happened in the past.
    I have with us a gentleman from the city of Newark and also 
from the University of Medicine and Dentistry which just 
happens to be the largest public health science university in 
the United States of America. Testifying on behalf of my home 
city of Newark is our business administrator, Mr. Glenn Grant. 
Mayor Sharpe James was unable to be here, but he has truly made 
Newark a renaissance city. It is just so--the that work that 
he's done with the help of this committee, we have an economic 
renaissance and he really restored a tremendous sense of pride 
in our city. As you know, in 1967, we had civil disorder, but 
the city has come back tremendously. Glen Grant is the chief 
operating officer of Newark's largest city, Newark; over 4,000 
employees with a budget of $900 million, and during his tenure 
as business administrator, he has had a very strong fiscal 
operation this year. We'll see a reduction in the tax rate. 
We'll see a reduction in water utilities, all of which has 
happened under the leadership of Mayor James, but the 
administration of Glen Grant. He will testify today about the 
economic revitalization initiatives to our city, specifically, 
a project called Waverly Yards, the establishment of an 
international trade center and the development of brownfield 
sites to convert on that productive use.
    The other person we'll hear from is testifying on behalf of 
the University of Medicine and Dentistry will be Dr. Stanley 
Bergen who actually is retiring from the institution. Dr. 
Bergen has been the president of the institution since its 
inception in 1971--seems like it was 1901, but it was 1971. 
[Laughter.]
    But Dr. this is--I feel privileged that this is his last 
public appearance that I actually will have the opportunity to 
introduce him because he's done a fantastic job for the city of 
Newark and for the State of New Jersey and for health care in 
general. Under his leadership, stewardship, the university has 
emerged as the largest public university of health services in 
the country serving as the national resource for health 
professional education, research, and patient care.
    Prior to assuming the presidency of UMDNJ, Dr. Bergen was 
the Senior Vice President for Medical and Professional Affairs 
of New York City's Health and Hospice Corporation. Dr. Bergen 
has been recognized with many impressive awards and honors over 
the course of his distinguished career. Again, I appreciate the 
Subcommittee's interest in issues related to public health.
    I thank you for having Dr. Bergen; the international set-up 
for public health at University Heights Science Park; the Dean 
and Betty Gallo Prostate Cancer Institute named after a 
colleague who served on the Appropriations Committee, Dean 
Gallo, who was also entirely official with us, a tremendous 
person; it was borne out of the determination to help patients 
afflicted with prostrate cancer, and finally, the Child Health 
Institute of New Jersey, a project intended to address the 
prevention and cure of illnesses affecting children.
    Thank you very much. I will now turn the remaining time 
over to my colleagues.
    Mr. Lewis. Congressman Payne, we thank you very much for 
being with us. I know the difficulty of conflicting schedules 
and the like. First, let me call upon Mr. Grant, the 
administrator from New Jersey; from Newark.
    Mr. Grant. Thank you, Mr. Chairman, Mr. Walsh.
    Mr. Lewis. Your entire statement will be in the record, Mr. 
Grant.
    Mr. Grant. Thank you. I briefly would like to talk to you 
about, number one, the importance of your cooperation and help. 
This subcommittee has really, truly been a partner in the city 
of most revitalization. Congressman Payne referred to former 
Congressman Gallo. He was instrumental in securing a $44 
million EPA grant that's helping to improve the sewer systems 
of the city of Newark. This committee has helped through the 
renaissance that Congressman Payne is talking about.
    So, I'm here today to talk to you while we've created, as 
Congressman has said, a renaissance that's generating a new 
baseball stadium, a new performing arts center, we're working 
on the riverfront; we're trying to bring more jobs back to our 
community, but there's much work still to be done. We have a 
significant older population. We're the third oldest large city 
in the country founded in 1666. We have significant 
unemployment in our community. Fifteen percent of our 
population is unemployed, and we have a mean population of--37 
percent of our children are below the poverty line. We have 
lost many of our jobs to the loss of manufacturing in our 
community, and what we're attempting to do with these projects 
is to bring economic development to our inner city where the 
people can match up the job skills with the job opportunities 
that are taking place in our community.
    Newark International Airport is the ninth largest airport 
in the country. It is also one of the fastest, largest, fastest 
growing airports in the country as well. Over 30 million people 
will go to that airport this year alone. The airport, which is 
our tenant, is now working on bringing the monorail which ties 
in our three terminals to a location called Waverly Yards. That 
is 100-acre tract of land that is vacant, abandoned; it is an 
old industrial yard. When they bring the monorail to that site, 
they are also going to tie it to the Northeast corridor. The 
same trains that Congressman Payne and Congressman 
Frelinghuysen take to come to Washington, it will tie into that 
particular location. Webelieve that that location can serve as 
another economic engine for the continued revitalization of the city of 
Newark.
    Right now, there's no water; there's no communication 
lines; there's no sewer lines; it is not served by any kind of 
infrastructure. We're asking this committee for an 
appropriation of $6 million to help us revitalize that area. We 
believe that 3 million people at the airport together with 
70,000 people that come in every day to our Penn Station, you 
have unparalleled transportation location. We have talked with 
developers about potentially bringing two office centers, two 
hotels, and an international trade center for that location, so 
we think it is one of the best transportation hubs in our 
community.
    The second project that I'd like to talk to you about 
involves Frelinghuysen Avenue. As you should be aware----
    [Laughter.]
    Mr. Grant. As you should be aware are Kennedy's. They 
really have had a long and outstanding history of support for 
public service, and Congressman Frelinghuysen has continued 
that with his support of new projects. Adjacent to our airport, 
adjacent to this Waverly Yards is Frelinghuysen Avenue. It is a 
land area with many vacant and abandoned industrial properties. 
Many of the properties have environmental contamination. Many 
of them need to be reclaimed. We are now partnering with EPA; 
partnering with our State government to do studies on those 
sites. We believe that if we can take $3 million from this 
committee, we will be able to reclaim some of those city-old, 
vacant, and abandoned sites to, again, take advantage of our 
transportation hub; to take advantage of what our community 
has: transportation, transportation.
    The last project that I would like to talk to you about--
and Dr. Bergen is also here to talk about it--is a tremendously 
exciting project, and it has the opportunity of bringing 
thousands of jobs to Newark. It is called Science Park. It is a 
joint public-private partnership involving the State, Federal 
Government, the county, and the city. It is to take advantage 
of the tremendous asset known as the University of Medicine and 
Dentistry. That asset, as Congressman Payne has said, is one of 
the best medical institutions in the country, if not the world, 
but what we're trying to do is to take advantage of the 
biomedical locations here, the infrastructure that is in that 
institution as well as NJIT to bring public health research; to 
bring industry and businesses of that light to that location. 
We believe that an appropriation of $9 million can leverage 
another $130 million of public-private investment into that 
institution.
    I want to close by telling you gentlemen that in coming 
over and talking to Ms. Thompson who is our lobbyist, we are 
reminded of your tremendous support in developing our 
community. When you look at the last 20 years of investment in 
our city, there's been no other subcommittee that has done as 
much for the city of Newark as you gentleman who are sitting 
here today. So, I want to thank you for your cooperation and 
ask for your support for this initiative.
    Mr. Lewis. Thank you very much for your testimony, Mr. 
Grant. As I indicated, it will be included in its entirety in 
the record.
    [The information follows:]


[Pages 1183 - 1189--The official Committee record contains additional material here.]



    Mr. Lewis. Before I allow Mr. Frelinghuysen to take over 
this meeting, I'd like to call upon Dr. Bergen to see if he'd 
like to summarize his statement as well.
    Dr. Bergen. If I may, Mr. Chairman, I thank you very much 
for the opportunity to be here this afternoon. Congressman 
Frelinghuysen, Congressman Payne from New Jersey, and 
Congressman Walsh, thank you very much for this opportunity.
    I can only echo what you have already heard about this 
subcommittee and how important it has been to us, and I think 
the most important thing is that we have been able to join 
together with the subcommittee in working together to provide 
our fellow citizens with the opportunities to fulfill their 
dreams but also to answer to their needs as citizens of the 
State and of the United States.
    The first project I'd like to mention is one that Mr. Grant 
already alluded to, the International Center for Public Health. 
This is an attempt to create a major infectious disease center 
in New Jersey. This is rapidly becoming a major problem not 
only to the United States but to the world with the emergence 
of resistant organisms that antibodies cannot touch; cannot 
control, and the entire operation of this institute is going to 
be directed towards that. We're bringing the Public Health 
Research Institute from Manhattan over to New Jersey. They are 
doing research in this area right now and working, of course, 
with the pharmaceutical industry in New Jersey, it will be a 
very important team.
    In addition, we are working together with the Veterans' 
Administration in East Orange and nationally to approach the 
issue of resistant tuberculosis. This is becoming a more and 
more prevalent disease in the VA system and nationally and also 
in prisons. More and more TB is emerging in prisons, and these 
people are released then into the communities; they carry this 
resistant TB along with them, and it is just an unending battle 
and an unending fight. We've got to attack this; we've got to 
find some solutions to this major problem.
    It is also, of course, related to a major HUD project to 
expand the economic and community development needs of our 
area. We've already heard Mr. Grant say this is a really joint 
public-private effort. We have a potential insurance company, 
First Union Bank, public service, gas and electric, all joining 
with us for this effort. We are respectfully asking of the 
Subcommittee an allocation of $5 million to the International 
Center for Public Health.
    The second project is the Dean and Betty Gallo Prostrate 
Cancer Institute. New Jersey ranks 10th in the Nation in 
mortality rates for prostatic cancer; it is 8th in mortality in 
Afro-Americans, and, currently, there is no cure for this 
disease. Once it spreads external to the prostate, it is a 
major disease and one that needs attack by both researchefforts 
and clinical studies. To accomplish this, our Cancer Institute in New 
Jersey, the only NCI designated cancer center in our State has decided 
to develop this focused attempt on finding the cure of prostatic 
cancer. This institute allows us to link over 100 institutions that are 
affiliated with us statewide, 3 medical schools, a dental school, a 
tremendous series of educational programs in order to bring to bear the 
research efforts of all those institutions on this disease. It, of 
course, is a prime disease in the VA system where many of the 
recipients of care to VA hospitals are now at the age group where they 
are contracting prostatic cancer. It is also, of course, a very 
important issue for our fight in the impact of urbanization and the 
possible toxic effects in that urbanization and, of course, with New 
Jersey being the most urbanized State in the Union, we have a major 
problem. We respectfully, again, ask the Subcommittee to consider an 
allocation of $5 million to the Betty and Dean Gallow Prostatic Cancer 
Institute.
    And the third and last project that I'd like to bring to 
your attention is the Child Health Institute of New Jersey. 
This is another public-private effort, and I am proud to say we 
have already received a gift from the Johnson and Johnson 
Corporation, one of the largest health care product 
corporations in the world and from the Johnson Foundation to 
get this project started, $850,000. We hope to study the 
diseases and the affect of these diseases on child development 
and child maturation. We have a children's hospital, and 
medical school, the private institutions that are all joining 
together to develop the Child Health Institute, and, again, we 
would like to respectfully ask your allocation of $5 million to 
this project in New Jersey for your university.
    I thank you very much, sir.
    Mr. Lewis. Dr. Bergen and Mr. Grant, we appreciate very 
much your testimony. Congressman Payne, we appreciate your 
assistance as well. I guess you are leaving Mr. Walsh. I think 
I probably ought to call upon Mr. Frelinghuysen.
    Mr. Walsh. Without objection.
    Mr. Frelinghuysen. In the interest of brevity and knowing 
that the Chairman has a lot of other witnesses, I'm certainly 
here to endorse and work with my colleague, Don Payne. The 
Chairman has been, indeed, very sympathetic over a number of 
years to both Members of both parties on this Committee not 
only to the City's objectives as well as the University of 
Medicine and Dentistry and we will be hearing from Betty Gallo 
in a few minutes, and she will be articulating the need for a 
prostrate cancer center, but I am so pleased to welcome all of 
you here and to be working with you and this committee to help 
you achieve all of these objectives, and good luck to you in 
your retirement, Dr. Bergen.
    Dr. Bergen. Thank you.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mrs. Meek. I just wanted to say you must be all right, 
because you are with Congressman Payne----
    [Laughter.]
    Mrs. Meek [continuing]. Trying to increase the half-year 
and you are doing redevelopment work and that is always 
excellent.
    Dr. Bergen. Thank you.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. I would just like to suggest that this chairman 
has done a marvelous job. He has lots of difficult decisions, 
but one thing he has not been afraid to do is to reinvest in 
our cities. We absolutely have to do that. I have always said 
that our cities are babies. They are 100 to 200 years old; the 
rest of the world has cities that are 800, 1000, 1,500 years 
old, and they are still going, and we need to do the same and 
reinvest in ours, and it is easy to see why Newark is coming 
back with managers like yourself. Thank you.
    Dr. Bergen. Thank you.
    Mr. Lewis. It is kind of appropriate, it seems to me--
Congressman Payne, if you will be patient with me--is as we 
receive this testimony, you have laid the foundation for us 
kind of to go back in our schedule and call upon Betty Gallo 
who's husband as you know was our colleague on the 
Appropriations Committee who played no small role in the 
success that Newark and New Jersey, generally, have had, and 
you are working together. Most of these issues have nothing to 
do with partisan politics, and that is reflected in the best 
way by this series of testimony. Thank you for being with us.
    Mr. Grant. Thank you.
    Dr. Bergen. Thank you.
    [The information follows:]


[Pages 1193 - 1199--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

BETTY GALLO, CANCER INSTITUTE OF NEW JERSEY, DEAN AND BETTY GALLO 
    PROSTATE CANCER INSTITUTE
    Mr. Lewis. I am sure that Betty Gallo kind of wondered 
about bypassing her. It was with some forethought, so, Ms. 
Gallo, would you come up? How's my friend?
    Ms. Gallo. Good.
    Mr. Lewis. Good. Normally what we do is suggest that your 
entire testimony will be included in the record, and you can 
summarize it as you like. New Jersey is having its day today. I 
see that our former colleague, Bob Rose, is with us in the 
audience, and he will come shortly after. I am sure he will 
pick up everything beyond what we have talked about. Please, 
Betty.
    Ms. Gallo. I just want to thank you, Mr. Chairman, for 
allowing me to testify and Congressman Frelinghuysen who has 
been very helpful in this project as we are going to endeavor 
upon and the Committee for allowing me to testify today 
especially since my husband did serve on this committee when he 
was in Congress.
    I don't know if anyone is aware but Dean was diagnosed with 
prostate cancer back in 1992. In February, he was diagnosed 
with a PSA which is a Prostrate Specific Antigen blood test of 
883. He was diagnosed in the advanced stages which had already 
metastasized to his bone. His prognosis was three to six months 
at that time. When he went to a urologist in New Jersey who 
said the best he could do was remove his testicles. I said, 
before you do that, I think we will try another approach. Thank 
God for the National Institutes of Health, because down there 
they are NCL designated. We were able to get him in there and 
do a protocol of Suramin and combined hormonal therapy, and 
because of this we were able to allow him to spend good quality 
of life for two and a half years.
    Dean and I had a very strong faith; very strong love for 
each other. It was the best two and half years of our 
relationship of eight years, and I cannot say that I am sorry 
he got prostate cancer, I am just sorry that he died from it.
    Mr. Lewis. But the PSA was designated at 883 at the time of 
first exam, is that right?
    Ms. Gallo. Correct, and when he had his normal physical the 
year prior to having had the PSA, which was not at that time 
used as a diagnostic poll, they would have picked up on the 
prostrate cancer. So, that is why he was in the advanced 
stages, and the only way he found he was in the advanced stages 
was he had a backache which persisted, and he finally had it 
checked, and when they did a bone scan on him, he lit up like a 
christmas tree; it was all over his back. Fortunately, because 
of the Suramin and the National Institutes of Health through 
Dr. Charles Myers, he was able to actually have a very good 
quality of life where his PSA actually dropped a year later to 
3.5, and he was able to continue in Congress, serve his 
constituents and his colleagues who he had the utmost respect 
for all of you. I know he had very good close friends with some 
of the people, his colleagues.
    In the meantime, after he died from prostate cancer in 
1994, he and I had spoken about getting involved and doing 
advocacy work for prostate cancer. He was talking about getting 
pharmaceuticals companies involved, so I tried to get involved 
in prostate cancer advocacy which I have been doing ever since, 
and as of October, 1997 I joined the Cancer Institute of New 
Jersey as a fundraising associate advocate, and one of my 
projects there is the Dean and Betty Gallo Prostate Cancer 
Institute in memory of Dean.
    This will actually be a program added at the institute. It 
won't be for bricks and mortar; it will be for actual programs, 
education, and awareness for prostate cancer. We will doing 
some studies with the environment as far as why prostate cancer 
so prevalent in New Jersey. As Dr. Bergen had mentioned, we are 
number 10 this year of 6,900 men who will be diagnosed with 
prostate cancer of which 1,400 men will die from prostate 
cancer this year.
    As I said, the Cancer Institute of New Jersey is the only 
NCL designated institute in our State, and Dean was helpful in 
getting funding for that back in 1994, and it is because of 
this that I feel that having this kind of an institute in New 
Jersey is beneficial for all the residents of New Jersey. It 
allows them not to have to go out of the State and that you 
stay in the State and be able to get treated for any kind of 
cancers that we have, and with the Prostate Cancer Institute, 
because it is the second rated cancer in New Jersey for men--I 
think lung is the first in New Jersey--you really have to do 
something. We are number eight for the African-Americans, so 
that is another area that we need to really address for 
educational awareness programs. So, this is part of what the 
Gallo Institute will be doing. It will be doing programs; we 
already have researchers in our cancer institute that are doing 
prostate cancer research, but we need to bring more researchers 
in; good quality researchers to be able to do more research to 
find this cure for prostate cancer so that we are able to save 
people from dying from it or having to be diagnosed in the 
advanced stages of prostate cancer such as Dean was.
    We are asking, actually, for $9.4 million; $5 million 
actually from the Committee, and the other money would be 
raised dollar for dollar by foundations through public funding 
and State funding--this is a little difficult for me because--
    Mr. Lewis. You are doing great.
    Ms. Gallo. It is just that it means a lot to me. Sometimes 
I really do still miss him.
    Mrs. Meek. It is women like you that make us strong.
    Mr. Frelinghuysen. Mr. Chairman, Betty Gallo, while she 
lets her emotions out, let me say she is absolutely remarkable. 
Since Dean's passing, she has been an incredible advocate 
throughout the Northeast not only in New Jersey and the New 
York metropolitan area, she has demystified myths and 
stereotypes of prostate cancer in a way that only Betty could 
do it. She has some unique qualities and perspectives, and she 
talks to large groups of men; she is a strong advocate; she has 
been working with women's groups around the State, and there 
are many barriers for people to come forward for testing, and 
Betty Gallo has been one of those who has been absolutely 
fantastic. I am here to support her and know that all the good 
things she is doing is to make sure that other people never 
experience the tragedy that is associated with prostate and 
other types of cancer. Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Frelinghuysen, I think you may or may not 
remember that the first occasion I had to meet you personally 
involved an occasion that was not the happiest occasion where I 
was with Betty and with Dean the last time, but we are proud to 
have you here and to say the least it is a very important 
project.
    Ms. Gallo. Well, I appreciate it, and I thank you, 
Congressman Frelinghuysen, for your kind words andCongressman 
Lewis. It is just been something that I have been doing for over three 
years. To have this project in New Jersey would help me save somebody 
else from having to suffer emotionally and the family to suffer like we 
did and the loss of Dean and just to have to lost somebody else to this 
dreaded disease. I would just appreciate whatever the committee can do.
    Mr. Lewis. Mrs. Gallo, one of the more delightful things 
that has occurred to our committee in recent years is that 
advent of our having the voice of Mrs. Carrie Meek in our 
committee. To say the least, she makes a special contribution, 
and I would love to call upon her.
    Mrs. Meek. First of all, you have encouraged me as a member 
of this committee. Your courage and your ability to go forward 
despite the odds which you have faced, and I feel very strongly 
that you will not leave here empty-handed, not if I sit on this 
committee.
    Ms. Gallo. Thank you. [Laughter.]
    Mr. Lewis. We will allow you to revise and extend your 
remarks, but in the meantime, thank you very much for being 
with us.
    Ms. Gallo. I thank the Committee for allowing me to come.
    Mr. Lewis. Thank you for being here.
    Mrs. Meek. Thank you.
    Mr. Lewis. Isn't she great?
    [The information follows:]


[Pages 1203 - 1208--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

ROBERT DAVENPORT, EXECUTIVE DIRECTOR, PASSAIC VALLEY SEWERAGE 
    COMMISSIONERS
SHELDON LIPKE
ROBERT ROE, FORMER CONGRESSMAN
    Mr. Lewis. We are going to exercise the Chair's discretion 
one more time and recognize that we have got a former colleague 
in the audience who is going to participate in this meeting. My 
friend, Bob Roe, will be introducing and participating with two 
other people from the New Jersey region, I suppose--you'll 
clarify that won't you? Please come up and bring your friends.
    Mr. Roe. Well, Mr. Chairman, we thank you for not only 
inviting us to testify but allowing us to testify on this 
matter that is extremely important for the State of New Jersey 
and really has to do with the major environmental effort that 
the State is putting forth as far as water quality is 
concerned. I have with me today, Bob Davenport, who is the 
Executive Director of the Passaic Valley Sewerage 
Commissioners, and Sheldon Lipke on my left there who is the 
Chief Engineer. So, I thought what we might do if it is 
satisfactory to you is to have our director make a short 
presentation, and then we can chat a bit about it.
    Mr. Lewis. That is fine. Gentlemen, your statement will be 
included in its entirety in the record, and if you will 
summarize that for us then we will pose questions. So, I would 
like to call on you, Mr. Davenport.
    Mr. Davenport. All right, sir. Thank you, Mr. Chairman, and 
members thanks for having us here today; we appreciate it very 
much. This is a shortened version; I'll just try to capsulize 
it.
    Mr. Lewis. Good.
    Mr. Davenport. Again, we want to thank you for the 
opportunity to testify today concerning the need for assistance 
in implementing the Passaic River/Newark Bay Restoration 
Program. Now, New Jersey is distinguished as being the 
birthplace of industry in the United States. The industrial 
centers of Newark, Jersey City and Paterson developed and 
thrived in the early 19th to the mid-20th century generating 
the goods and capital that contributed to the building of our 
State and the Nation. We are now faced with the task of undoing 
the destruction to the local environment caused by these early 
endeavors.
    The Passaic Valley Sewerage Commissioners serve 47 
municipalities in northern New Jersey. The Commission operates 
the 6th largest wastewater treatment plant in the United States 
which treats wastewater generated by 1.3 million people. The 
Passaic River/Newark Bay Restoration Program includes assisting 
volunteer groups with shoreline clean-ups; trackdown and clean-
up of toxics reaching into the sewer system, and efforts to 
reduce pollution from combined sewer overflows which is one of 
the most important areas.
    The sewer systems in seven member municipalities are 
combined with domestic and industrial wastewater using the same 
pipes as stormwater runoff. During times of rain, thesesewers 
cannot handle the huge volume of combined sewage which then overflows 
in an untreated state to the Passaic River and North Bay. The overflows 
contain floating materials, toxic organic compounds, heavy metals, and 
disease-causing microorganisms.
    The EPA requires CSO owners to either reduce the quantity 
of overflows or provide treatment to meet water quality goals. 
These requirements are typically met through the total 
elimination of CSOs by constructing new wastewater sewers or by 
a system to capture and store the CSO overflow for later 
treatment. These alternatives would take at least 15 years to 
implement and have the construction cost of $1 billion to $2.4 
billion. The cities of Newark, Paterson, and Jersey City are 
among the poorest in the Nation with a 1989 median income 
household income averaging less than $26,000. The ocean dumping 
of sewage sludge was halted in 1991 by constructing a massive 
sludge processing facility which were paid for entirely out of 
local funds. Debt service now consumes one of every five 
dollars in PVSC's budget.
    A search was initiated to find a plan which could still 
meet the goals of EPA's long-term control strategy but at a 
cost which the cities could afford. A review of the treatment 
plant's capacity was undertaken utilizing the latest state-of-
the-art computer modeling techniques. The study recommended a 
series of in-plant improvements which would double the plant's 
ability successfully treat wet weather flows which will result 
in PVSC exceeding the EPA's long-term requirements for 
pollution reductions from CSOs. The improvements involve 
modifications to existing treatment units and can be in line in 
only 3 years after the project funds become available as 
opposed to the 15 for the other project. The cost for the stage 
of the improvements will cost $18.5 million of which we are 
requesting a Federal special needs grant of $14.8 million. The 
20 percent match would be paid for with State and local funds.
    We believe that this innovative program meets the needs of 
the environmental protection by utilizing state-of-the-art 
techniques to maximize the effectiveness of existing 
infrastructure. In a era of scarce public resources, this 
program will serve as a national demonstration project for 
other communities facing vast infrastructure needs with only 
limited financial resources. So, basically, that kind of 
summarizes what we have been working on, and we also appreciate 
your tour of our plant.
    Mr. Lewis. If my colleagues will bear with me, I would 
yield to the gentleman from New Jersey, Mr. Frelinghuysen.
    Mr. Frelinghuysen. Very briefly, thank you, Mr. Chairman. 
It is my pleasure to since I have been working former 
congressman, Bob Roe, and Mr. Davenport and other 
commissioners. I have toured the site. I know it is vitally 
important, and I know that as overall review of our Nation's 
needs that you have been just great since this is somewhat of a 
New Jersey day to give us as much attention as you can and to 
consider all the weight of experience on the other side of the 
table, on both sides of the table here today, I know, Mr. 
Chairman, we will do our level best to be of help wherever we 
can. Thank you.
    Mr. Lewis. You managed to find a way, there is no doubt 
about it. [Laughter.]
    Mr. Roe.
    Mr. Roe. I think what is really critical about this, Mr. 
Chairman, is that if we follow the route that has been laid out 
by EPA at this point, it is going to take us about 15 or 20 
years and cost us $3 billion to do what they have suggested 
needs to be done, eliminating the combined sewer sludge because 
of the resources available. When we had to get out of the ocean 
in the State of New Jersey, that cost us hundreds of millions 
of dollars--not blaming anybody, I fall for that myself--and 
then, of course, what we had to do is go through enormous 
expenses as far as getting rid of our sludge was concerned and 
so forth and so on.
    Now, the EPA has a program going where we have to do 
certain water quality clean-ups over a period of time which you 
are intimately aware of, vis-a-vis, the San Diego Project. 
Where we are coming from, if we can make this investment which 
totals over a three-year period of time somewhere in the order 
of about $60 million or $70 million, of which we will pay our 
share both the Commission and the State of New Jersey, what we 
would run into at that point, we could complete this job, and 
we would be able to double the treatment of combined sewer 
overflows into the North Bay. It would save us billions of 
dollars and would save us about 15 years.
    Mr. Lewis. Thank you very much, Congressman Roe, I 
appreciate that.
    Mr. Stokes. Mr. Chairman.
    Mr. Lewis. I am certainly going to turn next to my 
colleague who I know is going to want to say hello to this guy. 
Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. I could not pass up 
the opportunity to express very warm greetings to Former 
Congressman, Bob Roe. I served here with Bob and admired many 
days when I watched him bring his bills to the floor. He is one 
of the most distinguished chairman in this body; one of the 
most knowledgeable Members I have ever served with, and it is 
just a pleasure to have you back, Bob. Good to see you.
    Mr. Roe. Thank you.
    Mr. Lewis. Thank you, Mr. Stokes. Mrs. Meek.
    Mrs. Meek. I have no questions, but welcome and thank you 
for coming.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. No questions.
    Mr. Lewis. No questions further. Oh, the Governor.
    Ms. DeLeon. Mr. Chairman, yes----
    Mr. Lewis. Just identify yourself, if you would, for the 
record.
    Ms. DeLeon. My name is Donna DeLeon.
    Mr. Lewis. DeLeon?
    Ms. DeLeon. Yes, DeLeon, like Ponce. [Laughter.]
    We just wanted to bring to your attention--I am here on 
behalf of Governor Whittman, she has written a letter in 
support of this outstanding project in the State. I hope you 
and the other committee members have seen it. It is an 
environmental priority for our State, and we do hope with all 
due respect you will give it your full attention as well as 
another project about which she has written to you. Those 
letters letters are with the Committee.
    Mr. Lewis. We have received the letters and please 
communicate our best wishes to the Governor, and we appreciate 
your providing this testimony. You can revise and extend your 
remarks, if you wish. This is relatively a brief circumstance 
and that, of course, is very helpful to theprocess we are going 
through here.
    I want to thank you for being with us and indeed we'll have 
you in mind throughout the year as I thought about you as ISTEA 
as on the floor last year. [Laughter.]
    Thank you very much.
    [The information follows:]


[Pages 1213 - 1215--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

     HOUSING AND URBAN DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

THOMAS H. LEWIS, DIRECTOR, DEPARTMENT OF NEIGHBORHOOD AND COMMUNITY 
    SERVICES, CITY OF TALLAHASSEE
    Mr. Lewis. We were kind of backtracking in our schedule 
just a bit. Is Mr. Thomas Lewis here? Mr. Lewis. We appreciate 
your being patient with our patience. [Laughter.]
    Mr. Thomas Lewis. I enjoyed hearing that information.
    Mr. Lewis. Mr. Lewis is representing Florida State 
University. We would suggest for the record, no matter what 
they think, we may or may not be related, right? [Laughter.]
    Mr. Thomas Lewis. Absolutely. May or may not. And just 
quick there for a moment. I am representing the City of 
Tallahassee in our joint relationship on this project for 
Florida State University.
    Mr. Lewis. Alright, that's fine.
    Mr. Thomas Lewis. Mr. Chairman, I would like to thank you 
and members of the Subcommittee for this opportunity to present 
testimony and speak to the commitment that the City of 
Tallahassee has made to the comprehensive revitalization of its 
Frenchtown Community. The City's approach to this 
revitalization is designed to capture the time, the spirit, and 
the essence of this community when it was Tallahassee's center 
for the cultural, social, entertainment and economic fabric of 
the black family life in Tallahassee.
    Frenchtown was one of the first neighborhoods established 
in Tallahassee. Settled by the French farmers in 1841, they 
created a small business enclave of homes and businesses. After 
suffering many hardships, the French gave up on the area, which 
after the Civil War was claimed by freed slaves. Frenchtown 
grew as a neighborhood and soon became the economic and 
cultural center of Tallahassee's black community. It remained 
so for over 100 years. Then with the onset of integration, the 
closing of the historically black high school, and the urban 
flight that occurred in the 1960's and 1970's, the community 
began its gradual decline.
    The deterioration of the Frenchtown as a community can be 
traced to a breakdown in the basic process of community 
regeneration. People who raised their families in Frenchtown 
have aged and remain, their increase, their offspring face with 
the increase of urban decay, coupled with the phenomena of 
expanded choices brought on by integration, escalated the trend 
of decline in the community's social, cultural, economic, and 
home ownership base.
    But even in the midst----
    Mr. Lewis. Now, Mr. Lewis, one of the things I'm going to 
have to do, Louis Stokes would really be unhappy with me if I 
didn't do this. He would say that we will take your entire 
testimony for the record but if you'd summarize it within the 5 
minute time period----
    Mr. Thomas Lewis. Okay.
    Mr. Lewis [continuing]. That we normally use, it would be 
appreciated. I know that's difficult but, you know.
    Mr. Thomas Lewis. I understand, and this is a 5-minute 
summary. [Laughter.]
    Mr. Lewis. Then proceed, don't let me interrupt.
    Mr. Thomas Lewis. Okay. The neighborhoods came together and 
formed the Frenchtown neighborhood association, the city has 
made substantial infrastructure improvements, housing 
development, and economic restructuring of the district.
    The Frenchtown community is located directly across the 
street from Florida State University. Florida State University 
is a key partner and a major facet of the revitalization of 
this community. The University and City proposed to join their 
redevelopment efforts, and jointly seek funding for an Economic 
Development Initiative Grant, titled The Frenchtown Arts and 
Cultural Entertainment District. The project will link the 
development of the new performing arts center that's being 
developed on FSU campus with the Entertainment Arts and 
Cultural Center located rightacross the street in Frenchtown.
    The proposed Urban Entertainment and Cultural Center will 
encompass a hotel, retail development, is a $60 million 
development. We are requesting $3.5 million in Economic 
Development Initiative funding, and this grant will pay for the 
storm water, the infrastructure, property acquisition, and site 
improvement costs for the development of the comprehensive 
cultural center. This cultural center will also contain a 
museum of African American history, science and technology 
which will support the site as a community tourist place, but, 
more specifically, this project is key to providing the link to 
the past, the present, and the future of the Frenchtown 
community.
    We are excited about the opportunity to ask for assistance 
and then be able to maximize, to leverage it for 20 to 1 
grants, so this will be a $60 million opportunity. Granting 
this request will enable us to return the Frenchtown community 
to that time when it was a center for minority business, home 
ownership, entertainment, and a thriving cultural life.
    Again, I thank you for this opportunity, Mr. Chairman and 
request your support to help us rebuild this neighborhood.
    Mr. Lewis. Mr. Lewis, thank you very much for that summary 
and it is very much appreciated, any additional remarks you 
might have for the record will be included in the record. And 
we look forward to working with you.
    Members of the Committee, Mr. Stokes, you haven't been 
around lately, so I just was.
    Mr. Stokes. I just want the record to reflect that Mr. 
Lewis finished his testimony within 5 minutes. [Laughter.]
    Mrs. Meek. Mr. Chairman, Mr. Lewis represents my hometown 
of Tallahassee, even though I represent here in the Congress, 
Miami. I was born and reared very near the area that he's 
talking about.
    Mr. Lewis. Really? I think that's the first time I heard 
that.
    Mrs. Meek. That's true.
    Mr. Stokes. It's an interesting bit of history you gave us 
about the Frenchtown. It's the first I heard of that, and I 
found it fascinating.
    Mr. Thomas Lewis. And we hope to be able to catch that 
history in the cultural aspects of this entertainment complex. 
We want your assistance and help.
    Mr. Stokes. Thank you.
    Mrs. Meek. Yes, thank you.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. No questions, thank you.
    Mr. Lewis. No questions? Thank you very much, Mr. Lewis. 
Appreciate your patience.
    [The information follows:]


[Pages 1219 - 1230--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

    NASA, HOUSING AND URBAN DEVELOPMENT, NATIONAL SCIENCE FOUNDATION

                               WITNESSES

AUDREY MANLEY, PRESIDENT, SPELMAN COLLEGE
PAMELA GUNTHER-SMITH, CHAIR, DEPARTMENT OF BIOLOGY, SPELMAN COLLEGE
    Mr. Lewis. And let's see here, Dr. Audrey Manley, President 
of Spelman College, representing Spelman College.
    Dr. Manley. Thank you very much. Thank you very much, 
Congressman Lewis. Mr. Chairman, and to the other members of 
the Committee, I am Dr. Manley, the President of Spelman 
College. And I have with me today, also an alumna of Spelman 
College, Dr. Pamela Gunther-Smith, who is our Professor of 
Physiology and Chair of our Department of Biology.
    Before I proceed with my formal comments, I would like to 
recognize and acknowledge Congressman Stokes. We are old 
friends and we go back many years during my career as an 
officer in the Public Health Service for 21 years, during which 
I served, not only as the Acting Director of the Office of 
Minority Health, but as Deputy Surgeon General, and most 
recently, Acting Surgeon General. I also want to acknowledge 
Mrs. Meek who is the mother of a Spelman alumna.
    Mrs. Meek. Absolutely.
    Mr. Lewis. We're getting a lot of information on our 
committee today.
    Dr. Manley. Yes. I have witnessed, of course, firsthand 
much of the work that the Congress is providing leadership and 
assuring that all Americans have access to housing, and health 
care, education, employment, and other opportunities.
    I want to specifically recognize Congressman Stokes for his 
contributions on this committee. His service to the Nation has 
been unparalleled, and we all know that he will be sorely 
missed. And I do want to personally wish you and your family 
all the best.
    Mr. Stokes. Thank you.
    Dr. Manley. Congressman, we hope to have you down to 
Atlanta as you prepare to leave Congress this Fall.
    Now recommendations Spelman College would like you to 
consider during your deliberations, in 5 minutes. [Laughter.]
    Our recommendations affect three agencies under your 
subcommittee's jurisdiction. These agencies include the NASA, 
the NSF, and HUD. For reasons that will be discussed only 
briefly today, but the details are in our written testimony 
which has been submitted for the record, is to continue the 
funding for the educational programs sponsored by these 
agencies which are of critical importance to us.
    Some of you may already be aware of the Spelman College 
story. It is one of achievement and success. On average, 34 
percent of our 1,900 women enrolled at Spelman consistently 
elect mathematics, science, physics, chemistry, and a 
dualdegree program in engineering as their majors, unparalleled in the 
country. Moreover, 30 percent of our Spelman students annually graduate 
with degrees in these areas.
    Mr. Lewis. And biology as well.
    Dr. Manley. Absolutely. [Laughter.]
    AAMC, for example, has listed Spelman among the top 10 
schools producing the most African American applicants who have 
successfully gained admission to medical schools. The NSF has 
ranked Spelman among the top 26 producers of African Americans 
to obtain doctorates and second among Historically Black 
Colleges and Universities. NSF, along with NASA, has designed 
Spelman College a Model Institution of Excellence in their MIE 
program in undergraduate science and mathematics education. 
There are only six institutions in the country so identified.
    But despite Spelman's success, much work remains to be done 
if the college is to continue to produce dynamic women in 
science who can assist in leading the country in the research 
and development arena. The College's science facility, which 
was built in 1927, is cramped and obviously out of date. Many 
of Spelman's students, while academically astute, come from 
economically disadvantaged backgrounds. Thus, programs 
sponsored by HUD, NSF, and NASA are needed now, as much as 
ever, if we are to continue to successfully move students 
through the pipeline into science, biomedical, health careers 
and professions.
    Specifically, we ask you to address three things in your 
deliberations in the fiscal year 1999 budget. That $7.8 million 
be provided under HUD's Economic Development Initiative 
account, the Community Development Block Grant, to assist the 
college in renovating and equipping its science facility. This 
is truly a public private effort. Funds have already been 
raised in the amount of $22.5 million to establish a 88,000-
square-foot state-of-the-art science complex. In addition to 
benefiting Spelman's faculty and students, the center will 
allow the college to reach out more fully to the residents in 
the surrounding urban and assisted housing communities, 
particularly women moving from welfare to work, and to assist 
their children. Spelman College today finds itself in the 
middle of an empowerment zone, and it is a major institution to 
provide leadership in this community.
    Turning to NASA, the President requests $13.5 billion to be 
provided in fiscal year 1999. Of particular interest, is the 
$20 million reduction that has been proposed for academic 
programs. The reduction proposed for academic programs would 
threaten programs that benefit our college. Spelman has 
participated in NASA's Women in Science and Engineering 
Program, the WISE program, for the last 11 years. Therefore, in 
fiscal year 1999, we ask that these programs be funded at a 
level that keeps pace with inflation.
    And finally, NSF requests $3.8 billion in fiscal year 1999. 
It is a 10 percent increase over fiscal year 1998's budget. In 
the amount requested, it is $683 million, representing an 8 
percent increase to be provided for education and human 
resources. We wish to support the administration's request for 
these funds.
    Mr. Chairman, that concludes my oral testimony, written 
testimony is provided, and I will be happy to answer any 
questions that any of you might have. And I think we have some 
brochures for the Chair and for the Committee.
    Mr. Lewis. Could you give me your name one more time?
    Dr. Gunther-Smith. Pamela Gunther-Smith.
    Mr. Lewis. Gunther-Smith?
    Dr. Gunther-Smith. It's hyphenated.
    Mr. Lewis. Thank you very much, Dr. Gunther-Smith. Let me 
see, first, I would like to say to you, Dr. Manley, that during 
the time I've been on this committee, Louis Stokes and I have 
formed somewhat of a partnership----
    Dr. Manley. Good, I'm glad to hear that. [Laughter.]
    Mr. Lewis [continuing]. That would specifically recognize, 
at least from our perspective, that affirmative action is not 
exactly dead. It has not accomplished yet all that we would 
hope that it might accomplish, but in terms of Mr. Stokes' 
leadership in that whole subject area, you are a demonstration 
project. So I'm pleased to make your acquaintance. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. Mr. Chairman, I'd just 
like to take a moment to personally welcome before this 
committee one of the most distinguished women in America. Dr. 
Audrey Manley has had a very distinguished career in the Public 
Health Service, as she noted, spending so many years in the 
Public Health Service Corps, she was our Acting Surgeon General 
of the United States prior to becoming president of one of the 
premier colleges in this country. We were all very proud that 
she was selected to be President of Spelman College. This 
college has produced so many distinguished African American 
women, so we're very proud to have you here. As you said, you 
and I have had a very close working relationship over many, 
many years, and I remain quite in admiration of your 
accomplishments.
    Dr. Manley. Thank you very much. You are very kind and very 
generous.
    Mr. Stokes. Thank you.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. No questions, thank you.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. I'm just pleased to have Dr. Manley here, Mr. 
Chairman. Thank you for bringing the needs of Spelman College 
before this committee, and I must say you clearly delineated 
them. Thank you.
    Dr. Manley. Thank you very much for hearing us.
    Mr. Lewis. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Mr. Stokes' personal endorsement is good 
enough for me. [Laughter.]
    Mr. Lewis. Before you both leave let me mention something 
else. Among other things this subcommittee is focused upon, 
what has happened over the years with colleges like Spelman and 
the fantastic contribution that they have made to a field that 
in some circles is not as popular today as it used to be, 
namely affirmative action, and attempting to make sure that 
there are opportunities for minority, particularly minority 
women, but a cross section of other, others of our citizenry. 
Among those groups that we've begun to pay attention to here of 
late involves a program known, given the title of HSI, Hispanic 
Support Institutions, and there's been almost no attention paid 
to that need in the country over the years. I must say that in 
this subcommittee, while we have difficulty getting our 
authorizers to do all we would likethem to do, nonetheless 
within this subcommittee this voice is going to continue to be heard, 
and I expect to hear from you what in the future I'm sure we're going 
to.
    Dr. Manley. Thank you. [Laughter.]
    Mr. Lewis. Thank you very much for being with us.
    Dr. Manley. Thank you, and again, just a comment on that. 
Congressman Stokes certainly has been a leading advocate for 
minority groups of all categories----
    Mr. Lewis. Sure has.
    Dr. Manley [continuing]. Giving attention to other groups, 
other than African Americans.
    Mr. Lewis. Thank you.
    Dr. Manley. So I'm glad to see your commitment to continue 
doing it.
    Mr. Lewis. Thank you.
    [The information follows:]


[Pages 1235 - 1244--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

GEORGE McDONALD, PRESIDENT, THE DOE FUND, INC.
    Mr. Lewis. Now let's see, George MacDonald of the Doe 
Foundation. Mr. MacDonald. You've been here long enough that 
you know the admonitions and all that.
    Mr. MacDonald. I do.
    Mr. Lewis. So please just proceed.
    Mr. MacDonald. But I have no paper in front of me.
    Mr. Lewis. I noticed, I noticed.
    Mr. MacDonald. I'll summarize the past 14 years in about 2 
minutes.
    Mr. Lewis. Okay.
    Mr. MacDonald. I started out as a volunteer in Grand 
Central Terminal handing out food to homeless people at 10 
o'clock in the evening in 1984. And about 400 people would line 
up on 43rd and Vanderbilt and we would give out the sandwiches 
and they would thank us for that. But I would hear over and 
over that what they really wanted was a room and a job to pay 
for it. So we set out to put something like that together. It 
took us until 1990. We started the Ready, Willing and Able 
program in New York City. We have graduated over 600 men and 
women to private sector jobs, unsubsidized apartments. Three 
years ago we brought the program here to the District and we 
graduated over 75 folks here into private sector jobs, 
unsubsidized apartments. We had our last graduation at the 
Georgetown University. I told the folks that they could say 
that they graduated at Georgetown. [Laughter.]
    I must tell you as an aside, I went to the airport the next 
morning, got out of the cab and there was a gentleman working 
for American Airlines who had graduated from our program 
opening the door.
    It's a program that works but it stresses personal 
responsibility. We pay $5.50 an hour to begin with and the 
folks go out and work. They sweep the streets, Georgetown, K 
Street, and so on. They pay us $50 and we can arrange $15 for 
food and save $30 per week. At the end of nine months, that $30 
is $1,000, we match that with $1,000 so there's an incentive 
built into the program.
    Our folks have long histories of substance abuse, 
incarceration, and homelessness, but yet these turnouts would 
be not barriers to getting private sector employment if the 
goal of the program from the beginning is that they get private 
sector employment. Gwen and Cliff are examples of the folks who 
were formerly homeless here in the Capital. We're asking for $1 
million to continue to expand our program. Reverend McPherson 
runs our program here.
    And that's about it, except on a personal note, if you 
don't mind my saying, I used to drive Congressman 
Frelinghuysen's father when he was a Congressman. And I grew up 
in Morris County, New Jersey.
    Mr. Frelinghuysen. He didn't get paid either did he? 
[Laughter.]
    Mr. MacDonald. No, no. [Laughter.]
    I got paid, I got paid, Congressman.
    Mr. Frelinghuysen. I wanted to make sure the record showed 
that.
    Mr. MacDonald. I got paid in ways that are very important 
in America. I got values from your father that brought me here 
to be able to do this work. So it's a pleasure to see you. 
Thank you, Mr. Chairman, for the opportunity and Mr. Stokes, I 
wish you weren't retiring.
    Mr. Stokes. Thank you so much.
    Mr. Lewis. Well, we very much appreciate that testimony, it 
is truly a testimony. And gentleman, if you know what our 
schedule overall is like but, any remarks you might like to 
make you are certainly welcome to address the Committee.
    Mr. Clifton Robinson. Mr. Chairman, myself, I would hope--
--
    Mr. Lewis. Would you identify yourself?
    Mr. Clifton Robinson. I'm sorry, Clifton Robinson. I am a 
trainee and resident of the Ready, Willing, and Able program 
here. I would hope that the people in this room could 
understand how vitally important a program like this is for a 
person in my situation. Now, that would be a person whose 
homeless, who has a chemical dependency problem, and aperson 
who is under-skilled. Being a resident of this program I am able to 
address all three of those aspects in my life and it is making me a 
much better individual. And I just hope people here can understand how 
vitally important it is for people.
    Mr. Lewis. Thank you for that.
    Mr. Winfred Robinson. And also, my name is Winfred 
Robinson, and I am also a trainee of Ready, Willing and Able. 
And, Mr. Chairman, I also want to emphasize the vital 
importance of this program that took a person like me off the 
streets of Washington, D.C. and instilled within me some self-
discipline, some self-worth, to increase my self-esteem, to 
give me the ability and the tools to go on with my life and the 
potential of this program can do the same for many other 
homeless people on the streets. We just need more support and 
more help in doing so. This is a very successful, and may I 
mention, one of the most effective programs in this region. And 
I am proud to be a part of it, and proud to be here and honored 
to testify with this program.
    Mr. Lewis. Thank you very much.
    Mr. McPherson. Yes sir, Mr. Chairman, those that are 
present, as a native of this city, I worked in the homeless 
arena for many years. I have seen the ebb and flow of the city 
in terms of the homeless population, working in the shelter 
system we house them at 7:00 p.m. and we put them out at 7:00 
a.m. in the morning. There was no care at all. They defecated 
on themselves. There were no programs. When I was hired by the 
MacDonald's to run the program in the District, I initially 
felt that the program would not work. However, I am a believer. 
I am a believer in that we teach men how to be responsible. We 
teach them first to provide for themselves. We teach them how 
to take care of their families. We teach them how to understand 
the system. The system is yourself, the family, the community, 
the city, and then the Nation. We provide them with the 
positive things that they need, self-esteem, self-building, and 
it is done over an 18 month period of time. Most programs that 
I have directed are 30 days, 60 days, 90 day programs. We have 
a year and a half to work with these individuals and the 
program is the best program in the Nation based on what we do.
    Mr. Lewis. Reverend, would you give us your name for the 
record?
    Mr. McPherson. I am sorry.
    Mr. Lewis. That is alright.
    Mr. McPherson. Reverend Samuel Lewis McPherson, Sr.
    Mr. Lewis. Okay, we got it. We got it. Let's see, Mr. 
Stokes?
    Mr. Stokes. Thank you, Mr. Chairman. I would just like to 
express my appreciation to each of these gentlemen. This has 
been some very powerful testimony and very effective, I think, 
on the members of this subcommittee. And Mr. MacDonald I would 
like to share with you, your mentioning Mr. Frelinghuysen's 
father, I had the honor some 26 years ago when I first came on 
this subcommittee of serving with his father on the same 
subcommittee. [Laughter.]
    So I do not know what that says about my age but----
    [Laughter.]
    Mr. Stokes [continuing]. I concur with you that they have a 
very fine gentleman, and in his case, the apple does not fall 
very far from the tree. Thank you.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. Here, here. I would agree with that. Just 
briefly, I think what you are doing is marvelous, it is 
important, it is making a difference. And the testimony that 
these two gentlemen have given is as powerful as any we have 
heard today. You are all to be congratulated.
    Mr. MacDonald. Thank you.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. I just want to say I'd rather see a sermon than 
to hear one anyway. [Laughter.]
    Seeing these men really convinced me that this program is 
worthwhile.
    Mr. MacDonald. We would like to come help those people 
under that bridge you spoke of.
    Mrs. Meek. Yes, you gave validity to the distance of this 
program.
    Mr. MacDonald. Thank you.
    Mr. Lewis. Thank you all very much for being with us. I 
think we ought to adjourn for the day, do you think? 
[Laughter.]
    [The information follows:]


[Pages 1248 - 1253--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

BARBARA THOMPSON, DIRECTOR OF POLICY AND GOVERNMENT AFFAIRS, NATIONAL 
    COUNCIL OF STATE HOUSING AGENCIES
    Mr. Lewis. Our next witness is Barbara Thompson, the 
Director of Policy and Government Affairs, speaking for the 
National Council of State Housing Agencies. Thank you for being 
with us.
    Ms. Thompson. Thank you, Mr. Chairman, for having me. Good 
afternoon to you and Mr. Stokes and other members of the 
subcommittee. I am Barbara Thompson. I am Director of Policy 
and Government Affairs for the National Council of State 
Housing Agencies. If it means anything, Mr. Frelinghuysen, I 
once worked for Governor Tom Cain here in Washington--
[laughter]--Governor Bradenburn, and prior to that, and this 
takes us back many years, I am almost reluctant to admit it, I 
also worked for Andrew McGuire from New Jersey, from Bergen 
County at that time. So still have the New Jersey connections.
    Mr. Lewis. Mr. Frelinghuysen is taking over the meeting. 
[Laughter.]
    Ms. Thompson. I am here, as I said, mentioning--
representing the National Council of State Housing Agencies. 
NCSHA represents the Nation's housing finance agencies, 
including your own, Mr. Chairman, the California Housing 
Finance Agency.
    The State HFAs have evolved considerably in their expertise 
and capacity in delivering affordable housing, particularly as 
you, this subcommittee, and the authorizingcommittees have 
continued devolve responsibility, we think very wisely, to State and 
local governments over the years.
    The agencies are now involved in every form of housing from 
homelessness, to ownership housing, to section 8 restructuring, 
to preservation, just every area of housing you can imagine. 
And I focus on many of those areas in my longer statement and 
will focus just on three areas, if I may today: the HOME 
program, section 8 contract renewals, project contract renewal 
and the very successful FHA HFA risk-sharing program.
    I also want to take a moment, before I conclude my remarks, 
to mention a couple of other programs and to ask your help in 
restoring their purchasing power. And those programs are the 
Low Income Housing Tax Credit and the Housing Bond program, 
particularly the Mortgage Revenue Bond program, which the 
States and several local governments also administer. Although 
those programs are not under your jurisdiction, they are vital 
to housing. They are the greatest producers today of ownership 
housing, as well as rental housing for low-income people, and 
they leverage considerably the increasing limited resources 
that HUD has at its disposal.
    Let me begin, very briefly, with the HOME program. I don't 
have to tell you all what an outstanding success that program 
has been. Please refer to the testimony. I have given you some 
recent examples of activities of the HOME program in your 
districts that we think are pretty outstanding and innovative.
    What makes the housing program, the HOME program, and what 
is the HOME program's genius, in our view, is the fact that it 
relies on States and local government and not Washington to 
decide how to respond best to pressing housing needs. You 
clearly recognized that when you found a way, quite 
extraordinarily we thought, last year to actually increase the 
HOME program when the administration wanted to cut it. We 
commend you for that. We are very grateful for that increase to 
$1.5 billion. We hope you can find a way to exercise your magic 
again this year and at least be able to meet the 
Administration's request of $50 million increase, and we know 
that will not be easy but we urge you to do the very best you 
can for the HOME program as you have in the past.
    Section 8 is the next area of focus, contract renewals 
particularly on the project-based side. I sat before this 
subcommittee, Chairman Lewis, just a year ago, and frankly, we 
were a little discouraged. I think we both were about the 
demonstration that you had enacted the prior year, as well as 
the chances for a permanent program to be authorized by the 
Congress last year. The demonstration at that time was getting 
off to an awfully slow start at HUD, despite the fact that 30 
States had stepped up to the plate to be part of it, they were 
not hearing much from HUD, the regulations were being written 
very slowly.
    Since then, I am very pleased to say that of those 30 
States, 24 States have approved plans, many have signed 
contracts. Every State represented at this table is involved in 
the program. Just today we learned that California has 
submitted their plan to HUD.
    Now we are just beginning to bring down properties and 
actually do the restructuring. Ohio will be the test case 
because Ohio has more properties than any other States. But we 
are encouraged at the progress.
    We also want to commend you for the permanent program. 
Ultimately you had to do it. I know you hoped not to have to do 
it, but we commend you for working with the authorizing 
committee and for modeling that program on the demo, which we 
think has great promise, and particularly for giving States the 
priority role as restructuring agents. HUD has been great about 
involving us in writing the regulations for that program and we 
even, at our suggestion, were able to get HUD to accept a very 
expert HFA person, an expert in multi-family finance who has 
been hired temporarily by HUD to go inside the Department and 
work on writing those regulations. So we are delighted with 
that and we hope to be able to continue to report on our 
progress under that program.
    Thirdly, and lastly, in terms of this committee's programs, 
the FHA HFA risk-sharing program. And here I must make a plea 
to the subcommittee that I have made in the past. We now have a 
program that is several years old, authorized in 1992. It is a 
program that works. It allows the States to ensure FHA multi-
family properties and share in the risk and in return, cut 
through the HUD bureaucracy and be able to use their own 
flexible underwriting standards. Your State, Mr. Lewis, has 
done more under this program than any other. Florida is 
another, and there are many more, 28 in total. An amazing 
amount of activity in Florida.
    The problem is, and it made sense at the when it was 
authorized, you allocated a number of units each year. We have 
now 50,000 units authorized. All those units have been used. 
Last year you tried to give us another 15,000, you moved it to 
the extended bill which, of course, never passed. We are asking 
you to get out of the business of piecemealing this program. No 
other insurance program works that way. This program is a 
success. It costs no Federal credit subsidies, no cost to this 
subcommittee. And you are going to see a GAO report, I am proud 
to say on Friday this week, I will get it right in the 
Subcommittee's hands and all the hands of the Subcommittee 
members which basically says this program works, continue it 
and here are various reasons why it should be made permanent. 
We hope you will take the GAO's advice on that.
    Lastly, I just want to touch on in 30 seconds the Housing 
Credit program and Housing Bond program. Both of those programs 
are suffering from the same thing. The housing credits were 
authorized in 1986. A certain amount was authorized for each 
State, a $1.25 per resident. The same thing with housing bonds, 
which fall under private activity bonds, $50 per capita for 
each State. That has not been adjusted for 10, actually 12 
years now. Inflation alone has eroded those programs by 50 
percent. Most tax programs are indexed for inflation. These are 
not. Bills are pending to do just that, to make up for the 
difference, not to increase them but to simply restore their 
purchasing power and on top of that index them so we do not 
find ourselves in this position again. I urge you to get on 
those, many of you have.
    Mr. Chairman, I want to thank you, in particularly, for 
signing on several other Subcommittee members, 228 House 
members are on the Bond bill, 186 are on the Housing Credit 
bill, but in order to compete for very scarce revenue within 
the tax committees this year, we must show that we have 
overwhelming support. So I urge you, not only in your own 
capacity, but in your capacity as recognized housing leaders 
within the Congress to speak out, talk to Chairman Archer, 
particularly. To talk with other members of the Ways andMeans 
Committee and make sure that if there is a tax bill this year, which I 
know we have no great certainty that the tax bill will carry these 
very, very important increases.
    I thank you for your time, Mr. Chairman.
    Mr. Lewis. Thank you very much, Ms. Thompson. I appreciate 
your testimony.
    Ms. Thompson. You bet.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. No comment, thank you.
    Mr. Lewis. Mrs. Meek.
    Mrs. Meek. No questions, thank you.
    Mr. Frelinghuysen. No questions, thank you.
    Mr. Lewis. Thank you for being with us.
    Ms. Thompson. If I could just leave with the Subcommittee, 
books for you that talk about the real life stories of people 
who have been helped by the programs I mentioned.
    Mr. Lewis. We will be glad to include in the file.
    Ms. Thompson. And I would like to just conclude by saying 
that Valerie is super and you are awfully lucky to have her. 
[Laughter.]
    Mrs. Meek. We know that.
    Mr. Lewis. Thank you for that.
    [The information follows:]


[Pages 1257 - 1264--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

BERNARD KAHN, EXECUTIVE DIRECTOR, HEBREW ACADEMY FOR SPECIAL CHILDREN
    Mr. Lewis. Next on our list of witnesses, Bernard Kahn, 
representing the Hebrew Academy for Special Children. Mr. Kahn?
    Mr. Kahn. Good afternoon, Mr. Chairman. Good afternoon.
    Mr. Lewis. Good afternoon.
    Mr. Kahn. Good afternoon ranking member Stokes, and other 
members of the Committee and Subcommittee. I appreciate the 
opportunity to sit before you to testify on behalf of the 
Hebrew Academy for Special Children, otherwise usually known as 
HASC. I am the Executive Director. My name is Bernie Kahn. I 
will take just a moment to describe the background of HASC and 
the help that we are looking for.
    The Hebrew Academy for Special Children was founded in 1963 
for profoundly handicapped children from the local school 
districts in order to provide any special education 
programming. Today 34 years later, we are servicing over 1,100 
special children, physically and mentally handicapped children 
and adults on a daily basis. Children from 14 States around the 
Union, including New York, California, Connecticut, Rhode 
Island, Massachusetts, Pennsylvania, Ohio, Illinois, Wisconsin, 
Minnesota, Tennessee, Colorado, Georgia, and so on.
    These children have all come to HASC not because we 
advertised for them. They came on their own basis. Their 
parents heard about the facility on their own, they came to 
knock on the doors. We currently have over 100 children on the 
waiting list trying to get in.
    The facilities consist of pre-school programming, from the 
time of birth there is early intervention, pre-school 
programming from 3 to 5, school age special ed programming, as 
well as sheltered workshops for adults. They have programming, 
day-hab programming, res-hab programming, supportive work 
programming, Medicaid waiver programming, as well as group 
homes, residential group homes and summer programming, day and 
residential as well.
    The goal of the Hebrew Academy for Special Children is to 
maximize the potential of each of these special children to try 
to mainstream them into the community, and to provide them with 
the opportunity to become taxpayers, instead of tax recipients. 
In fact, two of your colleagues, Congressman Rangel and 
Congressman Gilman, have visited firsthand our facilities and 
seen what it is all about. They both came away very moved by 
their visit.
    For the past three decades HASC acquired the knowledge and 
expertise to assist other schools and agencies interested in 
developing educational facilities for special children and 
adults, however, were greatly inhibited by the lack of physical 
space and the lack of program dollars. And in response to the 
needs of America's handicapped children, HASC is seeking to 
establish a partnership with the Federal government to support 
the purchase and renovation of the facility so that HASC can 
expand its mission by reaching more developmentally disabled 
children and adults.
    Specifically, HASC will expand one of its nine sites, and 
since its opening in 1992 in Rockland County, the great demand 
for services has surpassed its physical capacity and there are 
still more than 100 still waiting.
    Therefore, to relieve the budget strain imposed upon the 
programs, to enable expansion, to ensure that proper management 
of the state-of-the-art programs described in my testimony, and 
to enable our professionals to help other organizations to 
develop similar programs, HASC is seeking assistance in 
acquiring and renovating a facility which has been identified.
    HASC's early intervention programs save local, State, and 
Federal government in special education costs every year. And 
with greater physical capacity to help mainstream even more 
children, more adults to become productive, self-sufficient 
taxpayers.
    Mr. Chairman, HASC is a sound investment for the Federal 
Government. The total funding needed to expand HASC's 
facilities and programs is slightly more than $5 million. Mr. 
Chairman, the total Federal request is $2.5 million. In your 
fiscal year 1998 bill, HASC received $100,000 from the Economic 
Development Initiative program and we are extremelygrateful for 
this initial funding. And our hope is that your subcommittee will 
provide additional $2.4 million in the fiscal year 1999 bill so that we 
can complete the project.
    HASC will meet all additional budget needs by actively 
raising significant private dollars from State and government 
sources as well.
    Chairman Lewis, thank you Mr. Stokes and other members of 
the Committee. Thank you for the opportunity to provide you 
with the testimony.
    Mr. Lewis. Thank you very much, Mr. Kahn. We do appreciate 
your being with us. Your entire testimony will be included in 
the record. I appreciate your summarizing for us. Mr. Stokes.
    Mr. Stokes. Thank you very much, Mr. Kann.
    Mr. Kahn. You are very welcome.
    Mr. Lewis. Mr. Walsh.
    Mr. Walsh. Thank you, Mr. Chairman. This is a project we 
discussed at last year's budget process. It is a very 
meritorious project and it is making a positive difference in 
the lives of those children. And we will have thorough 
discussions regarding the project. We will do the best we can 
to help.
    Mr. Kahn. Thank you, Mr. Walsh.
    Mr. Lewis. Congressman Walsh has only discussed this with 
me two dozen times. [Laughter.]
    Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Kahn.
    Mr. Kahn. Thank you, Mrs. Meek.
    Mr. Lewis. Appreciate your being with us.
    Mr. Kahn. Thank you very much.
    [The information follows:]


[Pages 1267 - 1273--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. SOLOMON P. ORTIZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
DON OUCHLEY, BROWNSVILLE PUBLIC UTILITIES BOARD
    Mr. Lewis. I'd ask our colleague to come forward with his 
guests. Congressman Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Lewis. We will let you do the honors.
    Mr. Ortiz. Thank you. Mr. Chairman, members of the 
Subcommittee, I am pleased to have this opportunity to 
introduce to you a good friend, a gentleman, from Brownsville, 
Texas, as he comes to us today to testify on behalf of 
Brownsville Weir and Reservoir project. Mr. Ouchley has an 
outstanding 30 years record in the public utility field. Before 
being appointed General Manager of the Brownsville Public 
Utility Board, he was the Director of the public utilities of 
Lafayette, Louisiana. And before that, he was with the public 
utility district in Everett, Washington. I appreciate his 
presence today as he explains the importance of the Brownsville 
Weir and Reservoir project as the future development of the 
Brownsville area the Rio Grande Valley.
    My district is a border district. We have high unemployment 
because of El Nino after several years. It is either a flood or 
a drought. In this case, these last few years, we have had less 
problems, aside from the northern most point in my district, 
Corpus Christi, where we had to build a pipeline. We had to 
suspend the monies that they we were paying monthly or yearly 
for the construction of a dam that was built years back, so 
that we could pipe water from Lake Pizelma into the Corpus 
Christi area because we wouldn't have any water supply. In our 
district, if you do not have water, you do not have dogs. And 
this is very, very important.
    But I bring with me today a gentleman--he is very well 
qualified--and he can give you information as to what we are 
working on. I support it. It is needed and I hope that the 
committee can look at this issue that we are faced with and 
help us with this problem.
    Mr. Lewis. Mr. Ouchley, we are pleased to receive your 
testimony and it will all be included in the record. If you 
would summarize it as you will see fit.
    Mr. Ouchley. I will summarize and I have been listening and 
it will be less than four minutes. [Laughter.]
    I will be very brief.
    My name is Don Ouchley. I am the General Manager of the 
Public Utilities Board in Brownsville, Texas. We are a city of 
130,000 people; the largest city in the south Texas area border 
between Mexico and the United States.
    I would like to thank you for this opportunity this 
afternoon for listening. My testimony concerns a priority 
environmental problem faced by Brownsville, Texas area. And 
that is, the lack of a long term water supply. The reason that 
we are here today to ask that you designate $3 million from the 
Border Environmental Interest Structure Fund, the BEIF, for the 
use of the Brownsville Weir and Reservoir project. We need this 
money to initiate the implementation of this project.
    The Brownsville Weir and Reservoir project is the most 
important component of an integrated water resource plan for 
the Lower Rio Grande Valley. It provides a unique opportunity 
to capture water that has passed all other uses--water that 
cannot be captured any other way because we are the last point 
on the river. And without this project, this water flows to the 
Gulf of Mexico unused, even in times of severe drought. It is, 
in short, a major conservation project.
    The structure creating the impoundment would release 
adequate water for downstream users and also for environmental 
purposes. It does not hinder environmental needs for water nor 
downstream users. The project uses the existing river channel 
for storage and will be accessible to many users both in the 
United States and Mexico, rather than constructing an off-
channel reservoir which is remote to existing water supply 
facilities. And also, it would only be accessible to a limited 
number of users and it would provide no benefit to Mexico and 
it would not meet the in-stream needs of the river. So storing 
the water within the existing river channel is the most 
effective way to impound the water.
    This project encourages water conservation because under 
current water management conditions, a significant portion of 
that saved by water conservation practices is not conserved in 
storage. But instead, the water flows to the Gulf of Mexico.
    Absent the project, the IBWC would have to continue to 
release water from Falcon Reservoir seven days in advance of 
the anticipated diversion. If this released water is not 
diverted due to reduced demand, or we get unanticipated in-
flows, all of this water flows to the Gulf of Mexico unused. 
This project is the ultimate conservation project for our 
region and can conserve much more water than any other 
alternative that we have been able to come up with. The project 
conserves water for all users of the river. Every time we save 
an acre foot of water in Brownsville it puts an acre foot of 
water behind Falcon Dam Reservoir for anyone to use. It 
benefits all users, municipal, industrial, and agriculture.
    The project has the strong support of the State of Texas. 
The Texas Water Development Board has endorsed the project. It 
is one of their top priorities. There is also written support 
from Mexico, the State of Tamaulipas is supportive of the 
project, and we have the support of local government, citizens, 
and even local environmental organizations.
    We need your assistance because existing EPA and Border 
Environmental Coordinating Committee rules restrict the use of 
these funds to wastewater and drinking water facilities, and 
they do not cover water supply projects. The need to obtain a 
stable long term water supply for the entire Brownsville area 
is overwhelmingly the top border environmental priority for our 
area, as I have mentioned before. If the BEIF is to help 
improve the quality of our public health and environment, some 
funding needs to be spent on this Weir project.
    Our difficulty occurs because the BECC funding emphasizes 
funding for wastewater and water treatment plants for smaller 
communities. Yet Brownsville has spent over $40 million in the 
last 5 years to upgrade these facilities to meet State and 
Federal standards. And we have done this without any help from 
outside. The result of that has been that we have had to 
increase our rates very significantly and we have very high 
water and wastewater rates as a result of that. We, and our 
Congressional delegation, especially Congressman Ortiz, have 
assumed that our support of NAFTA that the Border Environmental 
funding would be able to reduce this financial impact on lower 
income communities, such as we are. In meeting environmental 
and public health needs, the city has paid, as I said, more 
than $40 million for major wastewater and drinking water 
improvements. And to put it in a nutshell, we have no more 
funds available for our water supply project needs. We strongly 
believe that we should be able to obtain the $3 million we need 
to continue this project out of the over $400 million of the 
BECC border funds that have already been appropriated for 
border environmental projects. And all of this for our top 
priority in the Valley. And we would appreciate your 
consideration.
    Mr. Lewis. Thank you very much for your testimony. We are 
very appreciative of it. Congressman Ortiz is a very articulate 
representative who, among other things, has agreat influence 
with Mr. Stokes of our committee. [Laughter.]
    Mr. Stokes, I want you to know that they have been lining 
up today. You have to count these shekels with great care. 
[Laughter.]
    Mr. Stokes. As you say, Mr. Ortiz is a very ardent advocate 
and as you say, I have all this influence. [Laughter.]
    Mr. Lewis. Seriously, we very much appreciate your coming 
today and your entire testimony will be in the record. In the 
meantime, we appreciate your coming in and we appreciate your 
being with us.
    Mr. Ouchley. Thank you.
    Mr. Lewis. Are there questions of the members?
    Mr. Stokes. No, thank you.
    Ms. Meek. No, thank you.
    Mr. Ouchley. Thank you very much.
    [The information follows:]


[Pages 1277 - 1281--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

PHILIP FURMANSKI, NEW YORK UNIVERSITY
    Mr. Lewis. Let us see. Our next witness is Dr. Philip 
Furmanski, New York University. Mr. Furmanski. Nice to see you.
    Mr. Furmanski. Nice to see you.
    Mr. Lewis. You have been observing with great patience.
    Mr. Furmanski. I have indeed.
    Mr. Lewis. You understand the process?
    Mr. Furmanski. I do, and I will not take too much of your 
time.
    Mr. Lewis. Thank you.
    Mr. Furmanski. My name is Philip Furmanski and I am 
speaking on behalf of New York University. I am the Dean of the 
Faculty of Arts and Science and Chairman of the Biology 
Department. I do appreciate this opportunity to discuss a 
project which addresses the interests of several agencies, 
including the Environmental Protection Agency.
    In it's 1997 report on building a foundation for sound 
environmental decisions, the NRC advised the EPA to undertake a 
comprehensive approach to research and development activities 
that includes close cooperation with universities and research. 
Our project addresses that goal by enlisting fundamental 
university based research to advance biomedical and behavioral 
knowledge about the brain and to translate research advances 
into practical applications and new technologies.
    We aim to do this by establishing a center on our campus, a 
center for cognition, learning, motion, and memory. This 
center's research will push the frontiers of what we know about 
how the brain develops, how it functions, malfunctions, 
matures, and ages. As important, the center will also help 
train the next generation of interdisciplinary brain scientists 
who will carry on this research.
    NYU is seeking support to expand research programs, attract 
investigators, and provide the technical resources necessary to 
create a premier scientific enterprise. As you know, 
traditional funding sources cannot underwrite the establishment 
of a cross disciplinary area of scientific study, particularly 
one that includes both research and teaching and reaches across 
the fields, such as computer science, cognitive science, 
biomedicine, psychology, and education.
    Our project will substantially expand what we know about 
the development of the brain and the nervous system, including 
the role of environmental and biological growth factors that 
control development. Our research will, by it's nature, 
elucidate the fundamental rule structures that mediate the 
affects of human exposure to environmental risks and undermine 
neural health and development. These findings are especially 
important for brain development in infants and children, which 
is a priority area of concern for EPA.
    Research conducted at the center will explore short and 
long term memory and the loss of memory through aging, disease, 
and exposure to environmental agents. Using different 
perspectives, researchers will investigate brain functions 
ranging from elementary processes to higher order processes, 
perception, cognition, language, and thinking. Pioneering 
studies in neurobiology of fear are already generating 
important information about brain systems that malfunction, 
anxiety, phobias, panic attacks, and post traumatic stress 
disorders. Much of this is going on at NYU.
    Our research will explore the neuropathways of emotion and 
generate clues for treatment of emotional disorders, including 
the possibility of altering or inhibiting unconscious neural 
circuitry. These and other research studies will have a wide 
range of applications for physicians, for teachers, and 
policymakers, and important spinoffs for different sectors of 
society. For example, our research will investigate how 
children learn and how educators can accommodate different 
cognitive styles and harness technology to stimulate interest 
and to increase retention.
    Similarly, research on cognition and learning will have 
important implications for job training for adults and will 
help address the challenge of training workers in 
newtechnologies, including veterans who are moving into a civilian 
workforce.
    Finally, research on the way that the brain sees and 
processes information can have a direct application to it's 
machine analog in terms of computer vision and computer 
applications and data processing.
    New York University is well positioned to create and 
operate this major, national, cross disciplinary research and 
training center. The largest private university in the United 
States, with well over 50,000 students who represent every 
State in the union and many foreign countries, NYU has 
outstanding researchers and well established strengths in 
neurobiology, cognitive science, neuromagnitism, behavioral 
neuroscience, educational psychology, mathematical modeling, 
and computer simulation. Our faculty are already widely 
recognized for their research on learning and memory, are 
international leaders in studies on fusion, which is one of the 
key elements and inputs to learning, and are pioneers in 
biological studies of emotion. With these strengths, NYU will 
create a distinctive center that will produce a new 
understanding of the brain and new ways of using that knowledge 
to meet national goals.
    Mr. Chairman, that concludes my testimony. I thank you for 
this opportunity. I would be happy to answer any questions.
    Mr. Lewis. Thank you very much, Dr. Furmanski. I am not 
sure what you are----
    Mr. Furmanski. We are working on it.
    Mr. Lewis. I beg your pardon? [Laughter.]
    Mr. Furmanski. We are working on it. [Laughter.]
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. No questions. Thank you very much for your 
testimony.
    Mr. Furmanski. Thank you.
    Mr. Lewis. Ms. Meek.
    Ms. Meek. No questions.
    Mr. Lewis. The gentleman from New York.
    Mr. Walsh. Shorter memory is critically important. 
[Laughter.]
    Mr. Furmanski. We are working on that as well.
    Mr. Lewis. We really appreciate your being here.
    Mr. Furmanski. Thank you very much for your attention.
    [The information follows:]


[Pages 1285 - 1293--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

JOSEPH BUTTIGLEG, CATHOLIC CHARITIES USA
    Mr. Lewis. We are going to move to item 41 and I will call 
upon Mr. Joseph--I hope I can pronounce this correctly--
Buttigleg? Is that correct? With Catholic Charities. I am not 
sure that I pronounced that correctly, so help me.
    Mr. Buttigleg. It is Smith--it is Buttigleg. [Laughter.]
    Mr. Lewis. Buttigleg.
    Mr. Buttigleg. Buttigleg.
    Mr. Lewis. All right. Joe, welcome.
    Mr. Buttigleg. Thank you, Mr. Lewis. Thank you, Members. I 
am the Associate Executive Director of Catholic Charities for 
the Diocese of Albany for Parish Social Ministry. I am also 
representing Catholic Charities USA. Of the 4.8 million people 
who came to Catholic Charities' agencies in 1996, 8 million of 
them came to us for emergency food, emergency shelter, and 
other crisis services.
    I have served a member of the New York State Emergency Food 
and Shelter State Set-Aside Board since 1990. The task of the 
State Set-Aside Board is to put a portion of the supplement to 
counties that may have not received a national appropriation, 
who are in an area where there is a high need.
    Attached to our testimony, we have submitted some of the 
letters that we have received from the county's State Set-Aside 
or county's emergency feeding programs boards, detailing the 
needs in their communities and you can read those. And, in 
fact, we have more than we have in terms of the submitted 
testimony.
    The dollars that FEMA provides for emergency food and 
shelter programs are really the life blood of those programs. 
It supplements local efforts to do fund raising, to provide 
emergency food, emergency shelter, to families that have no 
place else to turn.
    The experience of sitting on a State set-aside board is 
really like rearranging deck chairs on the Titanic. The amount 
of money that is available in no way matches the needs that are 
presented by the local communities. Over the last eight years 
the State set-aside committee has noticed a fundamental 
restructuring of the people who need and come to us for 
services and the way that our programs are able to respond and 
provide the assistance that is needed.
    At one time the majority of the people who came to us were 
very obviously poor. In most instances they were on public 
assistance and they could not get their grant to stretch to the 
end of the month in exchange for emergency food and shelter. 
Today, we have a new class of people coming to us. They are the 
invisible poor and what we call the poorer poor. The invisible 
poor are those persons who had a good job with benefits with 
pay and they have lost them. And they now have had to settle 
for a lower paying jobwith few benefits. They find it very 
difficult to make ends meet to feed their kids, to clothe their kids, 
to house their kids.
    At a recent meeting that we had in Albany where we had 
1,000 Catholics coming to us at a meeting, we asked them, how 
many people knew someone who in the last year lost a job and 
had to settle for one with a lower wage and lower benefits. 
Sixty percent of the people who were in that room raised their 
hands.
    The poorer poor are the individuals who have gone through 
welfare reform. Recent studies in New York State have shown 
that of the people who have left the rolls, only between 25 and 
35 percent of those people wind up in the next quarter in a 
payroll report. The question is, what happened to the other 65 
or 75 percent of those people? From our experience with 
investment with the food pantries and emergency shelters that 
we have throughout New York State, the answer seems to be they 
are on their doorsteps.
    We have reports from Catholic Charities from around the 
country that for the first time in the history of Catholic 
Charities, food pantries are bare. Catholic Charities is 
hearing reports that former welfare recipients are worse off 
now that they are working than they were when they were 
receiving assistance and are coming to our emergency feeding 
sites and shelters.
    How are emergency food programs able to meet the needs of 
more people? By giving far less to more people than ever 
before. I can do that in the Albany Diocese we have some of the 
most generous people in the country. Every year they out give 
the national average in special drives that we have for the 
poor and the needy. And even their increased generosity is not 
able to keep up with the need that is being presented. One of 
our agencies in Schenectady County--we cover 14 counties in the 
Albany Diocese--reported that the request for food and 
assistance and emergency aid went up 400 percent in the last 
year.
    I guess the question is, is there an increased need? 
Absolutely. Have private charities tried to meet those needs? 
Definitely. Is there a need for an increased appropriation? 
Absolutely.
    Thank you for your time and attention. This story sounds 
dramatic, but the situation right now is dramatic.
    Mr. Lewis. I must say that your mentioning of everything in 
your testimony, the Federal Emergency Management Agency, and 
the way you gave it, causes me to want to mention to those who 
are present, remind members, that there was a time when this 
member was about ready to promote legislation that would close 
down FEMA, for it was so non-responsive and this is some years 
ago. But nonetheless if all of our responsibilities were as 
responsive as that agency is now, a lot of our work would be 
much easier. I appreciate your recognition of it. Mr. Stokes.
    Mr. Stokes. No questions. Thank you very much for your 
testimony.
    Mr. Lewis. Ms. Meek.
    Ms. Meek. No questions.
    Mr. Lewis. Gentleman from New York.
    Mr. Walsh. Thank you, Mr. Chairman. I would like to 
reiterate some of the things Mr. Buttigleg said. You know, way 
back early on in my career, as a case worker, when people used 
to come for follow up assistance to the county--it would take 
awhile to process their paperwork. And so we would refer them 
to Catholic Charities or other charitable organizations within 
the community. And I thought the money came from that. Well, it 
did not. It came from, in many cases, the organization that got 
people through that crisis until they could sign up for public 
assistance.
    Today it would get them through until they could sign up 
for, in my county, the work plus program, which you sign up for 
public assistance and get a job at the same time. So it, as Mr. 
Jamie Lee Witt said, this is one of the most effective programs 
that we have for emergency situations. Because the money is 
there, the food is there, the system is in place to take care 
of these folks in the short term until either they get a job or 
they are on public assistance or things get turned around in 
their lives.
    And this program just 5 years ago was funded at about $135 
million a year; it is down to about $100 million and the cost 
of inflation is eating up that amount also. So this challenge 
for the people in Catholic Charities and other charitable 
organizations' challenge is to make sure that people who really 
need it are helped. Our challenge is to make sure that, to the 
best of our ability, they have the resources to do that.
    Mr. Lewis. Mr. Buttigleg, your entire testimony will be put 
in the record. We very much appreciate your being here.
    Mr. Buttigleg. Thank you.
    [The information follows:]


[Pages 1297 - 1303--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

SHERWOOD DUBOSE, PRESIDENT AND CEO, METRO MIAMI ACTION PLAN
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. Yes sir.
    Mr. Lewis. We have Members and we have very aggressive 
Members, so I need you to sign off on this matter. The gentle 
lady from Florida is asking for a very special request and I 
want to have your approval.
    Mr. Stokes. Another one? [Laughter.]
    Mr. Lewis. She would ask that we have Mr. Sherwood Dubose 
come up. He is the President and CEO of the Metro Miami Action 
Plan and I suppose we are FE.
    Mr. Stokes. I think that for the benefit of all us we can 
concede to that request. [Laughter.]
    Mr. Lewis. Mr. Dubose, come right in.
    Ms. Meek. Thank you.
    Mr. Lewis. You can just proceed with your testimony and we 
will include whatever you like in the record and from there go 
forward.
    Mr. Dubose. Okay, thank you. Good afternoon, Mr. Chairman 
and Ranking Member. It is a pleasure for me to be here today 
and I appreciate the opportunity to speak to the group 
regarding Metro Miami Action Plan project in Overtown, Miami.
    Let me begin by thanking you for the support last yearfor 
the project in Overtown, Miami. The Metro Miami Action Plan believes 
that the initial funding is an excellent regaining to demonstrate the 
type of fellow support that is needed to begin to revitalize a long 
neglected and overdue community that has suffered for years from urban 
blight, urban renewal.
    Overtown is one of the oldest neighborhoods in Miami, 
dating back to 1890 when it was designated as a segregated 
living area within the City of Miami limits for blacks working 
on Henry Flager's railroad.
    The residential population of Overtown peaked in the early 
1960's to approximately 30,000 people. The construction of I-
95, State Road 836/I-395 bisected the area, and as a result, 
population declined and spurred fallen property values, caused 
and stimulated loss of jobs, incomes, businesses were 
destroyed, homes were destroyed.
    Today major problems exist in the community--a high crime 
rate, low income residences exist there. There is an extensive 
structural environmental blight, social services are inadequate 
in the area, and there are critical needs to create jobs and to 
rebound lives in this community, both economically and 
socially.
    Clearly the Overtown community has enjoyed some benefits of 
African American culture at earlier stages. But it has fallen 
on hard times. With the event of I-95, again State Road 396, we 
left the entire community that we are having to deal with in 
Dade County. On one hand, to fit in, the county recognized some 
needs to begin to develop our infrastructure needs, to begin to 
replace water and sewage. However, we have left off the missing 
element. That is, resources that will generate and serve as 
economic generators for rebounding the established community.
    In 1997, a national survey indicated that per capita, the 
City of Miami is one of the poorest cities in America. That has 
a negative impact on the entire community that creates some of 
the problems that you have had to date. It eroded the tax base, 
its railway business, that have now left the community.
    Today we need your support. We need you to continue to 
support our efforts in Overtown by the value of $2 million. 
That $2 million is not just $2 million. That is multiplied by a 
multiplier of 7, where we bring in the local community, our 
businesses, banking institutions, local government, that we 
form joint ventures, partnerships that will enable us to 
multiply that money, leverage that money, so that we can begin 
to draw businesses, begin to redevelop that area, and hopefully 
within the next 10 years, have the community that is once again 
vibrant. A vibrant community again that is really stable. We 
will have low crime, high employment as opposed to high 
unemployment. These are the kind of things that we are looking 
for in the future.
    Overtown is poised to be a model for this country. It could 
be a model in the things we are on the cutting edge, and what 
we are doing there that could be replicated in other areas 
around the country, if we only had that continued support. The 
money that we have already received we have begun to acquire 
land, assemble sites, we have already begun to identify doable 
projects that are tangible that we could look to now and say 
that this is what we will have at the end of the day that would 
be there as a benchmark to demonstrate that there is continued 
need for revitalization.
    I have included quite a bit in my testimony, but I have to 
summarize by saying that there have been over nine studies done 
in the area of Overtown. Nine studies, so we do not need 
another study. What we need now is the commitment to follow 
through to make a reality. And I thank you on behalf of the 2.1 
million of Dade citizens of Dade County for your consideration 
and I would like to have some questions, if there are any.
    Mr. Lewis. Thank you very much, Mr. Dubose, for your 
testimony. Let me call on the gentle lady from Miami and see if 
she has any questions.
    Ms. Meek. I would just like to say that I want to thank 
you, Mr. Dubose, for coming up. He represents an initiative in 
Miami that is working. That is, they can show the model they 
are using is creating jobs and providing the economic 
turnaround. And if it were not for the start that this 
subcommittee gave them, they would not have been able to get 
ahold of this problem. Everyone has talked about Overtown. 
Every politician has been there and said something would be 
done about the town. But if it were not for this subcommittee, 
they would have never received any funds on the national level 
to help them in turnaround. For that, I want to thank the 
Chairman and Mr. Stokes and the rest of the members of the 
committee who have seeded to help the Metro Miami Action Plan 
do this. The county established that for the mere purpose of 
doing economic development. We want to thank the committee.
    Mr. Lewis. Thank you very much, Ms. Meek. Mr. 
Frelinghuysen.
    Mr. Frelinghuysen. Thank you.
    Mr. Lewis. Mr. Stokes, you have the last word.
    Mr. Stokes. I would just like to say to Mr. Dubose that 
last year when this project was initiated through this 
subcommittee that Ms. Meek was very diligent with me on your 
behalf. She was a very strong advocate. Mr. Lewis nor I will 
ever forget that. [Laughter.]
    Mr. Lewis. Like I said, he had the last word. [Laughter.]
    Thank you, Mr. Dubose. We appreciate very much your being 
with us.
    Mr. Dubose. Thank you.
    [The information follows:]


[Pages 1307 - 1314--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

              COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS

                                WITNESS

MARK PINSKY, CHAIRMAN, THE COALITION OF COMMUNITY DEVELOPMENT FINANCIAL 
    INSTITUTIONS
    Mr. Lewis. Our next witness is Christine Gaffney, the 
Director, Coalition for Community Development Financial 
Institutions.
    Ms. Gaffney. Mr. Chairman, our testimony will be given by 
Mark Pinsky; he is Chairman of the CDFI Coalition.
    Mr. Lewis. I appreciate your patience. I know you have been 
here for awhile and you have observed this process of moving 
back and forth. But, in the mean time, I am glad to have you. 
Would you identify yourself for the record.
    Mr. Pinsky. My name is Mark Pinsky. I am Chairman of the 
Coalition of Community Development Financial Institutions.
    Mr. Lewis. Alright.
    Mr. Pinsky. I appreciate very much the opportunity to speak 
with you today. We have had a good chance to sit and listen and 
hear about a lot of good things happening and we appreciate it.
    If I may, the CDFI Coalition represents the CDFI industries 
in this country with more than 350 CDFI's managing 
approximately $2 billion in assets.
    I also want to identify that in my day job I am the 
Executive Director of a group called the National Community 
Capital Organization, which was a founding member of the 
coalition and I am going to make some reference to some of our 
work in a minute.
    I want to tell you today that the CDFI Fund, although it is 
just a few years old, is actually having an enormous positive 
impact on the CDFI industry, including the CDFI industry on 
small businesses, in housing development, in many of the 
Nation's poorest communities. The President has requested $125 
million for the upcoming fiscal year and the Coalition and the 
industry urges Congress to appropriate the full amount. We know 
that this subcommittee and the Committee has been very 
supportive of the CDFI Fund in the past and we appreciate it.
    What I would like to do is tell you very briefly, if I may, 
a few key points that I think have concerned the Subcommittee 
in the past and what I think are critical to the future of the 
CDFI industry.
    CDFI is a private sector financial institution that is, as 
you will see, in the leveraging business. The CDFI Fund was 
created to strengthen and expand that network of CDFI's. From 
our view, a sort of customer view of the CDFI Fund, we think 
the CDFI Fund goes well and respond to it's market. It has in 
the past offered and is developing products that are customer 
responsive and it is increasingly smart about how it delivers 
it's products to it's consumers.
    There really are four points that I wanted to make about 
this. The first is leverage. CDFI's are in the business of 
leverage. That's what we do. We do it to our partnerships with 
private, for profit, financial institutions, banks, insurance 
companies, and others. And we do it to our relationships in the 
communities where we work. It is a conservative statement to 
say that a dollar of equity from the CDFI Fund invested in the 
CDFI will yield $100 or more in investment--in private sector 
investment, in small businesses, in housing development in many 
of the Nation's poorest communities. It is an enormous leverage 
factor and I would be glad to come back and walk through that, 
if that is of interest.
    The second thing is an issue that the CDFI industry is very 
concerned about, which is demonstrating that it is having an 
impact. We have many anecdotal stories. I did not bring them 
with me today. I know you have heard some of them, you have 
probably seen some of them, but I think it is very important 
that we be able to understand what this money is actually doing 
from a business perspective.
    And what I would like to do is wear my National Community 
Capital hat, if I will, for a second. We as an association have 
tracked the performance and the impact of what our member 
CDFI's have been doing longer than just about anyone else and I 
think that the CDFI Fund has a chance to really build on the 
knowledge base that we have and demonstrate more. But, if I 
may, the CDFI default to National Community Capital had loaned 
to ER in 1996 about--loaned and invested a little over $.5 
billion, about $514 million, with a default rate again working 
in many of the Nation's poorest communities of about 1 percent, 
historically. They have leveraged every dollar they have put in 
has leveraged about $7 in primarily private sector investment 
into those communities for about $3.5 billion. That financing 
has created more than 23,000 jobs and more than 64,000 housing 
units again across the country.
    The third point I wanted to make is demand. As you know, 
the CDFI program and the CDFI Fund has had requested in its 
first 2 rounds of almost about $486 million, despite the fact 
they had just about $75 million available. They had 427 
applicants in those first 2 rounds and so far have been able to 
fund only 74 of them. And so, I think the demand is clearly the 
industry sees the value of what the CDFI funds doing in seeking 
to pay that fund. I would note that it is a very competitive 
process and it focuses very much on the performance of these 
private sector institutions, as it should.
    The last main point I wanted to make is that the CDFI Fund 
in its short history has been very responsive where it has 
identified, if you will, gaps in its products and services. It 
recently announced a technical assistance round to help those 
small emerging institutions that are not yet ready to be 
competitive in getting funding from the main program, to get 
some technical assistance in the training they need to build 
their capacity. It created an intermediary component to work 
with organizations like mine to provide financing to a wide 
range of CDFI's that again, may not be able to gain access 
directly through the CDFI funds.
    They are looking at creating a training--a large scale 
training program--one of the major needs in the CDFI industry 
is human capital. There is a labor crisis in our field. There 
are not enough skilled talented people. We are looking to the 
banking industry and recruiting people from the banking 
industry these days to come in and fill some of those 
positions. And this training program would be helpful. In 
addition, we have proposed and I think the Fund is looking very 
seriously at what we call an easy access window that would fill 
a gap in their programs that would make it easy for small 
emerging institutions to get reasonable amounts of capital 
through the fund, even though they may not be able to be 
competitive with some of the larger institutions in the main 
program of the fund.
    In conclusion, I just want to say that the CDFI industry 
believes strongly that as long as the CDFI Fund remains focused 
on CDFI performance and applies rigorous business practice 
standards to its own work as we think it is doing now, it will 
be a catalyst for innovation and private sector investment in 
low income communities across that Nation. Again, we hope you 
will recommend full funding for the upcoming fiscal year.
    Mr. Lewis. Thank you very much, Mr. Pinsky. Mr. Stokes.
    Mr. Stokes. No questions. Thank you very much for your 
testimony.
    Mr. Lewis. Mr. Frelinghuysen, no questions? Both Mr. Pinsky 
and Ms. Gaffney, we appreciate your being here and your entire 
testimony will be included in the record and any additional 
material will be put in our file. Thank you.
    Mr. Pinsky. Thank you very much.
    [The information follows:]


[Pages 1317 - 1323--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

VIRGO LEE, NEW YORK DOWNTOWN HOSPITAL
    Mr. Lewis. Is Virgo Lee here? Here he comes. New York 
Downtown Hospital, Mr. Lee.
    Mr. Lee. Yes. Mr. Lewis and the rest of the Subcommittee, I 
am also joined by Lynn Aubrey, who is the CEO of New York 
Downtown Hospital.
    Mr. Lewis. Mr. Aubrey, good afternoon.
    Mr. Lee. Good afternoon. My name is Virgo Lee. I am a 
partner in M.R. Partners, an investment banking firm based in 
New York. Formerly, I was also the Director of the Mayor's 
Office for Asian Affairs in New York from 1990 to 1994 and 
presently a Trustee of the hospital since 1994.
    I have always made it a lifelong commitment to serving the 
community, dating back to the days when I was in college. I 
would like to digress just for a moment to give a little family 
background. I am second generation Chinese American. My father 
immigrated to the United States in 1940, joined the U.S. Army, 
fought Word War II, and then brought my mother over in 1947. I 
have two brothers and a sister. We were the beneficiaries of 
good public school education and later on we all went to 
college. And while in college, I decided that one of the 
purposes in life should be to give something back to the 
community, the society, and the country in which provided such 
an opportunity.
    So with this background, I am here to ask the 
Subcommittee's support on a matter of vital importance to 
thehealth and safety of the lower Manhattan's 350,000 residents and the 
375,000 member work force. That project is to rebuild NYU Downtown 
Hospital's aging emergency room facilities. This project is of equal 
importance to the Chinese community in New York as well as to the Wall 
Street business community.
    The situation can only be termed unique. It is a hospital 
which serves not only the areas most vulnerable and frail, but 
also the cities most powerful. NYU is the only acute care 
health facility and the only emergency center in lower 
Manhattan and the area of lower Manhattan is equal to the tenth 
largest city in the United States.
    The emergency facilities when it was first built in 1972 
was considered state-of-the-art. But it is presently over 
burdened by the influx of new residents, many of whom are 
Chinese immigrants with special needs, and is horribly 
inefficient by today's standards. Due to our forerunner's 
started financial situation, the hospital has suffered from 
almost three decades of neglect to it's fiscal plant. Now, with 
a revitalized new board that represents a diverse and indeed 
all of lower Manhattan, the hospital is now responding to the 
community's needs and building a bright future.
    A key element to that future is the complete renovation of 
the hospital's emergency room facilities. This project is not 
only imperative, but it is also urgent. Nothing could better 
illustrate this pressing need than the bombing of the World 
Trade Center which occurred in 1994. During that crisis, the 
hospital treated 200 victims of that bombing and was the 
primary emergency care provider for the victims of that 
disaster.
    The leaders of the financial community in conjunction with 
the leading members of the New York Chinese community both are 
in full support of this effort.
    NYU Downtown Hospital is designated as a financially 
distressed hospital by the New York State Department of Health 
and it is the single largest provider of emergency and acute 
care health services to the under served Chinese population.
    Annually, we receive 30,000 emergency room visits and more 
than 10,500 inpatient admissions, all of which 58 percent of 
the hospital's inpatients are Chinese. The hospital 
uncompensated care for 1997 was $9 million, or 10.7 percent of 
the total hospital budget. Another 40 percent of the patients 
are covered by Medicaid. Recent Chinese immigrants to the U.S. 
are often impoverished with little formal education, no English 
language skills, and virtually no experience with Western 
medical practices, and face daunting obstacles in accessing 
health care. Such barriers to medical services represent a 
public health time bomb with implications for the general 
population. In recent years, through the hospital's innovative 
efforts, it has become recognized nationally for its special 
services to the Chinese community and for its efforts to 
improve access to health care.
    Fiscal barriers posed by the aging facilities inhibit 
access to equal care for not only the Chinese community, but 
also the local residents. The hospital's emergency facilities 
must be totally renovated to provide improved access and a 
comfortably sensitive environment. The emergency room project 
is a critical component of the hospital's overall capital 
campaign, the remainder of which will be raised through private 
sources.
    Planned renovation of the facilities include a designated 
area for prompt care, that is a service designed to treat and 
release patients with routine problems within 20 minutes, as 
opposed to the hours that one normally has to wait in an 
emergency room. Two, construction of a treatment room for women 
to provide greater privacy and to accommodate specialized 
medical equipment. Three, a reconstruction of all patient rooms 
for easy access and greater visibility to staff. Four, upgrade 
of an existing pediatric emergency room to provide appropriate 
amenities for children and their parents. And lastly, 
relocation of supply facilities and redesign of traffic 
patterns to enhance efficiencies in patient care. Bilingual 
signage and translation technology will also be utilized to 
improve communication between patient and doctor.
    As I said earlier, complete renovation of the emergency 
facilities is not only imperative, it is urgent. As your 
subcommittee works to establish funding priorities for fiscal 
year 1999, I respectfully request that $10 million be allocated 
from the Department of Housing and Urban Development's Economic 
Development Initiative Account for renovation of the hospital's 
emergency room.
    This concludes my testimony. I would like to again thank 
Chairman Lewis and the members of the Subcommittee for taking 
the time to listen to our request.
    Mr. Lewis. Thank you very much, Mr. Lee. Any questions of 
the members?
    Mr. Stokes. No questions. Thank you very much, Mr. Lee.
    Mr. Lewis. Alright. Your entire testimony will be included 
in the record. We appreciate your being with us, sir.
    Mr. Lee. Thank you.
    [The information follows:]


[Pages 1327 - 1332--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

              FEDERAL EMERGENCY MANAGEMENT ADMINISTRATION

                                WITNESS

BRAD IAROSSI, ASSOCIATION OF STATE DAM SAFETY OFFICIALS, INC.
    Mr. Lewis. Just for the members' edification, we are 
running about half an hour, maybe as much as 40 minutes, behind 
our original schedule. I will try to expedite the process as we 
go forward. But, if all of our remaining witnesses will 
recognize that as we get closer to five, we run closer and 
closer to running out of money. [Laughter.]
    State Dam Safety, Mr. Iarossi. How are you?
    Mr. Iarossi. Fine, sir.
    Mr. Lewis. With that precautionary note, just please 
proceed.
    Mr. Iarossi. As quickly as I can. Mr. Chairman and members 
of the subcommittee, my name is Brad Iarossi. I am the 
President-elect of the Association of State Dam Safety 
Officials. I am Chief of the Dam Safety Program for the State 
of Maryland and I was born and raised in New Jersey.
    I want to speak to you today about the safety of dams in 
this country, the National Dam Safety Program administered by 
FEMA and request your support to fully fund the National Dam 
Safety Program in fiscal year 1999.
    Let me begin, Mr. Chairman, by thanking you and the members 
of the Subcommittee for your support last year and providing 
full funding of $2.9 million in fiscal year 1998.
    There are over 93,000 dams in the United States and 95 
percent of those are regulated by the State, not by theFederal 
government. States have an overwhelming task in trying to assure the 
safety of these dams. Congress clearly recognized the problem and the 
necessity of a Federal rule to provide leadership and assistance. 
States have identified over 1,800 unsafe dams and by the year 2020, 85 
percent of the dams in this country will have reached or exceeded their 
50-year design life. States truly need this Federal support.
    We are greatly disappointed that the Administration has 
only recommended $1.5 million in fiscal year 1999 for the 
National Dam Safety Program, which falls far short of $3.9 
million authorized by the Act. Therefore, we respectfully 
request the Subcommittee's support for increase of $2.4 million 
to fully fund the National Dam Safety Program, at $3.9 million 
authorized level.
    We also request that the $400,000 authorized in the Act for 
additional staff to administer the program, be specifically 
earmarked for that purpose including four work years. The 
program, if fully funded, will provide $2 million for incentive 
grants to States for them to improve their programs. $500,000 
for training for State engineers; $1 million for research to 
improve techniques and equipment for effective dam inspection 
and to support the National Performance of Damage Program at 
Stanford University. This modest, yet vital funding, will help 
reduce the risk to life and property due to dam failures by 
providing States with the resources they need to improve their 
programs.
    It is an investment in public safety that will reduce loss 
of life, property damage and much larger Federal expenditures 
for the National Flood Insurance Program and the President's 
Disaster Relief Fund. We have included in our written testimony 
a chart of State dam inventory data which shows that every 
member of the Subcommittee has at least one high hazard dam in 
their State. Many of these are unsafe. In Ohio, there are 450 
unsafe dams; 189 in Colorado; and in New Jersey, there are 32 
unsafe dams.
    Mr. Chairman, I listened to Director Witt's testimony 
before this subcommittee where he preached of the benefits of 
prevention in a mitigation strategy. We support FEMA's 
mitigation strategy because it seeks to prevent disasters. When 
dams fail, people's property gets destroyed; often 
infrastructure is destroyed and people die. If this program 
only prevents one dam failure, then it will easily pay for 
itself and reduce recovery costs in lives saved. Doesn't it 
make more sense to put money into prevention rather than into 
recovery?
    In closing, we strongly urge the Subcommittee to recognize 
the benefits of this program. We request your support for an 
additional $2.4 million in order for FEMA to continue 
implementing this National Dam Safety Program. Thank you for 
this opportunity, Mr. Chairman. I would be happy to respond to 
any questions.
    Mr. Lewis. Thank you, Mr. Iarossi, for very cogent and 
brief statements. Mr. Stokes.
    Mr.Stokes. No questions. Thank you for your testimony, Mr. 
Iarossi.
    Mr. Frelinghuysen. No questions. Thank you.
    Mr. Lewis. Thank you very much.
    [The information follows:]


[Pages 1335 - 1342--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                FEDERAL EMERGENCY MANAGEMENT ASSOCIATION

                                WITNESS

STAN McKINNEY, NATIONAL EMERGENCY MANAGEMENT ASSOCIATION
    Mr. Lewis. Mr. Stan McKinney, National Emergency Management 
Association.
    Mr. McKinney. Thank you, Mr. Chairman. I am State Director 
of Emergency Management of South Carolina and I appreciate your 
opportunity and the members of the subcommittee allowing me to 
speak to you today. I am the President of my peers organization 
that represents the State Emergency Managers undertaking State 
emergency management programs for each of our State's 
governors. I will be very brief. I respect your 5 o'clock 
deadline and your money. [Laughter.]
    I would like to refer you to our written testimony to be 
presented and explain to you a bit of a problem that we have. I 
would first like to say that we, as well as you, in alluding 
this earlier, are very supportive of Director Witt and what he 
has done at FEMA to provide vision and leadership for an aging 
agency that you alluded to earlier; and provide us an 
opportunity to be full partners in delivering enhanced 
emergency management not only in California and South Carolina, 
but across the country. At the same time, we support his 
revitalization--reinvigoration of FEMA--we have a problem with 
this year's budget request.
    The State emergency management programs have been full 
partners with Director Witt. We understand the need to control 
disaster costs and are fully supportive of themitigation issues 
that are proposed. But we are not supportive of those initiatives at 
the expense of State and local preparedness in response and recovery 
initiatives.
    As you know, the State and local assistance program within 
NEMA's budget has experienced or is recommended to receive a 
$11.4 million cut. That would be a devastating cut to State and 
local emergency preparedness programs. That could mean as many 
as 200 State and local emergency management jobs--representing 
about a 17 percent reduction in staff. It is understood that 
the Congress has a problem with continuing 100 percent Federal 
funding for these programs that is only a part of the State and 
local assistance programs. But we also realize that States need 
ample time to adjust their State budgets to accept any 
reduction in the State and local assistance programs or any 
change in the cost share.
    I would like to just remind you that the Stafford Act 
provides for opportunities to partner at 50-50 cost share in 
State and local emergency management assistance programs. We 
have done a recent survey at NEMA that has indicated that the 
States are contributing between 65 and 90 percent of the cost 
of preparedness for the emergency management programs in the 
country.
    I would like to reiterate the importance of not diluting 
the response in recovery programs, if indeed the 100 percent 
programs were available to national security issues. We 
understand that the cost share may ultimately need to be 
different. NEMA has received limited, if any, funding for the 
preparation for the threat of domestic terrorism. We, at the 
State and local level, charged by our governors are responsible 
for embracing that hazard also. Just because the hazard has 
changed does not mean that we should reduce funding to support 
critical and low number staffs at the State and local levels.
    The States are committed to work with this Committee and 
appreciates the commitment you have made in enhancing emergency 
management across the country. We are excited about the private 
impact initiative and want to be a meaningful partner in that 
initiative. We encourage you to restore the $11.4 million cut 
that is recommended in the State and local assistance programs, 
and look favorably upon our partnership in building meaningful, 
sustainable mitigation programs in the country to reduce our 
exposure and ultimately reduce disaster costs to the American 
taxpayer.
    I appreciate your taking the opportunity to hear from me 
this afternoon and I would be glad to answer any questions that 
you might have.
    Mr. Lewis. Thank you very much, Mr. McKinney. Mr. Stokes.
    Mr. Stokes. No questions, Mr. Chairman. Thank you, Mr. 
McKinney.
    Mr. Frelinghuysen. I have no questions, thank you.
    Mr. Lewis. Thank you very much, sir, for being here.
    Mr. McKinney. Yes, sir.
    [The information follows:]


[Pages 1345 - 1349--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

NATIONAL AERONAUTICS AND SPACE ADMINISTRATION, DEPARTMENT OF VETERANS' 
                                AFFAIRS

                                WITNESS

DR. MURRAY LOEW, JUVENILE DIABETES FOUNDATION INTERNATIONAL
    Mr. Lewis. Dr. Murray Loew, Juvenile Diabetics Foundation 
International. Dr. Loew, nice to see you.
    Dr. Loew. Thank you. It's good to be here. Mr. Chairman, 
members of the subcommittee. I am Murray Loew and I am pleased 
to testify on behalf of the Juvenile Diabetes Foundation 
International, JDF, regarding fiscal year 1999 appropriations 
for the Department of Veterans' Affairs Medical Research 
account and the National Life Sciences position.
    JDF is a voluntary health organization whose mission is to 
find a cure for diabetes and its complications through the 
support of research. I am a professor of engineering at George 
Washington University, but I am here today as dad and long-term 
volunteer for JDF. In 1980, my wife and I learned that our then 
10-year old son, Brian, had Type 1, or juvenile diabetes. That 
diagnosis has changed significantly Brian's life and the lives 
of our entire family.
    Diabetes is a leading chronic illness affecting adults, as 
well as children, and it has severe complications. It affects 
16 million Americans and will contribute to the death of 
187,000 this year. It is also a leading cause of new adult 
blindness, kidney failure, heart disease, amputation and 
stroke. Although up to four injections per day enable a 
diabetic to remain alive, insulin is not a cure. Beyond the raw 
statistics are the day-to-day things that Brian must dojust to 
stay alive. Besides injecting insulin, Brian tests his blood as many as 
eight times a day to check his blood sugar level. As difficult as that 
is, it is much harder to deal with the emotional impact that diabetes 
has on an individual and the family. We know that by keeping blood 
sugar levels as close as possible to normal, Brian reduces the chances 
of developing the long-term complications of diabetes.
    Along with the benefits of tight control, however, come 
risks. My wife and I are aware daily of the threat that Brian's 
blood sugar may drop too low, thereby causing him to pass out 
or in the worst case, slip into a life-threatening coma. 
Although a cure for diabetes has eluded us so far, JDF remains 
hopeful and committed to reaching this goal. This year JDF will 
fund $40 million in diabetes research. Nearly three times what 
it sponsored in 1991. By 2003, it expects to fund about $80 
million in research.
    JDF has also joined forces with the VA, NASA and NIH to 
refund research in areas of common interest. Many veterans have 
diabetes. The VA devotes a large fraction of its resources to 
provide treatment for them and for clinical research and 
training. The JDF/VA partnership was established in 1996 to 
improve the transfer of knowledge from the laboratory bench to 
the patient's bedside. The partnership is already funding 
clinically-oriented diabetes research centers in Iowa City, 
Nashville and San Diego. JDF is dedicated to expanding the 
number of centers so that diabetes research into new areas can 
be conducted. JDF requests that the subcommittee provide the VA 
Medical Research account with a $325 million appropriation--a 
20 percent increase over fiscal year 1998.
    This funding level will give VA the resources to continue 
to be an active partner in this important effort. Although it 
may not be immediately apparent, astronauts and diabetics have 
similar needs. So JDF and NASA last May signed a Space Act 
Agreement that enables them to begin fully sharing information 
and ideas.
    One example of those overlapping interests is in the area 
of blood monitoring. When Brian tests blood sugar levels as 
part of his regimen to keep them as normal as possible, he must 
prick his finger and draw blood. Astronauts must do the same 
thing in space to test for any of a number of important 
materials. Clearly both groups would benefit from the creation 
of a noninvasive needle that would painlessly and quickly 
measure levels of blood glucose and other chemicals without the 
need to draw blood.
    Just two weeks ago, JDF and NASA sponsored a conference on 
the issue of noninvasive blood glucose monitoring. Last 
December, they sponsored a conference on eyelet cell 
transplantation. A process, that if perfected, could replace 
the pancreas' nonfunctioning cells with new insulin-producing 
cells--thereby eliminating the need to inject insulin.
    JDF supports the Federation of American Society for 
experimental biologies in fiscal year 1999's professional 
judgment budget for research and analysis in NASA's Life 
Sciences Division of $100 million--an increase of $50 million 
over fiscal year 1998. This will allow the agency to expand its 
role in funding research in diabetes and other areas.
    Mr. Chairman, on behalf of my son, Brian, who has lived 
with diabetes for 18 years and of the 16 million other 
Americans who face these rigors daily, I appreciate the 
opportunity to testify before you today. Your support for 
veterans' programs and for space science--not only will help 
directly in those important areas--but will assist us in this 
national commitment to find a cure for diabetes and its 
devastating complications. Thank you.
    Mr. Lewis. Dr. Loew, thank you very much for your 
testimony. I must say that it has been a long time since I have 
thought about this, but I was--in the 1940's a neighbor of a 
young boy who was a very, very good friend of mine and he was 
suffering from diabetes. I remember knowing very little about 
it but knew that his life was much different than mine. The 
last time I saw him was after I came home back from college and 
he was then walking into the Light House for the Blind. Much 
has passed since that time, in terms of technology and 
otherwise, but this ongoing partnership that should be ours for 
most people like you is very important. I appreciate your 
testimony and it will be worthwhile.
    Dr. Loew. Thank you.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. Thank you, Mr. Chairman. No questions. 
Appreciate your testifying.
    Mr. Lewis. Mr. Frelinghuysen.
    Mr. Frelinghuysen. Thank you for your personal testimony. 
Mr. Nethercutt, who serves with all of us on a larger 
committee, has been a true advocate and somebody who has helped 
us all better understand what's going on.
    Mr. Lewis. Thanks for being with us.
    Dr. Loew. Thanks very much.
    [The information follows:]



[Pages 1353 - 1359--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

      NATIONAL SCIENCE FOUNDATION, NATIONAL AERONAUTICS AND SPACE 
            ADMINISTRATION, DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

DR. RICHARD McCARTY, PhD, AMERICAN PSYCHOLOGICAL ASSOCIATION
    Mr. Lewis. Dr. Richard McCarty, American Psychological 
Association. Speaking for one of my sons.
    Dr. McCarty. I will do my best, Mr. Chairman. It is 
actually my first time.
    Mr. Lewis. I will take your recording with care. 
[Laughter.]
    Dr. McCarty. Mr. Chairman and distinguished members of the 
Subcommittee, my name is Richard McCarty. I am Executive 
Director of Science at the American Psychological Association, 
a scientific and professional organization with 155,000 
members. I am also a faculty member at the University of 
Virginia.
    If I had more time, I would work in a Jefferson quote, but 
I am staying at four minutes. [Laughter.] I am pleased to speak 
to you briefly today about the fiscal year 1999 budget for the 
National Science Foundation, for NASA, and for the Veteran's 
Health Administration.
    NSF has consistently performed its mission to support only 
the best peer review research. APA is pleased to endorse with 
enthusiasm the 10 percent increase in NSF funding requested by 
both the administration and the Coalition for National Science 
Funding. This increase would support research and education in 
all of the scientific disciplines, including those in which the 
psychological and behavioral sciences play crucial roles. APA 
also supports the administration's request at a 15 percent 
increase for the NSF directorate for social behavioral and 
economic sciences. The Administration's request in this regard 
highlights the increasingly important role played by SBE in 
several creative interdisciplinary programs.
    Now if we turn our attention to NASA and building on what 
the previous speaker said, I wish to note that psychologists 
are playing the vital role in two areas. First, space 
exploration and secondly, aviation safety. As I testify before 
you today, NASA's neurolab mission is in Day 6 orbiting the 
earth above the space shuttle Columbia. Neurolab represents the 
crown jewel in NASA's commitment to behavioral, psychological 
and neuroscience research. APA supports the fiscal year 1999 
Administration request of $242 million for the Office of Light 
and Microgravity Sciences and Applications which is supporting 
Neurolab.
    Soon we will move beyond the shuttle era to a more 
permanent presence in space. Human-factored psychology is vital 
to that effort. Two recent examples from Mir serve to 
illustrate this point. First, the catastrophic fire onboard Mir 
was made worse, in part, because the fire extinguisher was 
painted black and difficult for the crew to locate. A second 
example occurred when sensory adaptation, fatigue and other 
behavioral variables directly played a critical role in the 
docking accident that caused serious almost catastrophic damage 
to Mir. It is important for NASA to receive adequate funding to 
evaluate the human factors that play such an essential role in 
human adaptation to a long-term space flight. I have a minute 
to share with each of you.
    Many similar human factors contribute to the safety of 
commercial aviation. One of the stated goals of NASA is now to 
reduce dramatically the aircraft accident rate--and this has 
received much publicity lately. Because a high percentage is 
related to human error, a research emphasis on human factor 
psychology may play a significant role in increasing our 
national flight safety program. APA recommends at least level 
funding for fiscal year 1999 for the research and technology 
base. Within the Office of Aeronautics and Space, 
transportation technology.
    Finally, Mr. Chairman and members, I would like to turn 
your attention to the medical care account of the Veterans' 
Health Administration. This is used to fund the education and 
training programs of health care professionals. Within this 
program, and of our direct interest to our organization, are 
internship opportunities for psychologists. Perhaps you have 
heard from your son about this. In fiscal year 1996, 1,400 
psychologists participated in this program. A recent survey 
revealed that psychology interns are a genuine bargain for our 
Nation's veterans. They have provided us almost 1.5 million 
hours of clinical services at a comparatively low cost of $9.72 
per hour.
    On behalf of APA, I urge your committee to fully support 
the VA education and training program and within that context 
to consider strengthening this excellent psychology internship 
program.
    In conclusion, I would like to express my thanks to each of 
you and also to give you a follow-up on an invitation to the 
Coalition for National Science Funding. There is almost an 
article taken from this month's Scientific American--Shedding 
Lucent on a Bad Hair day--describes the tremendous 
psychological challenges for long-term space flights. Thank 
you.
    Mr. Lewis. I would be very interested in it personally. I 
will make it my business to read it.
    Dr. McCarty. Thank you, Mr. Chairman. We appreciate it.
    Mr. Lewis. Any questions, Mr. Stokes.
    [No response.]
    [The information follows:]


[Pages 1362 - 1391--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

STEPHEN J. McGARRY, CERTIFIED REGISTERED NURSE ANESTHETIST
    Mr. Lewis. Alright then. We'll go on to the next one. 
Stephen McGarry of the American Association of Nurse 
Anesthetists.
    Mr. McGarry. Good day, sir. Nurse anesthetists.
    Mr. Lewis. Anesthetists. Alright. Not an anesthesiologists.
    Mr. McGarry. No.
    Mr. Lewis. All right. Mr. McGarry.
    Mr. McGarry. My name is Stephen McGarry. I am a certified 
registered nurse anesthetist. Right now, I am looking for my 
glasses. [Laughter.]
    I am also a Vietnam era veteran. I worked for 20 years at 
the West Roxbury VA Medical Center in Boston as a certified 
registered nurse anesthetist. I appreciate the opportunity to 
present my testimony to the Committee today on behalf of the 
27,000 CRNAs, certified registered nurse anesthetists, and the 
450 CRNAs of the Association of the VA Nurse Anesthetists. My 
testimony today will offer our recommendations on how CRNAs can 
save the VHA money without any sacrifice in the quality of care 
provided to our Nation's veterans.
    CRNAs administer approximately 65 percent of the 
anesthetics given to patients each year in the United States 
and perform many of the same functions as physician 
anesthesiologists. Both CRNAs and anesthesiologists administer 
anesthesia for all types of surgical procedures from the 
simplest to the most complex--either as soloproviders or in a 
teamcare setting. No studies have ever found any differences between 
CRNAs and anesthesiologists in the quality of care provided.
    While both types of health care professionals can provide 
the same, but similar services, CRNAs cost the VHA much less to 
retain. As you probably know, CRNA salaries in the VHA have 
been determined under a system of locality pay since 1991. This 
system allows local VHA medical directors to serve a hospital 
salaries to CRNAs across an expanded area in order to determine 
competitive salaries. These provisions have assisted in the 
recruitment and retention of CRNAs by keeping VHA salaries 
competitive with the private market. It is our believe that the 
VHA would have even greater success in recruiting and repaying 
CRNAs if medical directors were allowed to serve other 
employers besides hospitals in order to get a true sense of the 
private market.
    We look forward to working with Congress next year when 
this legislation comes up for reauthorization. When the 
salaries of the two providers are compared, there is a 
significant difference. The average salary of the physician 
anesthesiologist is over $200,000 per year, while the average 
salary of a CRNA employed by the VHA runs far lower at 
approximately $81,000 per year. CRNAs draw far lower salaries 
and therefore cost less than anesthesiologists to retain.
    In addition to salary considerations, however, it is also 
vitally important to utilize CRNAs in appropriate practice 
situations without physician anesthesiologist counterparts. 
Many CRNAs work in a team care setting in conjunction with the 
anesthesiologist to provide anesthesia services to our Nation's 
veterans. However, according to the VHA Handbook 1123, there is 
no requirement of the anesthesiologist supervision of CRNAs. 
CRNAs are licensed and certified to provide all types of 
anesthesia services. No State requires supervision by 
anesthesiologists. Therefore, any attempt by either the 
National Anesthesia Service or by local VHA medical directors 
to mandate supervision by anesthesiologists--for all anesthesia 
care with underlying cost effectiveness without any increase in 
the quality of care provided to our Nation's veterans.
    Above the concerns for cost effectiveness, however, quality 
of care should be the primary concern for all VHA medical 
centers. We allow veterans no less. That is why Congress should 
direct the VHA to give all due consideration before approving 
the introduction of anesthesiologist assistance, AAs, into the 
VHA medical system. AANA strongly recommends that VHA follows 
their established process and no other if the decision is made 
to consider the introduction to AAs. I would like to thank the 
Committee for this opportunity and I would be happy to answer 
any questions.
    Mr. Lewis. Mr. McGarry, thank you very much for your very 
brief statement and it is appreciated.
    Mr. McGarry. You are very welcome, sir.
    [The information follows:]


[Pages 1394 - 1398--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

PATRICIA ISBELL ORDORICA, AMERICAN PSYCHIATRIC ASSOCIATION
    Mr. Lewis. Thank you, sir. Dr. Ordorica, American 
Psychiatric Association. Welcome. As you know we will take your 
attached statement for the record and you will summarize it for 
us?
    Dr. Ordorica. Sure. Mr. Chairman, members of the 
Subcommittee, I am Patricia Isbell Ordorica, M.D. I am a 
psychiatrist serving our veterans as the Associate Chief of 
Staff for Mental Health and Behavioral Sciences at the James A. 
Haley Hospital in Tampa, Florida. In addition, I chair the 
American Psychiatric Association and Minority Fellowship 
Program and am the immediate past-chair of the APA Council on 
Addiction Psychiatry.
    I am here today on behalf of the American Psychiatric 
Association to present you with APA's recommendations for the 
fiscal year 1999 appropriations for the Department of Veterans 
Affairs pertaining to medical care and medical and prosthetic 
research. Let me begin by congratulating you and your 
colleagues in Congress for ending discrimination in health 
insurance for veterans as separate from mental illnesses. We 
applaud you for taking this action and for monitoring that the 
VA provides fair and equitable coverage for the treatment of 
mental illness and substance abuse. We also commend the DVA 
Under Secretary for Health, Dr. Kenneth Kizer, and the laudable 
efforts of DVA in meeting the health care needs of our Nation's 
veterans.
    You have APA's written testimony before you and I would 
like to present just some of the highlights. As a longstanding 
member of the Friends of VA Medical Care and Health Research 
Coalition, the APA supports their fiscal year1999 DVA budget 
proposal of $18 billion for medical care and $325 million for health 
research. My written statement describes in detail APA's great concerns 
about how any expansion of prescribing privileges by non-physicians 
undertaken by the VA would endanger the quality of care for veterans 
and expose veterans to unnecessary risks. We will closely monitor 
developments in this area and will follow-up with the committee as 
needed.
    I would like to emphasize to all of you that 25 percent of 
all of VA patients are in psychiatric treatment. The VA must be 
able to provide comprehensive psychiatric services to veterans 
suffering from disabling illnesses--such as post-traumatic 
stress disorder, alcohol and substance abuse disorders, 
schizophrenia, depression, Alzheimer's disease and other 
dementias. The APA believes that the following DVA programs and 
initiatives should receive the highest priority: (1) 
maintaining capacity for substance abuse treatment; (2) 
addressing the needs of our homeless veterans; (3) improving 
treatments for the seriously mentally ill veterans; and (4) 
increasing research funding for psychiatric disorders. I would 
like to elaborate on these areas for you.
    In substance abuse, the current threats in many VA 
facilities is to eliminate inpatient substance abuse treatment. 
In some cases, this restructuring has been well thought out and 
adequate alternative resources have been developed. However, in 
other cases, this process has not occurred and a serious void 
in treatment services has occurred. In fiscal year 1996, the VA 
experienced for the first time a decrease in inpatient and 
outpatient substance abuse workload and this was since 
expanding the substance capabilities in 1990. These decreases 
were not universal throughout the VA, however, several networks 
did show evidence of having targeted substance abuse treatment 
in their downsizing initiatives. In essence, the decrease was 
not due to the lack of veterans seeking treatment but rather 
was secondary to the decision to decrease access to treatment.
    The APA believes maintenance of treatment services to this 
population is critical. In regards to homeless veterans, given 
the significant psychiatric and substance abuse disorders that 
contribute to the causes of homelessness among veterans, APA 
urges the VA to provide adequate services for homeless 
veterans. Studies show that about one-third of adult homeless 
individuals have served their country in the armed forces. This 
means that on any given night 250,000 are sleeping on the 
street or in shelters. We believe this is unconscionable. 
Nearly 40 percent suffer from severe, persistent and disabling 
mental illnesses with another 40 percent also having substance 
abuse disorders. We must make treatment available for these 
most vulnerable veterans.
    The VA's Homeless Providers Grant and Per Diem Program has 
been extremely effective at addressing the needs of homeless 
veterans. This program currently funded only $6 million allowed 
the DVA to provide grants to State and local governments and 
nonprofit organizations; to purchase, build, renovate 
transitional residential care programs and service centers for 
homeless veterans. This has allowed the VA to begin to 
establish a network of safe, residential programs to serve as 
alternatives to the street for hospitalization for homeless 
veterans. The APA recommends that HUD programs for veterans 
should be linked to VA medical care, particularly mental health 
services. This would maximize public investment by coordination 
of VA and HUD resources and provides greater access and improve 
clinical outcome. The APA urges you to improve funding for 
residential care and clinical care for our Nation's homeless 
veterans.
    Improving treatments for the seriously mentally ill 
veterans are another part. The APA is impressed with the many 
efforts of VA and Washington to improve treatment in this group 
of patients. Yet we're concerned that on some local levels and 
some networks there's been a reluctancy to make needed 
improvements in the delivery of services. For examples, some 
businesses continue to rely on older and less effective 
psychiatric medications and have been reluctant to invest in 
some of the more effective newer anti-psychotic medications. 
Likewise some businesses have been slow to involve their mental 
consumers, their families in regards to their treatment needs.
    Lastly, research. Funding for psychiatric research in the 
Department of Veterans Affairs has remained disproportionate to 
the utilization of psychiatric services. Veterans with mental 
illness account for 25 percent of all veterans receiving 
treatment in VA medical centers. Despite this fact, DVA 
resources devoted to research education and even patient care 
for mental disorders have lagged far behind those allocated for 
other disorders. Only 12 percent of research funds are directed 
toward the study of alcoholism, drug addiction, PTSD and 
chronic mental illness.
    In conclusion, Mr. Chairman, members of the Subcommittee, 
on behalf of the American Psychiatric Association, I appreciate 
this opportunity to express APA's views on the fiscal year 1999 
DVA medical care and medical and prosthetic research budget. We 
need your leadership to provide high quality health care to 
those who suffer from mental illness and substance abuse 
disorders. We stand ready to work with you to provide the best 
health care available to our Nation's veterans. Thank you very 
much.
    Mr. Lewis. Thank you, Dr. Ordorica. I do not have any 
questions. Your entire statement will be included in the 
record.
    Mr. Frelinghuysen. I have no questions.
    Mr. Lewis. Thank you for being with us.
    Dr. Ordorica. Thank you.
    [The information follows:]


[Pages 1402 - 1409--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

CHARLES L. CALKINS, NATIONAL EXECUTIVE SECRETARY, FLEET RESERVE 
    ASSOCIATION
    Mr. Lewis. Our next witness is Charles Calkins, Fleet 
Reserve Association. Mr. Calkins.
    Mr. Calkins. Mr. Chairman.
    Mr. Lewis. Yes, sir.
    Mr. Calkins. Good afternoon. I am Charles Calkins, the 
national executive secretary with the Fleet Reserve 
Association.
    Mr. Lewis. Welcome back.
    Mr. Calkins. Thank you very much. How we doing?
    Mr. Lewis. Fine.
    Mr. Calkins. I can tell. I represent nearly a 160,000 
active duty retired reserve members of the sea services--Navy, 
Marine Corps, and Coast Guard. I would like to voice their 
collective opinions on our 1999 DVA appropriations.
    Since 1989, the Federal budget has soared to over $1.7 
trillion--an increase of over $600 billion. However, the DVA 
budget has only increased to 2.1 percent while the Department 
of Health and Human Services budget has increased 33.6 percent. 
The Fleet Reserve Association believes that our Nation's 
veterans who shared the sacrifices and hardships both during 
the ``Hot'' and ``Cold'' war periods should receive a larger 
portion of the peace dividend that their efforts provided. The 
Administration is requesting $17.7 billion for veterans' health 
care which includes a loss of 3,100 full-time employees--along 
with an expected increase of 134,000 patients. Fleet Reserve 
Association recommends that Congress deny the request for fewer 
full-time employees which would only further stretch a heavily-
burdened DVA health care system.
    FRA urges Congress to give military retirees a higher 
priority in the DVA health care priority enrollment system. 
Since many of them have been disenfranchised from military 
health care. It should be authorizing committee required funds 
to it--to inaugurate this policy--FRA urges this subcommittee's 
favorable endorsement. The association also urges Congress to 
remember that the Federal Government was an accessory in the 
distribution of tobacco products to members of uniformed 
services. Consideration of where funds should come from to pay 
for tobacco-related health care claims should be first 
addressed to the tobacco companies. Congress should recognize 
its part in having tobacco manufacturers provide the U.S. 
Treasury with sufficient funds to meet the demand to pay these 
claims.
    Enhancements to the Montgomery GI bill benefits are sorely 
needed to help military personnel cover increasing education 
costs and ease the retention prices. Legislation in 1996 
allowed service members participating in the veterans' 
educational assistance program to enroll in the more generous 
Montgomery GI bill. Legal interpretation of the law 
disenfranchised thousands of service members who have been 
counseled to withdraw the funds from their accounts. FRA seeks 
the Committee's support in authorizing the allocation of funds 
to increase and expand the Montgomery GI bill benefits and 
expand the number of members who may convert to that program 
from the veterans' educational systems program.
    Concurrent receipt of both retired pay and veterans' 
compensation without reduction in either payment is an issue 
being long-ignored by Congress. The association urges the 
adoption and funding of H.R. 44 which addresses the need to 
supplement the income of most disabled and military retirees. 
It is the least expensive of several proposed solutions to this 
problem.
    Uniformed Services Former Spousal Protection Act is a 
poorly written and hastily acted upon piece of legislation. 
Public Law 10585 requires DoD to provide Congress with a review 
of this act by September 30, 1999. Unfortunately this study 
will not be available for review until the fiscal year 2001 
Defense Authorization Act is considered. The Fleet Reserve 
Association believes that this study will accomplish little and 
further delay consideration of USSFSBA reform. The association 
believes some type of action should be taken in 1999 to make 
the law as far as possible. In the event, the authorization 
process should require funding, we urge this distinguished 
subcommittee to act favorably on the request.
    Mr. Chairman, again, we appreciate this opportunity to 
present the priority issues of our members and I am ready to 
answer any questions that you may have.
    Mr. Lewis. Mr. Calkins, thank you very much for 
representing the Fleet Reserve Association. I don't have any 
questions. Have you any, Mr. Stokes?
    Mr. Stokes. No. Mr. Calkins, thank you very much.
    Mr. Calkins. Thank you very much.
    Mr. Frelinghuysen. Thank you very much.
    [The information follows:]



[Pages 1412 - 1418--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

JOHN E. MUENCH, THE RETIRED ENLISTED ASSOCIATION
    Mr. Lewis. John Muench, The Retired Enlisted Association--
for that, you will be four minutes.
    Mr. Muench. Mr. Chairman, this is a first time for me, 
sir--be gentle. [Laughter.]
    Mr. Lewis. Always gentle.
    Mr. Muench. Chairman Lewis, ranking member Stokes, 
distinguished members--on behalf of The Retired Enlisted 
Association, TREA, TREA's national president, Technical 
Sergeant David Paul, United States Air Force Retired; and 
National Auxiliary President, Ethel Hale; and over 100,000 
members--active members of our association and our auxiliary, 
we appreciate the opportunity to this subcommittee.
    I am John Muench, Command Sergeant Major United States Army 
Retired. For the last three years, I have served as the 
National Executive Director of the Retired Enlisted 
Association. During this brief testimony, it is my objective to 
enlighten the members of this committee as to the inequities of 
being a veteran and being a retired veteran.
    Military retirees are veterans, yet we continue to be 
treated as separate and unequal. Retired veterans are the only 
class of people who have received retired pay and have that 
reduced as you heard earlier--dollar for dollar--to receive VA 
disability compensation. No other Federal worker has their 
Federal pay or retired pay reduced in order toreceive their VA 
disability compensation. No other form of retiree has their hard-earned 
benefits--those promises made when this country was in need of all 
veterans to serve to balance the budget. This we believe we should not 
pay rather on the backs of our veterans.
    The very ones who served for a lifetime--the ones who 
continually fought for a period of 20 years to win the Cold 
War; the ones who spared the patriotism, nationalism stood by 
until the job was completed. We are the ones who earned the 
peace dividends that everyone so nicely talks about. Yet we 
continue to be forced to now sacrifice even more with no access 
to military health care. Military retirees are in fact punished 
for committing their lives to this Nation. This is called 
performance punishment. If you stay in the service and achieve 
a high rank, you cannot get free VA care because you can't pass 
the means test. Veterans who serve less than 20 years, did not 
retire from the military, and are indigent--in fact, get free 
access to VA health care.
    TREA is opposed to continuing to battle DoD for benefits 
which we earned and were promised. Where retirees compete 
against the act of forces need for bullets and billets, 
military hardware and readiness. The closure of military bases 
continues to force retirees out of their earned and promised 
health care benefits. The money for health care was already 
appropriated and given back to Congress with these closures and 
peace dividends. Now we must return and beg for what should 
have been given to us to begin with. The Retired Enlisted 
Association believes that only by amending Title 38, Annotated 
10 of U.S. Code to direct that all appropriations concerning 
military retirees, including budget, health care and benefits 
come under VA--will our benefits be preserved.
    We recommend a study to be conducted to determine the 
feasibility to change this inequity. Mr. Chairman, Mr. Ranking 
Member, distinguished members of this subcommittee--when this 
Nation called its young men and women to arms in defense of 
this country, we did not falter. Now that we faithfully have 
served a lifetime of commitment, please do not abandon us in 
our time of need. Our hard-earned benefits and promises should 
be safeguarded, not trifled with. Thank you very much, sir.
    Mr. Lewis. Thank you very much for your testimony. I might 
just mention, as an aside, that I think the Veterans' 
Committee--the authorizing committee--would be very interested 
in your testimony. I don't know if you planned to be there, but 
I think it would be worthwhile to talk with Mr. Stokes' people 
and see when you might be able to testify.
    Mr. Muench. Thank you very much, Mr. Chairman.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. No questions. Thank you very much, sir.
    Mr. Frelinghuysen. No questions. Thank you very much.
    Mr. Lewis. We appreciate your being with us.
    [The information follows:]


[Pages 1421 - 1433--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

COLONEL CHARLES C. PARTRIDGE, U.S. ARMY RETIRED, NATIONAL ASSOCIATION 
    FOR UNIFORMED SERVICES
    Mr. Lewis. Colonel Charles Partridge, National Association 
of Uniformed Services.
    Colonel Partridge. Thank you, sir. That's Partridge--they 
left one of the r's out.
    Mr. Lewis. I asked that question myself, you know--
partridge tree?
    Colonel Partridge. That's right. Mr. Chairman, Mr. Stokes, 
distinguished members of panel--I would like to discuss briefly 
our military health care proposal that the Congress is working 
on now that involves the VA hospitals and the Medicare system. 
Mr. Chairman, you mentioned that we were running out of time 
and money here this afternoon--this actually, believe it or 
not, would save money. It would save Medicare money and make 
more efficient money of VA facilities and capabilities.
    The current proposals that--the so-called VA Medicare 
Project which would allow the Veterans' Administration 
hospitals to be Medicare providers and allow Medicare-eligible 
veterans who do not get care some other way--in other words, if 
they are indigent or if they are disabled--it wouldn't apply to 
them. It would allow other veterans to enroll in the Medicare 
and the VA HMO and then Medicare could pay the VA for the care 
with these veterans. So, of course, they would pay at a 
discount rate and therefore that would save Medicare trust 
funds money.
    What we are suggesting is that--this would be a 
demonstration project--and we think that project should be 
expanded. We think in the expansion is where you save the most 
money and that would be rather than limiting the demonstration 
to the HMO model, include fee-for-service where a veteran could 
take his Medicare card, present it to any VA hospital and if 
there were space available there--recognizing that there would 
have to be space available there. Management of VA resources is 
not perfect so from time-to-time, there is excess capacity. If 
it was there, then he could be treated and VA could bill 
Medicare.
    And then another proposal would be to allow the VA 
hospitals to become preferred provider organizations to other 
health plans, and you would have essentially the same thing. It 
would be by prior agreement with the other health plans where 
the veteran could get part of his care at the VA and, once 
again, it would be at a discounted rate.
    We believe this would be good for Medicare, it would be 
good for the VA, and it would be good for the Nation. And we 
believe veterans should be able to use their Medicare benefits 
in VA hospitals, just as they do in the private sector.
    Thank you, Mr. Chairman.
    Mr. Lewis. Colonel Partridge, thank you very much. We 
appreciate you being with us and appreciate your testimony. Any 
questions?
    Mr. Stokes. No questions. Thank you, sir.
    Mr. Lewis. Okay, thank you, sir.
    [The information follows:]


[Pages 1436 - 1439--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

JULIE SANDORF, CORPORATION FOR SUPPORTIVE HOUSING
    Mr. Lewis. Julie Sandorf, Corporation for Supportive 
Housing.
    Ms. Sandorf. Good afternoon, Mr. Chairman. Good afternoon, 
members.
    Before I begin my testimony, I first must tell you that 
this is the first time I am testifying in front of this 
Committee and I am completely in awe of both the Chairman and 
the Members' attention span. My hat is off to you. This is 
really quite an experience for me.
    Mr. Lewis. Thank you very much. Mr. Stokes is responsible 
for all that.
    Ms. Sandorf. Lots of coffee, is that it?
    As I mentioned, my name is Julie Sandorf and I am the 
president of the Corporation for Supportive Housing. CSH is a 
national, nonprofit organization that works around the country 
dedicated to the expansion of supportive housing for folks who 
are homeless and at risk of homelessness.
    Just very briefly, supportive housing has been the most 
effective and cost-efficient solution to ending, permanently 
ending homelessness in America. As you know, since the early 
1980's, homelessness has emerged as this country's most visible 
and devastating symbol of desperate poverty and the breakdown 
of society's contract in this, the world's wealthiest nation.
    The good news is that over the past decade or so, 
community-based, nonprofit organizations partnering with 
private sector, philanthropy, churches and synagogues, 
volunteers, and government at all levels have, with great 
tenacity, passion, and real common sense, demonstrated that we 
can end homelessness permanently in this country through the 
provision of supportive housing.
    What these folks have done in partnership is marrying a 
place to call home with a whole range of support services, 
including employment services, health care, and social services 
in a comprehensive way that has yielded results beyond anyone's 
wildest dreams. And it has permanently ended homelessness for 
thousands of people who have been languishing in the country's 
streets, cities, and institutions.
    We have come upon a solution that not only works, but it 
also saves money for the taxpayer. It is a win-win. We don't 
often get to see that.
    Just some statistics from studies that have been done by 
both HHS and HUD. A study done by HHS on formerly homeless, 
mentally ill individuals now living in supportive housing 
showed that almost 84 percent remain in the housing. There is a 
50 percent decrease in Medicaid funded in-patient 
hospitalization, there is a 50 percent decrease in 
incarcerations, and there is a 50 percent decrease in emergency 
room visits--all very costly to both Federal, Stateand local 
governments.
    In 1995, a HUD study showed an increase in employment of 
residents in supportive housing of over 55 percent. So not only 
are we able to provide stability in housing, better health 
outcomes, but people are going to work, which I think is a goal 
we all share.
    Supportive housing is a win-win for the taxpayer as well. 
There is no free lunch here. There is no free costly 
alternative here. If supportive housing is not provided, we 
will see folks who--the majority of homeless people who suffer 
from mental illness, other chronic health conditions, recycle 
through costly jails, institutions, and shelter systems.
    Supportive housing may cost on average $12,000 a year. 
Jails cost about $69,000 a year. A hospital bed costs about 
$1,000 a day, often paid for by Medicaid. And State psychiatric 
institutions can cost up to $120,000 a year. This is a deal for 
those of us in the Federal Government, State and local 
government, and most importantly, the taxpayer.
    We also know that supportive housing can definitively make 
an impact in reducing the number of homeless people in this 
country. In New York City, for example, a city that has by far 
the largest number of homeless people in this country, is also 
our greatest example of how supportive housing can succeed in 
reducing homelessness.
    In 1989, the city's single adult shelter system had reached 
10,000 people per night. In 1990, the city joined with the 
State and with support from the Federal Government to build 
thousands of units of supportive housing for the most 
vulnerable single adults in the city. Not surprisingly, by 
1994, the single adult shelter census dropped from 10,000 
people to 6,000 people. And considering that a shelter bed in 
the city of New York costs over $22,000 a year, this is quite a 
deal, versus $12,000 for supportive housing with comprehensive 
health care and employment supports.
    The critical linchpin in this incredible success story has 
been the provision of multi-year operating subsidies through 
the McKinney Shelter Plus Care and model SRO programs. They 
have been the leverage to leverage mainstream housing funds at 
both the Federal, State and local levels. It has been the only 
way we've been able to leverage private sector financing in 
supportive housing through syndication of low-income tax 
credits, and we have also been able to leverage significant 
service dollars at State and local levels when we marry rent 
subsidies from the Federal Government in supportive housing 
projects.
    It has by far been the most effective means of sharing the 
fiscal burden and caring for the most vulnerable in our 
society. I strongly urge the chairman and the Committee to look 
very carefully at the very important financing tools that have 
been provided through the McKinney programs. They are making 
not only a discernible impact on the need, but are using the 
taxpayer resources wisely. I also urge you to appropriate the 
full $1.1 billion requested for fiscal year 1999 for McKinney 
programs.
    I think we all have the moral obligation to teach our 
children by example that we live in a just and a civil society. 
We also are faced with a serious fiscal obligation to use 
taxpayer resources wisely and with great and prudent 
investment.
    Supportive housing gives you a chance to do both, and I 
truly believe and know that we have the knowledge, we have the 
technology, we have the incredible compassion and persistence 
of many, many people living in our communities to solve this 
problem, and we would love to work with you to promote the 
leadership means and will to solve this for good.
    Thank you, Mr. Chairman.
    Mr. Lewis. Julie Sandorf, we very much appreciate your 
presence here today. Your testimony is welcome and indeed, your 
expression of interest, as well as concern, is important to us.
    Ms. Sandorf. Thank you.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. I would just like to say to this young lady 
since this is her first time here, she said. I want her to know 
that the testimony you have here has been so poignant and so 
ardent and when you talk about the McKinney bill, I served here 
with Stu McKinney and he was one of the finest men I have ever 
known. You are a real tribute to his memory and his legacy.
    Mr. Lewis. That's right.
    Ms. Sandorf. Thank you. Lucy McKinney has been a stalwart 
supporter of CSH's activities, not only in Connecticut, but 
around the country. She sits on our advisory board. So I will 
let Lucy know your kind words.
    Mr. Stokes. Please do.
    Mr. Lewis. Thank you for saying that, Mr. Stokes. Thank you 
very much for being with us.
    Ms. Sandorf. Thank you, Mr. Chairman.
    [The information follows:]


[Pages 1443 - 1451--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

CHESTER CARR, NATIONAL AMERICAN INDIAN HOUSING COUNCIL
    Mr. Lewis. Chester Carr with the National American Indian 
Housing Council. Welcome.
    Mr. Carr. Good afternoon. Chairman Lewis and Congressman 
Frelinghuysen and Minority Member Stokes, my name is Chester 
Carr.
    I will be very brief. I promise to be very brief, and I can 
understand the amount of work that you have to do.
    Mr. Lewis. We appreciate your being with us. Let us make 
sure that we have your name for the record. Will you just 
repeat it one more time.
    Mr. Carr. I'm Chester Carr and I serve as the Chairman of 
the National American Indian Housing Council, the organization 
representing all the Indian tribes across the United States and 
Alaska, and also have the good fortune to serve as the chairman 
who negotiated rulemaking for the Native American Housing 
Assistance and Self-Determination Act of 1996. And I want to, 
first of all, thank for all of your support in that process. It 
was a very, very, truly tremendous effort on the part of the 
tribes and Housing and Urban Development to work together to 
draft that regulation.
    In my comments, I promised that I would be very brief. I 
want to show you that the housing challenges facing 
IndianCountry is greater than in any community in the United States.
    The cost of housing is much higher because of distance, 
where the delivery of houses has to be provided. The geographic 
area of Indian Country provides tremendous challenges where the 
cost of housing is just tremendous. The environmental review 
that's required in NAHASDA is an unfunded mandate.
    The President's proposed budget of $600 million for fiscal 
year 1999 means that 107 tribes that are eligible for funding 
would only receive a minimal funding of $25,000. In Indian 
Country alone, just the cost of infrastructure and amendment to 
developing a home, is $25,000. So you can see the tremendous 
challenges that we have in Indian Country.
    The large number of tribes that we speak about, the 107 
tribes, the majority of them are Nevada and California tribes, 
so it's those tribes that have requested that amendment of 
funding of $150,000 which does not impact the current level 
funding of $600 million just to be able to build one unit per 
year for their tribal membership. So these are tremendous 
challenges that we have.
    As I stated, I would make my comments very brief. You have 
our written testimony.
    Mr. Lewis. We do.
    Mr. Carr. And I would also like to thank Ms. Valerie 
Baldwin and David Reich for coming out to Indian Country and 
for being very good friends of Indian Country. They have been 
able to provide a lot of support to our needs, and I want to 
express my appreciation.
    Thank you.
    Mr. Lewis. Thank you very much, Mr. Carr. We look forward 
to continuing to work with you. We appreciate your being with 
us and also the brevity. Thank you.
    Mr. Carr. Thank you.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. No questions. Thank you.
    Mr. Lewis. Thank you, sir.
    [The information follows:]


[Pages 1454 - 1460--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

DR. STEPHEN YOUNG, FRIENDS OF VA MEDICAL CARE AND HEALTH RESEARCH
    Mr. Lewis. Dr. Stephen Young, Friends of VA Medical Care 
and Health Research. Welcome back.
    Dr. Young. Good afternoon. Chairman Lewis, this is also my 
initial testimony before a Congressional Committee. I very much 
appreciate the opportunity to be here and to address you and 
Mr. Stokes and the rest of the Committee.
    I represent the Friends of VA Research. This is a coalition 
of 60 organizations that are in support of VA research efforts. 
We recommend this year that the Subcommittee propose a $325 
million budget for VA research.
    I am a Professor of Medicine at Duke University. I have 
been employed by Duke and the Durham VA Medical Center for 20 
years, where I serve as a pulmonary physician and intensive 
care physician and an investigator. I also have a 
responsibility to administer a research program at the Durham 
VA, and I have had some chance to administer with the VA 
program centrally.
    The VA's research program has a long and distinguished 
record. It has had halcyon years in the late 1980's, but since 
then has been an underfunded program, resulting in a 
significant reduction in its total number of funded programs. 
Some programs are down more than 50 percent in terms of the 
numbers of programs funded because of constant dollars that 
have been eroded substantially by 10 years of unsupported 
inflationary increases.
    There are four programs within VA research. Medical 
research is one of the larger programs and has had a 
distinguished record. Some of the programs, however, have been 
lost. We have been reduced from close to 1,600 to 1,800 
programs at the maximum number in the late 1980's. We are down 
now to about 1,000 in this particular program.
    At our medical center, one of the successes that we have 
had has been very important to me as a pulmonary physician 
because of the key impact that cigarette use has had upon 
veterans' health. In 1953, when our VA hospital opened, we made 
the diagnosis of lung cancer 25 times. Last year and in recent 
years, we have made the diagnosis of lung cancer nearly every 
day, about 250 times per year. This kind of increase has been 
seen across the country and we represent the norm.
    Discontinuation of smoking is a major problem that we have 
little success with. The inventor of the nicotine patch is a VA 
investigator and we are pleased to have that nicotine research 
laboratory at the Durham VA.
    The VA's research program is distinguished from other 
research programs in its clinical focus. Seventy percent of the 
people who do research in the VA are clinician investigators 
who take care of patients and also do research.
    By contrast, NIH has about 75 percent of itsinvestigators 
are basic scientists. And we have a somewhat different program in the 
VA. It is, indeed, a much smaller program as well.
    Another part of the VA research program that I think is 
particularly attractive is the health services research 
program. This is an outcomes based research program that uses 
the VA as a unique laboratory, perhaps the largest HMO in the 
world. At $15 to $16 billion of health care distributed over 
172 facilities it is actually a relatively uniform population 
of patients and ideal opportunity to focus the efficiencies of 
our health care delivery upon what really works and what is 
cost effective. The health services research in the VA is 
focused upon access, minority access in particular, and has 
been the program that has identified differences in access by 
black veterans compared to caucasian veterans within the VA 
itself.
    The Cooperative Studies Program is another branch of the 
VA's research program, and has had a tremendous success over 
the last 40 years. It is responsible for much of the research 
leading to the recognition that aspirin helps prevent heart 
attacks. It is responsible for much of the research leading to 
high blood pressure.
    Cooperative Studies is a jewel in our crown, and we have 
many opportunities to conduct these multi-centered trials. It 
is an ideal environment in which to do it and many of these 
trials are in queue waiting for additional funding.
    Finally, the VA research program is mandated, and I think 
has a distinguished career in rehabilitation and prosthetics 
research. The Seattle foot and spinal cord injury treatments 
are unique strengths of the VA program. We have six centers of 
excellence that help to promote a technology transfer from 
engineering and prosthetic advances within the VA to VA patient 
populations, also benefitting the prosthetic community 
throughout the Nation.
    There are many opportunities for this program to enlarge 
and to take advantage of the growing strength in health care 
research. The VA is a unique laboratory in which to do it, and 
I am pleased to represent the Friends of VA Research in 
recommending the $325 million budget for next year.
    Thank you very much for your attention.
    Mr. Stokes [presiding]. Thank you very much, Dr. Young. I 
appreciate your testimony. I don't have any questions, but I am 
sure the Chairman would want me to say that he appreciates very 
much your testimony on this subject.
    Dr. Young. You have my written comments, and we very much 
appreciate the opportunity to submit them.
    Mr. Stokes. They will be made a part of the record.
    [The information follows:]


[Pages 1463 - 1470--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

KENNETH STEADMAN, EXECUTIVE DIRECTOR, VETERANS OF FOREIGN WARS
    Mr. Stokes. Mr. Kenneth Steadman, representing AMVETS.
    Mr. Steadman. Actually, Veterans of Foreign Wars.
    Mr. Stokes. Oh, all right. The Chairman had to step out of 
the room for a moment. But I am sure he would want me to have 
you go ahead and proceed and I will certainly give you all the 
attention we can.
    Mr. Steadman. Thank you, Mr. Stokes. I am Ken Steadman, the 
Executive Director of Veterans of Foreign Wars, and I am here 
on behalf of the AMVETS, the Disabled American Veterans, the 
Paralyzed Veterans of America, and the VFW, the co-authors of 
the annual Independent Budget. I have copies here for you.
    I'd like to take a moment, if I may, Mr. Stokes, to applaud 
your long and distinguished career as a member of this 
Congress. When you retire at the end of this Congress, veterans 
will lose a powerful voice and an effective advocate and we 
thank you for your service.
    Mr. Stokes. Thank you.
    Mr. Steadman. Mr. Stokes, again this year, veterans face 
real and significant funding cuts while many other Federal 
programs are increased. As health care costs continue to rise, 
the VA is once again asked to provide more help with fewer 
appropriated dollars. We ask that you look at the hospitals and 
clinics in your districts and ask yourself, is cutting the 
health care budget a way to ensure that veteran constituents 
receive the highest quality health care, the quality health 
care that you demand for yourselves and your families.
    Again this year, the Administration wants to continue its 
risky financing scheme of substituting appropriated dollars 
with collections from insurance companies. Already collections 
are below estimated amounts. We cannot treat the resources 
essential for the lives and health of veterans as if we were 
sitting at a roulette table. VA health care must have an 
adequate core appropriation, and third-party collections must 
be used to supplement, not substitute for, appropriated 
dollars.
    For fiscal year 1999, the Independent Budget recommends a 
core appropriation of $18.2 billion and a total appropriation 
with amounts equal to MCCF funding added back as appropriated 
dollars of $18.8 billion.
    The $18.2 billion core appropriation will enable the VA to 
meet workload targets in an environment of radical change, an 
environment of eligibility reform. We must ensure that as the 
system is propelled into the 21st century, that veterans who 
rely upon this system are not left behind in this century.
    The Independent Budget salutes the Administration's 
proposal to provide $300 million for medical and prosthetic 
research. The administration has finally recognized whatthis 
subcommittee has known all along, that research leads to better quality 
health care, decreased health care costs and improves the lives of 
veterans and all Americans.
    For fiscal year 1999, we have recommended an appropriation 
of $314 million, an amount that meets the core needs of the 
program and provides funding for new initiatives and research 
for specialized services and in tobacco cessation and 
addiction.
    In construction, we urge you to fund the remaining $20 
million to complete the Replacement Spinal Cord Injury Center 
in Tampa, Florida. It is not only in health care that the 
Administration's budget recommendations fall short of the needs 
of veterans. The Administration would reduce staffing at the 
Veterans' Benefits Administration by 132 full-time employees. 
This reduction can only mean lower quality and more delays. The 
Independent Budget recommends maintaining current staffing 
levels.
    In the Compensation and Pension Service, the Administration 
has recommended an increase of only seven full-time employees. 
This service is undergoing its own revolution, a revolution 
that will initially divert human resources away from direct 
claims processing at a time when staffing levels have already 
proven inadequate to stay abreast of current demands.
    Without more substantial staffing increases, we fear that 
the expected improvements will be ineffective, and we fear a 
return to the days when quantity mattered instead of quality. 
That is why the Independent Budget recommends an increase of 
500 employees over the fiscal year 1998 level.
    At a time when veterans' programs are under budgetary 
siege, the Administration and some in Congress have proposed 
denying compensation to sick and disabled veterans for tobacco-
related disabilities. The rationale behind this effort is 
clearly to provide savings in order to increase spending above 
caps set only last year in the Balanced Budget Act for roads 
and for highways. We ask that you join together with us to stop 
this midnight raid on veterans' programs.
    Mr. Chairman and members of the Subcommittee, in the past 
we have relied on you to protect veterans and to further their 
interests. Although we realize you face tough decisions this 
year, we also look to you to make informed decisions regarding 
the true resource requirements of the VA. We look forward to 
working with you to ensure that this Nation's promises are 
kept.
    Thank you, sir.
    Mr. Lewis [presiding]. Mr. Steadman, thank you very much 
for your testimony. We appreciate you being with us and being 
patient today.
    Mr. Steadman. My pleasure.
    Mr. Stokes. Thank you, Mr. Steadman.
    [The information follows:]


[Pages 1473 - 1478--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

JEPTHA DALSTON, ASSOCIATION OF UNIVERSITY PROGRAMS IN HEALTH 
    ADMINISTRATION
    Mr. Lewis. Our next witness is Jeptha Dalston. Dr. Dalston 
from the Association of University Programs in Health 
Administration.
    Mr. Dalston. Thank you, Mr. Chairman. It is a pleasure to 
be here to discuss with the Subcommittee the very important 
subject of quality and access to health care by the veterans of 
America.
    I represent the Association of University Programs in 
Health Administration, which is a national not-for-profit 
organization comprised of about 100 universities with graduate 
and undergraduate programs in health services management. Our 
members represent the depository of the very best minds in 
America in health administration.
    We are here for the third time to testify, and this is a 
real pleasure for us. It has been productive in the past, and 
hope it is for you today.
    I have three points to make, each calling for action and 
leadership. The first point has to do with the volatility, with 
the great turbulence in the transformation of the larger health 
care system in the United States. I know that you are familiar 
with that. I simply emphasize it to make the point that its 
wrenching effects are far-reaching, and many of us in the field 
have had to learn new skills and new competencies.
    The VHA has its own version of that, and it is 
undergoingits own form of transition and volatility and the wrenching 
effects of that are considerable. We have been working closely with Dr. 
Kizer and his colleagues concerning the vision for change, the mission 
for change, and the associated management agenda. Again, I know that 
the members of the Subcommittee are familiar with all that.
    Our point here is that we believe that there is much work 
yet to be done. Much has been accomplished, but we emphasize 
that there is much yet to be done in the way of looking at the 
best practices and benchmarking in the private sector which we 
can bring to the VHA.
    Accountability is an important factor here. Those health 
care executives in the private sector are much more accountable 
than they were for mission performance. Likewise with VHA, 
there is a need for greater accountability by executives, as 
well as greater freedom of action.
    First point: turbulence, volatility, and accomplishments so 
far, but more to be done.
    Second point: We are learning partners, the VHA and the 
AUPHA and our university programs, many of which are in your 
congressional districts. For four years, we have conducted 
programs for education and training, national cohorts that are 
your own programs, programs that are oriented to VISNs that are 
shorter.
    We have conducted a study in executive compensation and 
accountability of performance. Many of our university programs 
work locally with the medical centers. And finally, we are 
currently engaged in a video conferencing satellite 
transmitting program which is really an experiment. Our 
audience are CEOs, CFOs, strategic planners, doctors, nurses, 
and others, all being geared to the high performance 
development model.
    Our programs are especially tailored, and that's the 
benefit of the VHA in the partnership. We benefit by having our 
faculty be on the cutting edge in the firing line with the VHA 
executives, and they benefit thereby.
    The second point: The learning partnership has been 
productive. We believe that it needs to be reinforced and 
strengthened.
    Mr. Lewis. This is your third point.
    Mr. Dalston. No, sir. I am getting there.
    Mr. Lewis. I heard one, two. Maybe it's the second time I 
heard it.
    Mr. Dalston. Yes, sir. The second time you heard the second 
point to reinforce it. Strengthen the partnership, and we 
pledge our part to do it.
    The third point, Congressman Lewis, has to do with the 
application of technology to this enormous problem in the VA to 
deal with this large number of people scattered all over 
creation. We believe that it is the computer that holds the 
answer to this problem. Constraints in budgets, constraints in 
time, we can't gather people together the way we have done in 
the past. We have developed web-based courseware for 
transmission on the Internet to individuals at their PC, at 
their worksite, even at their home.
    And we emphasize to you that we believe that is the future 
for the VHA, as it is indeed in the private sector. Private 
sector organizations are already into that and we think it 
holds--in closing, the VHA is a wonderful organization. We are 
impressed with its resources, that it represents the American 
people.
    As a veteran myself, I am especially mindful of the value 
and optimistic of the quality and access to care that the 
veterans have earned for the 21st century. Thank you, Mr. 
Chairman.
    Mr. Lewis. Thank you, Dr. Dalston. We appreciate it.
    [The information follows:]


[Pages 1481 - 1500--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

       DEPARTMENT OF VETERANS' AFFAIRS, SELECTIVE SERVICE SYSTEM

                                WITNESS

LARRY RHEA, NON COMMISSIONED OFFICERS ASSOCIATION OF THE UNITED STATES 
    OF AMERICA

    Mr. Lewis. The next witness is Larry Rhea, the Non 
Commissioned Officers Association.
    Mr. Rhea. Thank you. Good afternoon to you and good 
afternoon, Mr. Stokes. I am Larry Rhea with the Non 
Commissioned Officers Association, and we are indeed grateful 
for this opportunity this afternoon to comment upon 
appropriations for the Department of Veterans' Affairs. We also 
appreciate and ask your careful consideration of our prepared 
testimony and we are grateful for your including that in the 
hearing record.
    Mr. Lewis. We certainly will. Thank you.
    Mr. Rhea. The Association supports and asks that this 
Subcommittee support the cost of living adjustment for all VA 
compensation recipients. The Association supports, and we ask 
your support for the President's request to increase by 10 
percent to $300 million the appropriations for VA research.
    You have been very helpful on Medicare subvention. 
Hopefully, we can launch that this year in some form or 
fashion, and we would ask your support on that.
    We also ask that you are mindful for the activation money 
for the four national cemeteries included in the President's 
budget and the $806 million requested for VA administration to 
ensure timely delivery of benefits.
    The NCOA asks that you support the recommendations of 
theHouse Veterans' Affairs Committee relating to the veterans' benefits 
administration, grants to the States for veterans' nursing homes, and 
construction of VA facilities.
    The House committee also recommended a $481 million 
increase over the administration's request for veterans' health 
care. NCOA believes the $18.1 billion should be the floor that 
this subcommittee works from.
    The House Veterans' Affairs Committee recommendation needs 
improvement, in our view, because we continue to believe that 
too much reliance is being placed on these third-party 
recoveries from insurance.
    The delivery of health care to the Nation's veterans should 
not be put in further jeopardy, in our view, at a time when so 
many promising initiatives are underway.
    The administration also proposed a 20 percent increase in 
the veteran education benefit, but disappointingly tied that 
increase to taking away another benefit. Certainly a 20 percent 
increase would be appreciated, but I think we need to recognize 
that the actual requirement needs to be in the neighborhood of 
40 to 50 percent. And we believe that this should be done and 
done so without any strings, conditions, or other sorts of 
gimmicks attached.
    Our belief is simple, Mr. Chairman. That if we can find 
$100 billion essentially as was done last year in the Balanced 
Budget Agreement, and more money being proposed this year for 
non-veteran education, then we think it's time and we have the 
moral obligation to try to do something with that veteran 
benefit.
    We have also included, Mr. Chairman, Mr. Stokes, in our 
prepared testimony, statements of support for the Selective 
Service System. I would draw your attention to that.
    In closing, let me just say this briefly, Mr. Chairman. I 
would like to ask the Subcommittee to be mindful of the things 
that veterans have tried to do for many, many years, to do 
their fair share in the efforts to balance the Federal budget. 
As you are quite aware, Pay-Go was rigidly applied to many 
things that we did. We froze COLAs on many programs or enacted 
those COLAs at half of the legislatively mandated rate in 
certain cases. We added fees and we increased fees in other 
programs.
    Non Commissioned Officers are a simple crew, Mr. Chairman, 
and our belief in this whole debate right now is also quite 
simple. In the midst of a $1.7 trillion Federal budget, we 
think there is ample room to adequately fund veterans' programs 
and benefits and to do so unconditionally.
    This association urges you to do so, and I thank you for 
the opportunity.
    Mr. Lewis. Thank you very much, Mr. Rhea. As you know, the 
veterans' programs have had broadly based non-partisan support 
over the years, and I expect to see that continue. We 
appreciate your being here.
    Mr. Rhea. Thank you. We are grateful for that.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. No questions. Thank you, Mr. Rhea.
    Mr. Lewis. Thank you, and good luck to you, sir.
    Mr. Rhea. Thank you very much.
    [The information follows:]


[Pages 1503 - 1509--The official Committee record contains additional material here.]



                                         Wednesday, April 22, 1998.

                    DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

JOHN VITIKACS, THE AMERICAN LEGION
    Mr. Lewis. Mr. John Vitikacs, is that right?
    Mr. Vitikacs. Yes.
    Mr. Lewis. The American Legion is our last for today.
    Mr. Vitikacs. Last, but not least.
    Mr. Lewis. Certainly one of the finest, without any 
question.
    Mr. Vitikacs. Thank you very much.
    Mr. Lewis. If you would summarize your testimony and just 
go right ahead, we will be glad to hear you.
    Mr. Vitikacs. Chairman Lewis, Ranking Member Stokes, 
committee members, The American Legion thanks you for your 
continued strong support for VA medical care and benefit 
programs. The fiscal year 1999 budget presents the Subcommittee 
with several significant challenges.
    The Administration proposes $17.7 billion for VA medical 
care for fiscal year 1999. Of this amount, approximately $17 
billion is requested in appropriations and an additional $700 
million is projected through the Medical Care Cost Recovery 
Fund.
    Mr. Chairman, notwithstanding the recently enacted Balanced 
Budget Act which freezes direct VA medical care appropriations 
at $17 billion over each of the next five years, The American 
Legion recommends VA medical care funding of $18.2 billion for 
fiscal year 1999.
    The House Veterans' Affairs Committee agrees with 
thisassessment. The committee recommends an increase in medical care 
funding of $481 million over the administration's request to $18.1 
billion.
    The American Legion thinks that additional medical care 
funding can be met through Medicare subvention and by offering 
specific health care benefit packages to veterans on a premium 
basis. These actions represent viable options to generate new 
revenue streams.
    The American Legion does not come before this subcommittee 
and ask for additional appropriated dollars. What we are 
seeking is to provide VA the latitude to become creative in 
raising revenues through nonappropriated means. This is this 
organizations's objective through a proposal that we have 
called the GI Bill of Health.
    Although the Veterans' Health Administration over the past 
few years realigned its medical care programs and operations to 
reduce redundancy and increase efficiency, the system is still 
experiencing a significant shortfall.
    With the funding limitations imposed by the Balanced Budget 
Agreement, VA must improvise and be creative in meeting its 
future budget requirements.
    Mr. Chairman, the American Legion supports the House 
Veterans' Affairs Committee VA Medical Construction 
Authorization, H.R. 3603, for fiscal year 1999. We also 
recommend minor construction in the amount of $200 million and 
$80 million for the State Extended Care Grants Program. The 
American Legion supports the Administration's proposal for 
medical and prosthetic research programs at $300 million.
    Mr. Chairman, additional fiscal year 1999 American Legion 
budget recommendations include $867 million for the Veterans 
Benefits Administration's general operating expenses, an 
increase in the monthly education benefits under the Montgomery 
GI bill, and support of the administration's budget request for 
the National Cemetery System.
    In closing, The American Legion understands the budget 
pressures facing the Nation. To ensure adequate funding for VA 
health care, we continue to recommend the enactment of the GI 
Bill of Health, which we have had an opportunity to brief 
members of Congress on; to provide new health care choices to 
America's veterans; and to generate new nonappropriated 
revenues for VA's Veterans' Health Administration.
    Mr. Chairman, Mr. Stokes, Members, thank you very much for 
the opportunity to appear today.
    Mr. Lewis. Thank you very much, Mr. Vitikacs. We appreciate 
your being here, and your testimony will be in the record in 
its entirety.
    Mr. Vitikacs. It's been a long day, I am sure.
    Mr. Lewis. It's been a long day. On the other hand, we 
appreciate your patience and being with us.
    Mr. Vitikacs. Thank you.
    [The information follows:]


[Pages 1512 - 1519--The official Committee record contains additional material here.]



    Mr. Lewis. The committee, Mr. Stokes, if you have no 
objection, will be adjourned until 9 a.m. tomorrow morning. We 
will begin with member's testimony.
    Mr. Stokes. Okay, Mr. Chairman.
    Mr. Lewis. That, I believe, is the 23rd of April.


[Pages 1521 - 1762--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Lewis [presiding]. All right, Ms. Pelosi.
    Ms. Pelosi. Thank you.
    Mr. Lewis. Your entire statement will be included in the 
record, by the way, and we'll proceed from there.
    Ms. Pelosi. Thank you, Mr. Chairman, and we thank you and 
Mr. Stokes and Members of the Committee not only for the 
opportunity to testify here today, but for your past support of 
the projects that I have requested of the Committee. I'm so 
glad that Mr. Stokes has arrived because----
    Mr. Stokes. Good morning.
    Ms. Pelosi [continuing]. Knowing the legions of people who 
have heaped praise on him--in our committee, Labor, Health and 
Human Services, I hear it every single day, and it's still 
inadequate for the contribution that he has made. Mr. Stokes, 
thank you so much----
    Mr. Stokes. Thank you very much.
    Ms. Pelosi [continuing]. For your commitment to affordable 
housing and the great array of agencies that are under the 
jurisdiction of this committee, the Veterans', HUD, and all 
that that implies, and the independent agencies. So, I know 
that you will be sorely missed, but you have made such an 
incredible contribution. And because I'm first, as much as I'd 
like to take all day to talk about Mr. Stokes and leadership by 
Mr. Lewis----
    [Laughter.]
    Mr. Stokes. Don't stop, don't stop. [Laughter.]
    Ms. Pelosi. Let me quickly----
    Mr. Lewis. Like I said, you can supplement for the record. 
[Laughter.]
    Ms. Pelosi. I support the budget of the Administration, 
their fiscal year 1999 request for housing programs, and hope 
the Subcommittee would provided the needed funding and I have 
just a couple specifics.
    The Committee has been generous to the HOPWA program, and, 
once again, I want to stress my strong support for the program 
which has provided an essential commodity--housing for people 
with HIV/AIDS. I know the Committee is and should be proud of 
the leaders that you have provided in this area because the 
whole idea of people with AIDS and the stress that they're 
under and the additional stress fear that homeless adds to 
that--it can be deadly and I respectfully request that the 
Committee provide $250 million for HOPWA, if at all possible, 
but no less than the Administration's request for $225 million.
    Mr. Lewis. You may know, Ms. Pelosi, but 18 years ago, I 
was responsible for putting the first money in for AIDS 
research in this committee, as a new member of the Committee, 
when people didn't even know what it was.
    Ms. Pelosi. I commend you for your leadership----
    Mr. Lewis. Glad to be of help----
    Ms. Pelosi [continuing]. And your foresight. Unfortunately, 
it turned out----
    Mr. Lewis. Yes.
    Ms. Pelosi [continuing]. To be very, very necessary. 
Hopefully, it will be a memory by the time we go into the next 
century but, in the meantime, we have to meet the need and this 
committee has done so and I thank you for that.
    Mr. Lewis. We appreciate your interest.
    Ms. Pelosi. Thank you.
    Ms. Pelosi. I support the Administration's request for 
$103,400 new Section 8 rental assistance vouchers. I also urge 
the Committee to provide full funding for the renewal of all 
expiring Section 8 contracts, including project-based Section 
8's.
    Now, just this past weekend when I was in San Francisco, I 
went to an opening of a single-room occupancy facility that had 
been a complete dump before. But, that transformation would not 
have been possible without that Section 8 and the low income 
housing tax credit, which is another committee.
    The Section 8 Home Ownership Demonstration Program--last 
year, HUD proposed a demonstration program to permit the use of 
2,000 Section 8 vouchers by low income households to purchase a 
home. While this program is not included in fiscal year 1998 
appropriations bill, HUD once again is requesting funding for 
it. I urge the Subcommittee to support the Administration's 
request.
    McKinney Homeless Assistance--I urge the Subcommittee to 
support the fiscal year 1999 request for $958 million, an 
increase from $823 million in fiscal year 1998, for homeless 
assistance. I know you know--more is on the record.
    Non-profit purchase of at-risk housing--you know of my past 
support for low-income housing; preservation and residential 
ownership, and while the program was not funded in fiscal year 
1998, I continue to believe that HUD needs a policy to support 
transfer of at-risk housing to ownership that will manage it 
well and keep it permanently affordable. I hope the 
Subcommittee will work this year to create an incentive for 
owners of housing supported by project-based Section 8 to 
transfer the developments to long-term non-profit and public 
ownership.
    Community Block Development Grant--I'm making a request for 
a project in my district--$1.5 million in CDBG/EDI funds to 
expand community revitalization efforts in the Visitacion 
Valley in San Francisco. The funds would be used for tenant 
improvements for four new child care centers and a senior 
center, part of the new housing developments to be built to 
replace housing lost when HUD closed the Geneva Towers project. 
They're blowing up the Geneva Towers May 16 in San Francisco 
and I have the honor of----
    [Laughter.]
    Ms. Pelosi. Really, it's very exciting. [Laughter.]
    But, it has been an ongoing--for years, we've been working 
on this project and now it's coming to fruition and we need the 
child care part of it.
    University of San Francisco Center for International 
Business Education--this committee has been generous in the 
past. I have a $2 million request for special purpose grant 
funding.
    Finally, Mr. Chairman, I will not go over--further these 
other requests but submit them for the record: the Chabot 
Observatory and Science Center; National Biosolids Partnership; 
Delta Science Center. These are Bay-area issues and I add my 
support to them.
    Thank you for the consideration of the requests and for 
your time this morning and I stuck to the note so that I would 
be shorter. Please forgive me for reading to you but----
    Mr. Lewis. No, but it's a delight to wake up to such charm 
and we appreciate your----
    [Laughter.]
    Mr. Stokes. Mr. Chairman, let me just----
    Mr. Lewis. Sure, sure, Mr. Stokes.
    Ms. Pelosi. I'll leave now before it gets boring. 
[Laughter.]
    Mr. Stokes. Well, I just want to concur with the Chair, 
well----
    [Laughter.]
    Mr. Stokes [continuing]. Those very kind remarks about you 
but, let me express my appreciation to you for your kind 
remarks and say that what a privilege it's been to meet and 
serve with you in this body and all of us are indebted to you 
for the great work you've done in the area of AIDS which is at 
a crisis in this country today and one of the most crucial 
health problems confronting our Nation and, in that respect, 
you have just been the leader for all of us. But you've done 
such great work in all respects and I'm going to miss you.
    Ms. Pelosi. Oh, well, you won't be a stranger. But, I 
think, if I may, Mr. Chairman, just say that no one has done 
more in terms of AIDS and minority issues than our Chairman and 
our committee----
    Mr. Stokes. Thank you. [Laughter.]
    Ms. Pelosi [continuing]. And Mr. Stokes but it's quite a 
remarkable thing that Mr. Stokes was raised in a housing 
project. He and his brother----
    Mr. Stokes. Right.
    Ms. Pelosi [continuing]. One became a mayor and ambassador, 
the other a leader in Congress and that he would be here 
setting these priorities in this very committee that gave him 
shelter and his family shelter. I always say to him, what a 
remarkable mother he must have had. [Laughter.]
    Mr. Stokes. Thank you. [Laughter.]
    Mr. Lewis. Thank you very much.
    Ms. Pelosi. Thank you very much.
    [The information follows:]


[Pages 1766 - 1775--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                           VETERANS' AFFAIRS

                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE
    Mr. Lewis. We are going to have to follow the agenda kind 
of as an outline. Otherwise if I start calling on people as 
they arrive, we'll never quite get there. So, if you'll please 
bear with me.
    Next on our list is Bart Gordon, and, Bart, if you'll come 
up. Your entire statement will be included in the record. All 
of you can make note of that and from there--brevity is very 
important and related almost to dollars. [Laughter.]
    Mr. Gordon. Mr. Chairman, thanks for your, as always, 
courtesy and hospitality here and I will try to reciprocate by 
being very brief.
    Let me first add my accolades to those folks. You've always 
brought professionalism to this committee and you've been a 
friend and really brought a decency to the Congress. We'll miss 
seeing you here and hope that we'll have a chance to continue 
to visit.
    Mr. Stokes. Thank you, Bart. Thank you.
    Mr. Gordon. After seeing Joe Moakley and Nancy Pelosi here, 
I don't think there's much to be left in the cupboard so I'll 
not ask much----
    [Laughter.]
    Mr. Gordon. I'm here on a project concerning the Alvin C. 
York VA Hospital in my hometown, Murfreesboro, Tennessee. My 
father worked there for 27 years. He was a groundskeeper, so 
I'm pretty familiar with that facility. I used to go out there 
as a volunteer.
    I've never been to this committee other than this 
particular project to ask anything for this VA hospital. It's a 
psychiatric hospital and so it covers a pretty broad area, 
since there are not many psychiatric hospitals.
    The project that we've been talking about the last couple 
of years--there are three psychiatric wards that go back to the 
original construction. They are the old mass wards, where you 
don't have rooms--everybody is just in a big hall and you have 
communal bathrooms, and it makes it very difficult to have 
facilities for women, and now there is starting to be more 
there that weren't there earlier.
    We originally proposed tearing those down and building some 
new ones back at a cost of $29 million. After reviewing that 
and recognizing the constraint to the budget, they have decided 
to change that scope and not do it with--just renovating what 
they have, which would be a $9 million project.
    The VA has been there doing their evaluations to determine 
that it is needed. You were generous enough a couple of years 
ago to provide $2.3 million for architectural planning. They 
are moving forward with all of that and now they will be 
prepared to go into this more scaled-down project this next 
fiscal year and so we hope that you can help us with that.
    Mr. Lewis. Okay, Mr. Gordon. I appreciate that update and 
we certainly will work with you.
    Mr. Gordon. Let me also quickly thank you. There was a 
project close to my heart called Bradley Academy in my 
hometown, Murfreesboro, which was the original school where 
James K. Polk attended, gave his valedictorian speech and met 
his wife there. Later, in the 1860's, it became really the sole 
education facility for the African-American community for 100 
years.
    With your help, we are just in the process now of getting 
it opened. It really is the repository of all African-American 
sort of heritage in our whole county. People are going through 
their attics and, you know, pulling things out and bring them 
to this museum and it's just a great facility and I want to 
bring the photographs for the opening so that you can see that 
your role, you know, your good work really did make a 
difference in this community and I thank you for that.
    Mr. Lewis. Thank you very much.
    Mr. Stokes. I'm just glad you mentioned that particular 
project because I know how near and dear it is and we've talked 
about it. But, in any case, glad that our side of the Committee 
was able to help you with it and the proposal.
    Mr. Gordon. It'll be open before you leave and so I want 
you to see the photographs and, as I say, I want you to share 
the pride that I have in this project.
    Mr. Stokes. I look forward to that. Thank you.
    Mr. Lewis. Thanks, Bart.
    Mr. Gordon. Thank you.
    [The information follows:]


[Pages 1778 - 1780--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. JOHN MOAKLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Lewis. Joe Moakley, I'm not really sure why Joe is here 
but the----
    [Laughter.]
    Mr. Lewis [continuing]. Mr. Stokes gave him the idea. 
[Laughter.]
    Mr. Stokes. He'll tell you who gave him the idea. 
[Laughter.]
    Mr. Moakley. Thank you, Mr. Chairman.
    Mr. Lewis. We are very pleased to see you looking so well.
    Mr. Moakley. I feel great.
    Mr. Lewis. I hope you had a good trip.
    Mr. Moakley. It's the power of prayer. Not my prayers, 
everybody else's. [Laughter.]
    Mr. Lewis. We need all the help we can get.
    Mr. Moakley. It works.
    I didn't realize you were brought up in public housing. I 
was brought up in public housing.
    Mr. Stokes. Were you?
    Mr. Moakley. And so, in fact, Bill Clinton lives in public 
housing right now. [Laughter.]
    Mr. Stokes. That's right. [Laughter.]
    Mr. Moakley. I think his account was a little better than 
ours. [Laughter.]
    Actually, I thank you very much for allowing me to come 
testify this morning.
    On behalf of water and sewer ratepayers of Massachusetts, 
we very much appreciate your ardent commitment over the years 
to the support of the Boston Harbor cleanup project.
    I know that you're all fully aware of the magnitude of the 
problem and I am asking for your support once more again for 
$100 million for the clean up. Over the last 10 years, 
Massachusetts has had to fulfill the largest, unfunded Federal 
mandate in the United States with the cleanup of Boston Harbor. 
The Federal government mandated this little court procedure and 
the Federal government, up to date, has paid 22 percent of this 
$3.8 billion that has been paid, most of which has been borne 
by the taxpayers in 61 cities. For example, even the whole 
Commonwealth of Massachusetts has it better than these 61 
cities and towns that are hooked into the Massachusetts River 
Resource Authority.
    Ten years ago, Mr. Chairman, the Harbor looked hopeless, it 
smelled foul, there was no marine or aquatic life to speak of, 
and the waterfront was strictly a disaster area. People were up 
in arms. Many feared the environmental damage to the region 
would be irreparable and there was no easy solution in sight. 
So, after years of protesting the water and sewer rates, the 
people of Massachusetts looked to Washington for some help in 
fulfilling that mandate.
    Not only was their harbor filthy, but also their water 
bills were amongst the highest in this country and expected to 
increase significantly. In 1987--one year--the water and sewer 
rates increased 54 percent.
    Today, the average family pays $671 a year for water and 
sewerage, and, despite Federal assistance, the rates are still 
amongst the highest in the Nation. My constituents are very 
ordinary people; police officers, fire fighters, senior 
citizens, teachers, nurses who find it very difficult to pay 
for the annual increase. So, without this $100 million in 
funding this year, the water and sewer rates could once again 
rise dramatically.
    In addition to the hardship of the families, many 
businesses have had to close shop because they can't afford the 
water rates. Local businesses and family-owned restaurants have 
relocated to other areas just to avoid paying the high water 
and sewer taxes in eastern Massachusetts. So, this funding 
could make a great difference, and it has in the past.
    In 1997, the rates increased by 4 percent, a far cry from 
the 1987 rates increasing 54 percent. But, still, it's a 
significant increase for someone on a fixed income. Although, 
the Federal commitment is still needed. In fact, more, not 
less, needs to be done to ensure that the rates do not increase 
even more.
    And, as you know, and I've indicated to you and to Lou that 
we all appreciate that the project is winding down and, 
although it's just a small dent in this enormous Federal 
mandate, the Federal assistance has helped greatly. Today, 
Massachusetts has made great strides in cleaning up the harbor; 
fish, seals, porpoises have returned, the people of Boston have 
returned to fish, swim and sail and the waterfront right now is 
a very high commodity.
    Last Sunday after Mass, I drove to Castle Island, which is 
a beautiful harbor island about a mile from where I live, 
surrounded by water on three sides because they have a causeway 
going there. And, it's a really great place to walk, to run, to 
bike, and, in my case, just sit and read the papers. It used to 
smell so bad it used to bring tears to your eyes; the sulfur 
smell. You could tell people where the Harbor was, just say, 
it's over there behind the smell.
    But, even though we are mercifully close to the end of this 
enormous project, this money I'm asking for this year we need 
more than ever. This money would be used to complete 
construction of the secondary treatment facility and, once that 
is complete, Boston will meet all the Federal requirements of 
the Clean Water Act for the first time in 20 years.
    Boston, with the help of this committee, has come a long 
way since the days the Harbor was dirty and we urge and 
appreciate your help over the years. Now, I know that Doug 
MacDonald testified the other day and he gave you all the 
specifics and showed you all the charts. We've done a great 
job. Ten years ago people thought we were crazy when we said we 
were going to clean up the Harbor. I mean, the phytoplankton 
was gone; there was nothing. Lone Fish Lake was just a 
cesspool.
    But, as a result of the money that we and the Boston area 
put in, supplemented by the Federal money, it's now about 85 
percent clean.
    Mr. Lewis. Now that we have the Boston Harbor completed, 
there's the Salton Sea--it's the next----
    Mr. Moakley. What's that?
    Mr. Lewis. It's the Salton Sea out in the West of the 
American----
    Mr. Moakley. I think Mary Bono will be here shortly. 
[Laughter.]
    Mr. Lewis. Now, I think that's a great idea.
    Mr. Moakley. I just missed her, Mr. Chairman.
    Mr. Lewis. No, no; Mary Bono's not here. [Laughter.]
    Mr. Moakley. Well, I appreciate that.
    Mr. Lewis. Thank you.
    Mr. Stokes. We appreciate your appearance.
    Mr. Moakley. Lou, it's been a great pleasure serving with 
you. You and I have been together on many issues----
    Mr. Stokes. A long time.
    Mr. Moakley [continuing]. We've always tried to prove the 
government is a true friend. And I wish you well----
    Mr. Stokes. Well, thank you, I feel the same about you, 
Joe. You're a great member and it's been great to be here with 
you.
    Mr. Moakley. Well, thank you. Thanks a lot, sir.
    Mr. Lewis. My pleasure. Thank you very much, Joe.
    [The information follows:]


[Pages 1784 - 1785--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

HON. CAROLYN McCARTHY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
JAMES GARNER, MAYOR, HEMPSTEAD, LONG ISLAND, NEW YORK
    Mr. Lewis. I think Carolyn McCarthy has a guest. Come up, 
Carolyn, and bring the Mayor with you.
    Mr. Garner, good morning, how are you?
    Mayor Garner. Good morning, sir; how are you?
    Mr. Lewis. Good to see you. Thanks for being here.
    Mrs. McCarthy of New York. Mr. Stokes?
    Mr. Stokes. Good morning. Good morning, sir.
    Mayor Garner. Good morning, Mr. Stokes.
    Mrs. McCarthy of New York. As a freshman, I have to say 
it's been a pleasure. This is my first time in front of the 
committee like this, so----
    Mr. Lewis. You haven't been here before, right?
    Mrs. McCarthy of New York. No.
    Mr. Lewis. You're welcome to come up----
    Mrs. McCarthy of New York. No, no. And I'm sorry that I 
will not be spending more time with you. It's been a pleasure 
watching, though, and being here with you this past year. I'm 
going to be very brief so the mayor can have his opportunity.
    I want you to know that Mayor Garner and I have been 
working very closely in the town of Hempstead. It's a place 
that I certainly grew up in when I was a child. The Mayor is a 
Republican and has taken care of his people and very proud to 
be here as a bipartisan----
    Mr. Lewis. Oh, my God, are you----
    [Laughter.]
    Mrs. McCarthy of New York. That just shows that we work 
together very well----
    Mr. Lewis. We do in this committee, I can tell that right 
now.
    Mrs. McCarthy of New York. So, Mr. Chairman and members of 
the Subcommittee, thank you for the opportunity to introduce 
one of Long Island's most distinguished public servants, Mayor 
James Garner of Hempstead Village.
    Mayor Garner was first elected to the Village board of 
trustees in 1984 and elected mayor in 1989, becoming Long 
Island's first African-American mayor. As a successful 
businessman and dedicated public servant, Mayor Garner has been 
a champion for improving the quality of life in Hempstead. He 
has fought against drugs by establishing a police active leave 
and DARE program for Hempstead's youth. The Mayor has also 
reinvested more than $50 million for improved housing, 
education, transportation and job opportunities.
    Unfortunately, the Village of Hempstead faces an emergency 
water problem that threatens our constituents' drinking water 
supply and jeopardizes the Village's ability to fight a major 
fire.
    In the interest of being brief, Mr. Mayor--Mr. Chairman and 
members of the Subcommittee, allow me to say thank you once 
again for inviting us here this morning and introduce an 
outstanding advocate for the health and safety of Hempstead's 
citizens.
    Mayor Garner.
    Mr. Lewis. Mayor Garner, you're welcome to speak. Anything 
that you want to add to the record, we'll put it either in the 
file or the record. You're welcome to expand it if you'd like.
    Mayor Garner. Thank you.
    Thank you, Mr. Chairman, and thank you, members of the 
Committee.
    Again, my name is James Garner and I'm the Mayor of 
Hempstead, Long Island, of which Congresswoman Carolyn 
McCarthy's office is located in Hempstead and I just want to 
make sure the drinking water is of good quality. I appreciate 
your allowing me to keep the floor with you today. At the 
request of Congresswoman McCarthy, I appreciate her interest in 
the Village.
    We are located in Nassau County, which is in the center of 
Long Island, and 26 miles east of Manhattan. Hempstead is the 
largest village in the State of New York and, in many ways, is 
much more like a medium-sized city than a village.
    The Village population according to the U.S. Census Bureau 
is 50,500 but I can tell you, as a person who walks the streets 
of the Village of Hempstead and sees the records for the amount 
of residential water and sewer flows, that the population is 
closer to 70,000.
    Hempstead Village is the terminus for the central line of 
Long Island Railroad and makes us the transportation center for 
the County. Because the Village is the center for many of 
Nassau County's social service agencies and public 
transportation, the Village has become home for many new 
immigrants who have come to the greater New York City area. Our 
population is very diverse: 65 percent African-American, 10 
percent Caucasian, and 25 percent Latino.
    The growth of Long Island following the Civil War saw the 
Village become the center of retail shopping for the County. 
The construction of one of the largest shopping malls in the 
County north of the Village during the 1960's resulted in the 
loss of revenue and the tax base in the 1970's and the 1980's. 
Overnight, the Village began to change. Major retail stores 
relocated to shopping centers and families began to relocate in 
other nearby towns. The traditional demands for social services 
increased at the same time the tax revenue decreased.
    During the past eight years, we have begun to turn the 
tide. The Village has attracted new development and began to 
rid itself of drugs and crime activity, which scared away 
citizens. Unfortunately, while all of these other problems were 
mounting, the Village infrastructure was also beginning to 
decay. And, one of the problems, Mr. Chairman, is our water. 
That's the essence of my coming here today.
    We have a water plant that's really aged over the years. As 
a matter of fact, the last well that was built, it was built in 
1967. At that time, the population was approximately 26,000 
people. And, as I've mentioned in my opening statement, we're 
up to 70,000 because Hempstead is mecca for a lot of 
immigrants, specifically coming out of the Central American 
area.
    Our century old water supply system suffers from age and 
the threat of groundwater contamination. The risk of vandalism 
also adds to our concerns about the system because of the 
perverse nature of some individual behavior these days and the 
proximity of open water treatment facilities to a major 
thoroughfare running through the Village and other public areas 
near the plant.
    Nassau County Health Department data show that since 1994 
Hempstead has the greatest concentration of residents in the 
County affected by the pathogens, cryptosporidium and giardia 
in the County. The Village drinking water wells are at risk 
from industrial hazardous waste in a groundwater plume moving 
toward the Village from Roosevelt Field. The sources of 
pollution are suspected to be several industrial sites and 
Mitchell Field, a former Federal airbase and Charles 
Lindbergh's departure point on his transatlantic flight to 
Paris. These sites are one mile from the Village limits.
    Hempstead has already been impacted by groundwater 
contamination and has been treating water from two of its wells 
for 10 years. Last spring, three of Hempstead's nine wells were 
impacted by the movement of the plume. At the time--at times, 
last summer, the Village would not have been able to 
effectively fight a large building fire because of the low 
water supply. The lack of an adequate water supply also is 
having a negative impact on the Village's economic development 
program. Covering the basins will protect the drinking water 
supply and new aeration nozzles will provide more efficient 
removal of volatile organic compounds from the water and 
oxidation of iron in the water supply.
    Again, Mr. Chairman, I'd certainly like to thank you for 
inviting us and what we are asking for--we are asking for $10 
million to remedy this problem and certainly I want to thank 
Congresswoman Carolyn McCarthy for allowing me to come and 
speak before this committee. Hempstead--we're going through a 
revitalization. We've been doing that since 1989, trying to 
create a better tax base. Our tax base has eroded over years.
    Hempstead, again, is a large village on Long Island, every 
major road leading through Long Island. We're the 
transportation center on Long Island; the bus terminal isthere, 
the train station ends and begins in the Village of Hempstead.
    So, I would certainly appreciate anything that you can do 
for the people of Hempstead.
    Mr. Lewis. Your Honor, we appreciate you coming and it's a 
pleasure to try to work with you on this matter. We have, to 
say the least, not received our budget allocations yet but we 
will be looking at items like this to see if we can be of 
assistance.
    Mr. Stokes.
    Mr. Stokes. It's been a pleasure to meet Mayor Garner and 
to have Mrs. McCarthy come to the hearing this morning and it 
certainly is a terrible thing. We'll do whatever we can to 
help.
    Mrs. McCarthy of New York. I would just like to add that, 
as a young child, I went to Hempstead. You know, that was the 
shopping center of the world. It was a thriving area. What 
Mayor Garner has done over the last several years, which has to 
be done in our areas that have, unfortunately, had fallen on 
hard times, he is changing the whole town around. He's giving 
people a sense of pride of being there and I think that's 
important.
    The water problem is more difficult, even because we have 
the highest rate of breast cancer. And, unfortunately, our 
African-American women are really suffering with this. We 
haven't found the proof, obviously, and we're doing a study. I 
do believe it's coming hard on them and I just think it's so 
important to try and help the Mayor, to bring this town back--
to give the people their pride back, but I'm also looking at it 
for the children. I think that's important. I thank you for 
your time.
    Mr. Lewis. Thank you very much, again, for being with us.
    Mayor Garner. Thank you, we appreciate it.
    Mr. Stokes. Right.
    Mr. Lewis. Thank you.
    [The information follows:]



[Pages 1790 - 1794--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

  ENVIRONMENTAL PROTECTION AGENCY, HOUSING AND URBAN DEVELOPMENT, AND 
                           VETERANS' AFFAIRS

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Lewis. Mr. Bereuter, you're the next in line, although 
there are two other people who are supposed to be here. You're 
welcome.
    Mr. Bereuter. Thank you, Mr. Chair.
    Mr. Lewis. Your entire statement will be included in the 
record, Mr. Bereuter, and we're happy to have you here.
    Mr. Bereuter. Thank you, Chairman Lewis, Mr. Stokes. I want 
to briefly talk to you about four subjects.
    The first is the rural water training and technical 
assistance program, an EPA program. Small villages and cities 
do not have the labs, resources of larger cities to meet 
Federal Safe Drinking Water Act requirements. The technical 
assistance that's being provided now to some extent on the 
``circuit rider'' basis--taking a crumb out of the old pioneer 
days in a religious community--is a way to provide that kind of 
assistance.
    You may remember, Chairman Lewis, I sent you a letter last 
year from 47 members----
    Mr. Lewis. Yes.
    Mr. Bereuter [continuing]. Taking the lead on this floor, 
this EPA program, and we're going to give you something similar 
to that number this year of Members of the House whose 
districts are very dependent upon this kind of technical 
assistance.
    EPA has just issued a report saying that the improvement in 
compliance in small communities is much, much higher now and I 
think in no small part it's because of the technical 
assistance. I think it's particularly important that this 
common crew stay a State and local effort and it is not 
something that can be done by EPA technicians. So, I think a 
``circuit rider'' approach is one that's going to be very 
successful.
    Second, the Indian Housing Loan Program. As you know, this 
is almost a demonstration program. Yet, I am the author of the 
legislation, I had a lot of bipartisan support. It is the first 
program, I might say in some modesty but not too much, that's 
providing privately financed homes through a loan guarantee 
program on our Indian reservations. We had a trust territory 
impediment for the local financial service community to 
participate in the past.
    Let me give you just a couple of examples in the way of 
summing up here. HUD reported that of the approximately 338 
closed loan projects, none are in default. HUD further 
estimated there are approximately 150 loans pending in the 
pipeline and the use of this program continues to expand. Thus, 
the $6 million appropriation should facilitate over $68 million 
in guaranteed loans. Some Indian tribes are just discovering 
the program now. Others have been well along in using this 
program to give unprecedented cooperation between the financial 
service sector to help Indians actually purchase or build a 
home on a reservation. And, it's a marked contrast to what 
they've had to rely on which is strictly public housing.
    Third, Community Development Block Grants, and I'm going to 
say something here that you're not going to hear all the time. 
I continue to oppose, in principle, the practice of carving out 
special projects or earmarking grants out of the CDBG fund that 
was reinstituted last year under the guise of the Economic 
Development Initiatives program. I gather that's primarily a 
Senate initiative.
    Now, speaking very candidly to you as somebody must, HUD 
Secretary Cuomo even has some of the private initiatives being 
funded from the CDBG program. For example, Secretary Cuomo 
proposed giving the section 202/811 program to the States to 
administer, supposedly out of CDBG and HOME funds. When the 
Secretary's Discretionary Fund dries up, he turns to the CDBG 
to fund his private initiatives through earmarks. This is wrong 
and Congress should stop this kind of raiding.
    If, in fact, the rules of the game include earmarking for 
special projects, I believe all communities will suffer because 
this practice decreases the block grant funds available to all 
communities. However, reluctantly I have to say that if the 
game is played that way, I need to play that way too to be fair 
to my constituents. So, I have a proposal here for you that is 
very valid.
    As an urban planner by training, I can bore you with 
details about why this is a very important program, part of a 
much larger program. But, I'll spare you that situation today.
    Mr. Lewis. I promise you I will not hold up your request. 
[Laughter.]
    Mr. Bereuter. I hope that you bring some sense to the 
Senate. I think we've got to stop this raiding. I think things 
are not going well in the Department, I think there's far too 
much raiding of resources that belong to the communities of 
this country, whether they're entitlement communities or those 
that compete with State agencies.
    Fourth and finally, nothing I'm asking----
    Mr. Lewis. It's a good message, though. Very important 
message.
    Mr. Bereuter. Thank you.
    I'm not asking you to fund anything on this one, I'm just 
asking you in the fourth area to use your persuasion if you can 
in the area of the veterans.
    There's something called the Veterans' Equity Resource 
Allocation system, or VERA. It has very marked adverse effects 
upon sparsely settled parts of the Nation. It is based strictly 
on a per-capita distribution of funds in these hospital 
networks that are created.
    And I want to tell you that I think you might agree just on 
equity that no matter where a veteran lives in this country, 
there ought to be at least a minimal acceptable level of health 
service for those who live there.
    We are hurting greatly and I have asked for this blunder to 
be changed. In the meantime, while we get promises, it means 
that we have less and less money. So, I ask you, in addition to 
the authorizing committee, to use your persuasive powers to get 
the Department of Veterans' Affairs to have a more equitable 
formula, so the people who happen to be veterans in Wyoming and 
Alaska and Nebraska at least have an adequate level of service.
    Thank you very much.
    Mr. Lewis. Thank you very much, Mr. Bereuter. We, first, 
very much appreciate your attention to the detail which 
normally is your style and your concern about public policy. It 
has been my experience over 20 years.
    Mr. Stokes.
    Mr. Stokes. I also appreciate this testimony and, Doug, as 
always, is very thoughtful and very considerate and such a 
different nature. As you say, it does give us all something to 
think about. Thank you very much.
    Mr. Bereuter. Thank you, Mr. Stokes----
    Mr. Lewis. Thank you.
    Mr. Bereuter [continuing]. And Mr. Chairman.
    Mr. Stokes. It's a pleasure.
    Mr. Bereuter. Chairman Lewis, I appreciate your difficult 
task.
    Mr. Lewis. Thank you very much, Mr. Bereuter.
    Mr. Bereuter. Thank you.
    Mr. Lewis. Thank you.
    [The information follows:]


[Pages 1798 - 1800--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

HON. WILLIAM J. COYNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
HON. MICHAEL DOYLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
HON. FRANK MASCARA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Lewis. Let's see, Mr. Coyne, Mr. Doyle, and Mr. 
Mascara, all here? Come up, gentleman. We love to have a panel 
shown together. [Laughter.]
    I would suggest that, since the three of you have been 
chatting, you can proceed as you will. We'll be glad to receive 
your testimony. Your entire statements will be included in the 
record.
    Mr. Coyne. Thanks, Mr. Chairman.
    Mr. Lewis. Mr. Coyne?
    Mr. Coyne. Thank you, Mr. Chairman. I want to take time to 
share here today with my colleagues, Congressman Doyle and 
Congressman Mascara, our thoughts on a project that's very 
important to us.
    First of all, we'd like to thank the Subcommittee for its 
support for the Three Rivers Wet Weather Demonstration Project 
in the VA-HUD bill last year and to ask you and the Ranking 
Member, who was so helpful to us last year, for additional 
assistance for this critical project in fiscal year 1999.
    More than 80 communities in Allegheny County are under EPA 
orders to eliminate sanitary sewer overflows, SSOs, from their 
sewer systems. The cost of accomplishing this task, if 
undertaken using traditional approaches, would be astronomical. 
Consequently, the Allegheny Sanitary Authority has been working 
to develop non-traditional solutions that could eliminate the 
SSOs at a much lower cost.
    Last year, ALCOSAN, which is the abbreviation for the 
Sanitary Authority, developed a proposal for a demonstration to 
design, construct, and evaluate a range of possible solutions 
to the SSO problem, including incentives to reduce sewage 
volume and promote cooperation between municipalities in the 
area. The project is expected to produce solutions that could 
be applied in communities with similar problems around the 
country.
    Last year, we asked for $2.5 million to be included in the 
fiscal year 1998 VA-HUD appropriations bill. The final bill 
included $1.75 million for the Three Rivers Wet Weather 
Demonstration Project which, along with $500,000 provided in 
the Corps of Engineers budget, provided enough money for the 
project to get underway.
    This year, we ask the Subcommittee to include $25.25 
million for the Three Rivers Wet Weather Demonstration Project 
in a fiscal year 1999 VA-HUD-Independent Agencies 
appropriations bill.
    My colleagues, Mike Doyle and Frank Mascara, would like to 
briefly add their thoughts on the need for this important 
project and funding. Thank you, Mr. Chairman.
    Mr. Lewis. Okay.
    Mr. Doyle. Thank you, Mr. Chairman----
    Mr. Lewis. Proceed as you will.
    Mr. Doyle. I'd also like to thank you, Chairman, and 
Ranking Member Stokes, for the opportunity to come before you 
today to outline my priorities within the jurisdiction of this 
subcommittee.
    It's an honor to associate my remarks with my colleagues 
from western Pennsylvania, Bill Coyne and Frank Mascara, and I 
want to extend my sincere appreciation to the Subcommittee to 
recognizing the critical nature of the sanitary sewer overflows 
in Allegheny County and appropriating funding in last year's 
budget. Federal support in the 1999 budget for the Three Rivers 
Wet Weather Demonstration Program, which was developed by 
ALCOSAN and the Allegheny County Health Department, is 
absolutely critical if affected communities are to remedy the 
existing sanitary sewer overflows in a cost-effective and time 
efficient manner.
    Without such assistance, this difficult situation is likely 
to escalate and result in higher sewer rates, not improved 
water quality. The vast majority of these communities are small 
in population and are without the financial wherewithal to 
eliminate their SSOs on their own.
    In addition to the cost factor, these communities are in 
need of technical assistance. As structured, the Three Rivers 
Wet Weather Demonstration Program addresses both of these needs 
in a comprehensive and coordinated manner. The requested amount 
for fiscal year 1999, $25.25 million, for Three Rivers Wet 
Weather Demonstration Program will not only help eliminate the 
SSO in our communities, but will serve as a successful model 
for the rest of the country. In other words, support for this 
request is a low-risk sound investment.
    Thank you for inviting me to testify today. I appreciate 
your serious consideration of our request, and Representative 
Mascara will conclude our testimony.
    Mr. Lewis. Thank you, Mr. Doyle.
    Mr. Doyle. Thank you for hearing my testimony.
    Mr. Lewis. Mr. Mascara?
    Mr. Mascara. Thank you, Chairman Lewis, Ranking Member 
Stokes, for this opportunity to testify before you on behalf of 
the Allegheny County Sanitary Authority concerning its great 
need for Federal assistance in meeting Clean Water Act 
standards.
    ALCOSAN treats the wastewater of nearly a million people 
living in 80 communities in the Pittsburgh region that were 
progressive enough, nearly 50 years ago, to join together to 
clean up the three major rivers in our region.
    And let me personally attest to the fact that they need 
cleaning. I spent my childhood years along the Monongahela 
River in the heyday of the coal and steel production. Back 
then, our communities dumped raw sewage directly into the 
rivers. I swam in those rivers and, let me tell you, I was 
paddling through a lot more than just water. Nobody knows 
better than I the important role that ALCOSAN played in the 
early cleanup of our rivers and streams in southwestern 
Pennsylvania.
    Mr. Lewis. It turns your hair grey.
    Mr. Mascara. Yes, it does. [Laughter.]
    When ALCOSAN was created in 1940, it was one of the most 
progressive, regional clean water systems at that time when the 
rest of the Nation gave scant attention to these matters. It 
was a very effective partnership with extensive coordination 
among Pittsburgh and many of the outlying rural communities.
    Now ALCOSAN struggles to comply with new EPA standards, 
incurring fines for flow control once approved. It is 
imperative that we commit funding to assist the region and 
restore its heritage of exemplary public health service.
    And, I thank you.
    Mr. Lewis. Let me say that we appreciate very much your 
being here.
    As you know, as the budget allocation comes forth, we'll be 
measuring the broad prospects. Last year, in terms of your 
project, we ended up doing our work actually by way of the 
Senate and through the conference. We have to actually measure 
carefully what happens with our rule; we certainly don't want 
to have your project be somebody's target. But, in the 
meantime, we look forward to working with you and we'll try to 
help.
    Mr. Mascara. Thank you, Mr. Chairman.
    Mr. Stokes. I'd just like to thank all three of the 
gentlemen for their presentation here. I'm very much aware of 
your project, having worked on it with you last year, and we'll 
certainly be endeavoring in every respect to try and 
accommodate your needs this year.
    Mr. Coyne. Thank you.
    Mr. Doyle. Thank you.
    Mr. Mascara. Thank you, sir.
    Mr. Lewis. Thank you very much, gentlemen.
    [The information follows:]



[Pages 1804 - 1807--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

 FERNBANK SCIENCE CENTER, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

HON. CYNTHIA McKINNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA
    Mr. Lewis. The Chair had indicated earlier that we are 
going to stick to the list as it is outlined, and, as people 
come in, if they're here, they'll be called up. And Ms. Waters 
is next on our list and she just walked in.
    Wait a minute. Excuse me. I'm wrong. Ms. McKinney is next 
on my list and she's at it.
    I'm not going to get you two women mixed up. [Laughter.]
    Cynthia, that's not funny. [Laughter.]
    Ms. McKinney. I'd be----
    Mr. Lewis. Your entire statement will be included in the 
record and you can expand on it if you like.
    Ms. McKinney. Thank you very much, Mr. Chairman and Mr.----
    Mr. Stokes. Good morning.
    Ms. McKinney [continuing]. Good morning, Mr. Lou Who----
    [Laughter.]
    Mr. Stokes. Mr. Lou Who----
    Ms. McKinney. It's an inside joke. [Laughter.]
    Mr. Chairman, thank you very much for letting me come here 
this morning. I am interested in securing funding for the CEMA 
program in the Teacher Center for Georgia's fourth 
Congressional District for Georgia and for our region.
    Our area is one of robust population growth, it is the most 
ethnically diverse district in the entire southeast. DeKalb 
County has embraced this infusion of population from all over 
the United States and all over the world by currently planning 
an international village to celebrate diversity, building an 
unprecedented number of new schools to accommodate this growth, 
planning and infrastructure, and teacher investment to cope 
with the growth and number of students, as well as the growth 
in diversity of the student population. The fourth district is 
an education district for the adult population is one of the 
best educated populations in the entire State of Georgia.
    Thirty years ago, the homeowners of DeKalb County decided 
to fund the Fernbank Science Center. This center is unique in 
that it's the only one of its type found funded locally at a 
school district.
    Fernbank has a 500-seat planetarium, an observatory with a 
36-inch reflecting telescope, a space science department with 
an electron microscope, a program that provides science 
education to students from all over Georgia, and, indeed, all 
over the globe. The Distance Learning program collapses space 
and time; via the Internet, students in Atlanta link with 
students in Georgia with other students all over the world.
    What Fernbank has accomplished is exciting but Fernbank can 
do much more for science education opportunity in Georgia. We 
know, for instance, that Georgia still lags behind the country 
in science education and in test scores. Unfortunately, still, 
the United States ranks fairly low in math and science 
abilities of our own students and U.S. minorities lag ever 
further behind.
    Fernback Science Center is poised to improve student 
performance on all three levels because of its unique location 
in an area of growing ethnic diversity, its excellent 
facilities and distance learning, and promotion of science 
education statewide and nationwide.
    We're asking for three programs to be located in Georgia; 
the CEMA program, a teacher center, and the Globe program. 
Finally, the amount we're requesting is $900,000 over three 
years. This would fund the teaching center and the CEMA 
program.
    I believe the residents of the fourth district have 
demonstrated their readiness and willingness to participate in 
and fund science education willfully. With NASA's partnership, 
children all over our State and our country can benefit from 
NASA's science education program.
    Mr. Lewis. Okay. Ms. McKinney, we've had a lot of work over 
the years with NASA and educational programs like this. If you 
ask your staff person this, when you focus on this, for you to 
contact our office, we might very well connect them to one of 
the major antennae by way of your computers and classrooms----
    Ms. McKinney. Okay.
    Mr. Lewis. It'd be very interesting effort to connect 
Georgia with southern California----
    Ms. McKinney. Oh, great----
    Mr. Lewis [continuing]. Why not do that?
    Ms. McKinney. Great, great.
    Mr. Lewis. We do it with third graders and they teach each 
other----
    Ms. McKinney. Great.
    Mr. Lewis [continuing]. Terrific--Mr. Stokes.
    Mr. Stokes. The program he's talking about is an excellent 
program and he and I have interacted on that program, a number 
of years ago. It's something that you should follow through on 
because----
    Ms. McKinney. Okay we will.
    Mr. Lewis. It'd be very interesting.
    Mr. Stokes. Definitely try to work it out.
    Ms. McKinney. Great. Thank you.
    Mr. Lewis. Thank you very much, Ms. McKinney.
    [The information follows:]


[Pages 1810 - 1811--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. MAXINE WATERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Lewis. The gentlelady from southern California.
    Mr. Stokes. Nice to see you. Good morning.
    Ms. Waters. Thank you. How are you doing?
    Mr. Lewis. All right.
    Ms. Waters. I'd like to thank you.
    Mr. Lewis. Your entire statement will be included in the 
record and you can just summarize, if you will.
    Ms. Waters. Thank you. First, let me say, Mr. Chairman, 
that I appreciate the opportunity to be here and I must say 
that this may be the last time that I get an opportunity to 
come and ask the Ranking Member----
    Mr. Lewis. Mr. Lou----
    [Laughter.]
    Ms. Waters [continuing]. Congressman Stokes----
    [Laughter.]
    Mr. Lewis. Mr. Lou----
    Mr. Stokes. Mr. Lou----
    Ms. Waters [continuing]. For some help. [Laughter.]
    So, I want to say to him, I want to thank him for all of 
his service and the assistance that he's given to so many 
Members and let him know how much I appreciate the time and 
effort that he's put into his job and his responsibility here--
--
    Mr. Stokes. Thank you very much.
    Ms. Waters. Even though I know that you will be leaving us, 
I'm not satisfied and I wish you weren't. [Laughter.]
    Mr. Lewis. You think you've got a problem, look at mine.
    Ms. Waters. Yes, that's right----
    [Laughter.]
    Well, I've come this morning to urge the Committee to fund 
all of HUD's programs. I would like to focus on a few of the 
programs that I think will revitalize our distressed 
communities.
    The President's budget includes a proposal for about $400 
million in budget authority to create a new economic 
development program called the Community Empowerment Fund. I 
think that's very important. This program would combine two of 
the existing programs in HUD; the Section 108 Loan Guarantee 
program which I've paid a lot of attention to and the Economic 
Development Initiative.
    The program combines loan guarantees with critically-needed 
equity capital for localities to engage in economic 
development. It is clear to me that if we are to help 
distressed communities, if we are to grow, a community's 
economic development is the key. It is the answer. With all 
that we are doing with welfare reform, it is extremely 
important that we do job creation through economic development 
so this emerges as an extremely important program.
    Let me just say that there is one little caveat, and 
there's nothing we probably can do about it here. I don't like 
the idea that Section 108 loan guarantee money is used for 
housing. I think that we should--we have got a lot of housing 
resources, and, of course, we need more. And we should keep 
those targeted for housing, but I think this should be purely 
economic development money. And some of our cities, when they 
get this money, it goes right off into their housing because 
you can use it for either/or, when, in fact, you can develop 
all of the housing that you want--and we need more low-income 
housing--but if you have communities where you are beginning to 
use your commercial strips to develop housing and you don't 
have commercial development to go along with it, all you are 
doing is creating ghettos.
    Mr. Lewis of California. Well, let me suggest Ms. Waters--
--
    Ms. Waters. Yes.
    Mr. Lewis of California. You have added your voice to many 
voices suggesting we do need an authorization bill that might 
be able to address some of these questions.
    Ms. Waters. Alright, okay, alright. So that is very 
important to me. We believe that we can create 280,000 jobs. 
Work vouchers are extremely important. Many of the jobs have 
been created increasingly in suburbs and areas where it is hard 
to get transportation back and forth, but they are housing 
opportunities. Much of the housing that is being created 
increasingly in the outlying areas could be good housing that 
could be used for those who are seeking jobs, and we could 
match up the housing with the jobs and that is important.
    I would like for you to fund the Welfare to Work vouchers. 
Housing for people with AIDS, treatments for those living with 
AIDS have greater need for long-term housing. And the budget is 
$225 million, 10 percent increase over the 1998 levels, over 
74,000 individuals served by this program.
    I would urge you to continue your commitment to renew all 
the expiring section 8 contracts through the year 2002. HUD's 
request for $7.2 billion to renew the 2 million units expiring 
in 1999 will allow Congress to make good on their commitment.
    I would like to thank you for your work. I think we do have 
a statement that we will submit for the record.
    Mr. Lewis of California. Thank you very much, Ms. Waters, 
appreciate your being with us.
    Ms. Waters. You're welcome.
    Mr. Stokes. Mr. Chairman, let me just thank my chairperson, 
Ms. Waters, for her testimony here this morning. The areas in 
which she has testified this morning, that section 108 program, 
in particular, is an area where she has been a leader, and this 
legislation comes about as a result of her leadership. And I do 
not know of anyone in Congress that knows more about the 
economic development in that area, particularly using 
financing, better than she. So I appreciate very much your 
testimony this morning.
    Ms. Waters. Thank you very much.
    Mr. Lewis of California. We appreciate your being with us, 
Maxine.
    Ms. Waters. Okay, thank you.
    [The information follows:]


[Pages 1814 - 1816--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. FRANK LUCAS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
    Mr. Lewis. Frank? Mr. Lucas? You have been more than 
patient. You were ahead of time and we appreciate it.
    Mr. Lucas. Thank you, Mr. Chairman.
    Mr. Lewis. It is going to be a long day but we are glad to 
see you. You, too, Doc.
    Mr. Lucas. Absolutely, sir. And I ask consent that Mr. 
Istook of Oklahoma and Mayor Kirk Humphreys of Oklahoma City 
statements be included in the record at this hearing.
    Mr. Lewis. They will be included, thank you.
    Mr. Lucas. Thank you.
    Mr. Lewis. Actually, that just cuts back the time we spend 
and your testimony is appreciated.
    Mr. Lucas. Absolutely, sir. Absolutely. If I can quote from 
a book, I think, that came out shortly after the bombing, from 
a 10 year old boy in Norman, Oklahoma, Eric Charles Baker, Mr. 
Chairman, ``I dreamed that all the babies and people that died 
in the explosion came down from heaven to help fix the 
buildings and find all the victims and survivors. They helped 
people's hearts so they could build the buildings the way they 
were before the bomb, then they brought down roses on their 
wings so they could be planted all around and honor the 
victims, the firemen, the rescue workers, and all the friends 
that helped. They stayed until it was done and, as they left, 
the babies told the people never to let this happen again.''
    Last Sunday was the third anniversary of the Oklahoma City 
bombing. As a Member of Congress who represents the downtown 
area, I have been asked by the City fathers and mothers to come 
to this subcommittee to request additional funds to continue 
the efforts to make Oklahoma City whole again. And I do that on 
behalf of my colleague, Mr. Istook, Mayor Humphreys, Eric 
Baker, my city, State, and our Nation.
    In the second supplemental bill of 1995, there was included 
$39 million to help in Community Development Block Grants to 
assist Oklahoma City in recovering from this man-made tragedy. 
Since then, it has become quite clear that it was difficult to 
gauge the true nature of the tragedy, the true cost of the 
rebuilding effort and that is why I am here today is to request 
first, grant money to use to rebuild, and also money to help 
re-establish business in the bomb ravaged area.
    On the 23rd of this month, there is an approximately $6.6 
million shortfall to building costs and the issue of economic 
revitalization has only been minimally addressed. And that is, 
to be honest with you, Mr. Chairman, as I look out of the 
windows of my office in downtown Oklahoma City I can still see 
buildings that have plywood nailed up over the windows left 
over from that event. That is, as much as anything, that brings 
me here is a request to you to finish the process that we began 
as a result of that tragedy. And all of us who were there and 
saw that, well, we will be impacted for a very, very long time.
    And I appreciate the assistance of the subcommittee in the 
past and respectfully request further consideration.
    Mr. Lewis. Mr. Lucas, you have been very responsible in the 
way you present a request to us over time. And, as you know, I 
was there just after the bombing occurred. It was indeed a 
tragedy for the whole community. We will continue to work with 
you and appreciate the two-way input that has been a part of 
this process as a result of your work.
    Mr. Lucas. Thank you, Mr. Chairman.
    Mr. Lewis. Mr. Stokes.
    Mr. Stokes. Chairman, I would just like to say, I think the 
whole Nation was moved by the spirit of the people of Oklahoma 
City after this tragic occurrence. I had the occasion to be out 
there. I have never seen people who were undergoing the healing 
process in the way that they were doing. It was something to 
behold, to see the whole healing process taking place after 
what they had undergone. And so we can certainly empathize with 
what you are talking to us about, and certainly are going to 
try to do whatever we can to help.
    Mr. Lewis. Mr. Stokes, it has to be noted that Mr. Lucas, 
when he arrived today, he was not asking for very much money 
but he wore his UCLA tie, which is really incredible. 
[Laughter.]
    Talk about sensitivity.
    Mr. Stokes. What a good statement. [Laughter.]
    Mr. Lewis. It is great to see you, Frank.
    Mr. Lucas. Thank you, gentlemen.
    Mr. Lewis. I will take that tie any day.
    [The information follows:]


[Pages 1819 - 1828--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. WILLIAM F. GOODLING, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF PENNSYLVANIA
    Mr. Lewis. We are proceeding by following the list as they 
are presented. And the next on our list--that just walked in 
the door--Mr. Goodling? Bill Goodling, you are up.
    Welcome, Mr. Goodling. Your entire statement will be 
included in the record and you can be as brief as you like. 
[Laughter.]
    Mr. Goodling. I am waiting for my people from back home----
    Mr. Lewis. Is that right?
    Mr. Goodling [continuing]. To see you in action. I paid big 
bucks----
    Mr. Lewis. You in action, my friend, you in action.
    Mr. Goodling. Well, I thank you very much for the 
opportunity to testify. We have a very interesting situation 
back in the district in that the City of York has large 
overcapacity in their sewage treatment area, and it will remain 
that way simply because of York City not being able to expand. 
However, right outside of York City you will discover that 
Springettsbury Township, on your map, is having the opposite 
problem.
    And, as a matter of fact, our Department of Environmental 
Resources. Well, it is not DER anymore, it is DED, I think. At 
any rate, they determine that Springettsbury facility is 
hydraulically overloaded, and they have ordered further hook-
ups in Springettsbury Township be severely restricted. Now what 
that has meant to Springettsbury Township, which is--was a 
booming area----
    Mr. Lewis. Kind of closed it down.
    Mr. Goodling [continuing]. All of sudden leadership in 
Springettsbury Township have to say, ``no more expansion, no 
more development.'' And so now, of course, they discover daily 
people requesting to come into the area and they have to turn 
them down. And it is just a tragic situation because York is 
right next door and could really help solve this problem.
    So what is needed, very simple, yet effective, would be--
which would directly benefit the 150,000 residents of York 
County and spur the growth of that region again. And when I 
talk about that region, we are talking about growth such as the 
Caterpillar, and Harley Davidson, and so on, that came into the 
Springettsbury Township over the years. But what they need is 
to be able to hook to the York system. And all that is required 
is the construction of a small connector pipeline between the 
two facilities.
    The Federal request--Federal participation has helped to 
achieve that goal, and it is pretty modest. The total project 
cost of diverting Springettsbury flow to York is approximately 
$6.6 million. This figure includes legal engineering and 
administrative costs, and the estimated Federal share of the 
project would be about 55 percent, $3.63 million. Communities 
that are involved here are absolutely committed to contributing 
their share to the whole project.
    Another benefit of our proposal that can be completed in a 
short amount of time, which is very, very important, in 
connection to the system is much smaller in scope than would be 
the expansion of their present system. That would take forever 
and an awful lot of money. I think something like $46 million.
    Mr. Lewis. Is there cooperative agreement?
    Mr. Goodling. Pardon?
    Mr. Lewis. York is willing to participate?
    Mr. Goodling. Oh, yes, yes, no question. So the major 
economic benefits are great and the positive effect that it 
would have on the environment is also great. So I hope that we 
can get some help because they are really in dire need at the 
present for that kind of help.
    With me, I have representatives from Springettsbury 
Township who have to deal with this problem every day and every 
day.
    Then I would just shift gears to the little Borough of 
Delta, which is down in the very end of my district. They have 
been told by our environmental protection people that they no 
longer--they must go into a sewage treatment program. They no 
longer can have their normal house by house waste treatment 
program.
    To that little community, a dollar means an awful lot. They 
need about $500,000 to help them complete a $2.8 million 
project. Now the amazing thing about that is right across the 
border is Maryland, and because the demand in Maryland is not 
as great as in Pennsylvania to get block grant money, Delta 
cannot get any from Pennsylvania, and those residents then see 
the Maryland people having great benefits from the Federal tax 
dollars that they cannot get. And it is a real mess. And, 
again, that is about a $500,000 program.
    Mr. Lewis. What is the distance between Delta and the 
Maryland line?
    Mr. Goodling. They go right against each other.
    Mr. Lewis. They do?
    Mr. Goodling. Right against each other.
    Mr. Lewis. Okay.
    Mr. Goodling. So the people sitting on this side of the 
street say, ``Now, wait a minute.''
    Mr. Lewis. I understand.
    Mr. Goodling. How come Maryland is getting this----
    Mr. Lewis. Okay, Mr. Goodling, we will talk further about 
this.
    Mr. Goodling. Good.
    Mr. Lewis. Okay.
    Mr. Goodling. I will appreciate it and, as I said, I cannot 
overemphasize a problem that could be settled pretty quickly 
with very little money in relationship to what it would cost if 
Springettsbury--were they would have to try to expand their 
system.
    Mr. Lewis. Mr. Goodling, your entire statement will be 
included in the record. We appreciate your taking the effort to 
come, and appreciate your guests as well.
    Mr. Goodling. I will appreciate it. Very good.
    Mr. Lewis. Thank you.
    Mr. Goodling. You will hear from me.
    Mr. Lewis. We will be chatting.
    Mr. Goodling. Thank you.
    [The information follows:]


[Pages 1832 - 1835--The official Committee record contains additional material here.]



                                           Thursday, April 23, 1998

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Lewis. Doc Hastings.
    Mr. Hastings. Thank you, Mr. Chairman, for the opportunity 
to be here.
    Mr. Lewis. It is good to see you, Doc.
    Mr. Hastings. You are allowing the records to be full 
statements?
    Mr. Lewis. I will include your entire statement in the 
record, and you can just briefly tell us what you like.
    Mr. Hastings. Briefly, let me tell you, this is the big 
part of the Columbia Basin Project, which is this part of 
Washington State. And, just to kind of put things into 
perspective, here is where Grand Coulee Dam begins. The reason 
I say that, Grand Coulee Dam, the water behind Grand Coulee 
Dam, irrigates all of the Columbia Basin Project. This has been 
going on for some 40 years. And there has been in the past 
several years, and by the way, these dots are wells where they 
have taken tests on wells, and they have seen that the nitrate 
level has come up. They think part of that is because of the 
irrigation practices, and that, indeed, may be true.
    So the response of EPA initially was to declare all of this 
area a ``sole-source aquifer,'' which, frankly, did not make 
any sense because there is so much diversity here. There is no 
single aquifer. In fact, I can, right here, Moses Lake, within 
about two miles, there were two potato plants that were 
drilling down to hit an aquifer and within a mile or two there 
were two different aquifers.
    So EPA kind of backed away and they allowed for the 
counties then to look at the nitrate problem on their own. The 
State Department of Ecology sanctioned a Groundwater Management 
Area. That is essentially this, these, well, actually all of 
this area right in here. It has been funded partially by the 
State, and partially by local governments. We are asking for 
some money to come out of the Environmental Programs and 
Management budget for a Federal match to study this and come up 
with solutions to this program. The county commissioners in 
these counties are all involved in that. They are anxious to 
work to get this thing done.
    And you are from the West, like I am from the West, we know 
when sometimes EPA comes in with an edict, an unfunded mandate, 
and kind of sends chills through our spine. And so they want to 
do this. EPA has cooperated to this point. So what I would 
request is $1.948 million for this Groundwater Management Area. 
I think the county commissioners can do a responsible job in 
this regard, and they are looking forward to doing that. So 
with that, Mr. Chairman.
    Mr. Lewis. I appreciate your coming, Congressman Hastings. 
And we will take your statement for the record and, indeed, 
personalizing this is very helpful.
    Mr. Hastings. Okay.
    Mr. Lewis. So we will chat.
    Mr. Hastings. Good, thank you very much.
    Mr. Lewis. Thank you.
    [The information follows:]


[Pages 1838 - 1839--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. JOHN TIERNEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
    Mr. Lewis. I believe next on our list, we have Barney 
Frank, Jim McGovern and John Tierney. The three of you want to 
come up together?
    Your statements will be included in the record in their 
entirety. So if you will briefly describe that which you would 
like to communicate, we would appreciate it.
    Mr. Tierney. I will do that. First of all, thank you very 
much for giving us this opportunity. You remember last year 
that we were before you basically talking about the same issue 
I would like to address today, and that is looking for your 
support and leadership--as you have given in the last year--
with regard to wastewater treatment improvements in my 
district, that would be the South Essex Water Treatment Plant, 
and individual treatment efforts by communities like Lynn and 
Gloucester--sizeable communities that are seeing a tremendous 
impact on the cost of their taxes locally because they need the 
help meeting the Federal standards.
    Last year, you came forward and you helped and it was 
really appreciated. You will see some benefit from that. We 
have always, historically the committee has given money to the 
Massachusetts Water Resources Authority, and to other projects 
throughout the country. Last year and the year before, that are 
the first years the committee was good enough to give money to 
the Sixth District and for the South Essex sewer district, and 
the other projects within that district.
    We have had tremendous financial pressures on that area. 
But I can report to you that, with the help of the Committee, 
it has made a difference. The local assessments had increased 
to $6.3 million. Now they are down to $4.1 billion last year. 
So I think you can see that, you know, the efforts that were 
had through this committee have complemented the support from 
all levels of Government, the local government, and the State, 
and the continued relief is basically going to be critical in 
that regard, and that is why I am here today.
    You are aware, I am sure, of the high costs of water 
treatment and sewer improvements, and the strain it puts on 
municipal budgets. They are competing for relief with all the 
other local needs, you know, whether it is schools, or roads, 
or other services.
    I can site you one example: in the community of Gloucester, 
homeowners there are facing between $12,000 and $22,000 per 
home. The impact of making the improvements to meet the 
standards that we have federally. It is a tremendous impact for 
everybody of all ages, but obviously, particularly, to the 
seniors who are people that are trying to put their kids 
through school and use the house equity. It has been a crushing 
blow to them. And what we can do here is give them some relief. 
And we have tried to movewith--this committee has been good 
enough to do for in such a way that it goes to those communities where 
it has the most impact on that.
    So I am hopeful, as you have in the past two years, that 
you would see fit to grant our request for $4 million in relief 
so that we can put it into the appropriate areas and give a 
real worthwhile impact.
    I thank you, obviously, for your consideration of this in 
the past and ask you to continue with it this year.
    Mr. Lewis. I appreciate--the brevity of your remarks helps 
an awful lot with your request. [Laughter.]
    And if the two of you will keep that in mind.
    Mr. Frank. Please and thank you. [Laughter.]
    Mr. McGovern. And I agree with Barney. [Laughter.]
    Mr. Frank. You have listened to us before, Mr. Chairman. 
Let me just say, first, I just want to acknowledge how grateful 
we are to this committee under your predecessors' chairmanship 
and yours. Obviously, this is something that should be done 
through the authorizing process, and it is a problem because we 
have not completed the authorization act. A lot of us would 
like the Clean Water Act to be authorized. The one promise I 
think we can give you is if we get that authorization through, 
we will not have to come and intrude upon your time anymore 
because the appropriate authorization process--the bill, the 
authorizing bill that went through the House, had problems on 
the other side, would have accommodated this problem and I do 
not think any of us would have to be here.
    Mr. Lewis. That is right.
    Mr. Frank. So we appreciate that. Until then, it is very 
important, I think, to do this. Obviously, the great bulk is, 
the tally still is not being paid for locally and by the State. 
But what is important, I think, is we do not want to get the 
kind of revolt at the local level that would lead people to 
undercut the whole basic statute. I think the fact that the 
Federal government, absent some effort on your part, this 
becomes a totally unfunded mandate. And it then becomes 
leverage against the bill. The appropriate place to deal with 
that is in authorization. We hope that will happen, but in the 
interim this is important, both financially, and is an earnest 
that the Federal government has not abandoned them.
    Mr. Lewis. One of the ironies that we live with day in and 
day out is about 85 percent of our bills are not authorized, 
and yet, authorizing committees say, ``You know, how come you 
guys are always authorizing on this bill.'' [Laughter.]
    Mr. Frank. And I think that you point out, Chairman, people 
have this backwards on the turf battle. Most of us would rather 
have the other people doing their job.
    Mr. Lewis. Absolutely, absolutely.
    Mr. Frank. But I did want to say, this is for both the 
money that I'm particularly contending for and the money for 
Massachusetts Water Resources Authority.
    Mr. Lewis. Okay. Mr. Stokes?
    Mr. Stokes. I just appreciate the gentleman, their 
testimony, and, of course, we worked with them in the past and 
we will certainly continue to do so in every way we can.
    Mr. McGovern. Let me just say, I share a community with 
Barney, Fall River, that has a problem with the funding, the 
CSO project, and I am here to second what he is saying. And I 
have two other projects that are in my testimony which----
    Mr. Lewis. We will look at that very carefully.
    Mr. McGovern. Absolutely terrific, and thank you very much.
    Mr. Frank. Could I just add that we were also talking 
particularly about communities--myself and Mr. Tierney 
represent communities which have been hit hard by federally-
mandated cutbacks in fishing; Fall River, by, you know, Federal 
trade policy and textiles. So these aren't people who we're 
trying to vest, but other Federal policies have put them in a 
somewhat different situation.
    Mr. Lewis. Mr. Frelinghuysen. Mr. Mollohan.
    Mr. Mollohan. Sounds like a good request to me, Mr. 
Chairman.
    Mr. Lewis. Thank you all very much.
    [The information follows:]


[Pages 1843 - 1845--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Lewis. Got to you as fast as I could, Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman. As you know, Mr. 
Frelinghuysen and I represent a State in which 7.6 million 
people share the dubious distinction of having the most 
Superfund sites of any State in our country. And so it is in 
our desire, my desire, and I hope, I am sure I speak for Rodney 
as well, that the $2.1 roughly billion that has been requested 
by the Administration for Superfund be appropriated.
    In my district, there is a town which also has the dubious 
distinction, that is, there is an abnormally high rate of brain 
stem cancer in young children. And through your help and with 
Mr. Frelinghuysen's help last year, we set up a $5 million 
study program in cooperation with the State of New Jersey, that 
is a $5 million Federal program in cooperation with the State 
of New Jersey, administered the Agency for Toxic and Substance 
Disease Registry, we appropriated, you appropriated $2 billion 
last year. The appropriation for $2 billion this year will 
continue that study to try and determine what it is that is 
causing the abnormal number of young people to have brain stem 
cancer.
    Also, of primary importance on a slightly different 
direction, is funding the National Estuary Program, which has 
been requested for this year which is $30 million for fiscal 
year 1999. And it is important, I think, that the EPA's 
administration expenses with regard to that number be capped at 
25 percent or $4.3 million--that arithmetic does not work but I 
guess----
    Mr. Lewis. We will look very carefully at your testimony 
and make sure we calculate the numbers right.
    Mr. Saxton. Thank you.
    Mr. Lewis. Appreciate it, Mr. Saxton.
    Mr. Saxton. Thank you very much.
    Mr. Lewis. Okay, thanks Jim.
    [The information follows:]


[Pages 1847 - 1853--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. MIKE McINTYRE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
    Mr. Lewis. Mr. Shays is not here. Mr. Saxon has just made 
his presentation. Mr. Roemer is not here. Mr. McIntyre? We are 
going to just keep going right through the roll, and if they 
are not here we will just. Mr. Blumenauer? Joe Kennedy? Peter 
Visclosky? Have we cut out for their time yet?
    Barbara Kennelly? Lane Evans? Very unusual. We are going to 
get very close to schedule here. [Laughter.]
    Jim Clyburn? Jerry Kleczka? Tom Barrett? And I have not 
seen Mr. Oberstar. All of those that have submitted testimony 
will be included in the record as though they were presented. 
[Laughter.]
    Frank Pallone, Jr.? Jerry Weller? Are we up to schedule 
yet? [Laughter.]
    If you will excuse me, I will make a phone call. 
[Laughter.]
    Isn't this great? I love this. If I have the support of my 
members, I will include in the record the testimony of all 
those members up through Mr. Saxton. Mr. Roemer is due at 
10:18.
    Mr. Mollohan, do you want to give your testimony?
    Mr. Mollohan. I have got a few that----
    [Laughter.]
    Mr. Lewis. I think we have a chance to talk about your's. 
[Laughter.]
    Mr. Mollohan. You are not recording now are you?
    Mr. Lewis. We are still on the record. Why don't we just 
close her down for moment. Mr. McIntyre, we are including 
Members' statements in their entirety in the record, and you 
can summarize your comments, requests, or otherwise. The 
briefer testimony normally gets much higher level of 
consideration. [Laughter.]
    Mr. McIntyre. Great. That is why you are running ahead of 
schedule, right? Well, that is why, as I was practicing law the 
last 15 years, those who got to the point the judges would talk 
good about, those who had to spend an hour explaining it, they 
knew there was a problem. [Laughter.]
    So I will be glad to go right ahead if you are ready for 
me.
    Mr. Lewis. We are ready.
    Mr. McIntyre. Thank you for this opportunity. I am here to 
testify on behalf of a very small town in my district that is 
predominately African American. Its, most of its elected 
officials are African American, and they need $2.5 million to 
construct a facility that would serve as both the community 
center and a museum.
    In this town, of Navassa, N-A-V-A-S-S-A, North Carolina, 
there is no adequate meeting hall, health care facility, day 
care facility for children after school, or for senior 
citizens, or recreational facilities. What we are looking at is 
one multi-purpose facility that could meet a host of needs that 
are very dire.
    This is a very poverty stricken area. It has been 
designated as being economically depressed by the North 
Carolina Rural Center. It would include an opportunity for 
health care services to be given through this facility when we 
have rural health care needs that come to the area. This is an 
area that also has been subject to hurricanes. It is not right 
on the coast, but it is in a coastal region not far from the 
coast. In times of national emergencies, or the hurricanes that 
my district was hit with two years ago when our entire area was 
declared a Federal disaster area.
    Specific organizations, cultural heritage organizations, 
recreation, and then, as I have said, for senior citizens, as 
well as for day care for young children, and for students who, 
quite frankly, do not have any alternatives. And we know the 
concerns there with juveniles in terms of having no outlet at 
all for recreation. It would also have the opportunity to be 
used as a multi-purpose center to include an auditorium for 
special events there in the community as well.
    And when we talk about health care we already have a tie in 
with the University of North Carolina at Wilmington, which is 
only about 12 to 15 miles away with their School of Nursing, 
that they would come in to work with senior citizens and to 
work with infants and children in terms of health care needs. 
They would also let this be a cultural center to document some 
of the African American heritage in that area and could also 
use it during appropriate hours when it was not being used for 
other activities as a museum there and cultural center.
    I would ask you to consider this. I think given the amount 
we are requesting of $2.5 million that this would be money that 
would be worth ten times that amount in terms of the multi-
uses, the multi-ages, and the multiple impact it would have on 
that area.
    And I will implore your kind consideration.
    Mr. Lewis. Mr. McIntyre, we very much appreciate your 
input. As I indicated, we will, as we go forward with our 
budget allocation, we will look carefully at your request. Your 
personalizing it is very much appreciated.
    Mr. McIntyre. Thank you.
    Mr. Lewis. Mr. Mollohan?
    Mr. McIntyre. Thank you, Mr. Chairman.
    Mr. Lewis. That is it. Make sure you leave that testimony 
we will be glad to----
    Mr. McIntyre. Great.
    Mr. Mollohan. I have myself spent time in this area and can 
say with firsthand experience how much this would mean to that 
area.
    Mr. Lewis. Thank you, Mike.
    Mr. McIntyre. Thank you, have a good day.
    [The information follows:]


[Page 1856--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

  FEDERAL EMERGENCY MANAGEMENT AGENCY, HOUSING AND URBAN DEVELOPMENT, 
                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Lewis. Mr. Mollohan, Mr. Frelinghuysen was suggesting 
that the odds are very, very good that in this very room last 
century Members were coming in and doing exactly the same 
thing. We did not have the mechanical devices, but it was the 
same process which I thought was an interesting comment.
    Mr. Mollohan. I think it is the essence of this democracy, 
actually, that we are able to do that and bring those needs 
directly from a district to a congressional committee with a 
prayer for funding.
    Mr. Lewis. Mr. Frank earlier suggested that Bill Dannemeyer 
probably did not know about the paintings in this room or we 
might have been closed down.
    Mr. Mollohan. Is that right? [Laughter.]
    Mr. Lewis. Nothing is off the record.
    Mr. Mollohan. I am surprised Frank noticed. [Laughter.]
    Mr. Lewis. He scribbled a note.
    Mr. Blumenauer has arrived. He now has two minutes left in 
his time span. [Laughter.]
    Mr. Blumenauer. Do I need to use all of it? [Laughter.]
    Mr. Lewis. You really do not need your notes. If you could 
submit your testimony for the record and summarize it, we would 
very much appreciate it. I must say we have a lack of 
membership so we kind of feel unattended to.
    Mr. Blumenauer. Well, it maybe, Mr. Chairman, it maybe 
speaking to the----
    Mr. Lewis. Well, with that tie you do not have to do 
anything. That is wonderful.
    Mr. Blumenauer. Good. Well, we will just submit a list. I 
do appreciate the opportunity to spend a couple of moments. And 
I will try and be brief. I will be submitting a statement for 
the record, and I will be also following up with some 
information in one particular area that I may be seeking 
guidance from the Committee in terms of what we might be able 
to do for a very innovative program dealing with homeless 
youth, as I have been working around the country.
    I have only been in Congress two years, but I have had a 
chance to visit 30 different cities. And I have been stunned at 
how people have been wrestling with the same problem. There 
seems to be a growing part of the homeless population. And a 
group of businessmen and women in Portland have come together 
with a fully privately funded program--it actually has some 
roots in California--focusing on ways to treat these children 
in a more directed fashion. They are not looking necessarily 
for Federal funds but I think the opportunity for the Federal 
government to help evaluate, does it really work, can we pull 
these children out? Eliminating premature deaths, the crime, 
and the heartbreak that goes with their, that lifestyle. And so 
I will be submitting some information about that. I think it is 
worthy of some consideration.
    Mr. Lewis. Yes, please do. We will include it in the 
record.
    Mr. Blumenauer. A more traditional approach that I will be 
following up on very briefly speaks to some of the work that we 
have had in the City of Portland with the development of 
Housing and Urban Development to connect urban housing with 
transportation under the Department's Special Purposes Grants. 
And there are two components that I would touch on, one, is the 
Central City Streetcar, and the second project called 
University House. The Central City Streetcar is being developed 
in Portland, using Federal investment in a way to connect parts 
of the downtown to promote urban redevelopment. The Portland 
State University is keyed into this through the, on the path of 
the Streetcar. And they are looking at developing an assisted 
living and retirement center called ``University House,'' which 
would provide housing and services to a range of seniors, 
including Medicaid clients. Having the housing directly 
adjacent to the streetcar line would do much to both strengthen 
the Central City and improve the quality of life for the 
seniors. The City and Portland State are requesting $4.7 
million for the two projects.
    Another project that has a significant impact on the 
quality of life in our community is FEMA's Project Impact. I 
have been on the Water Resources Subcommittee. I have been 
stunned with what FEMA is doing to try and prevent disasters 
and get taxpayers out of the process of bailing out people, 
literally and figuratively. FEMA has requested $20 million to 
be added to the Pre-disaster Mitigation Program Fund, 
increasing the total to $50 million. This increase would permit 
FEMA to create a Project Impact community in every State. As 
members of your subcommittee know, the Project Impact Program 
will help show the communities the benefit of risk prevention, 
saving lives in scarce budget dollars. I am convinced this 
investment will literally save hundreds of millions, if not 
billions, in the long-run and be a step towards more 
responsible activity.
    We have also a request for some assistance with the 
Columbia Slough Revitalization Project. Columbia River Slough 
is a severely polluted area due to its physical separation from 
the diluting powers of the Columbia, Willamette Rivers. These, 
the continued Federal support for this program is very 
important now because Portland is the first urban area that has 
been impacted under an ESA, Endangered Species Act, still had 
recovery. We think that we will have an opportunity to show how 
urban areas can work in a cooperative sense to try and deal 
with species restoration in a cost-effective fashion and get 
some of our urban dwellers involved.
    I think it has two benefits: one, in terms of species' 
restoration, and for people who are a little cranky about the 
ESA, it may also help demonstrate that these things pinch in 
urban areas, as well as rural as well. So we would like your 
consideration to continue the second phase of that project.
    As I say, I submit information about the evaluation of the 
homeless program. I appreciate your courtesy today, and I hope 
I did not take too much more than my allotted two minutes.
    Mr. Lewis. Congressmen, we appreciate your input and your 
entire statement will be in the record. I want you to know that 
I have a good deal more empathy for your trout problem than I 
do for the New Delhi Sands ever-loving fly which is a gnat that 
is interrupting a hospital being built. But in the meantime, 
you know, all things in their own way. Very much appreciate 
your being here. Your mentioning FEMA is important. Their 
mitigation efforts are very, very significant. And I agree with 
you, they are on a pathway that, if designed properly, will 
save us at least millions, maybe well beyond that. Thanks a 
lot.
    Mr. Blumenauer. Thank you, sir.
    Mr. Lewis. You have submitted, you will be submitting your 
testimony, right?
    Mr. Blumenauer. Yes, sir.
    Mr. Lewis. Got it? All right. Thank you, good.
    [The information follows:]


[Pages 1860 - 1863--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Lewis. We will just go in to recess for a moment.
    [Recess.]
    Mr. Frelinghuysen [presiding]. Thank you Mr. Visclosky for 
being with us. Again, a copy of your entire statement will be 
put in the record. Thank you very much for being with us.
    Mr. Visclosky. Chairman, thank you very much. The members 
of the Committee, the staff have been very good to work with 
the past. You have been very kind, considerate, and generous in 
the past, and I would anticipate working closely with you as we 
approach PARKA. The statement is a matter of public record and 
appreciate your consideration.
    Mr. Frelinghuysen. Thank you very much. Any questions or 
comments, David?
    Mr. Price. No, glad to have our colleague here.
    Mr. Frelinghuysen. We are really moving along here.
    Mr. Visclosky. Thanks.
    [The information follows:]


[Pages 1865 - 1867--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. BARBARA B. KENNELLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF CONNECTICUT
    Mr. Frelinghuysen. Pleased to welcome Congresswoman Barbara 
Kennelly, how are you? Thank you for coming.
    Mrs. Kennelly of Connecticut. I never saw such speedy----
    Mr. Frelinghuysen. We are really coming along.
    Barbara, a copy of your full statement will be put in the 
record, and we welcome you here this morning.
    Mrs. Kennelly of Connecticut. Oh, thank you so much, 
Rodney. And thank you all for having me here this morning to be 
able to testify about a project that is very near and dear to 
my heart. In fact, Mr. Chairman, I think you do know the City 
of Hartford and you know its proud history, and this is an area 
right downtown, away from downtown, which is very, very key to 
the area.
    Mr. Chairman.
    Mr. Lewis [presiding]. Thank you. Sorry for that. Please 
proceed.
    Mrs. Kennelly of Connecticut. Thank you, Mr. Chairman.
    Mr. Lewis. Your entire statement will be included in the 
record. I am sure he probably told you that, and, you know, we 
are happy to see you.
    Mrs. Kennelly of Connecticut. I want to tell you about an 
ambitious and important revitalization project being undertaken 
in my hometown of Hartford, Connecticut and to ask for your 
support for my request of $5.9 million in Economic Development 
Initiative funds for severely depressed Southside city.
    I was just saying, Mr. Chairman, that when people think of 
Hartford, Connecticut, they often think of the insurance 
capital of the world. Unfortunately, Hartford is the fourth 
poorest city in the Nation of cities over 100,000. Its 
residents continue to struggle through difficult economic 
times. A 1990 survey for the Southeast neighborhood that we 
are, excuse me, the Southside neighborhood, that we are talking 
about found that 62 percent of all households are below 
poverty, 72 percent headed by single heads of the household, 
and only half of the over the age of, only half of the people 
over the age of 28 have finished high school. Forty-five 
percent of the children who start high school drop out, many 
fail----
    Mr. Lewis. Is that right?
    Mrs. Kennelly of Connecticut. This is, no one realizes 
about Hartford, Connecticut, but unfortunately this is 
developed a, we have very, very, very strong zoning regulations 
within the surrounding suburbs, and very large lot sites. So 
they are very difficult for somebody in poverty to come out of 
the city into the surrounding area, and so, as a result, there 
has been an impact building up for years.
    Fortunately, the city and its community leaders and 
organizations have not turned their back on the Southside 
neighborhood. Instead they have come together to turn this 
trend around and to make this city and its neighborhoods thrive 
again. The Southside Institution Neighborhood Alliance, SINA, 
is working on a community investment, a renewal plan, to 
revitalize 15 block areas in the heart of the historic Frog 
Hollow, Barry Square neighborhoods of Hartford. SINA, led by 
Trinity College, the Connecticut Children Medical Center, of 
Hartford Hospital, the Institute of Living, and Connecticut 
Public Television and Radio, have already contributed $10 
million of their resources to this project, this community-
based project.
    I would like to mention to you, Mr. Chairman, that Trinity 
College is now headed up with an incredibly vital, exciting new 
president, Evan Duvell, who has really put his life on the line 
for this neighborhood. And part of his taking the job was that 
he could be involved intimately with the revitalization of the 
area around Trinity College which, as you know, is a 
longstanding, well-known college. And the Connecticut Children 
Medical Center is a new hospital, Mr. Chairman, which has 
several funds in it and could not have been completed unless 
Federal funds had been allowed to go into that hospital. The 
hospital is a magnificent hospital, but, unfortunately, as we 
all know, children's hospitals do not get Medicare payments. So 
many things are going on here but because of the leadership of 
the city and the people involved, there is great hope.
    The Neighborhood Initiative encompasses projects to renew 
housing, increase home ownership and employment opportunities, 
spark retail and commercial development, expand parking, and 
improve streetscapes. It is estimated these projects will 
result in 400 new jobs.
    The second part of this renewal project is the Learning 
Corridor. This is what I am very excited about which would be 
constructed over the next four years on the site of a former 
bus garage which I, as a city councilwoman, got taken down 
because the environmental problems of that bus garage, and it 
has been acquired. Since then it went to the State of the 
Connecticut, and it is back to have some wonderful things 
happen on this area. The site will house the regional 
Montessori-style public elementary school; a public 
neighborhood middle school; a regional math, science and 
technology high school; a resource center; a regional arts high 
school program; and a professional teacher training and 
development center.
    While SINA and its partners have met success since the 
beginning of this initiative in 1996, more needs to be done. 
Let me illustrate some of these successes. SINA has raised $3 
million for the Family Life Center, $1.2 million in private 
funds for the construction of Boy's and Girl's Club.
    The list goes on, Mr. Chairman. What I am trying to 
emphasize is there is leadership, there is money being put 
forth from the community, and this is why this additional help, 
it is not as if we are coming when there is nothing happening, 
we are coming because so much is happening that this could 
really make things blossom.
    SINA has also cleared up a major hazardous waste site, 
provided financial assistance to the Hartford Police Department 
in its fight against drugs. It is truly a community-based 
effort focused on all aspects of life for the residents of this 
area around the greater downtown Hartford, moving out into the 
surrounding neighborhoods. Federal support to leverage the 
private, corporation, and local money is in place of being 
raised, is critical to the overall success of the neighborhood 
initiative. The $5.9 million which I have requested would be 
used for the following comprehensive developments: $2.6 for gap 
financing for first-time homeowners; $2.5 million for the 
development of 25,000 square feet of rental space for 
unemployed and underemployed community residents; the Learning 
Corridor, as I talked about, a $750,000 Micro loan program. It 
is estimated that the funding will create 84 new home ownership 
places, and this is where Mr. Duvell has become so incredibly 
successful in Trinity buying up property around the college and 
really emphasizing home ownership within that area with the 
hospitals with Trinity College. It is all there, made to be 
better.
    The project is a critical step for the revitalizing of the 
Crest neighborhood and the city of Hartford and I would 
appreciate any support you might give me; there is great 
support at home for this project. I am asking that we get more 
support. The Federal government has been supportive and I thank 
you very much for the time you have given me.
    Mr. Lewis. Congresswoman Kennelly, we appreciate your 
coming and personalizing these problems. Hartford, Connecticut, 
does provide that vision that you suggest. You think of the 
insurance companies, this new leadership, Trinity College being 
tapped as a resource. All of that is very logical to me and if 
we can help, that's fine.
    Mrs. Kennelly of Connecticut. Thank you, Mr. Chairman, very 
much.
    Mr. Price. No questions. I know that this project has 
received national attention though; the leadership of Trinity 
College and working with the city.
    Mr. Lewis. Mr. Kennedy, your questions have been submitted 
for the record; we'll see you later. [Laughter.]
    Ms. Kennelly of Connecticut. Thank you.
    Mr. Lewis. Thank you very much. Good to see you.
    [The information follows:]


[Pages 1871 - 1878--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                                WITNESS

HON. JOSEPH P. KENNEDY II, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MASSACHUSETTS
    Mr. Lewis. I was only partially kidding. Get up here, Joe.
    Mr. Kennedy of Massachusetts. Thank you, Mr. Chairman.
    Mr. Lewis. Brevity is important.
    Mr. Kennedy of Massachusetts. I get the message. The 
quicker I talk, the more money I get? [Laughter.]
    Mr. Kennedy of Massachusetts. Mr. Chairman, first of all, I 
appreciate the opportunity to come and talk before the 
Committee this morning.
    I am here to discuss the need for increased funding for 
homeless programs in our country. As you know, Mr. Chairman, 
you have been one of the strongest voices for continued support 
for housing programs and it has been very, very critical to 
many, many very poor people around the country to have had your 
leadership and I want to thank you for that. I know how 
difficult some of those fights have been in the last couple of 
years and how much you have, in fact, stood up for HUD in times 
when it was easy to take potshots at that agency. So I, first 
of all I want to thank you, and other members of the Committee, 
for the work that you have done and just let you know that 
despite your very important efforts, as you are well aware, 
homeless funding and housing in general has suffered 
unbelievable budget cuts in comparison to almost every other 
Federal agency.
    In the last couple of years we have seen housing funding 
generally cut by almost 25 percent and the same with homeless 
funding at the same time. And, as a result, the amount of money 
has been reduced to just over about $820 million. The fact of 
the matter of it that while the economy is booming and we see 
so many statistics about how well things are going, if you look 
at actually what is going at the homeless shelters across our 
country we see unbelievable increases in the demand for 
homeless shelter system.
    I think the nationwide studies the Council of Mayors 
recently indicated that there was a 64 percent increase in 
demand on homeless shelters. I have spent time going around to 
homeless shelters across Massachusetts. Just in the last month 
I probably visited over a dozen of them, Mr. Chairman, and 
every one of them has--and I can give you a whole list of 
statistics on the increases, but the fact of the matter is that 
the demand is staggering and it is staggering at a time when 
generally you see, at least on a traditional basis, that with 
the coming of the warmer months people tend not to use these 
shelters as much, and yet, at this particular time, we see the 
demand increasing.
    I know that you are aware that the Chairman, as well as the 
Ranking Member, including the chairman of the Housing 
Committee, Mr. Lazio, and myself have all written to you and 
members of this committee asking for a billion dollar level 
instead of the $823 million. I know funds are short, but I do 
believe that this is an important program.
    HUD has come up with a way to, I think, fund this program 
without asking for an overall aggregate increase in their 
budget authority numbers so I am hopeful that maybe we can find 
a way of actually getting them the increase that they really 
need this year.
    This isn't the kind of situation where I hoped we go from 
$823 million, with a smaller increase to, and I really hope we 
can get to the billion dollar level of funding this year, which 
would really just restore it to where it was, you know, about 
four or five years ago.
    Mr. Lewis. Mr. Kennedy, we very much appreciate your input. 
I know that you are as aware as any Member of the House that 
authorization would help us a lot in this process. You are one 
of the people who is banging on the door saying we ought to get 
that job.
    Indeed, it is important to the Committee. We do not want to 
do the authorizing work on our subcommittee and yet we don't 
really have much alternative.
    So your continued effort there--I wish that Mr. Stokes was 
able to be here for this is his last year and I know he would 
want to join with the rest of us expressing our appreciation to 
you as you go on to expanded horizons. We will miss your smile 
as well as your voice.
    Mr. Kennedy of Massachusetts. I don't know how ``expanded'' 
they'll be, Mr. Chairman, but, nevertheless, they will be 
challenging, and I am looking to them.
    You know, I very much appreciate and I always had hoped 
that we could find a way to get these bills authorized. I think 
it is important that people take the authorization process much 
more seriously and find ways to compromise on issues to enable 
a bill to get passed into law. As you know, this has really 
become an issue over some intractability on individuals' 
behalf, because I think we have found ways to get these bills 
passed, and passed overwhelmingly, but the truth of the matter 
is that people don't, in the end, between the House and the 
Senate find a way to compromise out the differences. So it 
doesn't quite work.
    So it's up to you, and we need the billion dollars. 
[Laughter.]
    Mr. Lewis. Thank you for coming and asking.
    Mr. Price.
    Mr. Price. Mr. Chairman, I want to add my thanks to our 
colleague, a classmate, in my case. We came in together and 
were on the Banking Committee together for a number of years, 
and Joe's continued to be a strong advocate on that authorizing 
committee. So I appreciate what you are trying to do there and 
hope that we can figure out some way through our appropriation 
to be of help, because these are urgent needs. You are 
certainly correct about that.
    Mr. Kennedy of Massachusetts. Thank you very much.
    Mr. Frelinghuysen. Thank you, Joe. Good luck to you.
    Mr. Kennedy of Massachusetts. Thank you. I appreciate it.
    Could I ask you, Mr. Chairman. Have you formed any opinions 
about the whole issue in terms FHA versus Fannie in terms of 
raising the ceilings on the loan limits?
    Mr. Lewis. We certainly have no formal position. There, 
too, we are awaiting the authorizers. There are people who 
suggested that perhaps that should be done by way of this bill, 
and being from the West, where we have high house prices, there 
is some temptation, but at the same time we want to see if the 
system will work. For a while we're going to massage that 
before we make a decision here.
    Mr. Kennedy of Massachusetts. Well, all I would say is, if 
you are looking for the billion dollars, that would be a way to 
get it. [Laughter.]
    Mr. Lewis. It's like $400 million, as I understand it.
    Mr. Kennedy of Massachusetts. Yes.
    Mr. Lewis. Really you are correct on all of this. I heard 
by way of an echo over here that we might pick it up by way of 
permission from the authorizers.
    Mr. Kennedy of Massachusetts. Absolutely. [Laughter.]
    [The information follows:]


[Pages 1882 - 1888--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Lewis. Lane Evans has been very patient during all of 
this. Mr. Evans come on up.
    Mr. Evans. Thank you, Mr. Chairman.
    Mr. Lewis. You probably don't know, we've been trying to go 
by the way of order of the list, and while you were patiently 
here, Joe popped in.
    Mr. Evans. I think you are right on time, actually, trying 
to run a good committee. I appreciate the opportunity to speak 
to you. I would like to submit a written statement for the 
daily record.
    Mr. Lewis. It will be included in its entirety and if you'd 
summarize it for us, we'd appreciate it.
    Mr. Evans. I also want to pay tribute to our colleague, Mr. 
Stokes, who is leaving us. He's been a good voice for veterans 
in Congress and we appreciate his many years of service to our 
country.
    Congress in the face of competing demands must demonstrate 
the courage our veterans have repeatedly shown over the decade. 
We've got to have the courage to provide nothing less than the 
resources needed to adequately fund benefits for veterans. The 
House Committee on Appropriations, and this subcommittee in 
particular, have a unique and special opportunity and 
responsibility to provide those resources needed to meet our 
Nation's obligation to its veterans.
    For the next fiscal year, I request that you provide no 
less than $18.1 billion for veterans' health care, an increase 
of $481 million over the Administration's recommendation; a 20 
percent increase in current education benefits for veterans, 
their dependents, and survivors, not contingent on the proposed 
elimination of compensation for smoking-related illnesses 
determined by the VA to be service connected.
    Mr. Chairman, it is very important that we improve 
education and make sure that veterans on the GI bill are not 
left out getting adequate resources to go to college and 
vocational schools.
    For the Veterans' Benefit Administration $21 million over 
the Administration's request to improve claims processing and 
related employee training; a total of $865,000 for the 
veterans' consortium pro bono program, which provides lawyers 
to needy veterans who are appealing VA decisions at the Court 
of Veterans Appeals; $43 million above the administration's 
request for grants to the States for grants to veterans' 
nursing home; $134 million more than requested by the 
administration for construction of VA facilities, and I have a 
number of other proposals, Mr. Chairman, that I will put into 
the record.
    I just want to finally conclude that 50 years ago, 
President Roosevelt reminded the American people that, ``Those 
who have long enjoyed such privileges as we enjoy forget in 
time that men have died to win them.''
    America's veterans have kept their solemn oath to support 
and defend the Constitution of the United States and in so 
doing, they have made extraordinary sacrifices in order to 
preserve the liberties and freedoms that we take for granted.
    Thank you for the opportunity.
    Mr. Lewis. Mr. Evans, your testimony is very much 
appreciated. Very few Members come and go through ten pages in 
two minutes.
    Mr. Price. Mr. Chairman, I'd like to add my welcome to our 
colleague and thank you for your testimony.
    Mr. Evans. Thank you.
    [The information follows:]


[Pages 1891 - 1894--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. JAMES E. CLYBURN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    SOUTH CAROLINA
    Mr. Lewis. Let's see, Jim Clyburn's been here for a while. 
Come on up, Jim. Did you see that? How fast he went through 
that? [Laughter.]
    Mr. Evans. Oh, yes.
    Mr. Lewis. Thank you, good to see you.
    Mr. Clyburn. Thank you, Mr. Chairman, and members of the 
Committee. It's nice talking to you. Thank you for allowing me 
to be here. I appreciate this opportunity and want to talk to 
you on behalf of three projects in South Carolina's Sixth 
Congressional District.
    The first project is the Lake Marion Regional Water Agency. 
This is a dynamic initiative which will provide much needed 
potable water for residents in fourteen municipalities and six 
counties in my district. Most remarkably, all of the 
jurisdictions in the service area have signed into the 
agreement called the Lake Marion Regional Agency to provide the 
required service. The project will include a water intake at 
Lake Marion, a water treatment plant, and transmission lines to 
meet a projected maximum demand of 21 million gallons a day by 
the year 2015.
    Mr. Chairman, when the Roosevelt administration constructed 
Lakes Marion and Moultrie, it implemented the largest WPA 
project east of the Mississippi. I view this Lake Marion 
Regional Water Agency as a natural extension of this federally-
recognized resource.
    Mr. Lewis. Was it WPA constructed?
    Mr. Clyburn. The problem we have here though, Mr. Chairman, 
is that this projected system is surrounded by, of the area 
contains high unemployment, largest concentration of 
minorities, highest levels of poverty, and the largest 
concentration of welfare recipients in our State.
    Yet, it is surrounded by 8 technical colleges, 12 four-year 
institutions, colleges and universities, and the Port of 
Charleston, and 2 interstate highways.
    Yet, all of this is to no avail if we do not cure the 
quality of water in this area so we can attract industry.
    Now, the second project I am talking about is the 
Shulerville/Honey Hill Water Project in Berkeley County. This 
project will provide potable water service to over 700 
residences and businesses, and two public schools. Why this 
project is so important to us is that the South Carolina 
Department of Health and Environmental Control has already put 
us on notice that this area is going to be declared an imminent 
health risk to South Carolina. Two schools, two public schools, 
two big industries, 700 residents--we really need to do 
something about this, Mr. Chairman. In fact, Macedonia High 
School, located in this area, burned to the ground a couple of 
years ago because there aren't any hydrants at all in this 
area.
    Now the third project that I want to talk to you about is 
the Williamsburg County Industrial Park. It is located in 
Williamsburg County, South Carolina, a county that ever since 
I've been in the Congress, ever since I can remember, has had 
the highest unemployment in South Carolina, usually between 14 
and 20 percent every month.
    A dramatic drop in the month of March and it is attributed 
to trade and tourism, but if you are going to sustain that, you 
need an industrial park in this area and we are asking for $1.5 
million to do that, Mr. Chairman. We believe that the people in 
this county are very deserving of more activity on their behalf 
and are asking for your consideration today or remedial 
projects to do things where a high concentration of people 
live, yet, they are the things that people take for granted 
outside of this area.
    Mr. Lewis. Let me, just make a couple of points. I wish 
that Mr. Stokes were here, but I know that you will communicate 
personally with him about some of these types of concerns.
    I, frankly, am grateful that the Congress doesn't determine 
where hydrants should go. I mean, that should be a fundamental 
problem of the local planning people. Sometimes we can help 
with funding dollar resources that allow that planning to go 
forward in terms of real product, but there needs to be a plan, 
a comprehensive plan on the part of people that will use these 
money successfully.
    But another item relative to this area that struck me as 
you provided your testimony is this consortium of colleges and 
universities that has potential in terms of impacting and 
motivating the educational opportunities for the young people, 
especially in that impacted community. I presume there may be 
some consortium effort going on. If not, I think it would be 
very worthwhile.
    Mr. Clyburn. Well, absolutely. And I agree with you. In 
fact, the school that I'm a graduate of is located in this 
area, and we are educating people. The only problem is these 
people have to leave if they ever want employment.
    The most dramatic thing I find in this area--and this is 
about six to seven miles along Interstate 95 that I'm talking 
about, and in that seven-mile stretch, we're producing $28 
million of work per day. The same stretch, the same distance 
along I-85 up in Greenville/Spartanburg they produce $242 
million a day. We're talking about the difference in 792 
industries up there and 95 industries in this area. The 
difference is 9,000 jobs in this area and 67,000 up there. And 
you are not going to cure that problem if you do not cure the 
potable water problems in this area.
    We can educate all that all you want. But if they want to 
employ, if they want to raise their quality of life, if they 
want to lower their instances of diseases, we've got to cure 
the water problems in this area, and the State has not 
committed itself to this.
    It took me four of the five years I've been here to get 
these municipalities and these six counties all in the same 
room to sign the agreement. And I've been working on this since 
I've been here. I feel that we over halfway there by doing 
that, but I do know that, in spite of a willingness to now sit 
down together, we are going to have to find the resources for 
them, and the State has now begun to make a commitment. I 
announced in the Federal Government to make a commitment as 
well. I believe we can really see a dramatic change in the 
quality of life as well as the opportunities for the people in 
this area if we can have a commitment.
    Mr. Lewis. Well, thank you very much for coming, Mr. 
Clyburn. We will have your entire testimony in the record.
    Mr. Clyburn. Thank you very much.
    [The information follows:]



[Pages 1898 - 1899--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                MILWAUKEE METROPOLITAN SEWERAGE DISTRICT

                               WITNESSES

HON. THOMAS M. BARRETT, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN
HON. JERRY KLECZKA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN
    Mr. Lewis. Are Mr. Kleczka and Mr. Barrett here? If you 
will come up.
    Gentlemen, your testimony will be included in the record in 
its entirety and you may be as brief as you wish.
    Mr. Barrett. I think I'll start out. We're here to support 
the Milwaukee Metropolitan Sewerage District proposal to repair 
and rehabilitate its most essential wastewater conveyance 
infrastructure, the central metropolitan interceptor sewer 
system.
    This proposal includes the repair and replacement of 36 
miles of pipeline and 700 manholes constructed between 1885 and 
1925. These ancient pipelines, many made of brick and sometimes 
wood, carry 60 percent of the wastewater flow. The system is 
located in the oldest section of Milwaukee, which is also the 
downtown central business district. Also the area is located at 
the confluence of three major rivers, the Milwaukee, Monamine, 
and the Kinnickinnic, at the point of discharge into Lake 
Michigan, the main source of drinking water for the Milwaukee 
area.
    The timing of the project is critical. The sewers are in a 
state of constant surcharge, and have been for many years. It 
is a technical engineering challenge to evaluate, investigate, 
and rehabilitate this sewer system. The first challenge was to 
locate a place to divert wastewater to allow both investigation 
and construction. A diversion option was not available until 
the completion of the in-line storage system in 1994.
    The second challenge is the dewatering of the pipelines, 
which could result in collapse and other structural damage to 
the sewers. Because of these dangers, this project calls for 
extraordinary state-of-the-art investigation techniques such as 
sonar, ground penetrating radar, seismic imaging, underwater 
inspection, and wall core extraction.
    These techniques only recent being applied to sewer 
investigation could serve as a national demonstration project.
    I would like to share a brief story with you that I think 
will highlight the urgency of the needed changes. Recently 
during a routine system check, sewer workers in Milwaukee 
discovered a life-threatening situation where the sewer system 
is located. A sewer had collapsed, causing the soil above the 
collapse to be washed away. The road above the collapse was 
literally suspended in midair with the asphalt and concrete 
holding itself up. The section of road happened to be directly 
in front of the Miller Brewing Company facility, where hundreds 
of trucks come and go each day. It was only a matter of luck 
that one of these trucks hadn't crashed through the pavement 
into the large hole in the ground caused by the decrepit sewer 
system which would have resulted in thousands of Americans not 
having beer. [Laughter.]
    That section of the sewer system and the road were repaired 
before any serious injuries had occurred. It is only a matter 
of time before similar situations arise. Cave-ins or collapse 
could result in injury, death, property damage, and sewer 
service disruption.
    The danger posed to roads and motorists isn't the only 
danger. A faulty sewer system poses dangerous health and 
environmental hazards as well. Because of its proximity to Lake 
Michigan, the deteriorating sewer system poses a threat of 
contamination to Milwaukee's drinking water.
    In conclusion, both Congressman Kleczka and I are here to 
underscore the severity of the situation. The dangers are real 
and the problem needs to be addressed. We hope this committee 
agrees with us that the MMSD needs assistance to ensure that 
the Milwaukee has a safe and environmentally sound sewer 
system.
    Thank you.
    Mr. Frelinghuysen [presiding]. Thank you.
    Mr. Kleczka. Thank you. I appreciate the opportunity to be 
here before the Subcommittee to emphasize the importance of 
Federal assistance in rehabilitating the central metropolitan 
interceptor system in Milwaukee.
    My colleague, Tom Barrett, has already explained the severe 
ramifications that may occur if the central metropolitan 
interceptor system, or MIS, is not reconstructed in a timely 
manner. I would like to talk about the financial aspects of 
this project.
    The total cost of the MIS system reconditioning is 
estimated to be $238 million over a 10-year period with the 
Fiscal Year 1999 cost totaling $46 million. We are here seeking 
a 50 percent match, or $23 million, in Fiscal Year 1999 from 
the State and Tribal Assistance Grants program to move forward 
with this critical project.
    The metropolitan sewerage district's share will be financed 
through a loan from the Wisconsin Clean Water Fund, 70 percent 
of which are State contributions. Repayment will be made 
through revenue received from Milwaukee area ratepayers. 
Furthermore, the loan from the Clean Water Fund will consist 
only of State contributions--meaning the sewerage district's 
share of the cost will be financed exclusive with State and 
local funds.
    Repairing the MIS is also critical to preserving past 
investments by the sewerage district. Milwaukee recently 
completed the in-line storage system--a rainwater overflow 
storage system--at a cost of $2.1 billion. Seventy-eight 
percent of these funds came from State and local authorities, 
which increased tax rates by as much as 600 percent. A 
catastrophic failure of the MIS would prevent sewage from being 
conveyed to the in-line facility, thereby canceling its 
usefulness and wasting the enormous financial investment by the 
Milwaukee citizenry.
    As Mr. Barrett points out, devastating sewer failures 
threaten the public health and welfare, but they also have 
serious financial implications. A failure of a twenty-foot 
section of sewer in downtown Milwaukee in 1990 cost the 
sewerage district $1.5 million in emergency funds. The repairs 
to the sewer took over nine months to complete, disrupting area 
businesses and adjacent utilities. Clearly, it is financially 
prudent to attend to the MIS before it collapses so that local 
ratepayers will not have to pay for emergency repairs to the 
tune or $1.5 million for twenty feet of pipeline. Remember 
there are thirty-six miles of sewer in disrepair.
    Finally, Milwaukee area residents continue to pay an 
additional $60 a year, or 30 percent more than the national 
average, for wastewater conveyance and treatment. 
Rehabilitation of the Central MIS will ensure that rates will 
not go higher.
    We hope we have relayed the critical need for the funding 
for this project. I want to thank the committee for its time 
and consideration.
    Mr. Lewis [presiding]. Mr. Barrett and Mr. Kleczka, we 
appreciate very much your being here. Jerry, your testimony is 
very helpful.
    Mr. Kleczka. I wasn't brief. You were just in the other 
room.
    Mr. Lewis. Mr. Price?
    Mr. Price. No questions, but thank you.
    Mr. Lewis. Thanks, Jerry.
    [The information follows:]



[Pages 1903 - 1905--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. FRANK PALLONE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Lewis. If you would like to address the Committee, Mr. 
Pallone, you have approximately 30 seconds, can you summarize 
your remarks.
    Mr. Pallone. Thank you very much, Mr. Chairman.
    Mr. Lewis. And your entire statement will be included in 
the record and we know all of your view on these issues and we 
appreciate your voting for our bill once in a while.
    Mr. Pallone. Thank you very much. Do you want me to say 
anything?
    Mr. Lewis. Please.
    Mr. Pallone. The sediment decontamination study, which you 
have so generously supported and provided funding for in the 
past, we'd like to see that continued to the point now where we 
have a full-scale processing facility up and running in the 
Port of New York-New Jersey area. And, also, we'd like to 
change the nature of this now so that the emphasis is on 
basically the end product, and marketing, and putting together 
private/public partnerships so we can sell the end product.
    That's all I am going to say. I'm looking for $5 million 
for that. You have generously supported us in the past. My 
colleague from New Jersey will be, I think, particularly 
supportive of the idea that we consider broadening the program 
to include some of our New Jersey institutions. All of the work 
has been done in New York; we'd like to see some of it done at 
Rutgers, the Stevens Institute, and NJIT.
    The helicopter, the President put $300,000 in for the 
helicopter that monitors ocean water quality. I would like to 
see that in the bill. The EPA Region II labs in Edison are in 
need of substantial upgrading; I talked about this in the past. 
We would like to see $3 million in that building and facilities 
account for formal construction of a design plan because it is 
really old and out of date. If you would look into that, I 
would appreciate it.
    A couple of general things: Clean lakes, I'm not sure that 
you are aware of the fact that--I know that you suggested to us 
that we fund the Clean Lakes Program where there hasn't been 
any money in the last few years by using, I guess it's the 
Nonpoint Source Pollution Program. That hasn't really worked 
out; most of the money isn't being used for the Clean Lakes 
Program and the lakes that required this project in the past 
are now not eligible, or the EPA is not letting us use the 
section 319 nonpoint source fund.
    Mr. Lewis. Correct. I would think that if you'd address 
yourself very carefully and specifically to the director to 
EPA, you might help us get her attention.
    Mr. Pallone. Well, I'll try, but I would still like to see 
if there was some way to get some money into the clean lakes 
fund itself. Because, I mean, that would be preferable.
    And, then, again, I support the President's budget request 
with regards to clean water and the nonpoint source pollution 
testing here as well. And also the Superfund, he's requested 
$2.1 billion for that, that would make it possible to do a lot 
more superfund cleanup in New Jersey and elsewhere and I would 
hope that you would support that as well as the EPA's request 
on Brownfields.
    Again, I know that this is a lot of money but these things 
really go far. You know my committee, the Commerce Committee, 
is looking at Superfund for reauthorization but I don't think 
anything is going to happen this year, so just because that 
hasn't happened doesn't mean we shouldn't try to continue with 
the current program and do more cleanup.
    Mr. Lewis. We are looking at the authorizing committees to 
do their work as I ask continually, but in the meantime, we 
have a strong voice here who is looking out for your interests, 
Mr. Pallone, and we appreciate your being with us. And, as I 
indicated, your entire statement will be in the record and good 
luck.
    Mr. Pallone. Thank you.
    [The information follows:]


[Pages 1908 - 1912--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

    ENVIRONMENTAL PROTECTION AGENCY, DEPARTMENT OF VETERANS AFFAIRS

                                WITNESS

HON. CHRIS SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Lewis. Is Lindsey on his way? Okay. Well, his testimony 
has already been taken.
    You can summarize your testimony. Brevity counts in the 
committee.
    Mr. Smith of New Jersey. Basically what I'm asking for, Mr. 
Chairman, is an additional increase in the money for the Agency 
for Toxic Substances and Disease Registry.
    The President has requested a $10 million cut in the ATSDR. 
That would cripple some of the ongoing programs. This committee 
was very helpful in ensuring a cancer study in Toms River, a 
three-year study.
    We have an enormous amount of autism cases, regrettably, 
showing up in a place called Brick; a sevenfold increase over 
what would be expected in other areas. And we've met with the 
ATSDR people; they think it is very significant. They have 
already begun to put together programs to undertake a study 
there. They've allocated $150,000, but it will take much more 
than that. But if the $10 million cut goes through we may have 
to kiss that good-bye, and that would be a tragedy. Like I said 
sevenfold increase, it leads the other places in autism.
    We have, as Rob knows so well, and as you know, Mr. 
Chairman, more toxic waste dumps than anywhere else in the 
country.
    Mr. Lewis. I know you do.
    Mr. Smith of New Jersey. We have over 100 on the in-field 
site or registry. All told, my parents and my wife's parents 
died of cancer, leukemia. My father-in-law worked for duPont 
and he died of leukemia. We know that there is an environmental 
linkage the ATSDR is very helpful in trying to weed out fact 
from fiction, and New Jersey would be a great beneficiary of 
this, as would be the other chemical or oil-refining States. So 
I do hope that you would consider going up to $80 million from 
the current $74 million and absolutely reject a cut of $10 
million as proposed by the President.
    I have just one other thing in my testimony. I am Vice 
Chair of the Veterans' Affairs Committee and I've been doing a 
great deal of research on those veterans who have been 
adversely affected and ought to get presumptive disability 
because of cold-weather injuries. These are mostly the Korean 
War vets, and a number of the guys never got recompense or any 
kind of service-connected disability payments from the VA. 
We're asking for a $1 million study. I have a bill that would 
provide full coverage on a presumptive disability basis. VA 
comes back and says, ``Study it.'' It's studied. So we're 
asking you if you would help with the study to lay out all the 
details.
    Mr. Lewis. If you'd help us as well with the authorization 
process.
    Mr. Smith of New Jersey. Sure.
    Mr. Lewis. Take a look at VISN and VERA and otherwise help 
us solve these problems, it would be much appreciated.
    Mr. Smith of New Jersey. Okay.
    Mr. Lewis. Thank you.
    Mr. Smith of New Jersey. Thank you.
    Mr. Lewis. Thank you very much. I appreciate your being 
with us.
    [The information follows:]


[Pages 1915 - 1918--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Lewis. Mr. Weller.
    I called Dr. Coburn to get him over here because nobody was 
showing up so he cut into your time so kindly summarize your 
statement for the record, you know how we are around here.
    Mr. Weller. I will, Mr. Chairman. Actually there's an 
elevator over in the Longworth Building I thought of the movie 
Groundhog Day. I got it in, it went up, and we finally kept 
going back to where we started. I'll have to talk to whoever is 
in charge over there and get that fixed.
    Mr. Chairman, you know I've spoken to you personally about 
this, and I appreciate the opportunity to testify before your 
subcommittee in requesting $10 million for what is nicknamed 
``Deep Tunnel'' in the Chicago area, but it's the Tunnel and 
Reservoir Plan, TARP, that is an important environmental 
initiative. There are sixteen miles of an unfinished portion of 
this project which the taxpayers at a local, State, and Federal 
level have invested over $201 billion.
    The reason that this project is so particularly important, 
not only does it provide flood relief to almost half a million 
homeowners, including 131,000 homeowners in suburbs that I 
represent as well as in Representative Jackson's district. But 
also, it protects the drinking water in the Chicago area. 
Primarily in the City of Chicago and the suburban area, the 
City of Chicago and the suburbs gather their water from Lake 
Michigan and of course when there is a storm, there is always 
the risk that raw sewage and storm water runoff will go into 
Lake Michigan. This is a very important initiative to complete 
our desire to implement the Clean Water Act.
    I have Jim Giglio, who is a Thornton Township Trustee, and 
is also the flood control chairman for the village of South 
Holland, one of the primary communities that it benefits.
    I'd like to ask the commissioner if he'd say a few words 
from the local perspective.
    Mr. Lewis. Welcome, Mr. Giglio. Any comments that you have 
will be made a part of the record. We emphasized to Jerry that 
brevity is here. He talks to me all day on the floor about this 
project. So please proceed.
    Mr. Giglio. I'll keep my comments brief. I'd like thank you 
for this opportunity to talk to you, Mr. Chairman and 
Subcommittee, about this crucial community issue.
    My testimony will support Congressman Weller's about the 
absolute importance of completing the Thornton Township, the 
TARP Torrence Leg, and the Thorn Creek Diversion Tunnel to 
provide the flood relief the south suburbs so desperately 
needed.
    As Chairman of the South Holland Flood Committee, I have 
experienced firsthand the strife and hardship that homeowners 
living in flood zones endure sometimes as frequently as twice a 
year.
    As a child, I grew up on the Little Calumet River but the 
flooding at that point was an adventure for me. I thought it 
was kind of unique and fun. But my experience never included 
the inundation of the flood waters into my home, the experience 
was though that I got to help my neighbors whose homes were 
ruined, furniture, carpeting, mementoes such as photographs and 
personal items.
    Part of that experience was one of the reasons Mayor Don 
DeGraff appointed me as chairman of the Flood Committee. I have 
worked with Congressman Weller, retired Congressman Myers, and 
MWRD, and many local administrators in trying to complete this 
project.
    Our efforts have been twofold: we're trying to alleviate 
the impact and devastation that flooding causes, but we are 
also trying to protect our drinking water, and that's by 
allowing the sewerage to be held somewhere instead of dumped 
into Lake Michigan, which is our main source of drinking water.
    Also today I have some letters with me from homeowners that 
live in the flood zone and we brought some copies for each of 
you. And these letters are from residents who are repeatedly 
inundated with floodwater. Many of them have lived in South 
Holland most of their lives and wish to continue living there, 
but they see no recourse, no reason to stay, if we can't offer 
them flood relief. They have continued to receive higher 
insurance premiums, their property bills have fallen, they've 
received no property tax relief, and there is really nothing 
keeping them there if we can't offer them floor relief.
    There have been no programs or projects to offer them a buy 
out of their homes. So they have a home that has devaluated 
greatly and they see no answer on the horizon except for these 
project.
    So today I would like to thank you again for this 
opportunity to testify.
    Mr. Lewis. Thank you, Mr. Giglio. We appreciate it. Those 
letters will be made part of our files. I want to make sure you 
have an opportunity to respond if you wanted, Congressman?
    Mr. Weller. Well, I just ask that they be submitted as part 
of the record. There are approximately 531,000 homeowners in 
the district I represent, roughly half-a-million homeowners on 
the South Side of Chicago and all the south suburbs and this is 
the unfinished portion of the project that this committee has 
invested about $33 million just over the last four years so we 
do ask if you can give another $10 million for the cause.
    Mr. Lewis. We'll include those letters in the packet for 
certain and in the meantime I'll make certain you have access 
if you wish.
    Mr. Weller. Thank you, Mr. Chairman.
    Mr. Lewis. Thank you very much.
    [The information follows:]


[Pages 1921 - 1930--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                     HOUSING AND URBAN DEVELOPMENT

                               WITNESSES

HON. TOM COBURN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
HON. LINDSEY GRAHAM, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    SOUTH CAROLINA
    Mr. Lewis. Whatever testimony you might give, if you'd like 
only for it to appear in the record it will be and from there 
we're just anxious to hear your comments.
    Mr. Coburn. Let me just start. First of all, I want to 
thank you for the opportunity to come before you. You guys did 
a great job last year by the vote that came across on your 
bill, 360 or 270, which probably had almost the highest of any 
Appropriations subcommittee. We wanted to just talk about a few 
areas that we were interested in in terms of total spending and 
also some priorities. Lindsey is going to talk about one in 
particular, but I wanted to mention a couple.
    If you look on the website on the funding for HOPWA, which 
is Housing for People with AIDS, there's no question we support 
that; the question is should there be an increase given how 
some of the money is spent. And if you will look at ACT-UP 
sites and some of the other sites, you'll see a large portion 
of that money is not being spent on housing for people with 
AIDS, it's being spent on administration, large salaries, 
flying to D.C. to lobby for it, and I think that before any 
increase in that it should be stated again that we ought to 
have some very strict guidelines on what that money can be used 
for coming out of your committee.
    Last year the Section 8 was the big jump in housing, which 
we all agreed to; we passed authorizing legislation to do that. 
We would want to see some real restraint in terms of increases 
in those funds since we did such a large jump last year.
    Mr. Lewis. Let me stop you right here and just mention 
this. It is a very important item for both of you gentlemen to 
discuss with our colleagues.
    As you know, we had a surge in Section 8 reserves this last 
year that are a reflection of moneys that will have to be 
available if we are going to meet the challenge of contract 
renewals, which are about to take place in the coming fiscal 
year.
    If we move into 1999 without funds for those contract 
renewals, literally contracts will be cut off and we are going 
to find people suddenly in areas that are affected probably 
without places to live and that literally could be in the 
streets.
    Under those circumstances, you've got a very, very volatile 
political situation, and as you know, we tapped all those 
reserves by way of the offset for programs in the supplemental. 
How we work our way through that is a very important question 
and is not a light political question.
    Mr. Coburn. Well, I would just commit to you I would be 
willing to work with you to try to solve the problem. We don't 
want anybody to lose their housing or their housing benefitted, 
but it doesn't mean that we need--we understand how that will 
kick through, and we will work with you, but on a trim line, is 
what we are talking about. Once we set this trim line, once we 
give the big bump with the new authorization, then we ought to 
be able to plan this year and years out, to make sure that we 
don't jump ahead of that and that those dollars are efficient.
    And a final thing, and I know that you are in a hurry. The 
EPA, Ms. Browner worked with Senator Inhofe in the Senate in 
terms of 2.5 particulate matter studies. I am on both 
committees and both subcommittees that evaluated that data, 
both on the Commerce and Science Committees; it is less than 
good data. They have agreed with Senator Inhofe to pay for 
monitoring in the major cities.
    We already have some monitoring in Tulsa, Oklahoma, and it 
disputes what the EPA says. So, the fact is they have language 
in there to delay implementation of the penalization for ozone 
standard of six years and nine years on the 2.5.
    The reason that is important is because we are beginning to 
think we don't know right now what the truth is and we ought to 
collect the data to know what we are doing on a finite basis 
and that has not been done anywhere in the country. The idea is 
good. We all want to include the quality of the air; 2.5 micron 
data, there is a lot we don't know about. We need to get that 
information before we start enforcing.
    Mr. Lewis. And this is language that is where?
    Mr. Coburn. It's in the Senate bill. Administrator Browner 
has concurred in the Senate----
    Mr. Lewis. It's in the authorization bill?
    Mr. Coburn. I think it's in the authorization bill and they 
are going to be working to have it in the appropriation bill as 
well.
    Mr. Lewis. We'll look for it very carefully.
    Mr. Coburn. And then the final thing that I would bring 
forth, is we ought to be working with compliance rather than 
penalty. We ought to help people do a better job and our 
emphasis ought to be let's go help them do it right, rather 
than plan to do this so we take taxpayers' money in the local 
area and penalize them rather than use that same money to give 
us better quality air and better quality of life.
    Mr. Lewis. Good. Okay. Mr. Graham.
    Mr. Graham. Thank you.
    Mr. Lewis. I appreciate your being here.
    Mr. Graham. Thank you very much. And to the point, 
AmeriCorps developed the political philosophy, I think there's 
some objective data out there showing that the program is not 
really working the way it was designed and that the projected 
cost of $6.43 per hour for each AmeriCorps participant is 
actually $15.55 an hour for a volunteer. That is pretty good 
pay. You can't get it in my district. Forty-two percent of the 
young people from 15 to 24 make less than AmeriCorps 
volunteers.
    An independent audit has found Americorps volunteers at 
political rallies, handing out political campaign literature. 
There is no evidence that it is going to offset college 
expenses. The program I think under any objective analysis, is 
not doing too well.
    The point I'm trying to make, whether you like or not, are 
for Americorps or not, in 1997, Mr. Tiahrt had an amendment to 
zero out the program and it passed on voice vote. In 1998, an 
amendment passed by voice vote to reduce the appropriation in 
half and what happened last year was a good thing. I really 
think it was a good thing; we got 300 and something-plus votes 
and I was one of them.
    And the process on the floor that Tom and others engaged in 
of having amendments to say this is where the House is at was a 
good exercise; it made us all feel better. And I would suggest 
to this subcommittee that the House, on this issue, is at zero 
or substantially less than the Administration wants. Whether 
you like the program or not, and if the Subcommittee and 
Committee report out a bill that mirrors the world of the House 
and we have an amendment on the floor, that amendment should be 
to offer an alternative and let us vote on it.
    I just ask the Subcommittee to remember the 1997/1998vote. 
Report out a bill that I think is close to the objective fact, and 
close to where the House is and change the dynamic that happened last 
year and there will be a lot of good will generated and let's have a 
vote on the NEA or Americorp on the floor. I would hope the Committee 
would listen to some of the votes we had last year.
    Mr. Lewis. I think you folks know that in the past the 
committee has taken specific actions on the floor. One year I 
remember an amendment that I offered that related to veterans' 
benefits. Strange things happen when we get to conference----
    Mr. Graham. We understand that you can't win every fight 
and I know the Senate has a different view, but the rule of the 
House is pretty clear when two amendments are passed by voice 
vote to zero out a program and cut in half. I think that is 
where the House is a body as Republicans and Democrats, and not 
unanimously. We just ask that the Committee reflect and when 
you get to conference, do the best you can.
    Mr. Lewis. One other item I'd like to mention to the two of 
you, especially, for you've been very thoughtful about some of 
these subjects.
    In many ways it would be helpful if people like you were on 
the Appropriations Committee so you could see the process from 
the other end. Eighty-five percent of our bill is not 
authorized. We keep saying to our authorizers, ``Please we 
don't want to do your work.'' Yet, if you take, for example, 
housing programs that involve the elderly, if you don't put 
language in it to involve section 202, sometimes those programs 
go out the door. There is a disconnect here and not an 
understanding in the House that we need. If you would help us 
pound on those authorizers----
    Mr. Coburn. If I would suggest, the best way to pound on 
authorizers is to not appropriate anything for anything that is 
not authorized, and pretty soon you can say we're going to 
either throw out the authorizing process and you all become the 
authorizers as well which I'm fully for or quit spending money 
on something that is not authorized.
    Mr. Lewis. I have suggested that more than once, and 
somewhere it just----
    Mr. Coburn. You have got to start. You have got to start 
and you have got to say, ``Our committee will not pass anything 
unless it is authorized. Now, we are going to hold up; we are 
going to give you a month; go get it authorized.'' If you 
don't--what good is it to have House rules if we continue the 
exception to House rules and say, ``Well, sorry, we are going 
to----''
    Mr. Lewis. I think you have noted with care people wringing 
their hands and saying how come these guys are authorizing and 
yet the authorizing never quite get there. We have that 
frustration and we want you to know we are frustrated by it.
    Mr. Coburn. The way to eliminate it is do not fund one 
thing that is not authorized, and I guarantee you it will get 
authorized very quickly.
    Mr. Graham. May I make a suggestion along those lines? If 
you are looking for a database to find out how the House feels 
even though it is not going to the Authorization Committee, we 
have taken a series of votes over several years like AmeriCorps 
that pretty well shows that the House position on AmeriCorps is 
near zero. That is a form of authorization even though it is 
not the proper form, so there is a database out there. If you 
look at that database, I think we will have a good year.
    Mr. Lewis. Okay, Mr. Price?
    Mr. Price. All right. I want to make sure I understand what 
you are saying or what you are asking the Committee to do about 
AmeriCorps. You are suggesting we report a bill that contains 
no funding for AmeriCorps.
    Mr. Graham. In 1997, an amendment was voice voted, fiscal 
year 1997, voice voted where the committee accepted by voice 
vote an amendment to zero it out. In 1998, the appropriation's 
folks on the floor accepted an amendment to try to cut it by 
200, cut it in half. I am saying that that to me shows that the 
rule of House is not very much behind this bill--I mean this 
program. I have got serious problems with the program, but I am 
just one member. I am just telling you, look at the database 
out there about a program like AmeriCorps and you will find 
where most House Members are at.
    Mr. Price. What are you then saying about the amendment 
that would be in order on the floor. I just want to make sure I 
understand what you are----
    Mr. Graham. I would suggest that you start with zero, 
because I think that is where the majority of the House Members 
are at, but if I am wrong, allow somebody to make an amendment 
in order and say that we want to fund it at the Senate level so 
let's have a vote on it, and the problem we had last year is we 
felt that the committee started with the position that was 
pretty much contrary to the House position on most of these 
emotional tough programs, and you all have got the hardest beat 
in America. You all have got the hardest beat in Congress, I 
know that; a lot of emotional programs the NEA. Let's have a 
vote on the NEA, and if the NEA is funded, so be it; let's have 
a vote, but I think the committee should reflect pretty much 
where the votes have been.
    Mr. Lewis. We do not have that one.
    Mr. Graham. I know. Well, okay.
    Mr. Lewis. We do not want that one. [Laughter.]
    Mr. Graham. I was see from the example, but AmeriCorps is 
something similar but not quite as emotional. I would think 
that I would hope the Committee would see that the House is not 
overly enamored with this program. Start up with a markup to 
reflect that position and allow somebody who is a supporter of 
the program come on and say we need more money, and let's have 
an honest debate out on the floor.
    Mr. Price. You are aware, though, that bringing a Member to 
the floor to add something does require offsets normally. Heavy 
burden of proof on adding something to a bill; much less a 
burden of proof on deleting something. So, if you do not like 
AmeriCorps, why not shift the burden of proof?
    Mr. Graham. Well, just when the Committee will accept the 
voice vote to zero it out, there is a disconnect between what 
the Committee does and what the Members want.
    Mr. Coburn. The other thing is does it have full 
authorization, AmeriCorps? Is it an authorized program?
    Mr. Graham. No.
    Mr. Coburn. It has never achieved authorization, so that 
tells us something to begin with.
    Mr. Price. If you apply that standard to programs under our 
jurisdiction, I am afraid you are in for slim pickings.
    Mr. Coburn. I am ready to do that, and I am ready to help 
you all enforce that.
    Mr. Price. Although, you will not find disagreement, I 
think, on this committee, because of our ability of having 
timely authorizations.
    Mr. Graham. You all have a tough job, I fully realize that.
    Mr. Coburn. I guess one of the things that would help your 
job is if people want to put programs that are not authorized 
into spending bills, make them do it where they have to talk 
about it to the American public and have to explain it.
    Mr. Lewis. I agree.
    Mr. Coburn. So, the best way to purify a process and add 
integrity to the rules that we already have is to start 
following the rules. If they want to add AmeriCorps back, let 
them add it on the floor; it may pass. Big deal, then that is 
the will of the House. That is a form of authorization, but to 
put it in a committee when it has not been authorized by the 
committee that has jurisdiction over it, totally precludes and 
ignores and the rules that we have set under which we are going 
to authorize, and we cannot ask other people to continue to 
follow the rules of the House when we all ignore the rules of 
the House.
    Mr. Lewis. Thank you very much for your testimony; 
appreciate it.
    [The information follows:]


[Pages 1936 - 1939--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. NICK LAMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS
    Mr. Lewis. Let's see, Nick Lampson. Your entire testimony 
will be included in the record, Nick, and if you want to 
summarize it----
    Mr. Lampson. It will be very short, yes.
    Mr. Lewis. I want your guests to know that I am not going 
to be leaving because I do not want to hear all of your 
testimony but because Mary Bono is a new Member of the House, 
and I have got to introduce her at a luncheon meeting, but my 
friend, Mr. Frelinghuysen is going to take over for me in a 
very able way.
    Mr. Lampson. This is about the Gulf Coast Hazardous 
Substance Research Center. It is a consortium of universities 
located throughout the South, and all these gentlemen are 
representatives who have participated in the----
    Mr. Lewis. Welcome to the committee, gentlemen.
    Mr. Lampson. Thank you very much, Mr. Chairman. Thank you 
for the opportunity. We are going to request continued line-
item funding in the amount of $2.5 million for the Gulf Coast 
Hazardous Substance Research Center. It is, again, a 
university-based consortium. The center carries out a program 
of peer-reviewed research evaluation, testing, and development 
and demonstration of alternative innovative technologies that 
may be used in minimization, destruction, or handling of 
hazardous wastes associated with petroleum chemical and other 
Gulf Coast industries. We seek better protection of human 
health in the environment.
    Since the establishment in 1998, the Center sought to build 
a 300 multi-year project with more than 200 different principal 
investigators; approximately 400 graduate students at the 
affiliated universities. There have been over 600 publication, 
species, technical presentations, and it has been extremely 
successful in leveraging additional--outside of research--
support for projects recently funded through the Center through 
Federal, State, or industrial resource grants.
    The Center has gained recognition through the U.S. as one 
of the major university environmental research centers. The 
major category areas of research: waste minimization by 
technology inventions and modifications; emerging technologies 
and remediation and waste treatment. The major areas of 
technology research include biological mediation, soils and 
sludge treatment, separations, hazardous substance, monitoring 
and detecting combustion oxidations pollution prevention in 
modeling and risk management. Projects from this center have 
received national awards from the EPA which is a presidential 
chemistry challenge award, the State of Texas Governor's Award.
    The Center's technology transfer programs were designed to 
bring technology for a cleaner environment out of the 
laboratory into the fields as practical application. As a 
component of the technology transfer program, the Center 
operates the Gulf Coast Environment Library as a service to 
academic and non-academic public. The center provides the 
coordination of the activities of the research consortium of 
the Texas A&M University system, the University of Texas, Rice 
University, University of Houston, Lemar University, the 
Louisiana State University, Mississippi State University, 
University of Alabama, and the University of Central Florida. 
The centers enters into research agreements with private 
research organizations and industry.
    I would like to introduce the Center director, Jack Hopper, 
down here at the very end. Dr. Hopper is from the north, 
located at Lemar University, and then the other representatives 
are Mr. George Talbert who is the assistant director for 
Technology Transfer----
    Mr. Frelinghuysen [presiding]. Thank you for being here.
    Mr. Lampson. Bill Batchelor; Dr. Batchelor is at the Texas 
A&M University; Dr. Manoj Chopra of the University of Central 
Florida; Dr. Dennis Clifford, University of Houston; Dr. 
Richard Corsi, University of Texas; Dr. David Cocke from Lemar 
University; Dr. David Constant of Louisiana State University; 
Mason Tomson of Rice University, and Dr. Allen Ford, who is the 
former center director.
    So, I want to thank you for your time, and if you have any 
questions, I would be happy to answer them. I, again, request 
that the Subcommittee provide continued support for funding for 
the Gulf Coast Hazardous Substance Research Center at the level 
that we have been funding at, at $2.5 million per year, and we 
thank you very much.
    Mr. Frelinghuysen. I would like to thank you very much for 
your testimony and for your leadership on this project. I know 
Mr. Price and I and Chairman Lewis recognize your work and 
dedication and that fact that you have walked such a large 
amount of hired talent to sit behind you, I think that is 
weighed to your case substantially.
    Mr. Lampson. Well, thank you. We really believe in this, 
and it something that seems to be very specific to the Gulf 
Coast, and that is why it is nice to have representatives from 
every area along the Gulf Coast where this kind of chemical 
activity is involved.
    Mr. Frelinghuysen. Thank you. Mr. Price?
    Mr. Price. Of all the Members we have heard from today, I 
would say you are the best backed up. [Laughter.]
    That is quite a chorus behind you. What is the history of 
this line-item in terms of recent funding--recent years of 
funding?
    Mr. Lampson. I think it was funded at for $2.5 million.
    Mr. Price. For what period of time?
    Mr. Hopper. From the very beginning.
    Mr. Lampson. From the very beginning, 1988, so this will be 
the 10th year at that level. It has some pretty significant 
accomplishments to talk about.
    Mr. Hopper. Authorization was for $5 million per year.
    Mr. Frelinghuysen. If you would be good enough to give your 
name for the record, so the reporter can have it.
    Mr. Hopper. My name is Dr. Jack Hopper. I am the director 
of the Gulf Coast Hazardous Substance Research Center.
    Mr. Frelinghuysen. H-o-p-p-e-r?
    Mr. Hopper. H-o-p-p-e-r, right, like grass. [Laughter.]
    This Center was originally authorized for $5 million; it 
has been appropriated $2.5 million each of those years.
    Mr. Price. All right; a 10-year history of funding at that 
$2.5 million level.
    Mr. Lampson. We would love to have it twice. We think that 
that would be a most appropriate thing to have.
    Mr. Price. All right, and the number of institutions 
involved here is----
    Mr. Hopper. Nine universities involved. There is nine in 
the State of Texas and then LSU, Mississippi State, University 
of Alabama, University of Central Florida.
    Mr. Price. And you are based at Lamar.
    Mr. Hopper. I am based at Lamar University.
    Mr. Price. And that is the center of the----
    Mr. Hopper. That is where the staff is, the organization, 
but all the research is carried out at these other all nine 
universities.
    Mr. Price. All right. Well, we appreciate your bringing 
this distinguished group here today. We will look at this 
request very carefully.
    Mr. Frelinghuysen. Thank you, Mr. Price. Mr. Lampson. Thank 
you very much, gentlemen, for being here. The Committee stands 
in recess until three o'clock.
    Mr. Lampson. Thank you very much.
    [Recess.]
    [The information follows:]


[Pages 1943 - 1947--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. DARLENE HOOLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON
    Mr. Lewis [presiding]. Ms. Hooley, step right up. Your 
entire testimony, I have been heard to say, will be included in 
the record.
    Ms. Hooley. Thank you.
    Mr. Lewis. And if you can summarize the highlights for us, 
we would appreciate that, and most important is relative ease 
to money.
    Ms. Hooley. Okay. Thank you, Mr. Chair.
    My mom did not raise any dummies. Thank you, Mr. Chair. Let 
me just talk very briefly about one particular project you 
have, I think, was turned in a list of the projects that I am 
asking for.
    The first one is a very innovative project that is in my 
district. It is a $16 million project. We have lots of partners 
in this project. It is to treat wastewater for city water for 
the fund of the city. It is also a demonstration project. It 
deals with wetlands and to clean the water. It is going to be a 
horticulture center, so it is an educational place as well as a 
tourist attraction, so it has all of these partners that work 
together. EPA has been very helpful. Again, it is a $16 million 
project. We have $15 million; we are asking for $1 million for 
this project.
    Mr. Lewis. Fifteen million and you are asking for $1 
million?
    Ms. Hooley. Yes.
    Mr. Lewis. Out of $16 million. That is reasonable.
    Ms. Hooley. Is that not good? I think that is very good.
    Mr. Lewis. It is. If you will notice her pen. She got that 
from Norway, no?
    Ms. Hooley. Yes.
    Mr. Lewis. Norway is good, I heard about Norway.
    Mr. Stokes. Oh, yes. [Laughter.]
    Ms. Hooley. The second project, again, is to finish up a 
start of a project and that is the completion of an 
environmental computer center at Oregon State University. They 
have all the super computers on the first floor. They have not 
been able to complete the project which is two additional 
floors where the students would work in all the labs, and they 
have got all these computers on the first floor, super 
conductor computers. It is for the ocean and atmospheric 
science programs. We are asking for $2 million. It would 
complete the project to add two additional stories onto the 
building. So the $2 million----
    Mr. Lewis. Okay, so it is a construction project.
    Ms. Hooley. It is a construction project; the $2 million 
completes that project.
    Mr. Lewis. Once we have completed that project how do we 
feed the cow? How do you pay for it? Is it taken out of the 
ongoing budget?
    Ms. Hooley. It will be taken out of the ongoing budget. It 
is a matter of trying to get all of it in one place.
    Mr. Lewis. All right, thank you.
    Ms. Hooley. The third is a $1.2 million request, and it is 
also funded through EPA, and this is to address water issues 
along the coast. It is to measure the currents, and it helps 
with navigation down the Columbia River. It is a research 
program, and it is called the Marine Environmental Research and 
Training Station, and it does forecasting for tides, and that 
again is $1.2 million.
    And then the other two programs are national programs. I 
just want you to know I am very supportive of the State and 
Tribal Assistance Grant that is in the President's budget at 
$2.9 billion. Please do not count that toward my request. 
[Laughter.]
    Mr. Stokes. She is smart.
    Ms. Hooley. The other is in the President's budget, and 
that is non-point source control monitoring program at $200 
million, and I hope you would keep both of those.
    Mr. Lewis. Okay.
    Ms. Hooley. That is it.
    Mr. Lewis. Thank you very much for your input, 
Congresswoman Hooley.
    Ms. Hooley. Thank you very, very much.
    Mr. Lewis. It is our pleasure to work with you.
    Ms. Hooley. And if you have any questions----
    Mr. Lewis. Is this your first appearance before this 
subcommittee?
    Ms. Hooley. This is, yes, thank you.
    Mr. Lewis. So, is the last year that Congressman Stokes 
will be with us, and he has made a fabulous contribution to 
this committee over the years. He is my chairman, and we are 
dear friends, and I am proud to say that.
    Mr. Stokes. Thank you, Mr. Chairman, and I want to commend 
her for her first appearance. She did an excellent job.
    Ms. Hooley. Thank you, thanks.
    [The information follows:]


[Pages 1950 - 1953--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

      HOUSE AND URBAN DEVELOPMENT, DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF TEXAS
    Mr. Lewis. Eddie Bernice Johnson.
    Ms. Eddie Bernice Johnson of Texas. Good afternoon.
    Mr. Lewis. Good afternoon. How are you, young lady?
    Ms. Eddie Bernice Johnson of Texas. All right. I think I am 
fine, and when I leave, I hope I will even be better. 
[Laughter.]
    Mr. Lewis. All of your testimony will be in the record.
    Ms. Eddie Bernice Johnson of Texas. Thank you. There are 
two projects for which I am coming to make an explanation and 
request for. One, is for the Veterans' Administration facility 
which was authorized in 1996, but it was not funded. It has 
been reauthorized this year. It is a psychiatric facility that 
needs to be upgraded. I used to work there, and I had to 
organize--I had to open the first unit of it back in the 
fifties, and it has not had any upgrading, and what we have 
done there is open a day treatment center and a day hospital 
that were open and old living quarters of physicians and nurses 
from the thirties, and that is where they still are. And it is 
hard to have a secured area to walk patients a mile away on the 
premises--not really quite a mile, but I think it is three-
quarters of a mile--without having supervision, because the 
premises are so scattered, and so they are asking for $24 
million to upgrade that and bring it together. They are known 
for their service. We have one of the largest and I think more 
efficient Veterans' Administration's medical centers in the 
country that takes in the whole north Texas area where Sam 
Rayburn use to be, and so that is one.
    And then the other----
    Mr. Lewis. Before you go on to the other one, is this 
project in the President's budget? I mean, did they request if 
from the Department or has it been authorized by the Committee?
    Ms. Eddie Bernice Johnson of Texas. It has been authorized 
by the Committee.
    Mr. Lewis. But the other end of it, they have not responded 
yet?
    Ms. Eddie Bernice Johnson of Texas. Right. I have spoken--
the Secretary of Veterans' Affairs currently is aware of it, 
and they say----
    Mr. Lewis. The new Secretary?
    Ms. Eddie Bernice Johnson of Texas. The new Secretary. As 
soon as he is confirmed, he has promised to go and look at the 
facility.
    Mr. Lewis. Would you tell him for Louis Stokes and I that 
we want to know what he thinks about this facility. Tell him we 
said that.
    Ms. Eddie Bernice Johnson of Texas. Okay.
    Mr. Stokes. Very good, Mr. Chairman.
    Ms. Eddie Bernice Johnson of Texas. I will, indeed.
    Mr. Lewis. He is a good guy.
    Ms. Eddie Bernice Johnson of Texas. Yes, but it has been so 
long, and it really is pretty antiquated facilities there, but 
they have done a good job. I do not know if you know that much 
about the Veterans and the way it works, but Waco, which is 
about 87 miles south of there, had the psychiatric unit which 
had about 2,500 beds, all psychiatric. It got to be that all of 
this pretty just tonic housekeeping of holding people because 
of its location and holding staff. In Dallas, we opened up the 
acute area there. It was closely associated with the medical 
school in Dallas, and they do quite a bit of research on 
schizophrenia there, and so the facilities to put people back 
in the community, way back when we first started, people 
stayed; it was just like home, and they did not get discharged, 
and now they are trying to move them out, and it takes a lot of 
training at the training facilities at the treatment center 
where they have on-the-job training. And the day hospital is 
after they leave and not come to the facility everyday but need 
some supportive therapy along the way, and that is where they 
use the old dormitories, and it is pretty antiquated.
    Mr. Lewis. Okay, I thank you for that. Go right ahead.
    Ms. Eddie Bernice Johnson of Texas. And the other one is 
probably--and this is all in the same section of the town which 
is for the most part--the core of it is in my district; some of 
it is Jeff Session's and some of it is in Martin Frost's, but 
this is the southern end of Dallas County. There was a recent 
study done that talked about two different cities in one: the 
north end of Dallas and the southern end of Dallas. The 
salaries in the southern end is 60 percent less than the 
northern end. Most development has taken part in the northern 
end. So, right now, there is a real thrust; the only land left 
undeveloped is available in that southern sector.
    Our business leaders, as of yesterday, eight of the banks 
have put together a $2.1 billion package of loans for helping 
to establish businesses; brownfield initiative's been going. 
They are asking for $2.1 billion, I believe, to further fill in 
some of the gaps--$2.5 million to fill in some of the gaps to 
help get this going, but there is a real--we call it the global 
strategy to put together work force training.
    We have 3 percent unemployment in that area. The jobs are 
there. They are high tech; they are very high tech now. The 
people who cannot meet the qualifications for the most part 
live in this area. We have just started to develop some 
training in that area. Our companies of Dallas have a 
tremendous involvement in the businesses there. Texas 
Instruments and EDS, all of the various companies have come 
together to support some of this development, and we need this 
money to supplement some of the dollars and matched dollars 
that have been committed from the private sector to help with 
this new thrust. The Vice President was there in October to 
help launch some of it. He indicated that he thought this would 
be a model for the country if we were able to get it done. It 
houses 45 percent of the city's population and 97 percent of 
the land is available. It is just--you know, the river, the 
Trinity River which we are trying to develop now kind of 
divides the city, and this is the southern end, and so, 
hopefully, we can influence you to approve it; it is not a lot.
    Mr. Lewis. Well, thank you very much for your testimony, 
and as we go forward with our budget allocation we will do what 
we can for you.
    Ms. Eddie Bernice Johnson of Texas. Thank you. I know it is 
tight.
    Mr. Lewis. Now, do not mention to this to Mr. Stokes 
privately.
    Ms. Eddie Bernice Johnson of Texas. Listen, this almost 
brings me to tears to have to accept that I have such a short 
time to serve with him. He is an outstanding Member. The only 
thing that I have ever been able to take home, he helped me get 
it. [Laughter.]
    Mr. Lewis. Mr. Frelinghuysen, any questions?
    Mr. Frelinghuysen. No, thank you.
    Mr. Lewis. Mr. Stokes?
    Mr. Stokes. No, but when Ms. Johnson was talking about 
health care there, I do not know whether you know it or not, 
but she is--I do not know how many there are in Congress--but 
she is a registered nurse.
    Ms. Eddie Bernice Johnson of Texas. There are two now that 
Ms. Capps is one.
    Mr. Lewis. That is right.
    Mr. Stokes. That is right; that makes two of them.
    Mr. Lewis. Listen, I have been advocate--I do not know if 
you know this--but I have been advocate for well over a decade 
of actively, aggressively seeking women to run for Congress, 
but we need that louder voice, and these additions are helpful.
    Ms. Eddie Bernice Johnson of Texas. Well, I tell you, 
California is leading the way.
    Mr. Lewis. Thank you very much for being with us.
    Mr. Stokes. Thank you.
    Ms. Eddie Bernice Johnson of Texas. Thank you so much.
    [The information follows:]


[Pages 1957 - 1959--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

     HOUSING AND URBAN DEVELOPMENT, DEPARTMENT OF VETERANS' AFFAIRS

                                WITNESS

HON. ROBERT WEYGAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND
    Mr. Lewis. Bob, come on up; it is your turn.
    Mr. Weygand. Thank you, Mr. Chairman.
    Mr. Lewis. Congressman Weygand----
    Mr. Weygand. It is my time up.
    Mr. Lewis. It is your turn. Your entire statement will be 
included in the record.
    Mr. Weygand. Thank you. I will then, therefore, try to be 
as brief as I possibly can----
    Mr. Lewis. You can do that.
    Mr. Weygand [continuing]. Which I know you would love to 
have.
    Mr. Lewis. That is exactly right; that is perfect.
    Mr. Weygand. We are very, first of all, very thankful that 
you are having a hearing on this. We think that the VA and HUD 
bill is extremely important. Rhode Island, as you know, is a 
very small State; only 1 million people and there is only two 
representatives in the State.
    Mr. Lewis. And they are you and----
    Mr. Weygand. Patrick Kennedy.
    Mr. Lewis. Patrick Kennedy.
    Mr. Weygand. On the Senate side, Jack Reed and John Kerry.
    Mr. Lewis. Is Providence in your district?
    Mr. Weygand. We split the city.
    Mr. Lewis. Okay.
    Mr. Weygand. Yes, I have the poor side and Kennedy has the 
wealthy side. [Laughter.]
    Mr. Lewis. You have the public housing in your district.
    Mr. Weygand. I have a lot of that. I have a lot of the low-
income housing, and other parts of the State too, but Patrick 
also has some as well, but in the city of Providence, the lower 
income is primarily in my district.
    Mr. Lewis. Let me mention that Louis Stokes--on another 
matter--and I may want to talk to both you and Patrick in the 
near term depending on what happens.
    Mr. Weygand. Sure, okay; be happy to.
    Mr. Lewis. It is not a matter for today's meeting but 
another time.
    Mr. Weygand. Speaking of that issue, though, in Providence 
in some of the areas that we have looked at, what has happened 
with the HUD bill is very, very important to us. A number of 
the programs that HUD presently has have been extremely 
helpful. For instance, the Title I Program; approximately, 96.7 
percent of the housing rehab that goes on is financed in a way 
like that. We think that what the Secretary has been trying to 
do to reorganize within his department, make it a little bit 
more effective and efficient, is good. We also think that it is 
important under the present proposal that we have to strengthen 
some of the existing good programs that work.
    The programs I think that I would like to talk about is 
just a couple of them. Two of the requests of HUD, the Low-
income Tax Credit Program and the FHA Loan one that are 
particularly of interest to us. Those two programs will mean a 
great deal. Changing the low-income tax credit from $1.25 to 
$1.75 is really going to help those areas of Providence and 
other areas similar to that with regard to housing. We have 
seen some of that already, but it will just add a lot more 
players into the mix and be able to put a lot more units online 
that, perhaps, we would not have.
    We have seen with the recovery in Rhode Island we are 
sandwiched between Hartford and Boston. Our economy is very 
much reliant upon what happens in Massachusetts and 
Connecticut. We came out of a very difficult banking, credit 
union crisis out of 1990 and 1991. I was a member of the 
legislature and Lieutenant Governor at the time, and we had to 
bail out credit unions because we had a terrible problem with 
that. As a result of that, housing virtually stopped and 
virtually stopped up until about a year and a half ago, and so 
the HUD programs really do provide a great vehicle to keep the 
housing in those areas going that we need to, and the low-
income housing tax credit and raising the loan limit, as you 
know, right now, ranges from about $70,000 to $187,000 to one 
loan limit for the entire country v. 250 different loan limits. 
We think it would be better for us--and certainly in Rhode 
Island where we average around $152,000 now for the FHA loan 
limit--raising it up will really allow for more housing in our 
area.
    We have seen on the Banking Committee which I sit on in the 
Housing Subcommittee----
    Mr. Lewis. You are on the Housing Subcommittee; I did not 
know that, Bob.
    Mr. Weygand. Yes, sir.
    Mr. Lewis. This is our authorizer.
    Mr. Stokes. That is great. [Laughter.]
    Mr. Weygand. Why do I feel I am being used. [Laughter.]
    Mr. Lewis. We do not want to be the authorizer.
    Mr. Weygand. We have seen HUD come before us on a couple of 
the programs, and I was critical of some of the things they 
were doing, and the other day we were talking about loans and 
we were saying that, ``You know, you do not even require a 
simple thing like a housing inspection; you require an 
appraisal.'' So, they have got a lot of things in HUD to clean 
up, but some of the programs that they are talking about 
improving are very, very good, and the tax credit and the FHA 
loan limit, I think, are two very, very good programs.
    A couple of things that we are not very happy about would 
be the consolidation of two very important programs, 202 and 
811. Those section programs, to us, we would prefer to see them 
separated and to function. Just last year, we received $6.2 
million for 3 projects or programs that came out of both of 
those section areas. It really made a big difference in 
Providence and the adjacent neighborhoods. My testimony is 
being submitted, too, Mr. Chairman, so I am not going to go 
through the rest of this.
    Mr. Lewis. Thanks, I appreciate it.
    Mr. Weygand. I would appreciate taking a closer look at 202 
and 811 and the FHA loan and the tax credit. To us, in our 
community, in my community--and I have the poorest part of 
Rhode Island and the wealthiest part of Rhode Island. It makes 
a difference to the entire district not just to the poor 
section; it really does. It is an infusion of money; it is 
jobs; it is wages; it is vendors; it is contractors, and all of 
those, but more importantly in an area right now where we have 
housing stock that people are ignoring that we really need to 
rehab and to put back on the marketplace, this will help us 
tremendously.
    Mr. Lewis. I appreciate very much the testimony, 
Congressman Weygand. I think it is important to hear from 
people with your background about the significance of having 
programs like 202 and 811 designated separately. There are 
differences in our policies since, but these are fundamental 
policy questions that your committee ought to be dealing with 
that the Department is moving ahead almost without us on some 
of these things, and I must say that Secretary Cuomo is to be 
given high marks for his effort to reorganize the Department 
and so on, but in the meantime with a lack of policy 
perspective from the Congress, the people over there have their 
ideas about the way the world should work and certainly the 
Secretary cannot focus on everything, so he needs some input 
from the committee.
    Mr. Weygand. My background is one of architecture. I owned 
an architectural company before I got into politics, and 
building and housing is something I have grown up with since I 
was 15 years old. I cannot tell you what a difference it does 
make when I--I often use as a barometer of how well the economy 
is doing as based upon whether I see housing stocks, additions, 
renovations or those types of things, and it is true. While it 
may seem like some old kind of economics, it is true, and 
housing is extremely important in the old New England areas 
where new housing stocks and urban areas where we really need 
the housing effort is not there without HUD, and so I 
appreciate your help, Mr. Chairman.
    Mr. Lewis. Before you leave, let me say, I have used your 
State for years, and I might as well let you know about it. The 
map is different from the territory in this business, you know, 
but on my wall is a picture, and there are five eastern States 
that sit neatly desert side of my district; your is one of 
them. You start at beautiful downtown Rudlins and drive 70 
miles an hour and 4.5 hours later you are in Bishop, and you 
are still in the district, and yet the same constituency. The 
mix of the people is very much the same, and the problems are 
very similar in many ways.
    Mr. Weygand. I am very fortunate I have a small State, and 
when I was Lieutenant Governor I could rotate around the State 
three times in one day. My district is more concise, but it is 
a beautiful State that has probably the same problems as any 
other district. We have agriculture; I have seashore; I have 
low-income housing problems, and I have the wealthiest of 
people, and what you are doing on this will be very important 
to all of them. So, thank you, Mr. Chairman.
    Mr. Lewis. Nice to be with you. We appreciate your coming. 
I did not ask members if they had questions, but he was so 
articulate, what questions could we have? Thank you for being 
with us.
    Mr. Weygand. Thank you.
    [The information follows:]


[Pages 1964 - 1967--The official Committee record contains additional material here.]



                                          Thursday, April 23, 1998.

               AMERICORPS, DEPARTMENT OF VETERANS AFFAIRS

                               WITNESSES

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
HON. ROBERT ANDREWS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
HON. STEVE HORN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Lewis. Let's see, Roemer was around here a while ago, 
wasn't he?
    Mr. Roemer. I am still here.
    Mr. Lewis. There he is. Oh, I remember you. Sam, why don't 
you two guys come up, both of you. So Shays is the only one 
missing, is that right? Oh, Morella is not here either. She 
won't be able to make it? We will take that as an indication 
that she no longer supports it. [Laughter.]
    Tim, just so you know, I have a note here that says, 
``Roemer's name should not have been in the list this morning. 
His office was supposed to cancel him and put him on later 
today.'' So, you know our conversation on the floor, I keep 
paying attention to you.
    Mr. Roemer. You are all right.
    Mr. Lewis. If I just get you to vote for my bills 
sometimes. [Laughter.]
    He has not voted for our bills, Louis, since you were 
chairman.
    Mr. Roemer. What kind of preface is this? Does this mean 
you are not open to anything I am going to say? You might not 
want me to testify. [Laughter.]
    Connie and I both better leave.
    Mr. Lewis. Please proceed. All of your testimony, as you 
might want to adjust it or otherwise, it will be included in 
the record, but brief remarks would be appreciated.
    Mr. Farr. I will defer to my senior member.
    Mr. Roemer. Well, let me start off by talking about 
AmeriCorps since that is what, I think, Rob is going to talk 
about and what Sam is going to talk about and what Connie was 
going to talk about. I am here as a strong supporter of the 
AmeriCorps program. I am here to encourage you, Mr. Chairman, 
and our ranking member and members of the Committee to support 
the President's request of $500 million. I believe that this is 
an important program because it stresses two things: personal 
responsibility and community service.
    We first talked about this program several years ago when 
the President proposed it and said that it might be able to 
accomplish some wonderful things. Well, in Indiana it is 
accomplishing some wonderful things for the environment; for 
the homeless; for education, and in a host of other areas. We 
have 19 people working on the envirocorps in the city of 
Elkhart cleaning up streams; cleaning up a lake; testing homes 
for radon gas; doing things that require more and more 
expertise, and focusing in on the environment.
    We have 13 individuals working at the light treatment 
center working on alcoholism; working on homelessness; working 
on training people to get out of homeless situations where we 
are seeing more and more families come into homeless 
situations, and we have--I have brag about having the best 
homeless center, I believe, in the country where Mr. Cisneros 
and now Secretary Cuomo have awarded our homeless center new 
funding to train people to perform the same kinds of services 
at other homeless centers. We have AmeriCorps working there, 
and, finally, we have 100 AmeriCorps people at the University 
of Notre Dame where they are trained in a master's program to 
then go out and serve in schools that have a paucity or a 
shortcoming in terms of the overall features in those schools. 
They are primarily inner city schools where the teacher 
population is very, very short, and these 100 students go into 
these schools and end up performing a lifetime service in 
teaching. So, in the environment and the homeless centers and 
education, AmeriCorps is working very, very well, and I 
strongly support the Committee--encourage the Committee to 
support the President's proposal.
    Mr. Lewis. And Sam and Rob, Tim, has taken up most of your 
time allowed, and he does not vote for bills. What would you 
like to say? [Laughter.]
    Mr. Farr. I would just like to mention sort of a personal 
thing both as a young kid in this country and now as a Member 
of Congress. I got out of college in 1963. I was not sure what 
I wanted to do, and there were very few alternatives in those 
days. I went into the Peace Corps. It had been created as a 
Federal program and was something that--it just changed my 
life, and what I realized from that--not at the time, but I 
think as I became a parent and became older--is that these 
programs, these kind of service programs, the hope for them is 
tremendous for this country; That we have these opportunities 
for youth.
    And as a Member of Congress, it appears to me, one, that I 
think we are all in this business of politics because we like 
people and we like fixing things that are broken, and we care 
about it. We all involved in community service. I was a 
delegate to the President's Conference on National Service 
which General Colin Powell shared a volunteer summer in 
Philadelphia, and what came out of that was something that I 
think we forget in this institution, that if we are really 
going to solve the hard problems in this country, the 
microproblems, it is going to take hands on; it is going to 
take a lot of people. Government program structure is not going 
to do it. It is going to take this personal contact. AmeriCorp 
is not really one of the programs that really allows you to do 
that, and why it gives hope as a Member of Congress is that we 
have AmeriCorps program in the County of Santa Cruz, and they 
work with the county group there, and they have a thing called 
the Rapid Response Corp which is for disaster relief. When we 
had the El Nino disaster, out of this what happened is that a 
man named Jim Moran--no relation to our Jim Moran--he was a 
homeless man. He was working in the project AmeriCorps runs, it 
is called the Homeless Garden Project which is an urban growing 
fresh fruits and vegetables. He was part of the Rapid Response 
Corp; he volunteered for that. He was so good at what he did in 
his Rapid Response that the American Red Cross honored him, and 
said, ``You know, we need people of your skills and your 
leadership.'' What he is doing now is they found him some 
transitional housing. He is no longer living on the street. 
They have got him involved in an educational program. He had 
his high school diploma; he is now working for a bachelor's of 
art. This would not have been possible without a program, and I 
think we lose a lot of politics here on this stuff, but we lose 
that kind of how important this is to individual human beings; 
how important it was to me to have a Peace Corp; how important 
it is to Jim Moran to have AmeriCorps, and I just leave you 
that as something that I think these programs give Americans 
hope, not only hope for serving but hope for solving problems.
    Mr. Lewis. Thank you for your remarks; very poignant. 
Robert?
    Mr. Andrews. The first thing I would like to say is to say 
thank you for the time that you put into this. All of us are 
aware of the demands put on members' time and to sit herefor I 
guess was a very long day, looking at the list, and to give us each a 
chance to do this, we really do appreciate it. We realize the sacrifice 
of time you are making and the nitty gritty non-glitzy of just what you 
are doing. We really do appreciate it.
    I also wanted to say that I am well aware of the fact that 
in the debate about national service there has really been two 
kinds of people. There have been people on both sides who 
wanted to make ideological points, and that is fine, and then 
there have been people who wanted to find a way to make the 
program work better, and I think this Subcommittee under your 
leadership, Mr. Chairman, has very much been in that camp, and 
we appreciate that.
    I wanted to give you a report as the supporter of an 
increase in the appropriation as to the progress that has been 
made which you are well aware, but I wanted to have it on the 
record. There have really been three things we tried to do 
since the--the problems in the early days of the program have 
been pointed out.
    The first was to bring down the overall cost of 
participating in the program; the second was to reduce the 
amount of administrative overhead in the Corporation which runs 
the program, and then the third thing that we have tried to do 
is to address the specific audit issues that have been raised 
over the course of the last couple of years. Senator Wofford, I 
think, has done an exemplary job at doing just those three 
things. In 1999, it appears that the cost for participants will 
be around $15,000 per participant or under. That is significant 
progress over where we were a few years ago.
    Second, there has been a reduction in the Corporation's 
administrative budget by 12 percent. There has been a cut in 
the National Civilian Community Corps headquarter staff by 25 
percent. The campus staff has closed by 30 percent, so they 
really have reduced the overheads so they could increase the 
program.
    The third thing on the audit issues--and it is detailed in 
a report that I know that Senator Wofford has made to this 
committee--97 of the 99 audibility items that were raised in 
the 1986 audit have been addressed in some significant fashion. 
Not all of them have been resolved, but I think that is very, 
very significant progress, and I would just implore you to look 
at that record. I think it justifies the increase that I am 
supporting which is $76.8 million up from the fiscal year level 
of $425 million, and I thank you.
    Mr. Lewis. Thank you, Robert. Mr. Shays? Welcome.
    Mr. Shays. Thank you very much. I just also want to thank 
all of you for serving the way you do. I used to serve on the 
Appropriations Committee, and it was--I just am in awe of what 
you all do. I have a frustration and it is not with this 
committee. I know this committee has funded AmeriCorps; I know 
that it has done so over the objection of a good number of our 
members. But what frustrates me as a Republican is that, first, 
this is a voucher program for education. As a Peace Corp 
volunteer, Sam and I were given a small stipend when we were 
done and we could spend it on anything, but when an AmeriCorp 
participant is done they have to spend it on education and they 
want to, and I think that's something that this Congress should 
favor.
    Secondly, it is not a national program. It is a program 
where two-thirds, basically, is done at the State and local 
level, and it is to me a program designed candidly with a 
Republican perspective done by a Democrat administration, and 
they did it because they really wanted it to be bipartisan, and 
I think even though it didn't get the support of Republicans, 
we still tried to make it be that kind of program. I know they 
have had some problems on the audit side, and they are 
addressing that some of that was programs that existed before 
that they had to incorporate, and I think that the per unit 
cost even when we talk about being $16,000 this year realizing 
that $4,700 is the grant, $1,275 is health care--maybe they 
shouldn't get health care but they do, and I am content with 
that and the salary is a measly $9,000. Let me just finish up. 
I see it in my urban areas. These are kids that need a job 
where there is mentoring training; they get both, and when they 
are done, they get an education and they know they have served 
their country. I cannot say I would die for this program but 
nearly close to it. [Laughter.]
    Mr. Lewis. Gentlemen, if I could respond to all of you in a 
way. This may just be a reflection of our frustration. I know 
that we are going to hear from Members who talk about the 
dollar figures that you are talking about, and they will come 
to you, Rob, and say, ``What is the average income of the 
average family in your home State?'' ``Does Indiana have that 
average income number?'' ``And this is a volunteer program,'' 
et cetera. I can handle those kinds of discussions, but I will 
never quite forget the first year I had this job, as Louis and 
I took this bill to the floor, and we were attempting to send 
messages to a number of our agencies that had not had a certain 
kind of oversight for a while, and especially in this case we 
were looking at Veterans' Affairs, where all of us know--all of 
us know--that VA medical care has a knee-jerk bipartisan 
support base and over the years we just put money out there and 
didn't really worry about what happened to veterans in the 
hospital. They have numbers on their foreheads, and they were 
treated not like human beings, and yet we were trying to send a 
message: Get your house in order; begin to readjust this. So we 
made some much lighter adjustments in the VA program. When we 
went to the poor, nobody, but nobody would hear it.
    You were the greatest supporters of AmeriCorps and sat 
there with all of us because the amendment being produced from 
the Veterans' Committee was a trade-off when the AmeriCorps 
funding was put in VA. Frankly, in the final analysis, we took 
over the amendment and did it ourselves because it was obvious 
that the House was going to do it. But there was no base out 
there to support.
    The following year I just about lost my head when I voted 
for a minor little amendment, but for my chairman, where he was 
trying to put money back in AmeriCorps. Well, one way or 
another, we have to do a better job of this than lose our heads 
in the process and I'm just frustrated by it and I want you to 
know that. I appreciate very much the testimony. I appreciate 
those of you who worked for our bill as well.
    Mr. Andrews. Mr. Chairman, if I may, just for my own part, 
I would certainly enlist as a volunteer in any effort to whip 
and work an amendment that would raise these issues. I 
understand that's my reciprocal obligation to you.
    Mr. Lewis. Mr. Stokes?
    Mr. Stokes. I just want to say that this issue--these are 
three of probably the most articulate spokespersons in the 
House, and obviously know this issue extremely well and from 
their own personal knowledge. I think we understand your 
viewpoint. The Chairman, I think, has been clearly supportive 
in this area.
    Mr. Frelinghuysen. I echo Mr. Stokes' sentiment, as well.
    Mr. Shays. Could I just point out that I also submitted 
items this morning in support of HOPWA and brownfields. Your 
brownfields legislation has done more good in urban areas than 
any other program I have seen in the urban areas.
    Mr. Lewis. We have not received our budget allocations yet, 
but it is our position to move forward as though we've seen 
them. We can allocate proportionately a lot of things but the 
programs that you are interested in are going to receive 
significant levels of support.
    Mr. Stokes. Ms. Nancy Pelosi did an excellent job on the 
HOPWA issue.
    Mr. Lewis. Thank you for being here. Thank you all.
    Mr. Andrews. Thank you, Chairman.
    Mr. Farr. Yes. I have one issue and you understand it. 
What's happening in California is that we have closed military 
bases, and in fact, Mr. Stokes' former base, Fort Ord, is 
closed. They want to build a veterans' cemetery there, and the 
VA doesn't want anymore veterans' cemeteries.
    What you can have is the partnership of the States, and 
Senator Bruce McPherson, a Republican, is offering a bill in 
the State legislation. There is a request to put $10 million 
into the State cemetery. It's a program we--they essentially 
are veterans' cemeteries run by the States. We put some Federal 
money in for startup, but then the costs are borne by the 
State. We need this at Ft. Ord. This isn't a Ft. Ord earmark; 
$10 million for the whole Nation, but I'm here to request that. 
We're kind of stuck because the Veterans' Committee doesn't 
want to create any new national cemeteries because they got a 
backlog and yet they don't want the States to run them either 
and this committee is in a position where you can run----
    Mr. Lewis. But you also know that we are somewhat stuck, as 
well, because all of you point to us and say, how come you guys 
are doing all of this authorizing all the time? Eighty-five 
percent of our bill is unauthorized and yet the authorization 
committees say, how come you guys aren't----
    Mr. Andrews. Feel free to authorize AmeriCorps. [Laughter.]
    [The information follows:]


[Pages 1974 - 1981--The official Committee record contains additional material here.]



    Mr. Lewis. Maybe we should. Karen Thurman is here though. 
Can we get you in and out maybe?
    Mr. Roemer. Can I just review my statement from this 
morning, sir?
    Mr. Lewis. Yes.
    [The information follows:]


[Pages 1983 - 1987--The official Committee record contains additional material here.]


                                          Thursday, April 23, 1998.

                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. KAREN L. THURMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
    Ms. Thurman. Water, water, water, brevity, money. 
[Laughter.]
    Mr. Lewis. Okay.
    Ms. Thurman. Is that the way it is?
    Mr. Stokes. But I don't think the Chairman knew that I was 
stationed at Ft. Ord. [Laughter.]
    Mr. Lewis. We appreciate very much your testimony.
    Ms. Thurman. Bill Young put in a request. I'm actually 
trying to complement his. I heard he's talked to you.
    Mr. Lewis. Yes.
    Ms. Thurman. You all know this. You've been great for us 
for the last couple of years. We just need to keep it going.
    Mr. Lewis. Thank you very much for your help.
    Ms. Thurman. I know.
    Mr. Stokes. Do you want some water, Karen?
    Ms. Thurman. No. [Laughter.]
    Believe me, Mr. Stokes, I wouldn't be here about water.
    [The information follows:]


[Pages 1989 - 1990--The official Committee record contains additional material here.]



                                          Thursday, Arpil 23, 1998.

    HOUSING AND URBAN DEVELOPMENT, DEPARTMENT OF VETERANS AFFAIRS, 
                    ENVIRONMENTAL PROTECTION AGENCY

                                WITNESS

HON. MICHAEL P. FORBES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. Lewis. We will be in recess until after we vote.
    [Recess.]
    Mr. Lewis. Mr. Forbes, your entire testimony will be 
included in the record. If you would briefly summarize it for 
us, we not only will get through this process, but probably 
with a bit more money. [Laughter.]
    Mr. Forbes. Mr. Chairman, I thank you very much and I thank 
the committee the very generous support that this committee 
made possible for a very important institution on Long Island--
Hillside Hospital. Hillside Hospital is best known, certainly 
by the National Institute of Mental Health and the Clinical 
Research Center because of their tremendous emphasis on the 
study of schizophrenia and other psychiatric disorders. Not 
only are they involved in psychiatric research and 
rehabilitation and treatment, but in the region they are well-
known for the mental health and substance abuse work that they 
do. They treat over 30,000 individuals a year who come through 
that facility--even on outpatient bases largely for 223 bedside 
deaths are possible.
    It is, frankly, well over 50 years old--the structure and 
this committee expressed its sensitivity and I appreciate it 
again. Last year, and I would just made an appeal. We obviously 
made an appeal, the Committee could help in a small way again 
this year, we've asked formally for $3 million.That's just part 
of the overall $40 million renovation and rehabilitation that the Long 
Island Jewish Board of Trustees has approved and largely those dollars 
will all be private sector dollars so there is a healthy private sector 
involvement rather than expecting public dollars to do the lion's share 
of the work. So I just want to make an appeal to you, Mr. Chairman, and 
to the committee for your----
    Mr. Lewis. Let me add to your commentary, Mr. Forbes, if 
you would. You may remember last year, we had a thing called 
the line veto around that time. I don't anticipate it is going 
to play a role in this year's circumstances and there were more 
one than project in the region that was under some 
consideration. Rabbi Balcony was in my office earlier today and 
I indicated that--I think, in fact, he went and talked with Mr. 
Walsh on my behalf. In the meantime, I would hope the two of 
you would talk about those items and get back to me and we'll 
see what happens.
    Mr. Forbes. He is a very good friend of mine and I would be 
more than happy to share that. Thank you for that. Just one 
other final area, if I could raise the sensitivity. I know this 
committee is already sensitive to it, but the Agency for Toxic 
Substances and Disease Registry--I have had a tremendous 
experience--a very favorable experience with this agency. They 
have, for example, in just recent years--they have been 
involved in studying two Superfund sites in one commercial 
gasoline station which has been a large source of problems to 
our sole-source aquifer on Long Island. They had done a 
tremendous job there at that agency and I know that the 
President's budget reduces the monies for the Agency for Toxic 
Substances and Disease Registry, ATSDR, by about $10 million. I 
would hope that maybe the committee would be sensitive to--
really the excellent work that this committee's doing--I should 
say this agency is doing. They have an operating budget of 
about $74 million. If we were to go along with the President's 
recommendation, we would see some discontinued activities along 
the line of a tremendous backlog in Superfund sites alone.
    I have to say that I think there is an area here--in just 
national public policy--that dictates that I think the ATSDR is 
probably going to have an even more dominant role in helping 
communities--neighbors who are living adjacent to some of these 
sites work through what is largely a great concern on the part 
of health care concerns. Sometimes in all due respect to them, 
a lot of times it may be overstated, but the ATSDR has the 
ability to professionally go in and help communities work 
through some of their concerns. In other areas, they do help to 
separate a lot of the hyperbole and rhetoric from actual 
concerns and they have done a tremendous job. So if the 
Committee in your deliberations can see fit to try to sustain 
the funding as opposed to cutting it by $10 million.
    I know there are a lot of demands on this committee, as 
there are on some of our other subcommittees, and I am very, 
very sensitive to the juggling that has to be done to make sure 
that we stay within the framework of a balanced budget. But I 
just again--Mr. Chairman and to the Ranking Member--I want to 
make sure that you understand that I am most appreciative 
personally for the excellent work that is done by this 
committee and for the very wonderful dialogue that we have had 
over the last couple of years on some issues.
    Mr. Lewis. Well, thank you very much for your testimony, 
Mr. Forbes. We appreciate not just the sensitivity but the 
patience you have with this committee over the past year. But 
we look forward optimistically.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Stokes. I just concur with the Chairman's comments and 
I want you to know we appreciate very much your testimony.
    Mr. Forbes. Thank you, sir.
    Mr. Stokes. Thank you.
    [The information follows:]


[Pages 1993 - 1996--The official Committee record contains additional material here.]



    Mr. Lewis. I might mention to my colleague that the next 
two people on our list are friends and that is the end of our 
hearing today. David Bonior talked to me personally recently 
about an item that he was interested in. I am not sure if 
either of you have talked yet.
    Mr. Stokes. I have talked with him and I suggested that he 
come over but if he has talked with you, then we can----
    Mr. Lewis. Might I suggest that in view of this schedule 
that we just may include that information on the record. When 
we get to it, we will do what we can do. In the meantime, 
William Jefferson is the last witness. I am not sure exactly 
what his priorities might be, but frankly, what I would suggest 
that we include his testimony in the record and suggest to him 
that we will give it the highest priority consideration and you 
and I will do what we can for him.
    Mr. Stokes. I concur fully, Mr. Chairman.
    Mr. Lewis. Any problem with that?
    Mr. Frelinghuysen. No.
    Mr. Lewis. With that, then we have completed the testimony. 
We will accept all of those items for the record and appreciate 
the gentlemen participating. The meeting is adjourned. We are 
through for the year.
    Mr. Stokes. Mr. Chairman, congratulations.



[Pages 1998 - 2003--The official Committee record contains additional material here.]













                           W I T N E S S E S

                              ----------                              
                                                                   Page
Andrews, Hon. Robert.............................................  1968
Anthes, R. A.....................................................  1633
Atlas, Ronald....................................................   483
Baer, T. P.......................................................  1661
Barnes, M. G.................................................1561, 1614
Barrett, Hon. T. M...............................................  1900
Becker, S. W.....................................................   745
Beedle, Ralph....................................................   506
Bereuter, Hon. Doug..............................................  1795
Bergen, Stanley, Jr..............................................  1180
Blum, J. O.......................................................   606
Blumenauer, Hon. Earl............................................  1857
Boeding, Bob.....................................................   164
Boesen, C. D.....................................................  1454
Bogan, Jim.......................................................  1923
Bolin, Dave......................................................   545
Bonneau, Don.....................................................  1521
Boone, Linda.....................................................  1645
Bowles, Liza.....................................................  1017
Burke, Dr. W. A..................................................  1750
Bursell, Sven-Erik...............................................   305
Buttigleg, Joseph................................................  1294
Bye, Dr. R. E., Jr...............................................  1536
Cagey, Henry.....................................................  1685
Calkins, C. L....................................................  1410
Campion, R. J....................................................   956
Carr, Chester....................................................  1452
Church, Dr. R. A.................................................  1604
Clark, Les.......................................................  1691
Clyburn, Hon. J. E...............................................  1895
Coburn, Hon. Tom.................................................  1931
Cole, Anthony....................................................   972
Cole, B. J.......................................................  1527
Conley, Lisa.....................................................  1521
Cox, Christopher.................................................   917
Coyne, Hon. W. J.................................................  1801
Cressel, Fred....................................................  1095
Cunha, Manuel, Jr................................................  1691
Dalston, Jeptha..................................................  1479
Davenport, Robert................................................  1209
DeAlmeida, Lino..................................................   654
Dearborn, Dorr...................................................   447
Delaney, Bruce...................................................   729
Dellums, Hon. R. V...............................................  1772
Dermer, David....................................................   790
DeWitt, R. M. T..................................................  1929
Doyle, Hon. Michael..............................................  1801
Dubose, Sherwood.................................................  1304
Duggan, D. M.....................................................  1668
Eisenberg, A. C..................................................   962
Erickson, Jerry..................................................   698
Erlanson, Deborah................................................  1607
Evans, Hon. Lane.................................................  1889
Farr, Hon. Sam...................................................  1968
Forbes, Hon. M. P................................................  1991
Foscarinis, Maria................................................  1742
Fox, Dr. Peter...................................................  1573
Frank, Bill, Jr..................................................   662
Frank, Hon. Barney...............................................  1840
Freeman, Peter...................................................     1
Friedman, Dr. Louis..............................................  1638
Furmanski, Philip................................................  1282
Futrell, Jean....................................................    95
Futter, Ellen....................................................   465
Gallo, Betty.....................................................  1200
Garner, James....................................................  1786
Geller, Howard...................................................   737
Glenn, G. A......................................................  1557
Goodling, Hon. W. F..............................................  1829
Gorden, Stephen..................................................   517
Gordon, Hon. Bart................................................  1776
Graham, Hon. Lindsey.............................................  1931
Grant, G. A......................................................  1180
Gray, Albert.....................................................   767
Grogan, Paul.....................................................   256
Gunther-Smith, Pamela............................................  1231
Hanle, Paul......................................................   685
Harper, J. M.....................................................  1622
Hastings, Hon. Doc...............................................  1836
Hiscox, John.....................................................  1007
Holiaman, Andrij.................................................   754
Hooley, Hon. Darlene.............................................  1948
Horn, Hon. Steve.................................................  1968
Humphreys, Kirk..................................................  1823
Iarossi, Brad....................................................  1333
Istook, Hon. E. J., Jr...........................................  1822
Jaffe, Arthur....................................................   207
Johnson, David...................................................   129
Johnson, Hon. E. B...............................................  1954
Jollivette, C. M.................................................   472
Joseph, L. R.....................................................  1146
Kaatz, Gary......................................................  1665
Kahn, Bernard....................................................  1265
Keairns, D. L....................................................   330
Kelley, Rev. Aloysius............................................  1676
Kennedy, Hon. J. P., II..........................................  1879
Kennelly, Hon. B. B..............................................  1868
Kenny, M. P......................................................  1691
Key, M. M........................................................   754
Kick, Ann........................................................  1925
Kilpatrick, Hon. C. C............................................  1126
Kleczka, Hon. Jerry..............................................  1900
Kleine, M. A.....................................................  1539
Kraut, Alan......................................................    44
Krebs, J. W......................................................  1702
Krizek, Raymond..................................................   435
Lampson, Hon. Nick...............................................  1940
Lancaster, Ronny.................................................   720
Landman, J. C....................................................  1579
Larson, Larry....................................................  1525
Lawrence, Francis................................................   370
Lee, Hon. Barbara................................................  1998
Lee, Virgo.......................................................  1324
Leiby, V. M......................................................   636
Lewis, T. H......................................................  1216
Kipke, Sheldon...................................................  1209
Loew, Dr. Murray.................................................  1350
Lucas, Hon. Frank................................................  1817
MacDonald, Douglas...............................................   990
Manley, Audrey...................................................  1231
Martin, Robert...................................................   527
Mascara, Hon. Frank..............................................  1801
Mason, Dr. R. J..................................................  1570
Mathews-Amos, Amy................................................  1590
Mauderly, J. L...................................................   566
Maulson, Tom.....................................................  1671
Maves, Michael...................................................   455
McCarthy, Hon. Carolyn...........................................  1786
McCarty, Dr. Richard.............................................  1360
McClain, R. M....................................................   669
McDonald, George.................................................  1245
McGarry, S. J....................................................  1392
McGovern, Hon. J. P..............................................  1840
McIntyre, Hon. Mike..............................................  1854
McKinney, Hon. Cynthia...........................................  1808
McKinney, Stan...................................................  1343
Mendell, L. M....................................................  1546
Miller, Ann......................................................  1036
Moakley, Hon. John...............................................  1781
Muench, J. E.....................................................  1419
Munzer, Alfred...................................................  1026
Nasr, Nabil......................................................   102
Nellor, M. H.....................................................  1573
Nemtzow, David...................................................   777
Neylan, John.....................................................   217
Norris, P. M. P..................................................  1567
O'Brien, T. J....................................................  1626
Oberstar, Hon. J. L..............................................  2001
Ordorica, P. I...................................................  1399
Ortiz, Hon. S. P.................................................  1274
Ouchley, Don.....................................................  1274
Overbey, M. M....................................................   186
Pallone, Hon. Frank, Jr..........................................  1906
Panetta, Leon....................................................  1757
Partridge, Col. C. C.............................................  1434
Pasinski, Theodore...............................................  1532
Patrick, Barbara.................................................  1691
Pavel, Mary......................................................  1154
Pelosi, Hon. Nancy...............................................  1763
Pinsky, Mark.....................................................  1315
Polf, William....................................................   926
Raabe, O. G......................................................   581
Ray, Melvin......................................................   351
Reheis, C. H.....................................................  1691
Reischman, Michael...............................................   361
Reynolds, M. D...................................................  1550
Rhea, Larry......................................................  1501
Rice, Rudy.......................................................   536
Robfogel, Nathan.................................................   102
Robins, E. M.....................................................   711
Roe, Robert......................................................  1209
Roemer, Hon. Tim.................................................  1968
Roman, Nan.......................................................   950
Salazar, Javier..................................................   981
Sanchez, Jorge...................................................  1047
Sandorf, Julie...................................................  1440
Saundry, Peter...................................................   497
Saxton, Hon. Jim.................................................  1846
Schlender, J. H..................................................  1156
Schultz, L. C., Jr...............................................  1926
Schwartzkopf, Larry..............................................  1162
Serna, Joe, Jr...................................................  1630
Sessler, Andrew..................................................    67
Shays, Hon. Christopher..........................................  1968
Sheehan, Lorraine................................................  1101
Siebert, Jerome..................................................   859
Siedow, James....................................................    33
Silver, H. J.....................................................   174
Sklar, Scott.....................................................   627
Slade, David.....................................................   851
Slaughter, Hon. Louise...........................................   119
Sloan, Martha....................................................   342
Smith, Hon. Chris................................................  1913
Smith, Tom.......................................................   998
Sperling, Andrew.................................................  1113
Stamps, Andrea...................................................  1123
Steadman, Kenneth................................................  1471
Steinberg, Dick..................................................   937
Suflita, Joseph..................................................   797
Suki, Wadi.......................................................   298
Thompson, Barbara................................................  1254
Thurman, Hon. K. L............................................729, 1988
Tierney, Hon. John...............................................  1840
Trybula, Maryann.................................................  1924
Visclosky, Hon. P. J.............................................  1864
Vitikacs, John...................................................  1510
Volpe, Mark......................................................  1553
Walter, Paul.....................................................    67
Waters, Hon. Maxine..............................................  1812
Weller, Hon. Jerry...............................................  1919
Weygand, Hon. Robert.............................................  1960
Williams, Patrick................................................   558
Wodraska, J. R...................................................  1655
Young, Dr. Stephen...............................................  1461
Yount, Ralph.....................................................    67
Yuill, Thomas....................................................   616
Zaterman, Sunia..................................................  1136















                               I N D E X

                              ----------                              
                                                                   Page
Community Development Financial Institutions:
    The Coalition of Community Development Financial Institutions  1315
Environmental Protection Agency:
    Alliance to Save Energy......................................   777
    American Academy of Otolaryngology...........................   455
    American Council for an Energy-Efficient Economy.............   737
    American Lung Association....................................  1026
    American Museum of Natural History...........................   465
    American Public Power Association............................  1695
    American Society for Microbiology............................   483
    American Society of Civil Engineers..........................   435
    American Water Works Association.............................   517
    American Water Works Association Research Foundation.........   527
    Association of National Estuary Programs.....................   851
    Association of State Drinking Water Administrators...........   636
    Association of State Floodplain Managers, Inc................  1525
    Bad River Band of Lake Superior Chippewa Indians.............  1577
    Brownsville Public Utilities.................................  1274
    California Industry and Government Coalition on PM-10/PM-2.5.  1691
    California Rural Water Association...........................   558
    City of Gainesville, FL......................................   729
    City of Miami Beach, FL......................................   790
    City of Newark, NJ...........................................  1180
    City of Patterson, New Jersey................................  1561
    City of Sacramento...........................................  1630
    City of Tallahassee..........................................  1216
    Coalition of EPSCoR States...................................   351
    Colorado State University....................................  1623
    Environmental Lung Center, National Jewish Medical and 
      Research Center............................................  1570
    Fond du Lac Band of Lake Superior Chippewa Indian............  1162
    Great Lakes Indian Fish and Wildlife Commission..............  1154
    Ground Water Protection Council..............................   545
    Health Physics Society.......................................   581
    Institute for Food Technologists.............................   859
    Lac du Flambeau Band of Lake Superior Chippewa Indians.......  1671
    Lane Regional Air Pollution Authority........................  1527
    Lovelace Respiratory Research Institute......................   566
    Lummi Indian Business Council................................  1686
    Massachusetts Foundation for Excellence in Marine and Polymer 
      Sciences...................................................  1557
    Massachusetts Water Resources Authority......................   990
    Metropolitan Water District of Southern California...........  1655
    Metropolitan Water Reclamation District of Greater Chicago...  1625
    Mickey Leland National Urban Air Toxics Research Center......   754
    NASULGC......................................................   616
    National Association of Conservation Districts...............   536
    National Institute for the Environment.......................   497
    National Utility Contractors Association.....................   654
    Natural Resources Defense Council............................  1579
    North American Lake Management Society.......................  1521
    Northwest Indian Fisheries Commission........................   662
    Nuclear Energy Institute.....................................   506
    Passaic Valley Sewerage Commissioners........................  1209
    Pediatric Pulmonology, School of Medicine....................   446
    Polyisocyanurate Insulation Manufactures Association.........   606
    Rochester Institute of Technology............................   102
    Rochester Institute of Technology............................   102
    Society of Toxicology........................................   669
    Soil Aquifer Treatment Project...............................  1573
    Solar Unity Network..........................................   627
    South Coast Air Quality Management District..................  1750
    STAPPA/ALAPCO................................................   745
    The Academy of Natural Sciences..............................   685
    The Association of Minority Health Professions Schools.......   720
    University Corporation for Atmospheric Research..............  1633
    University of Medicine and Dentistry of New Jersey...........  1180
    University of Miami..........................................   472
    University of Tulsa..........................................   797
    Water Environment Federation.................................   767
    Water Environment Research Foundation........................  1698
Federal Emergency Management Agency:
    American Society of Civil Engineers..........................   435
    Association of State Dam Safety Officials, Inc...............  1333
    Catholic Charities USA.......................................  1294
    National Emergency Management Association....................  1343
    National Law Center on Homelessness and Poverty..............  1742
    Seismic Safety Coalition.....................................  1757
Housing and Urban Development:
    AIDS Action..................................................   981
    American Association of Homes and Services for the Aging.....  1146
    American Association of Retired Persons......................  1036
    Boston Symphony Orchestra....................................  1553
    Center Point, Inc............................................   937
    Chabot Observatory and Science Center........................  1550
    City of Compton, CA..........................................  1095
    City of Newark, NJ...........................................  1180
    City of Tallahassee..........................................  1216
    Columbia University..........................................   926
    Consortium for Citizens with Disabilities....................  1113
    Corporation for Supportive Housing...........................  1440
    Council of Large Public Housing Authorities..................  1136
    Detroit Rescue Mission Ministries............................  1123
    Fairfield University.........................................  1676
    Fond du Lac Band of Lake Superior Chippewa Indian............  1162
    Golden Gate University.......................................  1539
    Great Lakes Indian Fish and Wildlife Commission..............  1154
    Haymarket House..............................................   972
    Hebrew Academy for Special Children..........................  1265
    Local Initiatives Support Corporation........................   256
    Lorain County Community College..............................  1604
    Metro Miami Action Plan......................................  1304
    Metropolitan Family Services.................................   698
    Mystic Seaport Museum, Inc...................................   917
    NAHB Research Center.........................................  1017
    National American Indian Housing Council.....................  1452
    National Association of Housing and Redevelopment Officials..  1607
    National Council of State Housing Agencies...................  1254
    National Law Center on Homelessness and Poverty..............  1742
    Navajo Nation................................................  1709
    New York Downtown Hospital...................................  1324
    New York University..........................................  1282
    Pediatric Pulmonology, School of Medicine....................   446
    Public Housing Authorities Directors Association.............  1007
    Rural Enterprises Incorporated...............................   998
    Spelman College..............................................  1231
    St. Joseph's Hospital Health Center..........................  1532
    The Arc of the United States.................................  1101
    The Cancer Institute of New Jersey...........................  1200
    The Doe Fund, Inc............................................  1245
    The Enterprise Foundation....................................  1593
    The National Alliance to End Homelessness, Inc...............   950
    U.S. Conference of Mayors....................................   962
    University of Medicine and Dentistry of New Jersey...........  1180
    University of Puerto Rico....................................  1017
National Aeronautics and Space Administration:
    American Academy of Otolaryngology...........................   455
    American Museum of Natural History...........................   465
    American Psychological Association...........................  1360
    Association of American Universities.........................   370
    Coalition of EPSCoR States...................................   351
    Juvenile Diabetes Foundation International...................  1350
    SPIN-2.......................................................  1567
    The American Society of Mechanical Engineers.................   361
    The Planetary Society........................................  1638
    University Corporation for Atmospheric Research..............  1633
    University of Miami..........................................   472
National Science Foundation:
    American Anthropological Association.........................   186
    American Association of Engineering Societies................   342
    American Chemical Society....................................    67
    American Chemical Society....................................  1544
    American Institute of Chemical Engineers.....................   330
    American Physical Society....................................    67
    American Psychological Association...........................  1360
    American Psychological Society...............................    44
    American Society for Microbiology............................   483
    American Society of Civil Engineers..........................   435
    American Society of Plant Physiologists......................    33
    Association of American Universities.........................   370
    Coalition of EPSCoR States...................................   351
    Computing Research Association...............................     1
    Consortium of Social Science Associations....................   174
    Council for Chemical Research, Inc...........................    95
    Federation of American Societies for Experimental Biology....    67
    Federation of Behavioral, Psychological and Cognitive 
      Sciences...................................................   129
    Florida State University.....................................  1536
    Joint Policy Board for Mathematics...........................   207
    Juvenile Diabetes Foundation International...................  1350
    Marine Conservation Biology Institute........................  1590
    National Corn Growers Association............................   164
    National Institute for the Environment.......................   497
    Society for Neuroscience.....................................  1546
    Spelman College..............................................  1231
    The American Society of Mechanical Engineers.................   361
    The Cancer Institute of New Jersey...........................  1200
    University Corporation for Atmospheric Research..............  1633
Selective Service System:
    American Legion..............................................  1668
Department of Veterans Affairs:
    Air Force Sergeants Association..............................  1702
    American Academy of Otolaryngology...........................   455
    American Association of Nurse Anesthetists...................  1392
    American Heart Association...................................  1584
    American Psychiatric Association.............................  1399
    American Psychological Association...........................  1360
    American Society of Transplant Physicians....................   217
    Association of University Programs in Health Administration..  1479
    Fleet Reserve Association....................................  1410
    Friends of VA Medical Care and Health Research...............  1461
    Jewish War Veterans..........................................   711
    Joslin Diabetes Center.......................................   305
    Juvenile Diabetes Foundation International...................  1350
    National Association for Uniformed Services..................  1434
    National Coalition for Homeless Veterans.....................  1645
    Navajo Nation................................................  1709
    Non Commissioned Officers Assoication of the United States of 
      America....................................................  1501
    Research Society on Alcoholism...............................  1700
    Society for Neuroscience.....................................  1546
    The American Legion..........................................  1510
    The American Society on Nephrology...........................   298
    The Retired Enlisted Association.............................  1419
    Veterans of Foreign Wars.....................................  1471
Members of the House of Representatives:
    Hon. Robert Andrews..........................................  1968
    Hon. Tom Barrett.............................................  1900
    Hon. Doug Bereuter...........................................  1795
    Hon. Earl Blumenauer.........................................  1857
    Hon. James Clyburn...........................................  1895
    Hon. Tom Coburn..............................................  1931
    Hon. William Coyne...........................................  1801
    Hon. Danny Davis.............................................   972
    Hon. Mike Doyle..............................................  1801
    Hon. Lane Evans..............................................  1889
    Hon. Sam Farr................................................  1968
    Hon. Michael Forbes..........................................  1991
    Hon. Barney Frank............................................  1840
    Hon. Sam Gejdenson...........................................   917
    Hon. Bill Goodling...........................................  1829
    Hon. Bart Gordon.............................................  1776
    Hon. Lindsey Graham..........................................  1931
    Hon. Doc Hastings............................................  1836
    Hon. Darlene Hooley..........................................  1948
    Hon. Steve Horn..............................................  1968
    Hon. Ernest Istook, Jr.......................................  1822
    Hon. Eddie Bernice Johnson...................................  1954
    Hon. Joe Kennedy.............................................  1879
    Hon. Barbara Kennelly........................................  1868
    Hon. Carolyn Kilpatrick......................................  1123
    Hon. Jerry Kleczka...........................................  1900
    Hon. Nick Lampson............................................  1940
    Hon. Barbara Lee.............................................  1998
    Hon. Frank Lucas.............................................  1817
    Hon. Frank Mascara...........................................  1801
    Hon. Carolyn McCarthy........................................  1786
    Hon. James McGovern..........................................  1840
    Hon. Mike McIntyre...........................................  1854
    Hon. Cynthia McKinney........................................  1808
    Hon. Joe Moakley.............................................  1781
    Hon. James Oberstar..........................................  2001
    Hon. Solomon Ortiz...........................................  1274
    Hon. Frank Pallone, Jr.......................................  1906
    Hon. Donald Payne............................................  1180
    Hon. Nancy Pelosi............................................  1763
    Hon. George Radanovich.......................................   937
    Hon. Bill Redmond............................................   566
    Hon. Tim Roemer..........................................1968, 1982
    Hon. Jim Saxton..............................................  1846
    Hon. Christopher Shays.......................................  1968
    Hon. Louise Slaughter........................................   102
    Hon. Christopher Smith.......................................  1913
    Hon. Karen Thurman........................................729, 1988
    Hon. John Tierney............................................  1840
    Hon. Peter Visclosky.........................................  1864
    Hon. Maxine Waters...........................................  1812
    Hon. Jerry Weller............................................  1919
    Hon. Robert Weygand..........................................  1960

                              <all>
</pre></body></html>
